                                                                             Report No. DODIG-2014-093



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 2 3 , 2 0 1 4




                     Inspection of the Armed Forces
                     Retirement Home




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                      Executive Summary
                                      Inspection of the Armed Forces Retirement Home




July 23, 2014                                             Background (cont’d)

Who Should Read                                            of a military department designated for purposes of this
                                                           subsection by the Secretary of Defense.” (See Appendix B for
This Report                                                project announcement.)
Personnel in the Office of the Secretary of
Defense, the Defense Health Agency (formerly               The Office of the Under Secretary of Defense for Personnel
TRICARE Management Activity), and the                      and Readiness [OUSD (P&R)] designated the Army Medical
Armed Forces Retirement Home (AFRH)                        Command (MEDCOM) to provide medical inspection
who are responsible for and engaged in                     assistance for this inspection. Subsequently, the DoD Inspector
oversight, management, and operations of                   General (IG) entered into a memorandum of understanding
the AFRH should read this report.                          (MOU) with Army MEDCOM to delineate each agency’s role
                                                           in the conduct of this inspection. (See Appendix C for
                                                           DoD IG/Army MEDCOM MOU.)
Background
Section 1518 of the “Armed Forces Retirement
Home Act of 1991,” November 15, 1990, as
                                                           What We Did
amended by Public Law 112-81, “National                    In preparation for the inspection, the DoD IG Inspection
Defense Authorization Act for FY 2012,”                    Team discussed the general scope of the inspection with the
December 31, 2011 (24 U.S.C. § 418)                        Chief Operating Officer (COO) of the AFRH, representatives
legislates that:                                           from the OUSD (P&R) and Assistant Secretary of Defense
                                                           (Health Affairs)/Defense Health Agency (ASD(HA)/DHA),
    Not less often than once every three years,            and the AFRH IG. In addition, we met with the Deputy
    the   Inspector    General   of   the   Department     Director of the Defense Health Agency, who is the Senior
    of Defense shall perform a comprehensive               Medical Advisor (SMA) to AFRH. We also contacted the
    inspection of all aspects of each facility of          chairpersons of the following council and committees to
    the Retirement Home, including independent             ascertain their concerns or desired focus areas for inclusion
    living, assisted living, long term care, medical       within the DoD IG’s inspection scope:
    and    dental   care,   pharmacy,   financial   and
    contracting records, and any aspect of either           •	 AFRH Advisory Council,
    facility on which the Advisory Council or the
    Resident Advisory Committee of the facility             •	 AFRH Washington, D.C. (AFRH-W) Resident Advisory
    recommends inspection.                                     Committee (RAC), and

                                                            •	 AFRH Gulfport (AFRH-G) RAC.
Paragraph b(2) of the amended 24 U.S.C.   §  418
(2012) also states that “The Inspector General             The DoD IG’s Inspection Team developed the scope and
shall be assisted in inspections under this                methodology for this inspection based on discussions
subsection by a medical inspector general                  with representatives from the OUSD (P&R) and Office of

Visit us at www.dodig.mil


                                                                             DODIG-2014-093 (Project No. D2012-D00SPO-0127.000) │ i
                                       Exective Summary
                                       Inspection of the Armed Forces Retirement Home




  What We Did (cont’d)

  the Deputy Director of the Defense Health Agency, as             data and clarifications. In October 2012, as the inspectors
  well as written input received from the Chairman of              were analyzing data from field work, we received
  the AFRH Advisory Council, and chairpersons of the               a confidential communication regarding a case of patient
  two RACs.                                                        neglect allegedly caused by the failure of AFRH staff
                                                                   to meet standards of oral care at the AFRH-W facility.
  We also took into consideration observations and
  recommendations from its previous AFRH inspection,               We consulted other relevant components in the DoD
  described in the 2010 DoD Inspector General report               Office of the Inspector General (DoD OIG), including the
  (No. IE-2010-002), “Inspection of the Armed Forces               Directorate for Investigations of Senior Officials, Office of
  Retirement Home,” February 25, 2010 (hereafter                   Whistleblower Protection, and the DoD IG Hotline office.
  referred to as the 2010 DoD IG Inspection Report).               After a series of DoD OIG multi-component meetings and
  Our objectives and methodology are discussed in the              additional data collection, the DoD IG Deputy Inspector
  subsequent sections of this report. Upon review of               General for Special Plans and Operations sent a “Notice
  all relevant research data, we conducted the on-site             of Concern” regarding the oral care negligence case to the
  inspections and reviews of the AFRH management                   Principal Deputy Under Secretary of Defense, Personnel
  programs, the AFRH medical programs, and facilities of           & Readiness [PDUSD[(P&R)] on November 20, 2012.
  AFRH-W and AFRH-G during the weeks of August 27-31
  and September 10-14, 2012. Multiple follow-on                    In mid-January of 2013, the DoD OIG was informed about
  discussions were held with the AFRH-W staff. During              the death of one of the residents at the AFRH-W facility.
  the on-site phase of the inspection, we also conducted           There were questions raised about the cause of the
  employee sensing sessions and DoD IG confidential                resident’s death and AFRH had begun a “root cause
  feedback sessions to ascertain employee perceptions of           analysis” investigation. Although the AFRH COO stated that
  quality-of-work life for the staff and to receive confidential   the investigation report would be shared with the DoD IG,
  feedback from residents and employees.                           the AFRH General Counsel later refused to provide the
                                                                   report to DoD OIG, citing protection from disclosure, as
  The DoD IG Inspection Team inspected various areas               stated in DoD Directive 6040.37, “Confidentiality of
  of AFRH operations and management, as listed in the              Medical Quality Assurance Records,” July 9, 1996.
  Objectives section of this report. Following the on-site
  inspections, the Inspection Team area leads reviewed             In late February 2013, DoD OIG received additional
  all the documents and information collected during               communications      regarding    alleged    deteriorating
  the on-site inspection and requested additional                  conditions of nursing and medical care at the AFRH-W
  documents from the AFRH points of contacts (POCs)                facility that were increasing the risk of patient neglect
  for various phases. Some of the DoD IG inspectors,               and patient injury due to inadequate nursing and
  particularly the medical inspectors, sought additional           medical staff. The DoD OIG decided to bring the issue to




ii │ DODIG-2014-093 (Project No. D2012-D00SPO-0127.000)
                               Executive Summary
                               Inspection of the Armed Forces Retirement Home




What We Did (cont’d)

the attention of the Acting Under Secretary for Personnel     We found that AFRH personnel gave adequate due
and Readiness [USD[(P&R)].  On March 21,  2013, the           diligence and care to facility engineering and safety
DoD  OIG provided a briefing to the Acting USD (P&R)          issues.   The  modern,    interconnected   three-tower
and recommended that the Acting USD (P&R) send a              building of the Gulfport facility, with numerous
team of medical professionals to review the quantitative      in‑house amenities, was a state-of-the-art retirement
and qualitative aspects of nursing and medical                facility.   The new Scott Building at the AFRH-W facility will
operations at the AFRH-W facility.                            significantly enhance the quality of life for the residents,
                                                              particularly the residents of the Assisted Living and
Parts A through O of this report provide more detailed        Long-Term Care units.
information about the specific activities performed by
the DoD IG Inspection Team on each of the identified          AFRH has been accredited under the Commission
areas of inspection.                                          on Accreditation of Rehabilitation Facilities (CARF)
                                                              Aging Services programs that included the Assisted
                                                              Living, Person-Centered1 Long-Term Care Community,
Observations                                                  Continuing Care Retirement Community, and Dementia
                                                              Care Specialty Program.
Notable Progress/Accomplishments
AFRH management has effectively managed the construction      Other areas where AFRH made significant progress include:
of major facilities:
                                                               •	 screening new applicants,
 •	 The new AFRH-G facility, with state-of-the-art features
    and amenities, was reopened on October 4, 2010,            •	 prioritizing applicants on the waiting list,
    as scheduled.
                                                               •	 developing a contract with the U.S. Department of
 •	 The AFRH-W facility Scott Building demolition and             Interior, National Business Center for information
    re-building was nearing completion on schedule.               technology management, and

 •	 Other old, unusable buildings and structures in            •	 adjudicating and                  ensuring         the     integrity        of
    the AFRH-W facility were either being shut down,              veterans’ preference.
    demolished, or considered for demolition.
                                                              We found that, despite the concerns expressed by them
AFRH management was focused on development and                during the inspection, most residents of the retirement
execution of long-range facility management programs,         home were pleased to be living there, particularly
including potential use of vacant land on the AFRH-W          the residents of the Independent Living units.
facility, energy savings, and operational cost savings.

                                                              	1	
                                                                    Person-Centered Care is a philosophy of care that requires thinking about
                                                                    and planning with and for people who require assistance in their daily lives
                                                                    and providing that assistance in such a way that the person is honored and
                                                                    valued and is not lost in the tasks of care-giving.


                                                                                 DODIG-2014-093 (Project No. D2012-D00SPO-0127.000) │ iii
                                      Exective Summary
                                      Inspection of the Armed Forces Retirement Home




  Observations (cont’d)

  The quality of life for the Independent Living residents,    •	 Short acting opioids, instead of more appropriate long
  with numerous recreational activities planned by the            acting opioids, were being used to manage chronic pain.
  Resident Recreational Services office, was quite high.
                                                               •	 There was no documentation of counseling of
                                                                  Coumadin patients on drug interactions and
  Challenges                                                      some providers did not have access to necessary
  The DoD IG Inspection Team inspected 13 different               information at Coumadin Clinics.
  areas of AFRH operations and management, to
                                                               •	 There was no routine interaction between the SMA
  include medical operations. A summary of important
                                                                  and the USD (P&R) on AFRH operations, except in
  observations concerning the 13 areas is provided
                                                                  times of crisis. In addition, there was no effective
  below. The report itself provides a detailed description
                                                                  system in place for the SMA to raise the issue with the
  of all observations and discussions on those
                                                                  USD (P&R) when the SMA disagreed with, or was
  observations which is essential for obtaining a
                                                                  concerned by, a decision made by the AFRH COO.
  comprehensive picture of the AFRH enterprise.
                                                               •	 Credentialing and privileging processes included the
  In Part M (Employee Sensing Sessions) and Part N
                                                                  following deficiencies:
  (DoD IG On-site Confidential Feedback Sessions) of this
  report, we have provided a summary of information                   °° lack of definition of qualification requirements,
  obtained through the employee sensing sessions and the
                                                                      °° lack of appropriate training for the credentialing
  on-site DoD IG confidential feedback sessions, for the
                                                                         and privileging personnel,
  knowledge of AFRH and DoD management. We did not
  write up any separate observations in these two  sections           °° lack of data tracking necessary for re-privileging,
  of the report because the parts had incorporated the                   and
  important aspects of the data into the observations
  in other related sections of the report.                            °° the granting of privileges for services that
                                                                         were out of scope for the AFRH.

  Medical (Part A)                                             •	 AFRH had numerous standard operating procedures
   •	 AFRH was not accredited by a recognized civilian            (SOPs), many of which were contradictory,
      accrediting organization in the areas of medical care,      difficult to understand, and/or used references that
      dental care, rehabilitation, and pharmacy services          were not pertinent to the subject. Many SOPs were
      even though the DoD IG recommended accreditation of         also markedly out of date. Additionally, no SOPs
      these areas in the 2010 inspection report.                  existed for two high-risk activities: (1) the Coumadin
                                                                  Clinic, and (2) end-of-shift narcotic counts.
   •	 Medical record documentation, nursing notes, and
      documentation of medication were incomplete.




iv │ DODIG-2014-093 (Project No. D2012-D00SPO-0127.000)
                                Executive Summary
                                Inspection of the Armed Forces Retirement Home




Observations (cont’d)

 •	 AFRH Agency and AFRH-W lacked sufficient/                  Human Resources (Part B)
    competent physician leadership. Personnel practices
                                                                •	 AFRH could not verify that the Career Transition
    at the AFRH tended to promote from within rather
                                                                   Assistance Plan (CTAP)2 was cleared during the
    than open the positions to outside physicians who
                                                                   application process or that well-qualified CTAP
    may be more qualified. The DoD IG Inspection Team
                                                                   candidates received priority over non-CTAP candidates
    also noted that the position description, in at
                                                                   in the selection process as directed by 5 CFR (1999).
    least one case, was altered to allow selection of an
    internal candidate who did not meet the original            •	 The AFRH Agency administration was not accurately
    qualification requirements. These and other issues             following required Human Resources procedures,
    contributed    significantly to   the   questionable           Office of Personnel Management guidelines, or
    quality of medical operations, particularly at the             effectively communicating its hiring practices
    AFRH-W facility.                                               to employees.

 •	 The employee occupational health program was
                                                               Financial Management (Part C)
    generally ineffective. The AFRH Agency and the
    two facilities were not fully complying with AFRH           •	 A purchase card holder had utilized convenience
    Agency directives on “Medical Qualification                    checks for improper transactions that were prohibited
    Determination”     and   the    “AFRH   Reasonable             by the U.S. Department of Treasury and were in
    Accommodation Policy and Plan.” As a result, some              violation of AFRH Agency Directive 3-1, “Financial
    of the nursing staff were incapable of performing              Management,” July 18, 2012.
    the duties that required certain physical and               •	 Although required by AFRH-W SOPs, AFRH-W
    medical fitness.                                               Business Center personnel were not conducting
 •	 AFRH Agency and AFRH-W lacked personnel with                   required audits/cash counts of some of the
    adequate training in quality management and                    AFRH funds.
    performance improvement.

 •	 Both the AFRH clinical performance improvement
    and quality management programs were in their infancies.
    Performance improvement (PI) metrics, many of
    which were not meaningful, were imposed from the
    AFRH Agency down to the respective facilities. In
    addition, peer reviews were not routinely conducted
    and data was not tracked for re-privileging.
                                                               	2	
                                                                     CTAP is a career transition program that provides priority for the
                                                                     AFRH Agency’s eligible and displaced employees when filling vacancies.
                                                                     U.S. Office of Personnel Management, “The Employee’s Guide to Career
                                                                     Transition,” July 2003.




                                                                                  DODIG-2014-093 (Project No. D2012-D00SPO-0127.000) │ v
                                      Exective Summary
                                      Inspection of the Armed Forces Retirement Home




  Observations (cont’d)

  Armed Forces Retirement Home Inspector                        Facilities Engineering and Safety (Part F)
  General (Part D)                                               •	 AFRH-W was not performing adequate testing/
   •	 The COO assigned the AFRH Public Affairs Officer              monitoring of the “Home Free” devices to identify
      the additional duties of the AFRH IG, relegating the          any defects or issues with the system. This
      AFRH IG position to a dual-hatted position with               created an unsecured area at the AFRH-W where
      other primary responsibilities. As a result, there is a       monitored residents at risk of wandering could
      possibility of conflict of interest between the duties        leave without the knowledge of AFRH-W personnel.
      of the IG and the duties of the Public Affairs Officer
                                                                 •	 The CISCOR Resident Monitoring System (RMS)
      when the issues under investigation pertain to the
                                                                    at AFRH-G experienced at least 39 outages from
      Public Affairs office.
                                                                    June 5, 2012 to September 12, 2012. Because the
   •	 The AFRH IG program may lack credibility because it           RMS system produced such a high number of outages
      does not have quality standards defined for AFRH IG           in a 3-month period, the system may be unreliable.
      audits and investigations.
                                                                Information Assurance (Part G)
  Admissions and Eligibility (Part E)                            •	 More than 50 high and moderate security control
   •	 The AFRH Pre-admission Team was not using                     weaknesses were identified in the AFRH System
      financial factors to determine whether an applicant           Security Plan (SSP) and Plan of Actions and
      was eligible under the “Incapable of Earning a                Milestones (POA&M).
      Livelihood” category, as directed by AFRH Agency
                                                                 •	 The General Support System (GSS) did not comply
      Directive 8-13, “Incapable of Earning a Livelihood
                                                                    with the National Institute of Standards and
      Designation,” July 3, 2012.
                                                                    Technology (NIST) SP 800-53 Revision 3,
   •	 Current methods used to screen and verify eligibility         “Recommended Security Controls for Federal
      may not adequately eliminate applicants who have a            Information Systems,” May 1, 2010.
      drug abuse problem.
                                                                Resident / Recreation Services (Part H)
   •	 AFRH personnel were not accurately following
                                                                 •	 AFRH-W personnel could not provide evidence that
      agency directives or facility SOPs in conducting
                                                                    they were following all SOPs in a manner sufficient
      the pre-admissions function.
                                                                    to meet the criteria addressed in the 2012
                                                                    Inspection Checklist.




vi │ DODIG-2014-093 (Project No. D2012-D00SPO-0127.000)
                                            Executive Summary
                                            Inspection of the Armed Forces Retirement Home




Observations (cont’d)

 •	 AFRH-W     personnel      were    not   conducting                          •	 AFRH Contracting Officer’s Technical Representative
    daily walk-through inspections,    3
                                          as required                              (COTR) background/experience was not adequate
    by established SOPs. Additionally, inspection                                  to support all the contracts they were managing and
    documentation lacked consistency.                                              COTR responsibility was not evenly distributed.

                                                                                •	 The contract files reviewed lacked documented Quality
Contracts Management (Part I)
                                                                                   Assurance Surveillance Plans (QASP), as directed
 •	 Thirty-two of the 47 contracts inspected did not
                                                                                   by corresponding contracts, and, in several cases,
    have Independent Government Cost Estimates (IGCE)
                                                                                   contract files lacked documentation of evidence
    or supporting documentation with enough clarity
                                                                                   that COTRs were providing oversight over the
    to articulate how the estimate was ascertained.
                                                                                   contractor performance.
 •	 The market research was not consistently documented
    in a manner appropriate to the size and complexity                         Security (Part J)
    of the acquisition.                                                         •	 Security of the AFRH-W Scale Gate facility entrance,
                                                                                   controlled by Department of Veterans Affairs (VA)
 •	 At least 6 of the 47 contracts inspected did not have
                                                                                   Police, did not meet the security standards established
    a recommendation for award memorandum (or
                                                                                   in SOP No. W-OA-SEC-5-27, “Perimeter Security,”
    a similar document) on file describing how the
                                                                                   July 6, 2012.
    contracting officer determined the award outcome.
                                                                                •	 Although a baseline security training program with
 •	 AFRH Contracting Officer’s Representatives (CORs)
                                                                                   SOPs and a master training task list existed, the
    lacked documentation to support modification
                                                                                   AFRH-W and AFRH-G guards were not adequately
    transactions.
                                                                                   trained nor empowered to provide traditional
 •	 AFRH facilities were not consistently managing                                 Federal security services according to recognized
    or providing oversight to interagency agreements                               Federal standards.
    between AFRH and other Federal agencies.
    The interagency agreements did not clearly                                 Estate Matters and Disposition of Effects
    define whether the Bureau of Public Debt                                   (Part K)
    (BPD) or AFRH was required to monitor over                                  •	 AFRH could not assure the delivery of decedent’s
    interagency agreements.                                                        wills to the appropriate court of record, as specified
                                                                                   by section 420 (a)(1), title 24, United States
                                                                                   Code (24  U.S.C.  §  420(a)(1)  [2012]).  AFRH



	3	
      “…To monitor usage, resident safety, and maintenance to ensure that
      regulations and procedures are followed.” (Based on DoD IG analysis of
      Directive 8-7 and AFRH SOPs).



                                                                                           DODIG-2014-093 (Project No. D2012-D00SPO-0127.000) │ vii
                                       Exective Summary
                                       Inspection of the Armed Forces Retirement Home




  Observations (cont’d)

       employees involved in the disposition of effects              •	 The SMA from DHA lacked clear authority and
       and estates were not accurately following AFRH                   responsibility to effectively address medical operations
       Agency       Directive    8-8,     “Estate    Matters,”          issues at the AFRH.
       September 2, 2008, or AFRH facility SOPs. There
                                                                     •	 The SMA was not aware of many important medical
       was potential for lawsuits against AFRH for failing
                                                                        operational issues at AFRH and was unable to
       to properly handle the decedents’ belongings.
                                                                        decisively intervene in AFRH management decisions
   •	 AFRH-G employees were unprepared in cases where                   related to medical operations.
      the retirement home may have had a legal interest,
                                                                     •	 USD (P&R) did not identify the specific DoD
      as described in section 420(b)(1)(C), title 24,
                                                                        and/or VA policies, procedures, and guidelines that
      United   States Code, (24  U.S.C.  §  420(b)(1)(C)  [2012]).
                                                                        were appropriate for the AFRH, as recommended in
                                                                        the 2010 DoD IG Inspection report, and did not direct
  AFRH Hotline Activity (Part L)
                                                                        the AFRH to follow those policies, procedures,
   •	 AFRH IG did not issue implementing guidance for
                                                                        and guidelines.
      the Hotline program as required by AFRH Agency
      Directive 1-9, “AFRH Inspector General Program,”               •	 There was frustration among some of the AFRH
      June 2, 2009. As a result, AFRH’s Hotline                         employees, particularly the nursing staff at the
      investigations could not be evaluated against any                 AFRH-W facility, about working conditions and
      AFRH-identified/developed standards.                              the fear of retaliation if they voiced opinions at
                                                                        odds with management. Some senior officials also
  Senior Management (Part O)                                            expressed fear of retaliation from upper management.
   •	 DoD Instruction 1000.28, “Armed Forces Retirement              •	 The combined position of Deputy COO and the
      Home,” February 1, 2010, did not address the                      Chief Financial Officer (CFO) had been vacant for
      amendments to the Armed Forces etirement                          more than 2 years. The AFRH COO was simultaneously
      Home Act introduced by Public Law 112-81,                         performing these duties.
      “National Defense Authorization Act FY 2012,”
      December 31, 2011.                                             •	 The lower-level staff, particularly the nursing
                                                                        assistants at the AFRH-W facility, expressed their
   •	 The AFRH COO hired insufficiently competent medical               frustrations about lack of assistance from upper
      personnel to run the medical operations of the                    management for professional development or
      agency and the facilities and did not fill two key                advancement at the AFRH.
      supervisory nursing positions at the AFRH-W
      facility for approximately 6 months.




viii │ DODIG-2014-093 (Project No. D2012-D00SPO-0127.000)
                            Executive Summary
                            Inspection of the Armed Forces Retirement Home




Management Comments (cont’d)

 •	 The     AFRH    COO   created   an    unmandated
    agency-level Ombudsman position which will
    divert funds needed to hire competent medical and
    nursing personnel.


Recommendations, Management
Comments, and Our Response
This report contains 131 recommendations addressing
issues in the 13 management areas described in this
Executive Summary. A summary of management’s
comments and our response are immediately after
each recommendation. The full set of management’s
comments are at the end of the report. Appendix G
provides a cross reference of the Observations and
Recommendations numbering from the draft to the
final report.




                                                          DODIG-2014-093 (Project No. D2012-D00SPO-0127.000) │ ix
                  Recommendations Table
                                                                 Recommendations                  No Additional
                                Management                       Requiring Comment              Comments Required
                    Office of Under Secretary of Defense   6.a(1), 6.a(2), 6.a(3), 50,      1.a, 2.a, 7.a, 8.a, 14.a, 20.a,
                    (Personnel and Readiness)              53.a, 53.b                       30.a, 52
                    Deputy Director of Defense             6.b
                    Health Agency
                    Chief Operating Officer, Armed         1.b(2), 3.c, 5.a, 8.b(1), 9.b,   1.b(1), 2.b(1), 2.b(2), 3.a,
                    Forces Retirement Home                 9.c, 9.d, 12.c, 12.d, 17.a,      3.b, 4.a, 4.b, 5.b, 5.c, 5.d,
                                                           18.c, 22, 25.b, 31, 32, 35.a,    5.e, 7.b(1), 7.b(2), 8.b(2),
                                                           35.b, 46.b, 47.a, 47.c, 48.b,    9.a, 10.a, 10.b, 10.c, 10.d,
                                                           48.c, 57                         11.a, 11.b, 11.c, 11.d, 12.a,
                                                                                            12.b, 12.e, 13.a, 13.b, 13.c,
                                                                                            14.b(1), 14.b(2), 14.b(3),
                                                                                            14.b(4), 15, 16.a, 16.b, 16.c,
                                                                                            16.d, 16.e, 17.b, 18.a, 18.b,
                                                                                            19, 20.b, 21, 23, 24, 25.a,
                                                                                            25.c, 26, 27.a, 27.b, 28,
                                                                                            29, 30.a, 30.b(1), 30.b(2),
                                                                                            30.b(3), 30.b(4), 30.b(5),
                                                                                            30.b(6), 30.b(7), 33, 34, 36,
                                                                                            37, 38, 39, 40, 41, 42, 43.a,
                                                                                            43.b, 44.a, 44.b, 45, 46.a,
                                                                                            46.c, 47.b(1), 47.b(2), 47.d,
                                                                                            47.e, 48.a, 49.a, 49.b, 49.c,
                                                                                            51.a, 51.b, 54.a, 54.b, 54.c,
                                                                                            55, 56

                  Please provide comments by August 25, 2014.




x │ DODIG-2014-093 (Project No. D2012-D00SPO-0127.000)
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                 July 23, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
               DIRECTOR, DEFENSE HEALTH AGENCY
               CHIEF OPERATING OFFICER, ARMED FORCES RETIREMENT HOME

SUBJECT:	 Inspection of the Armed Forces Retirement Home
          (Report No. DODIG-2014-093)

The Deputy Inspector General, Special Plans and Operations, is providing this final report for
information and appropriate action. We considered management comments to a draft of this
report when preparing the final report.

We request additional information and comments as identified in the Table on page x.
Please provide comments that conform to the requirements of DoD Directive 7650.3.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the “Signed” symbol in place of the actual signature.

We should receive your comments by August 25, 2014.

We appreciate the courtesies extended to our staff. Please direct questions to
Dr. Sardar Q. Hassan at (703) 604-9146, Sardar.Hassan@dodig.mil or Mr. Stanley E. Meyer at
(703) 604-9130, Stanley.Meyer@dodig.mil.




	                                              Kenneth P. Moorefield
	                                              Deputy Inspector General
	                                                 Special Plans and Operations




                                                                                        DODIG-2014-093 │ xi
Contents
Introduction
Objective__________________________________________________________________________________________2
Methodology _____________________________________________________________________________________3

Background_______________________________________________________________________________7
The Armed Forces Retirement Home___________________________________________________________7

Results – Part A. Medical_____________________________________________________ 10
Observation 1. Armed Forces Retirement Home Agency and Facility Policies on
   Pain Management_ ________________________________________________________________________ 13
Observation 2. Agency Suicide Awareness and Prevention
   Program Directive_________________________________________________________________________ 17
Observation 3. Facility Healthcare Services Standard Operating Procedures_____________ 21
Observation 4. Policies on Credentialing, Privileging, and Medical Staff Bylaws__________ 29
Observation 5. Credentialing and Privileging Process at Armed Forces
   Retirement Home__________________________________________________________________________ 33
Observation 6. Involvement of the Office of the Deputy Director, Defense Health Agency
   and the Under Secretary of Defense for Personnel and Readiness____________________ 39
Observation 7. Medical Leadership___________________________________________________________ 45
Observation 8. Human Resources Practices and Impact on Medical Issues_______________ 51
Observation 9. Occupational (Employee) Health____________________________________________ 57
Observation 10. Quality Management and Performance Improvement___________________ 61
Observation 11. Medical Records and Clinical Care_________________________________________ 67
Observation 12. Healthcare Services at Armed Forces Retirement
   Home – Washington, D.C._ ________________________________________________________________ 73
Observation 13. Healthcare Services at Armed Forces Retirement
   Home – Gulfport___________________________________________________________________________ 81
Observation 14. Accreditation and Prior Inspections_______________________________________ 87

Results – Part B. Human Resources Management_________100
Observation 15. Inadequate Documentation of the Outcome of Career Transition
   Assistance Plan Clearance_ ______________________________________________________________101
Observation 16. Lack of Transparency in Armed Forces Retirement Home
   Hiring Practices___________________________________________________________________________103


                                                                                                  DODIG-2014-093 │ xiii
                  Contents (cont’d)

                  Results – Part C. Financial Management_________________________108
                  Observation 17. Inadequate Oversight of Convenience Checks Used by
                     Armed Forces Retirement Home Purchase Cardholders______________________________111
                  Observation 18. A Number of Funds are Not Being Audited_______________________________113

                  Results – Part D. Armed Forces Retirement Home
                  Inspector General Program_ _______________________________________________118
                  Observation 19. Conflict of Interest in Dual Hatted Armed Forces Retirement
                     Home Inspector General Position_______________________________________________________119
                  Observation 20. Lack of Quality Standards for the Armed Forces Retirement Home
                     Inspector General Investigations and Audits___________________________________________121

                  Results – Part E. Admissions/Eligibility____________________________126
                  Observation 21.Noncompliance with Armed Forces Retirement Home
                     Directive 8-13 in Determining Applicant Eligibility_ __________________________________129
                  Observation 22. Inadequate Eligibility Verification Process to Exclude
                     Applicants Who Have Drug Abuse Problems___________________________________________133
                  Observation 23. Noncompliance with Agency Directive and Standard Operating
                     Procedure Requirements for the Pre-admissions Process____________________________137

                  Results – Part F. Facilities Engineering and Safety_________142
                  Observation 24. Armed Forces Retirement Home Occupational Health and
                     Safety Manual and Emergency Operations Plan Not Issued___________________________145
                  Observation 25. Defective “HomeFree Emergency Call and Wander
                     Alert System” (“HomeFree” System)____________________________________________________147
                  Observation 26. Fallen Pole-Mounted Wireless Device Did Not Notify
                     the “HomeFree” System__________________________________________________________________151
                  Observation 27. Inadequate Safety Inspections in the LaGarde Building_________________154
                  Observation 28. Open Gaps in the Chain-Link Security Fence_____________________________157
                  Observation 29. Outages in the Resident Monitoring System at Armed Forces
                     Retirement Home – Gulfport____________________________________________________________161




xiv │ DODIG-2014-093
Contents (cont’d)

Results – Part G. Information Assurance_________________________164
Observation 30. Armed Forces Retirement Home Has Not Provided
   Adequate Contractor Oversight_ ________________________________________________________167

Results – Part H. Resident Recreation Services______________180
Observation 31. Lack of Adherence to Standard Operating Procedures at the Armed
   Forces Retirement Home – Washington, D.C.___________________________________________183
Observation 32. Armed Forces Retirement Home – Washington, D.C., Walk-through
   Inspections Lack Consistency in Occurrence and Documentation____________________185
Observation 33. Easy Access to Potentially Dangerous Heavy Equipment within the
   Armed Forces Retirement Home—Washington, D.C., Wood Shop____________________187
Observation 34. No Ventilation System in the Armed Forces Retirement
   Home—Washington, D.C., Arts and Crafts Shop________________________________________189
Observation 35. Possible Lack of Adherence to Standard Operating Procedures at the
   Armed Forces Retirement Home – Gulfport____________________________________________191
Observation 36. Armed Forces Retirement Home – Gulfport Walk-through
   Inspections Lack Consistency in Occurrence and Documentation____________________193

Results – Part I. Contract Management___________________________196
Observation 37. Failure to Maintain Independent Government Cost Estimates and
   Other Supporting Documentation for Contract Estimates____________________________199
Observation 38. Inconsistencies in Market Research and Documentation_______________203
Observation 39. Failure to Maintain Recommendation for Award Memoranda for
   Contracts__________________________________________________________________________________205
Observation 40. Failure to Consistently Support Modifications Transactions_ __________207
Observation 41. Inadequate Oversight and Management of Interagency
   Agreements_______________________________________________________________________________209
Observation 42. Inequitable Distribution of Contracts Among Contracting Officer
   Technical Representatives_______________________________________________________________211
Observation 43. Failure to Document and Maintain the Quality Assurance
   Surveillance Plan, Service Delivery Summary, or Performance
   Requirement Summary __________________________________________________________________213




                                                                                                DODIG-2014-093 │ xv
                  Contents (cont’d)

                  Results – Part J. Security_____________________________________________________216
                  Observation 44. Poor Security at the Scale Gate Entrance_________________________________217
                  Observation 45. Inadequate Security Guard Minimum Qualifications,
                     Training, and Authority__________________________________________________________________221

                  Results – Part K. Estate Matters and Disposition
                  of Effects_________________________________________________________________________________224
                  Observation 46. Inadequate Disposition of Wills___________________________________________227
                  Observation 47. Noncompliance with Established Policies and Procedures_____________231
                  Observation 48. Lack of Readiness in Probate Matters____________________________________239

                  Results – Part L. Armed Forces Retirement Home
                  Hotline Activity_____________________________________________________________________244
                  Observation 49. Lack of AFRH Inspector General Hotline Implementing Guidance_____247

                  Results – Part M. Employee Sensing Sessions________________250
                  Results – Part N. Confidential Feedback from the
                  Residents and Employees___________________________________________________256
                  Results – Part O. Senior Management_____________________________260
                  Observation 50. DoD Instruction 1000.28 is Out of Date__________________________________269
                  Observation 51. Hiring of Insufficiently Competent Personnel_ __________________________273
                  Observation 52. Senior Medical Advisor Lacked Clear Authority and Responsibility to
                     Effectively Address Medical Operations Issues at the Armed Forces
                     Retirement Home_________________________________________________________________________277
                  Observation 53. Lack of Detailed Guidance from Under Secretary of Defense for
                     Personnel and Readiness Regarding Applicable Department of Defense
                     Policies and Standards___________________________________________________________________281
                  Observation 54. Organizational Climate – Fear of Reprisal________________________________285
                  Observation 55. Current Chief Operating Officer Also Effectively Holding the
                     Combined Position of Deputy Chief Operating Officer/Chief Financial Officer______289
                  Observation 56. Lack of Support for Employee-Oriented Programs______________________291
                  Observation 57. Creation of the Agency-Level Ombudsman Position____________________293


xvi │ DODIG-2014-093
Contents (cont’d)

Appendixes____________________________________________________________________________295
Appendix A. Scope and Methodology________________________________________________________295
Appendix B. Inspection Announcement Letter_____________________________________________299
Appendix C. Department of Defense Inspector General/Army Medical Command
   Memorandum of Understanding________________________________________________________301
Appendix D. Inspection Input from the AFRH Advisory Council Chair,
   AFRH-W RAC Chair and AFRH-G RAC Chair____________________________________________304
Appendix E. Armed Forces Retirement Home Organizational Charts_____________________307
Appendix F. DoD OIG Inspection Team Medical Evaluators________________________________311
Appendix G. Draft and Final Report Observations and Recommendations
   Referencing_ ______________________________________________________________________________312

Management Comments____________________________________________________315
Assistant Secretary of Defense_______________________________________________________________315

Acronyms and Abbreviations_____________________________________________375




                                                                                               DODIG-2014-093 │ xvii
                                                                                              Introduction




Introduction
Section 418, title 24, United States Code (24 U.S.C. § 418 [2012]) legislates that:

           Not less often than once every three years, the Inspector General of
           the Department of Defense shall perform a comprehensive inspection
           of all aspects of each facility of the Retirement Home, including
           independent living, assisted living, long term care, medical and dental
           care, pharmacy, financial and contracting records, and any aspect
           of either facility on which the Advisory Council or the Resident
           Advisory Committee of the facility recommends inspection.


The   Department      of   Defense    Inspector      General   (DoD IG)     performed   the
last inspection of the Armed Forces Retirement Home (AFRH) in August of
2009.  Therefore, the DoD IG was required to perform the subsequent inspection
in August 2012.

Paragraph b(2) of the amended 24 U.S.C. § 418 (2012) also states:

           The Inspector General shall be assisted in inspections under this
           subsection by a medical inspector general of a military department
           designated for purposes of this subsection by the Secretary of Defense.


Office of the Under Secretary of Defense for Personnel and Readiness [OUSD  (P&R)]
designated the Army Medical Command (MEDCOM) to provide the medical
inspection assistance for this inspection. Subsequently, the DoD IG entered in to
a memorandum of understanding (MOU) with Army MEDCOM to delineate roles
and responsibilities of each of the organizations.

Paragraph d (1) of the amended section 411, title 24, United States Code
(24 U.S.C. § 411 [2012]) states:

           The Chief Operating Officer of the Armed Forces Retirement Home
           is the head of the Retirement Home. The Chief Operating Officer
           is subject to the authority, direction, and control of the Secretary
           of Defense.


The newly created Paragraph d (3) of the amended 24 U.S.C. § 411 (2012)
gives additional authority to the Secretary of Defense:

           The administration of the Retirement Home, including administration
           for the provision of health care and medical care for residents,
           shall remain under the control and administration of the Secretary
           of Defense.



                                                                                          DODIG-2014-093 │ 1
Introduction



                 Objective
                 The objective of this project was to perform a comprehensive inspection of all
                 aspects of each facility of the AFRH, including independent living, assisted living,
                 long term care, medical and dental care, pharmacy, financial and contracting
                 records, and any aspect of either facility on which the Advisory Council or the
                 Resident Advisory Committee (RAC) of the facility recommends inspection.

                 The DoD IG Inspection Team finalized the scope and detailed approach for
                 the on‑site inspection on the basis of discussions with representatives from
                 the OUSD (P&R) and Office of the Deputy Director of the Defense Health
                 Agency (DHA), AFRH Chief Operating Officer (COO), AFRH IG, as well as
                 the   written   input   received     from   the   Chairman   of   the   AFRH   Advisory
                 Council, and Chairpersons of the two RACs.

                 The general inspection areas were kept the same as the 2009 inspection. However,
                 we excluded “Voting,” as it was not a required area of inspection. The list of
                 inspection areas are as follows:

                         •	 Medical,

                         •	 Human Resources Management,

                         •	 Financial Management,

                         •	 AFRH IG

                         •	 Admissions/Eligibility,

                         •	 Facilities Engineering and Safety,

                         •	 Information Assurance,

                         •	 Resident Recreation Services,

                         •	 Contracts Management,

                         •	 Security,

                         •	 Estate Matters and Disposition of Effects,

                         •	 Armed Forces Retirement Home Hotline Activity, and

                         •	 Senior Management.

                 We also conducted employee sensing sessions and confidential feedback sessions.



2 │ DODIG-2014-093
                                                                                       Introduction



Methodology
In March 2012, the DoD IG Inspection Team began to review the amendments
made to the AFRH Act of 1991 by Public Law 112-81.  The actual amended
version was not available as the amendments were not codified.  The DoD IG
Inspection Team used the unofficial amended version on the Web as criteria for
the inspection.

At the same time, we initiated the review of all relevant prior documents, including
the 2010 DoD IG Inspection Report (No. IE-2010-002) (hereafter referred to as
the 2010   DoD IG Inspection Report).  The DoD IG Inspection Team also contacted
the Government Accountability Office (GAO), the DoD IG Hotline office, and
the DoD IG Defense Criminal Investigative Services (DCIS) office to perform an
index search to identify any reports and/or cases relevant to AFRH.

On May 3, 2012, we met with the stakeholders—the COO of the AFRH,
representatives from the OUSD (P&R) and the Assistant Secretary of Defense
(Health Affairs)/Defense Health Agency (ASD(HA)/DHA), and the AFRH IG. The
Office of the Deputy Inspector General for Special Plans and Operations (SPO)
issued the project announcement letter on May 15, 2012.

On June 13, 2012, we briefed the Deputy Director of DHA, who is the Senior Medical
Advisor (SMA) to AFRH, about the impending inspection of AFRH.          During this
briefing, we discussed the duties and responsibilities of the Deputy Director of DHA
in the role of SMA to AFRH, as assigned by section 413a, title 24, United States
Code (24 U.S.C. § 413a [2012]).

In early August 2012, we contacted the chairpersons of the following council and
committees to ascertain their concerns or desired focus areas for inclusion within
the DoD IG’s inspection scope:

        •	 AFRH Advisory Council,

        •	 AFRH Washington, D.C. (AFRH-W) RAC, and

        •	 AFRH Gulfport (AFRH-G) RAC.




                                                                                   DODIG-2014-093 │ 3
Introduction



                 We received responses from all three chairpersons.

                 We finalized the scope and detailed approach for the on-site inspection on the
                 basis of discussions with representatives from the OUSD (P&R) and Office of the
                 Deputy Director of DHA, AFRH COO, AFRH IG, as well as the written input
                 received from the Chairman of the AFRH Advisory Council, and chairpersons of
                 the two RACs.

                 To address compliance with Federal laws and regulations for each inspection focus
                 area, the DoD IG Inspection Team developed an inspection criteria guide list for
                 each inspection area.

                 The on-site inspection of the AFRH Agency was conducted from August 27-28, 2012;
                 the AFRH-W from August 29-31, 2012; and the AFRH-G from September 10-14, 2012.

                 During the inspection, we interviewed key personnel from the AFRH Agency,
                 AFRH-W facility, and AFRH-G facility. We also interviewed management and staff
                 points of contact (POCs) for each inspection element delineated in the inspection
                 scope and objectives. We focused on the overall administration and management
                 of the AFRH Agency, AFRH-W, and AFRH-G, in addition to reviewing medical,
                 dental,    and    pharmacy     operations,    and     resident    satisfaction    with    services
                 provided by AFRH-W and AFRH-G. We inspected the records of the AFRH Agency,
                 AFRH-W, and AFRH-G to ensure compliance with applicable laws and regulations
                 pertaining to each area delineated in the inspection scope and objectives.

                 During the on-site phase of the inspection, we also conducted employee sensing
                 sessions    and    DoD IG     confidential   feedback    sessions    to   ascertain      employee
                 perceptions about quality of work environment for the staff and to receive
                 confidential feedback from the residents and employees.

                 The DoD IG Inspection Team inspected the identified areas of AFRH operations
                 and management (listed in the Objectives section of this report). Following the
                 on-site inspections, Inspection Team area leads reviewed all the documents
                 and information collected during on-site inspections and requested additional
                 documents        from   the    AFRH     POCs     in     various     phases.      Some    of   our
                 inspectors, particularly the medical inspectors, sought additional data and
                 clarifications. We also interviewed AFRH senior officials and functional area
                 chiefs. In October 2012, as the inspectors were analyzing data from field work, we




4 │ DODIG-2014-093
                                                                                                 Introduction



received confidential communication regarding a case of patient neglect allegedly
caused by the apparent failure of AFRH staff to meet standards of oral care at
the AFRH-W facility.

We consulted other relevant components in the DoD Office of the Inspector General
(OIG), including the Investigations of Senior Officials, Office of Whistleblower
Protection, and the DoD IG Hotline office. After a series of multi-component
meetings    and    additional     data   collection,    the     DoD IG     Deputy    Inspector
General SPO sent a “Notice of Concern” regarding the oral care negligence
case   to   the   Principal     Deputy   Secretary     of     Defense    for   Personnel   and
Readiness [PDUSD (P&R)] on November 20, 2012.

In mid-January of 2013, the DoD OIG was informed that AFRH was performing
a“root cause analysis” investigation of the recent death of a resident. In late
February 2013, the DoD OIG received additional AFRH staff communications
regarding the alleged deteriorating capacity of nursing and medical staff
at the AFRH-W facility, which could continue to increase the risk of patient
neglect and injury.    On March 21, 2013, the DoD OIG provided a brief to the
Acting USD (P&R) about the risk of potential patient neglect and injury at the
AFRH-W facility and recommended that the Acting USD (P&R) form a team of
healthcare professionals to evaluate the capability to provide sufficient medical
care to residents at the AFRH-W facility.

Parts A through O of this report provide more detailed information about the
specific inspection activities performed by the DoD IG Inspection Team in each
of the identified areas of inspection. The DoD IG inspection was conducted in
accordance with the standards established by the Council of Inspectors General
on Integrity and Efficiency, published in the “Quality Standards for Inspection
and Evaluation,” January 2012.




                                                                                             DODIG-2014-093 │ 5
                                                                                                                                      Background




Background
The Armed Forces Retirement Home
In 1834, the Navy opened a retirement facility in Philadelphia, Pennsylvania, to
serve former enlisted sailors. The U.S. Naval Retirement Home moved to
Gulfport, Mississippi, in the late 1960s. The Army established the Soldiers’ Home
in 1851 for former enlisted soldiers at its present location in Washington, D.C.
(Airmen were added when the Air Force became a separate service.)

In 1991, Congress incorporated the U.S. Naval Retirement Home in Gulfport,
Mississippi, and the U.S. Soldiers’ and Airmen’s Retirement Home into an
independent organization—the Armed Forces Retirement Home. By 2001, Congress
renamed the U.S. Naval Retirement Home and the U.S. Soldiers’ and Airmen’s
Retirement          Home         as     the     Armed         Forces        Retirement           Home – Gulfport              and
the       Armed           Forces         Retirement             Home – Washington,                   D.C.,       respectively.
Section       411,      title     24,     United       States       Code,       established         the      AFRH        as    an
independent establishment under the Executive branch, with two continuing
care facilities—AFRH-W and AFRH-G—maintained as separate facilities of the
Retirement Home.

These facilities            provided a range of accommodations structured to meet the
changing needs of eligible former military members as they age.  At both AFRH
facilities, residential units are designated by levels of care, with the level of care
increasing in the following order: Independent Living (IL),4 Independent Living
Plus (ILP),5 Assisted Living (AL),6 and Long Term Care (LTC).7

On August 29, 2005, Hurricane Katrina severely damaged the AFRH-G facility.
Many of the residents were evacuated to AFRH-W and lived there until the
AFRH-G facility was rebuilt. After the new AFRH-G facility was opened in late 2010
(October-November), most of the residents of the AFRH-G returned to Gulfport,
Mississippi.  At the May 31, 2012, AFRH briefing to DoD IG Inspection Team,
AFRH-W reported a population of 568 residents and AFRH-G reported a population
of 582 residents.


	 4	
     IL – Residents are able to choose their level of participation in the programs and services provided without additional
     monitoring or support by staff.
	 5	
     ILP – Residents require minimal support by staff in areas of medication administration, housekeeping and/or bathing
	6	
     AL – Residents require assistance in choosing their level of participation in the programs and services provided without
     additional monitoring or support by staff. In addition, moderate support is needed by staff to complete activities of daily
     living and to participate in the programs the resident chooses.
	 7	
     LTC – Residents are provided nursing and other services 24 hours/day.



                                                                                                                                   DODIG-2014-093 │ 7
Background



                 A number of services at AFRH are outsourced to two major Government
                 organizations—the U.S. Department of Treasury Bureau of Public Debt (BPD) and
                 U.S. Department of Interior National Business Center (NBC). (See Figure E.1 in
                 Appendix E.)

                 The BPD provides the following services to AFRH:

                         •	 financial management accounting services,

                         •	 human resources services,

                         •	 procurement services, and

                         •	 travel services.

                 The NBC hosts and operates all AFRH information systems and networks.

                 AFRH also partners with other Government healthcare organizations, such
                 as Walter Reed National Military Medical Center (WRNMMC), which serves
                 AFRH-W, and the 81st Medical Group at Keesler Air Force Base, Mississippi, which
                 serves AFRH-G. (See Figure E.1.)




8 │ DODIG-2014-093
                   Results – Part A




Results – Part A
Medical




                   DODIG-2014-093 │ 9
Results – Part A




                 Medical
                 At the AFRH, residents are initially admitted to IL level where they reside
                 independently until assistance with Activities of Daily Living8 and Instrumental
                 Activities of Daily Living9 is required. As the care requirements for a resident
                 increase, he/she is transitioned to a unit supporting the appropriate higher level of
                 care as determined by a Needs Assessment Team (NAT)10 and the Interdisciplinary
                 Team (IDT).11  At the time of the inspection,
                 both         AFRH-W           and      AFRH-G          added        an
                 “Independent                Living        Plus”        component
                 which allowed residents to remain in IL and
                 continue favorite activities, while getting
                 additional medical support.  In addition, each
                 facility’s LTC also included a Memory Support
                 program, which offered specialty care to those
                 who develop memory problems, dementia,
                 or        Alzheimer’s           disease.        Both       facilities
                 provide primary care, dental care, behavioral
                 healthcare, optometry, nutrition care, and
                 rehabilitation services to their residents.
                 Residents also have the choice of using the
                 available healthcare services or receiving                                      Figure 1. Sherman Building (AFRH-W)
                 care from outside the AFRH.                                                     Source: AFRH Photo Archive


                 AFRH residents included both military retirees and non-retirees. At AFRH-W,
                 residents who were not otherwise eligible for military healthcare, such as
                 non-retirees, were covered as Secretarial Designees.12  The Secretarial Designee
                 status granted by the Secretaries of the Army and Air Force authorized care
                 at certain military facilities.  Although the memorandum granting Secretarial

                 	 8	
                        “Activities of Daily Living” are basic self-care tasks such as toileting, feeding, grooming etc. The Continuum of Long Term
                        Care, 3rd Edition, 2005 by Connie J. Evashwick.
                 	 9	
                        “Instrumental Activities of Daily Living” are complex skills needed to live independently such as shopping, managing
                        medication, house work etc. The Continuum of Long Term Care, 3rd Edition, 2005 by Connie J. Evashwick.
                 	10	
                        NAT – AFRH Team that assesses the ability of a resident to maintain their independence after a deficit is reported.
                        Assessment may result in the arranging for support services purchased by the individual or a transition into a higher
                        level of care.
                 	11	
                        IDT – AFRH Team that develops individual care plans that outlines the specific kinds of care needed and how care
                        can be accomplished.
                 	12	
                        Secretarial Designee Program – established under 10 U.S.C. § 1074(c), grants, under certain conditions, certain individuals
                        noted in 32 CFR 108.4, such as foreign military personnel/dependents, foreign diplomatic or senior officials/dependents,
                        research subjects, emergency patients, and designated members of the Armed Forces, eligibility to receive medical/
                        dental treatment in military facilities.




10 │ DODIG-2014-093
                                                                                                                                   Results – Part A



Designee status did not include Navy facilities, the Navy and the Joint Task
Force National CapitalMedical Command had agreed to honor existing Army
agreements. AFRH-G did not yet have Secretarial Designee status for its
non-retiree residents, but had started this process at the time of the inspection.

Under the authority and control of the Secretary of Defense, the AFRH COO
serves as the head of the retirement home and works at the agency level
(Section 411(d)(1), title 24, United States Code (24 U.S.C. § 411(d)(1) [2012])).
At each facility, an administrator is responsible for overall facility operations,
which includes all medical functions. Although the administrators are responsible
for the facilities, section 411(d)(3), title 24, United States Code (24 U.S.C. § 411(d)(3)
[2012])            required          that       the      administration             of      the      AFRH,         including
administration for the provision of healthcare and medical care for residents,
remain under the “direct authority, control, and administration of the Secretary
of Defense.”             In 2011, the COO added a Medical Director position to oversee all
medical functions from the agency level.                               In addition, each facility had a Chief
of Healthcare Services (CHS) and a Chief Medical Officer (CMO). Although not
clearly delineated in policy, the CMO falls under the CHS, as per the organizational
structure diagram. (See Appendix E: Figure E-4.)

By statute, the COO is required to “secure and maintain accreditation by a
nationally recognized civilian accrediting organization for each aspect of each
facility of the retirement home, including medical and dental care, pharmacy,
IL, AL, and nursing care.” However, no single civilian accrediting organization
offered a program that could sufficiently cover all of AFRH’s characteristics
and services. The AFRH was, at the time of the inspection, accredited by the
Commission               on     Accreditation           of    Rehabilitation           Facilities/Continuing               Care
Accreditation Commission (CARF/CCAC). Prior to 2007, the AFRH was accredited
by The Joint Commission (TJC)13 for both LTC and Ambulatory Care (outpatient clinics).

During the inspection, the DoD IG Inspection Team14 reviewed all AFRH Agency
policies, notices, and directives related to healthcare. All healthcare services SOPs
were also reviewed. The findings were discussed with the AFRH Agency
Medical Director and facility staff members throughout the inspection. Most


	13	
        The Joint Commission is an independent, not-for-profit organization that accredits and certifies more than 20,000 health
        care organizations and programs in the United States. Joint Commission accreditation and certification is recognized
        nationwide as a symbol of quality that reflects an organization’s commitment to meeting certain performance standards.
	 14	
        The inspection and evaluation of the medical operations at AFRH was performed by two military medical evaluators, a
        physician (O-6) and a nurse (O-5), selected by the Army Medical Command, in response to a DoD IG request for personnel
        with medical subject matter expertise to augment the DoD IG Inspection Team. See Appendix F for further details on the
        medical evaluators.



                                                                                                                                   DODIG-2014-093 │ 11
Results – Part A



                 policies were dated between June 2012 and July 2012. Additionally, several
                 AFRH Agency policies had a 120‑day implementation period, so the DoD IG
                 Inspection Team could not review complete implementation of policies by the
                 date of the inspection.

                 As   we    reviewed       policies,   we   looked   for   implementation   of   applicable
                 healthcare standards of the Department of Veterans Affairs (VA) or any other
                 applicable standards, as required bysection 413a (c)(2), title 24, United States
                 Code (24 U.S.C. § 413a(c)(2) [2012]).  The Inspection Team also sought
                 to identify the use of DoD policies in developing AFRH Agency and facility
                 policy. Additionally, the team evaluated the implementation of policies through
                 interviews and observation.

                 We also reviewed the findings from the 2007 GAO report, “Armed Forces
                 Retirement Home Healthcare Oversight Should be Strengthened,” May 30, 2007;
                 the 2010 DoD IG Inspection Report; the 2011 CARF accreditation findings; and
                 applicable standards of CARF and The Joint Commission. Additionally, we
                 reviewed resident medical records and interviewed staff and residents.




12 │ DODIG-2014-093
                                                                                    Results – Part A




Observation 1
Armed Forces Retirement Home Agency and Facility
Policies on Pain Management

The AFRH Agency policy directive on pain management exceeded the scope of
AFRH facilities’ operational capabilities. This policy contained no requirement to
implement current national medical standards of practice, such as those contained
in clinical practice guidelines. Furthermore, the policy had not been implemented
by the facilities.

This occurred because of a lack of appropriate oversight by the AFRH medical
leadership in the development and implementation of agency-level policy.

Residents were not receiving appropriate care based on the latest clinical
practices. Specifically, they were not receiving appropriate, evidence-based care
for pain management.


Discussion
AFRH Agency Directive 9-5, “AFRH Pain Management Program,” April 12, 2012,
contained descriptions and requirements for services that were not offered at
AFRH and were not part of their operational capabilities.  The document required
facility administrators to develop SOPs and to start a pain management committee
within 120 days of the directive issuance date.  However, both facilities failed
to   develop    a    pain   management   SOP   with   appropriate   pain   management
guidelines and failed to establish a pain management committee. Also, the AFRH
Agency Medical Director should have been listed as a party responsible for the
implementation or monitoring of this program.

During the review of LTC records at AFRH-W, our medical inspectors identified an
issue with chronic opioid use in an 85-year-old resident with chronic pain.
He was prescribed and taking two Percocet tablets (5 mg oxycodone/325  mg
acetaminophen per tablet) every 4 hours. This regimen controlled his pain,
but also resulted in him receiving 3,900 mg of acetaminophen per day.
This was too large a dose for an 85‑year‑old with significant potential for




                                                                                    DODIG-2014-093 │ 13
Results – Part A



                 adverse effects, based on guidelines discussed in the next paragraph. Our
                 medical inspectors discussed the case with the nurse responsible for this
                 resident’s care and recommended changing the dosage to a long acting opioid
                 that did not contain acetaminophen.

                 Recent evidence-based VA/DoD clinical practice guidelines on opioid therapy and
                 pain management may be useful in future instances requiring pain management
                 and should be considered.  Additional pain management guidelines may be found
                 in the National Guideline Clearinghouse,15 the Agency for Healthcare Research
                 and Quality (AHRQ),16 and in the Annals of LTC.17 These guidelines would have
                 provided excellent guidance on a more appropriate dosage based on characteristics
                 of the patient and reduced the risk of adverse effects.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1.a
                 Under Secretary of Defense for Personnel and Readiness, determine applicable
                 medical standards of the Department of Veterans Affairs and the Department
                 of Defense, such as Department of Veterans Affairs/Department of Defense
                 Clinical Practice Guidelines, and ensure the Armed Forces Retirement Home
                 meets those standards.


                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD (P&R) non-concurred, stating that AFRH would follow national medical
                 standards, as does the DoD and VA, when developing medical policies. AFRH
                 should           consider        incorporating           relevant        information          from       VA/DoD          Clinical
                 Practice Guidelines. Requiring AFRH to follow DoD/VA medical standards for
                 which they have no input to the content would create risk for noncompliance
                 with national recognized medical standards focused on the population and
                 organization of the AFRH.


                 	 15	
                         National Guidelines Clearinghouse is an accessible database, publically offered by the Agency for Healthcare Research
                         and Quality on their website (http://www.guideline.gov/index.aspx) to assist physicians and other health professionals,
                         healthcare providers, health plans, integrated delivery systems, purchasers, and others in obtaining objective, detailed
                         information on clinical practice guidelines and to further their dissemination, implementation, and use. Retrieved from
                         http://www.guideline.gov/about/index.aspx, October 21, 2013.
                 	16	
                         The AHRQ is an agency within the Department of Health and Human Services that seeks “. . . to improve the quality,
                         safety, efficiency and effectiveness of Healthcare” in the United States through research. Retrieved from
                         http://www.ahrq.gov/about/index.html, October 21, 2013.
                 	 17	
                         “The Annals of Long Term Care: Clinical Care in Aging is a peer reviewed journal of the Geriatrics Society focused on
                         the clinical and practical issues related to the diagnosis and management of long term care residents.” Retrieved from
                         http://www.annalsoflongtermcare.com/about-us, October 21, 2013.


14 │ DODIG-2014-093
                                                                                               Results – Part A



Our Response
Although they non-concurred, management’s comments are responsive to the
intent of the recommendation. We agree with AFRH following national medical
standards and support AFRH consideration of incorporating relevant information
from VA/DoD Clinical Practice Guidelines into medical standards and operations.
We will request an update on this effort at a later date.


Recommendation 1.b
Armed Forces Retirement Home Chief Operating Officer:

       (1)	 Ensure appropriate corrections to AFRH Agency directives, including
           the    incorporation        of     evidence-based    Department       of   Veterans
           Affairs/Department of Defense Clinical Practice Guidelines related
           to pain management. Utilize other Clinical Practice Guidelines,
           such as those published by the Annals of Long Term Care,
           as appropriate.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, reporting that implementation of the recommendation
was in progress. The COO noted that the VA/DoD Clinical Practice Guideline
referenced in the draft report had been published after the onsite fieldwork.
They    would    also   review   the        existing   VA/DoD   clinical   practice   guidelines
to determine whether they would be useful references.


Our Response
Management’s comments were responsive. We adjusted the narrative to indicate
the Clinical Practice Guideline should be considered in development of future SOPs.
We will request an update on progress at a later date.

       (2)	 Ensure that the Armed Forces Retirement Home – Washington, D.C.,
           and Armed Forces Retirement Home – Gulfport facilities implement the
           revised AFRH Agency directive to ensure residents with pain receive
           appropriate assessment, treatment, and re-assessment of pain.




                                                                                               DODIG-2014-093 │ 15
Results – Part A



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, reporting that the recommendation was complete.


                 Our Response
                 Management’s comments were partially responsive. We ask that management
                 describe the actions taken to ensure that both facilities implemented the revised
                 AFRH Agency Directive on pain management.




16 │ DODIG-2014-093
                                                                                      Results – Part A




Observation 2
Agency Suicide Awareness and Prevention
Program Directive

The AFRH Agency directive on suicide awareness and prevention had not been
tailored to the mission of the AFRH and included references that were unrelated to
the topic.

This occurred because AFRH medical leadership lacked expertise in the subject
matter, failed to consult the AFRH SMA for guidance, and failed to display attention
to detail in the development of agency-level policy.

This resulted in agency policy that was inappropriate and that did not provide
adequate guidance on resident suicide prevention.


Discussion
AFRH Agency Directive 9-6, “AFRH Suicide Awareness and Prevention Program,”
July 11, 2012, lists three references:

         •	 DoD Directive 1010.10, “Health Promotions and Disease/Injury
             Prevention,” August 22, 2003,

         •	 United States Department of Homeland Security/United States Coast
             Guard – Commandant          Instruction   1734.1A,   “Suicide   Prevention
             Program,” December 7, 2009, and

         •	 Depression and Bipolar Alliance, Bipolar Disorder and Suicidal
             Behavior, Psychiatric Clinic of North America, Volume 2, Issue 3,
             September 1999, Zoltan Rihmer and Peter Pestality.

The DoD Directive 1010.10 did not mention suicide or suicide prevention. The
article on bipolar disorder was dated and had nothing to do with development
of a suicide awareness and prevention program. AFRH Agency Directive 9-6
appeared to be taken directly from the Coast Guard instruction. Unfortunately,
the instruction was not tailored to fit AFRH residents’ needs. In addition,
the performance improvement measures taken from the Coast Guard instruction
were not readily measureable.




                                                                                      DODIG-2014-093 │ 17
Results – Part A



                 While AFRH-G had some on-going training for privileged18 healthcare providers
                 on suicide and related issues, (“Provider’s Wellness Manual” for the Summer/
                 Fall 2012), the DoD IG Inspection Team could not document similar training at
                 AFRH-W. This is a requirement by industry standards, as well as for accreditation.
                 The AFRH-G manual is a good resource that included sections on depression,
                 psychotherapeutic medications, grief and mourning, and suicide. Additionally,
                 the manual included assessment tools. Also, recently published VA/DoD Clinical
                 Practice Guidelines (CPGs) would be useful in providing guidance for a more
                 effective program in the future. Multiple VA/DoD CPG guidelines (for example,
                 depression,             bipolar       disorder,        and      post-traumatic            stress       disorder)          addressed
                 suicide, as well as the VA/DoD CPG on suicide prevention, which was issued
                 in June 2013.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 2.a
                 Under Secretary of Defense for Personnel and Readiness, require that the
                 Armed Forces Retirement Home Agency Directive 9-6 on Suicide Awareness meet
                 applicable standards of the Department of Veterans Affairs, such as Department
                 of Veterans Affairs/Department of Defense Clinical Practice Guidelines.


                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD (P&R) concurred, commenting that AFRH would incorporate relevant
                 information              from       VA/DoD          Clinical       practice        guidelines         for     the      assessment
                 and         management              of    patients        at     risk     for     suicide,       as     policy       is    updated.


                 Our Response
                 Management’s comments were responsive. We will request an update on progress
                 at a later date.




                 	 18	
                         “Privileged Healthcare Provider” is one who is granted authorization to provide specific services to their patients at a
                         specific healthcare facility. “Privileges” define the scope and limits of practice for individual providers and are based on the
                         capabilities of the healthcare organization and the credentials of the provider.




18 │ DODIG-2014-093
                                                                                Results – Part A



Recommendation 2.b
Armed Forces Retirement Home Chief Operating Officer:

      (1)	 Ensure appropriate corrections to AFRH Agency Directive 9-6 on Suicide
           Awareness, including the incorporation of evidence-based Department
           of Veterans Affairs/Department of Defense Clinical Practice Guidelines
            related to suicide evaluation and prevention.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, commenting that AFRH Agency Directive 9-6 was tailored
for the population of the AFRH. USD (P&R) stated, in response to the previous
recommendation, that AFRH would incorporate relevant information from the
June 2013 VA/DoD Clinical practice guidelines for the assessment and management
of patients at risk for suicide, as policy is updated.


Our Response
While management’s comments were only partially responsive, we view the
USD (P&R) comments as meeting the intent of the recommendation.  We will
request a status on the update of the agency directive at a later date.

      (2)	 Ensure the Armed Forces Retirement Home – Gulfport handbook for
           privileged providers is shared with, and appropriately applied by, the
            Armed Forces Retirement Home – Washington, D.C.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, commenting that the AFRH-G “Provider’s Wellness
Manual” would be distributed for use on both campuses.


Our Response
Management’s comments were responsive. We will request a status of the
distribution of the “Provider’s Wellness Manual” at a later date.




                                                                                DODIG-2014-093 │ 19
                                                                                                                                       Results – Part A




Observation 3
Facility Healthcare Services Standard
Operating Procedures

AFRH            had      numerous           medical         SOPs,       many        of     which        were       overlapping,
contradictory, and difficult to understand. Some SOPs used references that were
not pertinent to the subject or were markedly out of date. The SOPs, which
should be specific to the individual facility, often were not. Furthermore, facilities
were not in compliance with many of the SOPs. The DoD IG Inspection Team
did not find any SOPs for two high-risk activities:                                      (1) Coumadin19 Clinic,20 and
(2) End of Shift Narcotic Counts.21

This occurred because the medical and clinical leadership lacked either knowledge
or authority (or both) to improve policies and procedures.

Because SOPs were too broad, vague, or non-existent:

                •	 Staff was unable to obtain and/or understand necessary AFRH
                    requirements and guidance on appropriate and current healthcare
                    policy and practice.

                •	 Residents were not receiving current evidence-based care and services
                    in many areas of healthcare.

                •	 In the absence of the Coumadin Clinic Nurse Practitioner, patients might
                    not receive timely management of anticoagulation.

The absence of clear policy on end of shift narcotic counts could lead to drug
diversion. Also, it would be difficult to take disciplinary action if staff members
took advantage of the situation.


	 19	
        Coumadin is a prescription anticoagulation brand of the warfarin medication used to treat existing blood clots and to
        prevent blood clots formation in the body that cause strokes, heart attacks, and other serious conditions depending on
        location of formation. Retrieved from the FDA website: www.fda.gov/downloads/drugs/drugsafety/ucm088578.pdf,
        October 10, 2013.
	20	
        The Coumadin Clinic (also called Anticoagulation Clinic) is a service established to monitor and manage the
        medication(s) taken [by a patient] to prevent blood clots. Retrieved from the Cleveland Clinic online health library:
        http://my.clevelandclinic.org/drugs/coumadin/hic_anticoagulation_clinic.aspx, October 22, 2013. At both AFRH facilities,
        the Coumadin Clinic is staffed by a nurse practitioner who checks the results of the patient’s blood test and adjusts the
        dose of Coumadin, as well as other medicines that may be needed.
	21	
        End of Shift Narcotics Count is a reconciliation process conducted at the end of a shift where nursing staff counts drugs in
        stock and accounts for any deficiencies from the total starting amount.




                                                                                                                                       DODIG-2014-093 │ 21
Results – Part A



                 Discussion
                 The SOPs for AFRH-W and AFRH-G were generally identical. The AFRH Agency
                 wanted to have standardized operations at both facilities. However, the facilities
                 were different, not only in physical layout, but also in aspects of their healthcare
                 operations, such as pharmacy. Therefore, in many situations, the AFRH-G SOPs
                 needed to be different from AFRH-W SOPs. This is an ongoing issue for the
                 AFRH-G staff.

                 The DoD IG Inspection Team reviewed all the available SOPs. The SOPs were
                 grouped into five different areas of healthcare:

                            1.	     Healthcare Services Administration,

                            2.	     Health Information Services,

                            3.	     Medical Services,

                            4.	     Nursing Services, and

                            5.	     Rehabilitation Services.

                 The DoD IG Inspection Team discussed their concerns with the CHS at the
                 two facilities.

                 As a result of the DoD IG Inspection Team’s review and discussions, the
                 DoD IG Inspection Team identified the following issues with various SOPs.


                 Healthcare Services Administration Area
                 Infection Control SOP
                 The infection control policy was similar to one used in acute care hospitals (instead
                 of tailored for AFRH)22 and included references to infections caused by devices not
                 used at the AFRH. In addition, the policy did not mention urinary catheters, a
                 device very important to the AFRH. Furthermore, the policy included information
                 on chemical spills and operation of sharp hand tools—topics that were unrelated
                 to infection control.




                 	22	
                        Acute care hospitals diagnose and treat more acute types of conditions/illnesses in contrast to long term care facilities such
                        as AFRH which seeks to manage an individual’s decline in health as they age.




22 │ DODIG-2014-093
                                                                                                                                        Results – Part A



Sentinel Events23 SOP
The Sentinel Event SOP used multiple references that were not related to the
sentinel events, including references on:

               •	 research conducted at a Federal facility,

               •	 investigational new drug applications, and

               •	 documentation of consent in human research subjects.

Sentinel events which did not apply to the AFRH, such as transfusion reactions
and radiation therapy overdoses, were also included in this policy.


Skin Integrity SOP
Although the Skin Integrity SOP required a “Wound Prevention Committee,” there
was no evidence that this committee existed at either facility.


Weight Management SOP
The Weight Management SOP required a “Weight Management Committee.”
Although AFRH-G had established this committee, chaired by the dietitian, AFRH-W
did not have such a committee.


Medical Services Area
Competency-Performance Assessment SOP
The Competency-Performance Assessment SOP required use of a standard form
to evaluate privileged providers. This was inadequate because the form did not
require an evaluation of peer review data, performance data, and prior privileges
during the privileging/re-privileging process, all common practice in the industry.
Additionally, AFRH could eliminate the Nurse Practitioners SOP if they conducted
the privileging process in a thorough manner to define the scope of practice for
nurse practitioners.




	23	
       Sentinel Event—an unexpected occurrence involving death or serious physical or psychological injury, or the risk thereof.
       Serious injury specifically includes loss of limb or function. The phrase “or the risk thereof” includes any process variation
       for which a recurrence would carry a significant chance of a serious adverse outcome.




                                                                                                                                        DODIG-2014-093 │ 23
Results – Part A



                 Health Information Services Area
                 AFRH-W Health Information Services SOPs often duplicated or contradicted other
                 SOPs. In addition, some AFRH-W Health Information Services SOPs did not
                 meet requirements for common industry practices and accreditation, and/or
                 had incorrect references.


                 Release of Patient Health Information
                 Each    of    the    following    SOPs—AFRH-W         Standard     Operating    Procedure
                 W-HIM-4-02, “Consent for Use of Individual Identifiable Health Information,”
                 June 8, 2013; W-HIM-4-05, “HIPAA Compliance,” June 8, 2013; W-HIM-4-07,
                 “Medical Information Request,” June 8, 2013; W-HIM-4-11, “Privacy Practice,”
                 June 8, 2013; and W-HIM-4-13, “Records of Residents - Copying,” June 8, 2013
                 all gave instruction about the release of patient health information. These SOPs
                 should be combined to form one cohesive SOP, written in an easier to
                 understand manner.


                 Abbreviations – Medical SOP
                 For    example,     AFRH-W       Standard     Operating    Procedures     W-HC-HIM-4-01,
                 “Abbreviations – Medical,” July 6, 2012, stated that only approved abbreviations
                 were to be used, but the AFRH-W Standard Operating Procedure W-HC-HIM-4-09
                 “Medical Records,” June 8, 2012, stated that no abbreviations were allowed.
                 The AFRH-G policy that listed “DO NOT USE” abbreviations was more appropriate.
                 This contradiction should be eliminated.


                 Medical Records SOP
                 The AFRH-W SOP W-HC-HIM-4-09, “Medical Records,” June 8, 2012, was being
                 used as the sole basis for AFRH’s peer review process, but it does not meet
                 industry standards for clinical peer review. In addition, the results were not
                 tracked by the provider. Additionally, it referred to “Army Regulation 40-340.”
                 No     such   regulation    existed    at     the   time   of    the    inspection.   Army
                 Regulation    (AR)    40-66,     “Medical    Record   Administration      and   Healthcare
                 Documentation,” January 4, 2010,            was determined to be the correct title for
                 the Army medical record regulation in use at the time of the inspection.




24 │ DODIG-2014-093
                                                                                            Results – Part A



Rehabilitation Services Area
Between the Washington and Gulfport facilities, there were 13 SOPs on
rehabilitation services. These SOPs listed a 22-year old textbook as their only
reference. Given the advances in rehabilitation services, the DoD IG Inspection Team
recommends that AFRH use a more up-to-date and recognized reference, such as
Physical Rehabilitation, 6th edition, August 4, 2006, by Susan O’Sullivan and
Thomas Schmitz. This reference is the single most cited source for the physical
therapy licensure examination and was recommended by both the Director of
the U.S. Army Baylor University Doctoral Program in Physical Therapy and the
Consultant to the Army Surgeon General on Rehabilitation Medicine. The
Consultant to the Army Surgeon General also concurred with the recommendation
to use the VA/DoD CPG as guidance for Cerebrovascular Accident/Stroke
Rehabilitation. The DoD IG recommends that AFRH adopt the VA/DoD CPG for its
Cerebrovascular Accident/Stroke Rehabilitation program.


Nursing Services Area
AFRH Nursing SOPs were numerous and confusing. For example:


9-1-1 Calls SOP
Multiple AFRH SOPs related to emergency procedures/response differed as to
when 911 should have been called.


Emergency Process SOP
AFRH-G’s SOP, G-HC-NUR-4-025, “Emergency Process,” July 6, 2012, did not
list   contents     of   the     emergency     medication   box.  SOP       W-HC-NUR-4-025,
“Emergency        Process,”    June   12,   2012,   (AFRH-W)   did   list    medications   in
the box, including some used in advanced cardiac life support, such as
atropine and epinephrine.

However, AFRH did not have appropriate monitoring equipment required for use
of those drugs and did not have individuals authorized/qualified to administer
Advanced Cardiac Life Support.




                                                                                            DODIG-2014-093 │ 25
Results – Part A



                 Medication SOPs
                 AFRH-G had 11 Nursing SOPs (SOPs G-HC-NUR-4-038, July 6, 2012, thru
                 G-HC-NUR-4-048, July 6, 2012,) related to medication. With so many SOPs, it was
                 difficult for the staff to find which one applied in a given situation. These SOPs should
                 have been combined into fewer documents or organized in systematic manner for easy
                 reference.


                 Nursing Responsibilities – All Shifts SOP
                 Although AFRH-G SOP G-HC-NUR-4-052, “Nursing Responsibilities – All Shifts,”
                 July 6, 2012, covered nursing responsibilities, there were duplicate SOPs
                 covering     some      of        the   same        tasks   (SOP     G-HC-NUR-4-008,       “Assignment
                 Sheets,” July 6, 2012, and G-HC-NUR-4-063 “Shift Report (24 Hour) – Nursing
                 Supervisors,”   July        6,     2012).     At     AFRH-W,      there   also    was    a   separate
                 SOP—W-HC-NUR-4-065 “Skipped Medication Reports,” June 12, 2012—which
                 overlapped      AFRH-W             SOP      W-HC-NUR-4-052,         “Nursing     Responsibilities – All
                 Shifts,” July 12, 2012. These SOPs should be combined.


                 Transfer Techniques – Ergonomic SOP
                 SOPs W-HC-NUR-4-068, “Transfer Techniques – Ergonomic,” June 12, 2012, and
                 G-HC-NUR-4-068, “Transfer Techniques – Ergonomic,” July 6, 2012, included a
                 section on mechanical lifts, yet separate SOPs—G-HC-NUR-4-036,                          Lift Devices,”
                 July 6, 2012, and SOPs W-HC-NUR-4-036, “Lift Devices,” June 12, 2012—also
                 existed. These SOPs should be combined.

                 All of the above SOPs, covering nursing responsibilities, could have been
                 covered completely in one single SOP. During site inspections, administrators,
                 and staff members were questioned about their knowledge/use of the nursing
                 SOPs. Actual practices/procedures were compared to the written nursing SOPs
                 in place and the DoD IG Inspection Team determined that many of the SOPs
                 did not reflect current practice. Also, practices which can present substantial
                 safety concerns to residents had no standard procedures in place. When nursing
                 staff members were questioned about procedures for specific activities, many
                 were unaware of the SOP or unaware of the contents of the SOP. The CHS at
                 both AFRH-W and AFRH-G were aware that they were not in compliance with all
                 policies and SOPs related to the handling of patients.

                 Two high-risk areas which would have benefitted from SOPs were (1) Anticoagulation
                 Management, and (2) end of shift narcotic reconciliation (narcotic counts).



26 │ DODIG-2014-093
                                                                                                                              Results – Part A



Anticoagulation Management (AFRH Coumadin Clinics)
Both facilities offer “Coumadin Clinics” managed by nurse practitioners. Coumadin
is one method of anticoagulation. Neither facility had a SOP on anticoagulation.
An SOP that included tracking the desired International Normalized Ratio (INR)24
range for each patient (based on the clinical indication for anticoagulation) would
have better enabled other healthcare providers to appropriately manage the patients
in the absence of the nurse practitioners. The tracking logs for each patient should
also be available to all healthcare providers at the facility.


End-of-Shift Narcotic Reconciliation
In addition, end-of-shift narcotic reconciliation, another high-risk area, had the
potential for medication diversion. The DoD IG Inspection Team did not find any
AFRH policy related to this area. Although “signing the narcotic book” was listed as a
requirement in the SOPs—W-HC-NUR-4-052, “Nursing Responsibilities,” July 6, 2012,
and G-HC-NUR-4-052, “Nursing Responsibilities,” July 6, 2012—the procedure was
not specific. For example, both nurses were directed to count the items and sign.
There were no specific directions to compare the counts or how to handle count
variances. Policies on end-of-shift reconciliations should either be developed as a
separate SOP or incorporated into the existing SOP.


Recommendations, Management Comments, and
Our Response
Recommendation 3
Armed Forces Retirement Home Chief Operating Officer:

                a.	Ensure medical standard operating procedures are re-written by
                    individuals with subject matter expertise, including knowledge of
                    current        medical        evidence-based             practice,       and      that      the       Armed
                    Forces Retirement Home staff is trained on the updated standard
                    operating procedures.




	 24	
        “International Normalized Ratio” (INR) is used to determine the clotting tendency of blood. The normal range is
        between 2 and 3.




                                                                                                                              DODIG-2014-093 │ 27
Results – Part A



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the Medical SOPs would be reviewed,
                 consolidated when applicable, and rewritten, where necessary, using evidence‑based
                 practice guidelines. The medical staff would then be trained on the latest SOPs.


                 Our Response
                 Management’s comments were responsive. We will request an update on this
                 process at a later date.

                          b.	 Develop appropriate standard operating procedures for the identified
                             high-risk areas.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was in progress.


                 Our Response
                 Management’s comments were responsive. We will request an update on this
                 process at a later date.

                          c.	Revise Armed Forces Retirement Home – Gulfport standard operating
                             procedures to make them specific to Armed Forces Retirement
                             Home – Gulfport needs and requirements.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, reporting that the recommendation was complete.


                 Our Response
                 Management’s comments were responsive. We request a copy of the revised
                 AFRH-G SOPs in response to the final report.




28 │ DODIG-2014-093
                                                                                                                                   Results – Part A




Observation 4
Policies on Credentialing,25 Privileging,26 and Medical
Staff Bylaws

The agency notices on medical staff bylaws, credentialing, and privileging:

                •	 were not specific to the scope and organizational function of the AFRH,

                •	 conflicted with Federal requirements,

                •	 were not based upon applicable accreditation standards or DoD policy,

                •	 conflicted with facility SOPs, and

                •	 did not delineate a process for investigating nursing care and reporting
                    disciplinary actions to state licensure boards.

Additionally, none of the agency policies and facility SOPs included a process for
investigating the quality of care provided by a nurse to determine if he/she failed
to meet standards of practice.

The          above        conditions          existed        because         of     the      insufficient         oversight       by
the         AFRH          medical          leadership           in      developing           appropriate             agency-level
credentialing/privileging policies.

As a result, AFRH was not in compliance with common industry standards for
credentialing,               privileging,          and        reporting           requirements             in     instances       of
sub-standard performance by healthcare providers (including nursing personnel)
to state and Federal authorities.




	 25	
        “Credentialing” is the formal process used to verify the qualifications, experience, professional standing and other
        relevant professional attributes of clinicians to ensure that clinicians provide safe high quality health-care services
        in accordance with good practice and legal requirements. Gurgacz, S. L., Smith, J. A., Truskett, P. G., Babidge, W. J.,
        & Maddern, G. J. (2012). Credentialing of surgeons: a systematic review across a number of jurisdictions.
        ANZ Journal of Surgery, 82(7/8), 492-498. doi:10.1111/j.1445-2197.2012.06115.x.
	26	
        “Privileging” is the process that healthcare organizations employ to authorize practitioners to provide specific
        services to their patients. It defines the scope and limits of practice for individual providers and is based on the
        capabilities of the healthcare organization and the credentials of the provider. Gagliano, R. D. (2010). Adverse
        Privileging Actions in the Army Medical Department. U.S. Army Medical Department Journal, 48-55.




                                                                                                                                   DODIG-2014-093 │ 29
Results – Part A



                 Discussion
                 AFRH Agency Notice 12-12, “AFRH Medical Staff Bylaws, Rules and Regulations,”
                 June 30, 2012, and AFRH Agency Notice 12-11, “AFRH Medical Credentialing and
                 Privileging,” July 30, 2012, were reviewed and compared to facility SOPs on
                 credentialing. AFRH Agency Notice 12-12 appeared to be extracted from the SOP of
                 a much larger in-patient acute care medical center. This was inappropriate because
                 the AFRH has CARF and The Joint Commission requirements (LTC and Ambulatory
                 Care) that are not required for large in-patient acute care medical centers.

                 AFRH Agency Notice 12-12 included services that were not offered at the AFRH
                 and which exceeded the scope of the AFRH. The notice required multiple medical
                 staff committees that did not exist within the AFRH. In addition, the guidance
                 provided in AFRH Agency Notice 12-12 for reporting adverse actions to the National
                 Practitioner Data Bank (NPDB)27 did not meet the requirements delineated in the
                 NPDB Guidebook. Moreover, the above guidance, together with the AFRH Agency
                 Notice 12-11, laid out an adverse action process that differed from the facility
                 SOPs on the same subject.

                 Both AFRH Agency Notice 12-11 and 12-12 failed to require privileging of nurse
                 practitioners (although the facilities were privileging nurse practitioners). Also,
                 these notices failed to address many of the other providers who were
                 appropriately being privileged by the facilities, such as:

                                 •	 psychologists,

                                 •	 dietitians,

                                 •	 social workers,

                                 •	 physical therapists,

                                 •	 occupational therapists,

                                 •	 optometrists, and

                                 •	 speech pathologists.




                 	 27	
                         National Practitioner Data Bank is a confidential information clearinghouse created by Congress, used in
                         conjunction with other sources to facilitate a comprehensive review and verification of the professional credentials
                         of healthcare practitioners who seek to be privileged at a healthcare organization. Retrieved from the NPDB website:
                         http://www.npdb-hipdb.hrsa.gov/hcorg/aboutQuerying.jsp, 22 October 2013.




30 │ DODIG-2014-093
                                                                                        Results – Part A



Similarly, AFRH facility SOPs G-HC-MED-4-03, “Credentialing,” July 29, 2012,
and   W-HC-MED-4-03,     “Credentialing,”   June   6,   2012,   did   not   address   the
credentialing and privileging of many of the providers already privileged at AFRH.

None of the agency policies and facility SOPs included a process for investigating
the quality of care provided by a nurse to determine if he/she failed to meet
standards of practice. Such a process is usually necessary to file a report to state
licensing and certification boards when a nurse is removed from practice due to
competency or other issues.

Although 24 U.S.C. §411(d)(3) (2012) stated that “the administration of the
Retirement Home, including administration for the provision of healthcare and
medical care for residents, must remain under the control and administration of
the Secretary of Defense,” the USD (P&R) had not directed the AFRH to follow
DoD instructions or regulations that were determined to be applicable to the
AFRH.   Consequently, the     2010 DoD IG Inspection report recommended that the
USD (P&R), “promulgate all desired DoD guidance deemed applicable to AFRH.”
This had not occurred because the USD (P&R) declined to identify DoD
instructions and regulations applicable to the AFRH, citing DoD Instruction 1000.28,
“Armed Forces Retirement Home (AFRH),” February 1, 2010, paragraph 4.b,
which stated that AFRH, “is not subject to DoD policy and issuances except when
expressly made applicable to the AFRH.”        This USD (P&R) position missed the
intent of the recommendation in that USD (P&R) was supposed to identify the
applicable DoD policy and issuances and expressly direct AFRH to follow them.
Failure to implement the recommendation in the 2010 DoD IG Inspection report
was a significant contributing factor in the issues identified during this
DoD IG inspection.


Recommendations, Management Comments, and
Our Response
Recommendation 4
Armed Forces Retirement Home Chief Operating Officer:

        a.	Ensure appropriate corrections to agency and facility policies, including
           bringing the policy into compliance with applicable Department of
           Defense medical instructions, directives, and regulations.




                                                                                        DODIG-2014-093 │ 31
Results – Part A



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, commenting that, while standards of The Joint
                 Commission and CARF would be the lead consideration in policy development at
                 the AFRH, medical instructions, directives, and regulations from other Federal
                 agencies would be referenced in development of AFRH policy.


                 Our Response
                 Management’s comments were responsive. We will evaluate this area again during
                 our next inspection.

                          b.	Provide a process for the investigation of nursing practice and
                             subsequent reporting to state boards of nursing.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, commenting that Nurse Practitioner policy would
                 be broadened, to include investigation of incidents and subsequent reporting to
                 state boards of nursing.


                 Our Response
                 Management’s comments were responsive. We will request an update on this
                 process at a later date.




32 │ DODIG-2014-093
                                                                                     Results – Part A




Observation 5
Credentialing and Privileging Process at Armed Forces
Retirement Home

The DoD IG Inspection Team observed that privileges granted to providers
included types of services that were not offered at the AFRH facilities.
The DoD IG Inspection Team also found that no data was being tracked for use
in re-privileging decisions.

This occurred because of a lack of appropriate medical oversight to the
credentialing and privileging process at the agency and AFRH-W levels, and
because of a failure to obtain appropriate training for staff involved in the process.

Consequently, inadequate credentialing and privileging allowed one unqualified
healthcare provider to work at AFRH and could allow other similar cases in future.


Discussion
Although, the credentialing and privileging process at AFRH had improved from
the 2010-2011 timeframe, significant issues still existed. The lack of definition of
qualification requirements by specialty made it more difficult for those without
training in credentialing to adequately perform their tasks. The credentials file
review identified one social worker at AFRH-G who did not have the correct
level of licensure for the privileges she was granted. She also did not meet the
licensure requirements in her job description.

The AFRH-G SOP G-HC-MED-4-03, “Credentialing,” June 29, 2012, indicated that
AFRH-G did their own privileging, although all privileging was actually done in
AFRH-W by the AFRH-W credentials committee. The current procedure involves
the Administrative Assistant to the AFRH Agency Medical Director verifying
the credentials at AFRH-W and managing the credentials committee minutes.
The AFRH Agency Medical Director gives guidance to the Administrative Assistant
on credentialing and privileging.

Although an AFRH-W staff member attended a briefing on credentialing and
privileging provided by the Chief of Quality Management (QM), U.S. Army
MEDCOM, in March 2011 and hoped to attend the Army training that




                                                                                     DODIG-2014-093 │ 33
Results – Part A



                 was offered at that time, she did not receive the training. This happened because
                 the agency Medical Director did not             send any staff to attend this training.
                 Staff members at both facilities indicated that they were still interested in
                 attending further training and improving their skills.

                 At the time of the March 2011 MEDCOM Chief of QM briefing, the AFRH-W
                 SOP 3-01, “Credentialing,” December 6, 2010, incorporated some, but not all,
                 guidance delineated in Army Regulation 40-68, “Clinical Quality Management,”
                 February 26, 2004, on credentialing and privileging. The SOP 3-01 required
                 the use of only some of the forms required                by AR 40-68 for use in the
                 credentialing process and the decision to award privileges. AFRH staff members
                 were not using the Department of the Army (DA) Form 5754 and SOP 3-01 did
                 not require the use. Had they used DA Form 5754, it would allow AFRH to capture
                 information about the seeking provider related to previous adverse actions taken
                 against a provider’s licensure and/or privileges, malpractice cases, and conditions
                 that may impact the provider’s ability to deliver care. In addition, AFRH staff
                 members were not querying, and SOP 3-01 did not require, AFRH staff members
                 to query, the NPDB prior to privileging medical providers, even though
                 this was required by of both Army and DoD regulations. At the time of the
                 2012 inspection, the DoD IG Inspection Team noted that AFRH had initiated NPDB
                 queries and were utilizing the equivalent of the DA Form 5754.                The DoD IG
                 Inspection Team was aware that this practice was only recently adopted and
                 not in place in 2011. The DoD IG Inspection Team determined that, in or around
                 March 2011, AFRH was not complying with the requirements of AR 40-68.

                 All the credentials files at both AFRH locations were reviewed. Throughout the
                 review, the findings and recommendations were discussed with the Administrative
                 Assistant at AFRH-W and the CHS at AFRH-G. Findings and recommendations
                 were also discussed with the agency Medical Director. The credentials file review
                 at AFRH-W was performed on two dates. On the first occasion, the DoD IG
                 Inspection Team identified an issue with expired licenses and credential issuing
                 organizations’ verification of a credential of a dietitian. Upon notification of that
                 issue, the AFRH-W staff member immediately recognized that she had other
                 files with similar issues. By the time of the second visit, the staff member had
                 completed or requested those verifications on the certifications/registrations
                 of   Dietitians,   Occupational   Therapists,    Speech   Therapists,   and   Educational
                 Commission for Foreign Medical Graduates certifications on two physicians.




34 │ DODIG-2014-093
                                                                                             Results – Part A



The most significant credentials finding was a social worker at AFRH-G who was
not licensed to work independently. Both her job description and the privileges
she was granted by the credentials committee required licensure at an independent
level. She was licensed at the bachelor’s degree level in the state of Mississippi,
which limits the scope of practice, specifically stating that she must be under
supervision (not independent) and “should not provide clinical social work
services, psychotherapy, or engage in autonomous practice.” Yet, the social worker
was still privileged (via the AFRH-W credentials committee) to independently
provide social work services and some therapies at AFRH-G.                Other findings at
AFRH-G included failure to perform primary source verification of residency
training   of   two   providers   and   failure    to   verify   all   licenses   of   several
other providers.

Findings at AFRH-W included the need to verify the Educational Commission for
Foreign Medical Graduates certification and the fellowship of a physician, and a
dietitian whose file stated she was not required to have a license and did not
require privileges. The Administrative Assistant did not know why this statement
was in the file and neither did the AFRH Agency Medical Director, who was
previously the CMO and Chair of the credentials committee at AFRH-W. The dietitian
was registered through the Commission on Dietetic Registration. The supervisory
dietitian was licensed, registered, and privileged. Although the Office of Personnel
Management qualification standards required the registration, neither position
descriptions (PDs) for the dietitians required the dietitians to be licensed or
registered. The AFRH needs to decide how to implement licensure or registration.

No data was being collected and used to support effective re-privileging. Effective
peer review was not being performed.  At the time of the inspection, a peer would
be asked to fill out a “peer appraisal” form, but it was not based on any data
tracked by the facility on individual providers.

The AFRH had re-privileged all the providers at the 1-year mark. This was
not necessary. It may be done every 2 years. Strictly speaking, the NPDB
Guidebook allows organizations who renew privileges every year to only query
the NPDB every 2 years, so the AFRH was not in violation of NPDB rules in this
area. But it would be more efficient to synchronize completion of forms, NPDB
queries, and re-privileging. At the time of re-privileging, AFRH did not require
the providers to fill out the AFRH equivalent of the DA Form 5754, which
required the provider to provide information about adverse licensure events,




                                                                                             DODIG-2014-093 │ 35
Results – Part A



                 malpractice, and other adverse events. According to the DoD IG Inspection
                 Team’s medical inspectors, this should have been done each time the provider
                 was re-privileged. NPDB queries should have also been performed at the time
                 of re-privileging.

                 Privileges must be specific to the medical capabilities of the facilities. Multiple
                 providers from WRNMMC had been granted privileges by AFRH to provide
                 services in areas that did not exist at AFRH. Some providers were privileged
                 using standard DA forms, while others were privileged using improvised forms
                 created by copying DA Form contents onto an AFRH letterhead. The AFRH-W
                 Administrative Assistant noted that she had asked about modifying the content
                 to delete items that did not apply, including the out-of-scope capabilities, but that
                 was not approved by the AFRH Agency Medical Director.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 5
                 Armed Forces Retirement Home Chief Operating Officer:

                          a.	
                            Ensure     appropriate     training     for   those   personnel   performing
                             credentials verification and ensure oversight by qualified medical
                             leadership to oversee the credentialing process.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that training for all personnel involved in
                 credentialing verification was completed in April 2013.


                 Our Response
                 Management’s comments were responsive. We ask that the AFRH COO provide a
                 copy of training documentation in response to the final report.

                          b.	Ensure that privileges on the Armed Forces Retirement Home forms
                             are limited to those procedures and practices that are within the
                             operational scope of the facilities.




36 │ DODIG-2014-093
                                                                                       Results – Part A



Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that specialists in each discipline would
review requests to ensure that all requests are within the scope of the facility.


Our Response
Management’s comments were partially responsive, since they describe what was
being done at the time of our inspection, which, at least at that time, was not
sufficient. We ask that AFRH management review the forms they have developed
and remove the procedures that are outside the scope of the facility from the
forms, eliminating the ability to request procedures that are not done at AFRH.
We will request an update on this process at a later date.

         c.	Immediately institute peer review and tracking of peer review data by
           provider for use in evaluation of their competence for re-privileging.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that data documentation would be reported
in a manner that more clearly demonstrates its connection to the renewal
of clinical privileges. He also disagreed with the inspectors statements that the
AFRH was not using DA 5754 (Malpractice History Form) and did not query the
NPDB prior to privileging medical providers. He reported that use of DA 5754
and query of the NPDB had been standard practice for 12 years.


Our Response
Management’s comments were partially responsive. While our medical inspectors
were not able to document use of the DA 5754 and query of the NPDB prior to 2011,
we will not dispute management’s contention. Additionally, our medical inspectors
determined that peer review in connection to renewal of clinical privileges involved
only a limited review of records that did not evaluate or track the content of the
medical record, the assessment of the patient, the appropriateness of the treatment,
etc. We will look at this again on our next inspection.

         d.	 Include the qualification requirements in policy, by specialty. (Chapter  7
           of Army Regulation 40-68 could be used as a guide to placing
           qualification requirements into the Armed Forces Retirement Home
           Agency guidance for those specialties employed or contracted to work
           at Armed Forces Retirement Home facilities.)




                                                                                       DODIG-2014-093 │ 37
Results – Part A



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, commenting that AFRH elected to not have a chapter in
                 policy referring to qualifications, relying instead on position descriptions (PDs)
                 for Federal employees and qualification on the Contractor’s Performance Work
                 Statement (PWS) to delineate qualifications. A copy of the position description
                 or PWS qualification requirements will be included in each credentialing package.


                 Our Response
                 Management’s comments were partially responsive. DoD IG medical inspectors’
                 observations found indications that position descriptions were altered to lower the
                 credentialing requirements or were not used at all. This could result in selection
                 of less than best-qualified candidates for medical leadership positions. The PDs
                 and PWS need to be written with knowledge of the requirements of the specialty.
                 The   requirements,   by   specialty   need   to   be   established   first,   not   fully
                 based on what may be outdated Office of Personnel Management (OPM)
                 specialty requirements. We will look at this again on our next inspection.

                         e.	Take immediate action to remove the privileges of the social worker
                           with the incorrect level of licensure and notify her of the requirement to
                           obtain licensure at the independent (non-supervised) level.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO reported that the employee in question no longer works for the AFRH.


                 Our Response
                 Management’s comments were responsive. No further action is required.




38 │ DODIG-2014-093
                                                                                     Results – Part A




Observation 6
Involvement of the Office of the Deputy Director,
Defense Health Agency and the Under Secretary of
Defense for Personnel and Readiness

The DoD IG Inspection Team observed that:

        •	 There was no routine interaction between the Deputy Director of
           DHA and the USD (P&R) on AFRH operations. At the time of the
           inspection, interactions occurred only when there was a crisis-level
           issue at the AFRH.

        •	 The Deputy Director of DHA had no formal recordkeeping process to
           document his/her visits to the AFRH and the recommendations made to
           the COO or Advisory Council.

        •	 The USD (P&R) had not required AFRH to follow DoD instructions,
           regulations, or directives. Because of this condition, the Deputy Director
           of DHA could not require AFRH to follow DoD instructions, regulations,
           or directives.

This occurred because the language of section 411(a), title 24, United States
Code (24 U.S.C. § 411(a) [2012]) and DoD Instruction 1000.28 (2010) state that AFRH is
an independent agency. This caused confusion about the roles and responsibilities
of OUSD (P&R) in performing oversight and providing guidance to the AFRH,
as delegated to the Secretary of Defense by 24 U.S.C. § 411(d)(3) (2012).

As a result, when the Deputy Director of DHA disagreed with, or was concerned
by, a decision made by the AFRH COO, there was no effective system in place to
raise the issue with the USD (P&R) and no records system to document it.




                                                                                     DODIG-2014-093 │ 39
Results – Part A



                 Discussion
                 Section 413a, title 24, United States Code required that the:

                         •	 Secretary of Defense designate the Deputy Director of the DHA to serve
                            as the SMA to the AFRH,

                         •	 SMA provide advice regarding the direction and oversight of medical
                            administrative matters and the provision of care at the AFRH sites to the:

                                   {{   Secretary of Defense

                                   {{   USD (P&R)

                                   {{   COO

                                   {{   Advisory Council

                         •	 SMA advise the USD (P&R) regarding the operations of the AFRH, and

                         •	 SMA conduct periodic visits to the facilities to review medical
                            facilities, operations, records and reports, the quality of care provided
                            to residents, and ensure appropriate follow-up of inspections and
                            audits occurred.

                 The Deputy Director of DHA (at the time of            DoD IG inspection) assumed his
                 position as the AFRH SMA in the summer of 2011. He visited the facilities once
                 in 2012. He and his staff also visited AFRH-W and AFRH-G facilities in the
                 months preceding the DoD IG inspection.         However, documentation of the prior
                 SMA visits to AFRH and involvement was primarily by e-mail and was generally
                 unavailable once that SMA left the organization.

                 The previous SMA made several visits to the AFRH-W in 2009, including
                 one on Thanksgiving Day. In late 2010, an issue arose at the AFRH-W facility and
                 DHA assisted with evaluation of the issue. It was discovered that the AFRH
                 leadership had allowed a psychiatrist, who had lost his license, to continue
                 practicing at the AFRH-W. The SMA worked with the COO to develop a plan to
                 manage the issue. On February 9, 2011, a physician and a nurse from DHA went
                 to the facility and reviewed all credentials files. Among their recommendations
                 was to have the staff at AFRH obtain formal training on credentialing.

                 At the time of this review, the AFRH was following some, but not all guidance
                 delineated in AR 40-68, “Clinical Quality Management,” February 26, 2004.




40 │ DODIG-2014-093
                                                                                Results – Part A



The DHA nurse requested that the MEDCOM Chief of QM review the AFRH SOP
on credentialing and provide training on credentialing and privileging at
AFRH-W. On March 24, 2011, the MEDCOM Chief of QM, gave a presentation on
credentialing and privileging at AFRH Agency. A discussion of peer review and
on-going monitoring of performance ensued. The MEDCOM Chief of QM’s review
of the AFRH SOP on credentialing and privileging also identified questions
about the applicability of DoD policies and regulations to the AFRH. The
MEDCOM Chief of QM offered to allow staff from AFRH to attend MEDCOM
sponsored training on credentialing and privileging. The offer included use
of the DoD Centralized Credentials Quality Assurance System under the Army
section of that system. However, at the time of the DoD IG inspection, no staff
members had attended this training.

In that same time period, the AFRH COO decided to designate a Medical Director
at the agency level. The SMA and DHA staff reportedly advised the COO not to
promote the AFRH-W CMO to this position because of his role in allowing the
unlicensed psychiatrist to work and his reported inability to grasp the concepts
of quality management and peer review (for which he would be responsible
at the agency level).   The AFRH COO states he did not receive this advice from
the SMA or the DHA staff. The COO proceeded to promote the AFRH-W CMO to the
Medical Director position at the agency level.

At the time of the DoD IG inspection, there were no regularly scheduled meetings
between the SMA and the USD (P&R). There were also no regular reports by the
SMA to the USD (P&R). The SMA spoke with the USD (P&R) only if an issue
arose. The incumbent SMA noted that his role was only advisory and he could
not require the AFRH to follow his advice. As a result, the SMA had no visibility
of key hiring actions/internal promotions or medical issues occurring at the
AFRH. Furthermore, the SMA was not consulted on budgetary issues which
affected the adequacy of medical and nursing staff. Meetings and reports between
the SMA and the USD (P&R) would be useful to ensure that the advice provided
by the SMA would be followed (or at least seriously considered) by the COO.




                                                                                DODIG-2014-093 │ 41
Results – Part A



                 Recommendations, Management Comments, and
                 Our Response
                 Revised Recommendation 6.a
                 Under Secretary of Defense for Personnel and Readiness:

                       (1)	 Strengthen the advisory role of the Senior Medical Advisor by
                             improving his/her oversight over medical issues and personnel issues
                             associated    with    key    medical     positions    at     the   Armed    Forces
                             Retirement Home.

                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD (P&R) non-concurred with the recommendation as written in the draft
                 report, which stated “…strengthen the oversight role of the Senior Medical
                 Advisor by improving his/her authority over medical, budgetary, and personnel issues
                 at the Armed Forces Retirement Home.” USD (P&R) noted that statutory language
                 establishes the SMA requirements, stating that the SMA shall provide advice to
                 the Secretary of Defense, the USD (P&R), the AFRH COO, and the Advisory Council
                 regarding the direction and oversight of medical administrative matters and the
                 provision of medical and dental care services. The SMA has no authority over the
                 AFRH, as stated in the recommendation. The SMA responsibilities do not include
                 budgetary and personnel issues.


                 Our Response
                 Based on management’s comments, we revised the recommendation as noted
                 above, stating that USD (P&R) should strengthen the SMA’s advisory role,
                 removing the implication that he had authority over the AFRH COO. We ask that
                 the USD (P&R) respond/comment on this revised recommendation in response
                 to the final report.

                       (2)	 Establish routine communication and reporting requirements to the
                             Under Secretary of Defense for Personnel and Readiness from
                             the   Armed     Forces      Retirement     Home      Chief    Operating     Officer
                             and    the   Deputy   Director    of     Defense     Health    Agency,    including
                             periodic reports on Defense Health Agency interactions with the
                             Armed Forces Retirement Home.




42 │ DODIG-2014-093
                                                                                    Results – Part A



Under Secretary of Defense for Personnel and Readiness Comments
USD (P&R) concurred, stating that the SMA developed an oversight plan that
included communication and reporting requirements. This plan was approved by the
USD (P&R).


Our Response
Management’s comments were responsive. We request a copy of the SMA’s oversight
plan in response to the final report.

      (3)	 Ensure that records of these reports are formalized and maintained.

Under Secretary of Defense for Personnel and Readiness Comments
USD (P&R) concurred, stating that the SMA’s oversight plan contained documentation
requirements.


Our Response
Management’s comments were responsive. We request a copy of the SMA’s
oversight plan in response to the final report.


Revised Recommendation 6.b
Deputy Director of the Defense Health Agency, advise the Under Secretary of
Defense for Personnel and Readiness and the Armed Forces Retirement
Home Chief Operating Officer on which Veteran Affairs/DoD Clinical Practice
Guidelines may be appropriate for incorporation into medical operations
at the Armed Forces Retirement Home.


Deputy Director of the Defense Health Agency/Under Secretary of Defense
for Personnel and Readiness Comments
USD    (P&R)    and    the    Deputy    Director,   DHA,   non-concurred   with   the
recommendation as written in the draft report, which stated “…advise the Under
Secretary of Defense for Personnel and Readiness on which Department of
Defense Medical Instructions, Regulations, and Directives are appropriate for the
Armed Forces Retirement Home to follow/implement.” USD (P&R) noted that
statutory language establishes the SMA requirements, stating that the SMA
shall provide advice to the Secretary of Defense, the USD (P&R), the AFRH COO,
and the Advisory Council regarding the direction and oversight of medical
administrative matters, provision of medical and dental care services. The SMA




                                                                                    DODIG-2014-093 │ 43
Results – Part A



                 has no authorityover the AFRH. USD (P&R) stated that AFRH would follow
                 national medical standards, as does the DoD and VA, when developing medical
                 policies.    AFRH   should   consider   incorporating   relevant    information   from
                 VA/DoD CPGs. Requiring AFRH to follow DoD/VA medical standards for which
                 they have no input to the content would create risk for noncompliance with
                 nationally recognized medical standards focused on the population and organization
                 of the AFRH.


                 Our Response
                 Based       on   management’s   comments,     we    revised   the     recommendation
                 as written above. We note that section 413a(2), title 24, United States
                 Code (24 U.S.C. § 413a(2) [2012]) states that the SMA shall ‘ensure compliance
                 by the facilities of the retirement home with accreditation standards, applicable
                 health care standards of the Department of Veterans Affairs, or any other health
                 care standards and requirements (including requirements identified in applicable
                 reports of the Inspector General of the Department of Defense.” USD (P&R)
                 stated, in response to recommendation 1.a and 1.b, that AFRH would incorporate
                 relevant information VA/DoD CPGs for the assessment and management of
                 patients at risk for suicide, as policy is updated. In response to the final report,
                 we ask that the Deputy Director of the DHA respond/comment on this revised
                 recommendation that supports the USD (P&R) position.




44 │ DODIG-2014-093
                                                                                     Results – Part A




Observation 7
Medical Leadership

The DoD IG Inspection Team observed that:

        •	 AFRH Agency and AFRH-W lacked sufficiently competent physician
           leadership. The incumbents did not:

                  {{   have the knowledge and skills to perform the functions required
                       of their job description, and

                  {{   understand evidence-based practice, including clinical practice
                       guidelines and national immunization recommendations.

        •	 AFRH-G had a part-time contract physician who performed some
           of the CMO duties. He had the knowledge and skills required to perform
           the duties of CMO.

This occurred because AFRH upper management appeared to hire less qualified
internal candidates, instead of opening positions to external applicants who might
be better qualified. AFRH upper management placed very high priority on the
candidate’s length of service at AFRH rather than on the capability of the
candidate. Also, the COO preferred to pay the lower end of the salary range to
the staff, which resulted in the exclusion of more qualified candidates who
were unwilling to accept the lower salary.

These issues were significant contributing factors to the overall issues with
SOPs and were contributing to residents not receiving evidence-based care and
recommended immunizations.


Discussion
The DoD IG Inspection Team conducted multiple interviews with the medical
and healthcare leadership. The DoD IG Inspection Team also reviewed job
descriptions, curriculum vitae, and policies. The interviews included the AFRH
Agency Medical Director, the AFRH-W CMO, the AFRH-G part-time contract CMO,
the AFRH-W Chief of Performance Improvement (PI), the DHA SMA, and the CHSs
and Directors of Nursing (DON) of both facilities. The DoD IG Inspection Team
also interviewed the COO, as a follow-up to previous interviews.




                                                                                     DODIG-2014-093 │ 45
Results – Part A



                 AFRH Agency Medical Director
                 The AFRH Agency Medical Director position was developed after an adverse event
                 at the facility resulted in the SMA’s staff identifying that AFRH-W was allowing
                 a psychiatrist who had lost his license to continue to work at the facility.
                 The individual responsible for that error in judgment was promoted to the AFRH
                 Agency Medical Director position, despite the SMA’s advice against the promotion.
                 Federal regulation does not require the AFRH to follow the advice offered by the
                 Deputy Director, DHA, only that this advice be provided.

                 The AFRH Agency Medical Director job description provided to the medical team
                 included the following duties:

                         •	 developing and implementing clinical policies, guidelines, and procedures
                            for comprehensive healthcare programs at both AFRH facilities;

                         •	 establishing practice parameters for non-physician healthcare providers
                            and procedures for monitoring the quality of care provided;

                         •	 keeping healthcare administrators informed of any problems regarding
                            access to care, quality of care, and risk management issues;

                         •	 performing direct patient treatment, both inpatient and outpatient;

                         •	 developing a full treatment regimen, including the knowledge of new
                            techniques and advanced procedures;

                         •	 chairing the clinical investigation committee;

                         •	 monitoring the quality of healthcare delivered; and

                         •	 assuring that both facilities meet national accreditation standards.

                 The AFRH Agency Medical Director spent almost his entire career at the
                 AFRH-W. He had only 2 years of clinical experience (other than training
                 programs and research) prior to coming to AFRH-W. The AFRH Agency Medical
                 Director was involved in formulating agency policies on credentialing, medical
                 staff bylaws, pain management, and suicide awareness. However, he was not
                 tracking any data related to the implementation of these policies. In interviews,
                 the AFRH Agency Medical Director could not articulate, and appeared to not
                 understand, quality management processes such as peer review and clinical
                 quality improvement. With regard to any data used for clinical performance




46 │ DODIG-2014-093
                                                                                Results – Part A



improvement, the AFRH Agency Medical Director referred the DoD IG Inspection Team
to the AFRH-W PI Integrator, who had since been promoted to the agency level.
The AFRH Agency Medical Director did not use any of the VA/DoD CPGs. He was only
familiar with the American Diabetes Association CPG on diabetes.

The AFRH Agency Medical Director was the agency-level official responsible
for planning and supervising direct healthcare services and for establishing
practice parameters for non-physician healthcare providers. However, he did not
know what action was being taken regarding the social worker who did not meet
licensure requirements for her position and privileges at AFRH-G, when questioned
by the DoD IG Inspection Team a week after the on-site inspection has identified
the deficiency. Immediately following the DoD IG visits, the newly selected
AFRH Agency PI Integrator noted that she had been tasked to manage the
credentialing process for AFRH, a function that was usually part of the job
description of the AFRH Agency Medical Director.


Armed Forces Retirement Home – Washington, D.C. Chief Medical Officer
At the time of inspection, the AFRH-W CMO had been in this position for 8 months.
He worked as a contractor at the AFRH from 1986 to 2004 and later returned to
AFRH in 2007 as an employee.

The AFRH-W CMO reviewed medical records on the providers he supervised (the
nurse practitioners), but was not aware of any peer reviews on these providers.

According to the CMO, podiatrists at the two facilities reviewed each other’s
records. However, there was no established standard as to what they reviewed.
Also, there was no tracking of the findings for re-appraisal and re-privileging
of the podiatrists.

In addition, the AFRH-W CMO did not appear to understand the concept of
CPGs.  Even after the concept was explained and the example of his own
professional organization, (which developed CPGs) was provided, the AFRH-W
CMO still did not seem to understand. He was unaware of VA/DoD CPGs.

As the DoD IG Inspection Team discussed immunizations with the AFRH-W CMO,
they determined that the AFRH-W CMO was unaware that the Zoster vaccine
has been recommended by the Centers for Disease Control and Prevention since
2008 for individuals over the age of 60. The residents of the AFRH were all in
this age group.




                                                                                DODIG-2014-093 │ 47
Results – Part A



                 Armed Forces Retirement Home – Gulfport Chief Medical Officer
                 AFRH-G had a part-time contractor performing some of the duties of a CMO.
                 The incumbent was recently retired from the Air Force, where he last served
                 as Chief of the Medical Staff. He was fully up to date on evidence-based
                 practice, including CPGs. He understood quality management and performance
                 improvement. In addition, the CHS and the DON both had LTC experience and
                 were fully aware of VA/DoD CPGs and other standards of practice.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 7.a
                 Under Secretary of Defense for Personnel and Readiness, require the Armed
                 Forces Retirement Home Chief Operating Officer to open available agency-level
                 and facility-level leadership position hiring actions to external applicants
                 and authorize the Senior Medical Advisor to participate in the selection process.


                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD (P&R) concurred, stating that the recommendation was complete. The Chief
                 of Healthcare Services and Director of Nursing position for the AFRH-W were
                 posted on USA Jobs and a representative of the SMA was on the selection panel.


                 Our Response
                 Management’s comments were responsive. No further action is required at this time.


                 Recommendation 7.b
                 Armed Forces Retirement Home Chief Operating Officer:

                      (1)	 Set hiring criteria and performance objectives which require that
                           the current and future Agency Medical Directors and Armed Forces
                           Retirement Home – Washington, D.C. Chief Medical Officers be, or become,
                           clinically and administratively competent.




48 │ DODIG-2014-093
                                                                                           Results – Part A



Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, noting that the recommendation was complete, as
hiring criteria and performance objectives are determined by the position
description and that the current AFRH Medical Director and CMO meet all the
criteria in their position descriptions.


Our Response
Management’s comments were partially responsive. While hiring criteria
may be derived from position descriptions, there is no OPM requirement that
performance objectives in the individual’s annual performance plan must be
exclusively drawn from position descriptions. We ask that the AFRH COO
determine how he would modify the appropriate performance objectives to
require administrative and clinical competency of the AFRH Medical Director
and    CMO.    He   should    seek    the   assistance      of   the   SMA   in   developing
these performance objectives. We will request an update on this process
at a later date.

      (2)	 Convert the Armed Forces Retirement Home – Gulfport contract physician
            position to full-time civil service position.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, noting that the physician position’s conversion to a
full-time civil service position was underway.


Our Response
Management’s comments were responsive. We will request an update on this
process at a later date.




                                                                                           DODIG-2014-093 │ 49
                                                                                   Results – Part A




Observation 8
Human Resources Practices and Impact on
Medical Issues

The DoD IG Inspection Team observed that:

        •	 AFRH had not opened medical and healthcare leadership job
           announcements to outside candidates.

        •	 AFRH-W had altered position descriptions, in at least one case, to
           allow the selection of internal candidates who did not meet prior
           qualification requirements.

        •	 AFRH was not following the recommendations of BPD to report
           individuals disciplined/terminated for negligence to state licensing/
           certifying boards.

        •	 Supervisors at AFRH had not been trained to serve as supervisors in
           the Federal system.

This occurred because:

        •	 AFRH leadership failed to follow AFRH regulations or guidance in their
           human resources (HR) practices.

        •	 AFRH had not been required to, and did not follow DoD regulations in
           their HR practices.

        •	 AFRH COO failed to ensure that appropriate training was provided to
           all supervisors.

This has resulted in:

        •	 inability of leadership to set appropriate medical standards for the care
           of residents, increasing the risk of inadequate, and inappropriate care;

        •	 nursing personnel who were disciplined/terminated for negligence not
           being reported to state licensing boards; and

        •	 nursing supervisors who felt that they could not improve the quality of
           medical services at AFRH and had to tolerate incompetent personnel.




                                                                                   DODIG-2014-093 │ 51
Results – Part A



                 Discussion
                 Significant HR issues were identified throughout the inspection. Specifically:

                                 •	 nursing supervisors had not received supervisory training;

                                 •	 policies did not include a process to evaluate quality of care issues
                                    in nursing and to report instances of abuse, neglect, mistreatment
                                    of    residents,        or     misappropriation             of    their      property       to   state
                                    licensing boards;       28



                                 •	 supervisory          nursing       personnel         believed       they      were        unsupported
                                    when disciplinary actions concerning their staff needed to be taken
                                    at AFRH-W;

                                 •	 AFRH Agency and AFRH-W lacked adequate medical leadership; and

                                 •	 AFRH Agency and AFRH-W failed to open jobs for competition to
                                    anyone outside the organization.

                 The only HR training that AFRH had documented for supervisory nursing
                 personnel was the “No Fear Act” training. This was true at both AFRH-W and
                 AFRH-G facilities.

                 At the time of the inspection, BPD was providing HR support to the AFRH. Interviews
                 were conducted with staff members and the supervisor of the Labor and
                 Employee Relations section at BPD. All allegations of nursing “negligence”
                 were supposed to be reported to BPD for possible investigation. In the past,
                 AFRH conducted its own investigations, but this responsibility was shifted to
                 BPD to ensure consistency in both the investigative process and the disciplinary
                 actions taken as a result of the investigations. However, BPD did not have
                 clinical personnel and had to rely on the expertise of the medical/nursing staff
                 at the AFRH facility where the issue had originated. This raises questions about
                 the independence of their investigation. It was also noted that BPD had recently
                 investigated medical action taken by a physician. This was inappropriate, as BPD
                 had no personnel qualified to investigate the clinical care delivered by a physician.
                 In addition, AFRH Agency policies on medical staff credentialing and privileging
                 required an investigation be done by a physician.




                 	 28	
                         42 CFR 483.13(c)(2) Retrieved from http://www.law.cornell.edu/cfr/text/42/483.13, 22 October 2013.




52 │ DODIG-2014-093
                                                                                              Results – Part A



Since    2008,    BPD      had   recommended       that   AFRH   report    all   medical    and
nursing personnel terminated for negligence to their state licensing boards.
However, AFRH had not followed these recommendations. In addition, those
allowed to resign (in lieu of termination) should have also been reported to
their state licensing boards (board requirements). However, AFRH did not report
such cases to the licensing boards.

Excluding simple medication errors and other minor reports, BPD had 21  significant
medically-related cases in 2012 (January 1–November 14).  Nine of those cases were
still   under    review.    Reports   to   state   licensing   boards     were   required    by
multiple regulations. DoD Regulation 6025.13-R, “Military Health System (MHS)
Clinical Quality Assurance (CQA) Program Regulation,” June 11, 2004, requires
reporting professional review actions to state licensing boards. AR 40-68, which
ARFH was partially following in the past, also requires reporting to state
licensure boards.

The issues of inadequate medical leadership and failure to open jobs to
individuals outside the agency were very much related. When questioned about
why they did not open job announcements externally, the COO and the Chief
Human Capital Officer stated that they had qualified candidates at the AFRH,
so there was no need to open the vacancies to external candidates. However,
they based their principal determination of the qualification of candidates on
time in service at AFRH and loyalty to the AFRH, but not necessarily on
competence or capability.

As a result of this personnel practice, AFRH-W leadership had an agency Medical
Director who did not understand or meet most of the requirements of his job
description. Some of his duties were being shifted to the new PI Integrator at
the AFRH Agency. Faulty personnel practices had also resulted in a CMO at
AFRH-W who did not understand evidence-based practice, did not know what a
CPG was, and did not keep up with current immunization recommendations for
individuals in the primary age group of residents at AFRH.

In addition, AFRH-W leadership included a CHS who had been promoted from
her position as the DON to the CHS with only an associate’s degree in nursing.
This was very unusual because a Master’s degree is the industry standard for a
position at the GS-14 level. The CHS’s duties included managing AFRH-W’s
entire healthcare operations. Yet, the current DON, who reported directly to
the CHS, had a Master’s degree in nursing and was more qualified than the




                                                                                              DODIG-2014-093 │ 53
Results – Part A



                 CHS. The AFRH-W organizational structure diagram also showed that the
                 physicians (including the CMO) reported to the CHS as well. In addition,
                 during staff interviews, the DoD IG Inspection Team found that the CHS was
                 not letting her replacement perform DON duties. The CHS appeared to be
                 most comfortable with managing nursing duties and had no experience in
                 managing            other      medical       services.         The    DoD IG       Inspection        Team       concluded
                 that an insufficiently qualified person was hired in a leadership position.

                 Also, based on information the DoD IG Inspection Team obtained from the
                 various sources, the incumbent CHS was neither sufficiently experienced nor
                 was good at managing people and operations. Post inspection confidential
                 communications from senior officials at AFRH-W indicated that, despite having
                 a better qualified candidate and objection from the AFRH-W Administrator,
                 the current CHS was selected by the COO. This was another example of the
                 COO hiring an internal candidate who was not the best qualified candidate.
                 While the DoD IG Inspection Team understands the concept of balancing
                 the financial burden of paying industry standard salaries with the need
                 for        the     best      qualified       candidate,         the    DoD IG        Inspection        Team        believes
                 that by placing too much emphasis on cost reduction, AFRH management
                 ended up with insufficiently qualified personnel unable to properly manage
                 the healthcare services.

                 Furthermore, when the current CHS was hired as the DON in 2009, the job
                 announcement was apparently tailored to fit the candidate. The announcement
                 of this GS-13/14 position required only a degree,29 license, and 1 year of
                 experience.            The      position       description           (PD)    had      no     specified        educational
                 requirements, although the prior GS-13 DON PD required the individual to “possess
                 master degree level of preparation.” This appeared to have been deliberately
                 left out of the PD to enable promotion of an employee with only an associate’s
                 degree in nursing, thus downgrading the requirements for the position and
                 the capability of the incumbent. Furthermore, the PD for the Associate DON,
                 a position subordinate to the DON, required master’s level preparation. This
                 was another example of hiring an internal candidate who did not meet the
                 qualifications            normally       required        for    the     position.  When            asked      about          his
                 reasoning behind hiring the current CHS, the COO stated that his hiring
                 philosophy was to hire personnel and develop them into their respective positions.

                 	 29	
                         Job announcement 10-AFRH-004, Qualifications, Basic Requirements, “A degree or diploma from a professional nursing
                         program approved by the legally designated state agency at the time of the program was completed by the applicant
                         is required.”




54 │ DODIG-2014-093
                                                                                Results – Part A



The DoD IG Inspection Team also found that the AFRH Agency PI Integrator
had little experience in QM and PI outside of the PI program at the AFRH.
Although the AFRH Agency PI Integrator needed training, she had no one at
AFRH to teach her. The AFRH Agency PI Integrator is pursuing all internal and
external training in an attempt to fully learn her duties. Again, it would have
been a better decision to open the position to outside applicants to ensure that
the most qualified individual was hired, rather than hiring an internal candidate
who was not qualified for the position. When asked about his rationale behind
promoting the current PI Integrator, the COO acknowledged that the current
PI Integrator was not qualified for the QM position, but believed that she could
learn and grow into it.


Recommendations, Management Comments, and
Our Response
Recommendation 8.a
Under Secretary of Defense for Personnel and Readiness, when disciplinary
action is taken against nursing personnel, require the Armed Forces Retirement
Home to report that disciplinary action to appropriate state licensing/
certifying boards.


Under Secretary of Defense for Personnel and Readiness Comments
Management concurred, stating that they would require the AFRH to establish
and implement a disciplinary action policy based on the state/district law for
reporting disciplinary action and report to the appropriate state/district
licensing/certifying boards.


Our Response
Management’s comments were responsive. We will request an update on this
process at a later date.




                                                                                DODIG-2014-093 │ 55
Results – Part A



                 Recommendation 8.b
                 Armed Forces Retirement Home Chief Operating Officer:

                       (1)	 Ensure that supervisors receive appropriate Federal supervisory training.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that all supervisors had received a minimum
                 of 8 hours of Federal supervisory training.


                 Our Response
                 Management’s comments were responsive. We ask that the AFRH COO
                 provide documentation of this training in response to the final report.

                       (2)	 Establish procedures to ensure that medical personnel hired are
                             appropriately qualified for their positions, in accordance with Office
                             of Personnel Management guidelines.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that all applicants provided to AFRH hiring
                 managers are screened according to OPM guidelines at the Bureau of Fiscal
                 Services before they are placed on a certificate of eligibility.


                 Our Response
                 Management’s comments were responsive. We will look at this area again in our
                 next inspection.




56 │ DODIG-2014-093
                                                                                    Results – Part A




Observation 9
Occupational (Employee) Health

The DoD IG Inspection Team observed that:

         •	 The employee health program was not fully implemented at either facility.

         •	 Although the AFRH Agency Directive 4-9, “Medical Qualification
            Determinations,” September 14, 2007, did provide direction for
            determining medical qualifications of job applicants and staff, the
            organization was not following the directive with current employees,
            including employees receiving injury compensation.

         •	 Although   the   AFRH    Agency    Directive   4-14,   “AFRH   Reasonable
            Accommodation Policy and Plan,” September 15, 2009, did provide
            guidance on the reasonable accommodation of job applicants and
            current employees, the organization was not following the directive.

This occurred because agency and facilities management had failed to enforce
internal policies.

As a result, AFRH had a number of nursing personnel who were incapable of
performing their duties because of medical limitations.


Discussion
At AFRH-W, nursing staff members were often unable to perform the duties
required of their positions due to health reasons. Employees with physical
limitations would submit notes from their private physicians to exempt them
from certain shifts or duties, and, in some cases, permanently. The CHS sent the
notes and additional documentation to the AFRH Agency Medical Director for review,
but did not receive responses. The lack of responses hindered the evaluation of
physical limitations. AFRH Agency guidance on reasonable accommodation failed to
address this issue.

Employee records reviewed at AFRH-W indicated that pre-employment physicals
had occurred. However, physical requirements were not established for each
position. As a result, the employees received only a general physical which was
not specific to the duties they would be performing.



                                                                                    DODIG-2014-093 │ 57
Results – Part A



                 Employee health and attendance records at AFRH-G were not available. The
                 responsible staff member was new to this duty and not aware of employee
                 health screening requirements beyond a Tuberculosis (TB) skin test and influenza
                 vaccination. The staff member did state that physicals had been conducted by
                 staff medical providers, but AFRH-G was looking at contracting this function out
                 (still under consideration at time of the inspection). Interviews with some
                 AFRH-G staff members indicated they had not obtained physicals prior to
                 employment. Many of the personnel at AFRH-G were contractors and did not
                 need physicals from the facility.

                 AFRH Agency Directive 4-9 had not been implemented appropriately at either facility.
                 Only the general health of the individual was evaluated and not the specific physical
                 ability to perform the duties required of the position. Further complicating the
                 issue was the fact that physical requirements had not been established for all
                 positions. There was no delineation of the AFRH Medical Director’s role, although
                 documentation on employee limitations was sent to him.              In addition, there
                 were no SOPs (facility-level) implementing a medical evaluation program, as
                 required by this 5-year old directive. Thus no program to evaluate employee
                 “fitness for duty” had been implemented.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 9
                 Armed Forces Retirement Home Chief Operating Officer:

                          a.	 Update and clarify AFRH Agency medical directives, including processes
                            for determination of fitness for duty of nursing personnel, and
                            clarification of the Medical Director role in that process.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the role of the Medical Director would be
                 added to the directives.


                 Our Response
                 Management’s comments were partially responsive. We will request a copy of
                 the updated directives that describe the role of the Medical Director, as well as
                 timelines for response in the processes for determination of fitness for duty of
                 nursing personnel at a later date.



58 │ DODIG-2014-093
                                                                                      Results – Part A



         b.	Develop policies to update and implement AFRH Agency Directive 4-9
            concerning qualifications of medical personnel.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that AFRH Agency Directive 4-9 would be fully
implemented by the establishment of campus- level SOPs.


Our Response
Management’s comments were not responsive. We think that AFRH Agency
Directive  4-9 needs to be updated concerning physical requirements of medical
personnel before establishment of implementing campus-level SOPs.  If AFRH
Agency Directive 4-9 has been updated, we ask that the AFRH COO provide a copy in
response to the final report. If the directive has yet to be updated, we will request a
copy at a later date.

         c.	 Ensure that physical requirements are established for every position.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that physical requirements for every position
are clearly identified in the hiring process in the job announcement or the
performance work statement.


Our Response
Management’s response is only partially responsive. In response to the final
report, we ask that management provide a copy of the last three General Services
hiring announcements for nurses and a copy of the Statement of Work, if the
AFRH has any contract nurses.

         d.	Assess the capacity of all nursing staff to perform their duties and take
            appropriate personnel action if they are unable to perform their duties.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the current Fitness for Duty Program is
operating as planned and is appropriate for the AFRH.


Our Response
Management’s comments were partially responsive. We ask that management send
us a copy of the current Fitness for Duty Program and the number of AFRH nurses
who are fully capable of performing their duties under the program (X out of XX,
excluding temporary disability).

                                                                                      DODIG-2014-093 │ 59
                                                                                   Results – Part A




Observation 10
Quality Management and Performance Improvement

The DoD IG Inspection Team observed that:

        •	 AFRH Agency and AFRH-W lacked personnel with adequate training in
           medical QM and PI.

        •	 The clinical PI program at AFRH was in its infancy. Metrics, many of
           which were not clinically meaningful, were developed by the agency and
           delegated to the facilities for implementation.

        •	 QM was also in its infancy at AFRH (credentialing and privileging
           were reviewed separately). Peer review was minimal and data was not
           tracked for re-privileging.

        •	 AFRH Agency guidance on PI was not located in a single policy. The list
           of members for the PI committee at the agency and facility level included
           titles, such as Medical-Pharmacy Component Leader and Nursing
           Component Leader that were not AFRH functional titles or were not
           specific enough to identify an individual position. This contributed
           to confusion at AFRH-W. Also, AFRH Agency guidance describing the
           membership of the PI committee did not include the CHS.

Based on interviews and analysis by the DoD IG Inspection Team, resistance by the
medical leadership to changing outdated clinical PI measures and the poor
implementation of QM were major factors impeding necessary progress. Metrics
were developed that were not clinically meaningful. Instead of developing
priorities through review of high-risk areas, accreditation standards, and/or
areas prone to problems, leadership at the AFRH Agency was measuring
many things that were not priorities.

This resulted in time wasted on tracking data with no clinical meaning.
Additionally, AFRH patients were placed at risk because high-risk areas were not
being monitored and critical medical care improvements were not being made.




                                                                                   DODIG-2014-093 │ 61
Results – Part A



                 Discussion
                 The DoD IG Inspection Team reviewed the agency and facility QM and PI programs
                 related to clinical care. PI is normally a component of a QM program. However,
                 the AFRH had combined clinical PI with their other PI initiatives. In addition,
                 the PI plan was not clearly laid out in a single document at the agency level.

                 AFRH Agency Directive 1-11A, “AFRH Internal Controls,” June 28, 2012, established
                 an agency-level AFRH Internal Control Senior Assessment Team. The directive
                 required PI committees at the facility level, which reported to the Senior
                 Assessment Team. The facility administrators were required to chair the facility
                 PI committee. The membership of the facility PI committees was established
                 in a separate document, AFRH Agency Notice 12-10, “Person-Centered Care
                 Manual,” July 20, 2012. The membership list used titles which did not exist at the
                 facilities, including Medical-Pharmacy Component Leader and Nursing Component
                 Leader. Because the agency guidance describing the membership of the PI
                 committee did not include the CHS in the committee, there was confusion about
                 the role of the CHS in the PI program. This lack of clarity was also reflected
                 in the facility SOPs.

                 The PI plan identified critical components, including:

                          •	 staff development,

                          •	 finance,

                          •	 clinical services,

                          •	 medical and pharmacy,

                          •	 psychosocial,

                          •	 resident services,

                          •	 safety, and

                          •	 campus operations.

                 Use of clinical services, which apparently did not include nursing, added
                 further ambiguity to the guidance. However, the clinical PI metrics were
                 developed at the AFRH-W and had been mandated at the agency level to
                 include nursing, staff development (education and training), and healthcare
                 (medical-pharmacy).




62 │ DODIG-2014-093
                                                                                             Results – Part A



Interviews with the AFRH Agency Medical Director revealed that he did not
have familiarity with, or an understanding of, the AFRH PI program, peer
review, patient safety, and other components of QM that would be expected
based on his job description.  The AFRH Agency Medical Director noted that
they were expecting to move the AFRH-W PI Integrator to the agency level.
The AFRH-W PI responsibility would be for all measures, not just the clinical
measures. Interviewswith the AFRH staff members revealed that they knew the
AFRH Agency Medical Directordid not understand QM or PI.  Moreover, they
maintained that the AFRH Agency Medical Director was continuing to obstruct
efforts to improve the processes.

At the time of the inspection, a dentist held the position of the PI Integrator for both
the AFRH Agency and AFRH-W. She had little previous experience in QM and PI.
She was eager to learn and had attended training offered by DHA, including the
Patient Safety Course and Team STEPPS.30 However, the incumbent PI Integrator
was doing it on her own as there was no one above her at AFRH with the
knowledge to guide/teach her.

The clinical PI program was in its infancy. To date, there had not been any QM
metrics reported. They were in the initial stages of data acquisition for the first
reporting period. The PI metrics were numerous, totaling 110 for the 3 categories
of clinical performance metrics. Some metrics had little to no relevance to the care
provided, yet required significant effort to track. Many metrics were solely about
compliance and included activities such as checking medical records to see if an
exam was done or if a code status was documented. While these were important,
they did not get to the quality of the services performed. The development of
quality metrics requires specific inclusion and exclusion criteria and meaningful
definitions. The lack of these criteria and definitions in AFRH’s metric development
limited the agency’s ability to draw meaningful conclusions and compare data
with other facilities or authoritative standards benchmarks.

At the time of the inspection, AFRH was tracking immunization rates for influenza,
Pneumovax, and tetanus. The AFRH did not have a captive population. The IL
residents were not required to obtain their primary care and other services at the
AFRH, so some population health measures may not have applied to them. Some
of the metrics used by AFRH-W were good ideas, but the metrics contained the
wrong denominators. For example, the medication error metric included the
patient count in its denominator.  Such a measure had no meaning and no outside

	30	
       “Team STEPPS” - Team Strategies and Tools to Enhance Performance and Patient Safety




                                                                                             DODIG-2014-093 │ 63
Results – Part A



                 benchmarks to use for comparison. Medication doses given would have been
                 a better choice and were very feasible at AFRH-W, as their system was automated.
                 In addition, AFRH-W tracked urinary tract infections in the general population,
                 rather than focusing the metric to track urinary tract infections in patients with
                 indwelling catheters, which would have been a more useful metric for the AFRH
                 patient population. Peer review was listed as a metric in several specialties.
                 However, without the adoption of clinical standards such as VA/DoD CPGs, there
                 was no basis upon which to perform a peer review. Rather than engaging in
                 a formal peer review process, AFRH-W staff was reviewing records without respect
                 to treatment decisions. Moreover, AFRH-W staff reported that the results were not
                 tracked against providers and were not used to make decisions about privileging.

                 Metrics appropriate to Coumadin included outcomes of bleeding or thrombosis.
                 Outcomes are generally an effective measurement. However, to ensure early
                 detection in high-risk areas, it would be better to track the number of patients
                 in the desired therapeutic range each month. AFRH-W should consider population
                 health measures and health effectiveness data and information set measures
                 where possible.

                 At AFRH-G, the DoD IG Inspection Team discussed the PI program with the DON
                 and the PI Integrator, who was just recently moved to the position. The
                 PI Integrator had little experience with PI, but the DON was training her at the
                 time of the DoD IG inspection. All the performance metrics being tracked were
                 provided to them by AFRH Agency before the CARF inspection. AFRH-G staff
                 recognized that many of the metrics did not effectively measure what they felt
                 should have been tracked. The AFRH-G staff members noted they have been
                 frustrated in their attempts to make improvements in metrics. Despite this, they
                 stated   that     they   continued   to     submit    proposed     changes      to     metrics.

                 During the DoD IG inspection follow-up interview with the COO, he informed
                 the   DoD IG    Inspection   Team    that    the     AFRH-W   PI   Integrator        had   been
                 selected for the AFRH Agency PI Integrator position. He stated that the job
                 announcement was restricted to internal AFRH candidates only, because he
                 believed there were “several qualified candidates among the AFRH pool.” However,
                 the selected employee did not have the appropriate experience or education
                 to perform the duties of the PI Integrator position. The AFRH COO did not require
                 the employee to have knowledge, skills, and abilities essential to the performance
                 improvement position. Rather, the AFRH COO appeared to only consider the
                 individual’s length of time at the AFRH and her continued loyalty to the organization
                 as the basis for his selection and hired her despite critical deficiencies.


64 │ DODIG-2014-093
                                                                                                      Results – Part A



Recommendations, Management Comments, and
Our Response
Recommendation 10
Armed Forces Retirement Home Chief Operating Officer:
         a.	Ensure the facility personnel and agency Performance Improvement
              Integrator obtains the necessary training to perform their duties to
              enable improvements in these programs.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the recommendation was in progress.  Campus
Level   PI    Integrators     have   taken            formal   training    in   the    development   of
performance measures and the performance improvement culture is maturing.


Our Response
Management’s comments were responsive. We will request an update on this issue
at a later date.

         b.	Obtain qualified personnel as medical advisors for the Quality
              Management and Performance Improvement programs.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the SMA and members of the Advisory
Council provide medical expertise, as needed, at the AFRH.


Our Response
Management’s comments were responsive. We will request an update on the
involvement of the SMA and the Advisory Council in QM and PI Programs at a
later date.

         c.	
           Revise     the     policies      of        the    Performance    Improvement        program,
              including     clarification        of    the     membership       of    the   Performance
              Improvement committees at the agency and facility level. Include
              the Medical Director, Chief Medical Officer, Chief of Healthcare
              Services, and Director of Nursing on the committee.




                                                                                                      DODIG-2014-093 │ 65
Results – Part A



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation is in progress.
                 However, he disputed the DoD IG inspector’s observations that some of the SOPs
                 listed positions that did not exist and omitted positions that should have been
                 addressed. He stated that the AFRH performance improvement culture and
                 procedures include an annual evaluation and allows re-alignment of priorities
                 and procedures.


                 Our Response
                 Management’s comments were responsive. We believe that the annual evaluation
                 described by the COO should address the issue. We will look at this area again
                 during our next inspection.

                          d.	 Ensure      appropriate   metrics,    incorporating    specific   inclusion   and
                             exclusion criteria, are adopted to measure the effectiveness of the
                             Quality      Management      and      Performance      Improvement     programs.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation is in progress.
                 The AFRH is working with the SMA to ensure appropriate healthcare metrics
                 are developed.


                 Our Response
                 Management’s comments were responsive. We will request an update on this
                 issue at a later date.




66 │ DODIG-2014-093
                                                                                         Results – Part A




Observation 11
Medical Records and Clinical Care

The DoD IG Inspection Team observed that:

              •	 Medical record documentation at AFRH-W required improvement.
                  Outpatient records needed more than the minimal documentation
                  observed during the team’s review.

              •	 AFRH-W LTC/AL nursing notes did not convey the current status of the
                  patient nor what occurred during the day shift.

              •	 Medical record documentation at AFRH-G was acceptable. Noted was
                  an issue with documentation of medications and their purpose in the
                  outpatient records.

              •	 Prescription of medications with opioids, in combination with other
                  drugs, at AFRH-W did not account for the accumulative dose of the
                  second drug. Short acting opioids were being used to manage chronic
                  pain in cases where the patient could have benefited from long
                  acting opioids.

              •	 Coumadin Clinics at both facilities were not set up so that all providers
                  who needed the information on a patient had access to it.

              •	 At AFRH-W, there was no counseling documented for Coumadin patients
                  on drug interactions and dietary restrictions.

This occurred because:

              •	 Oversight and supervision by AFRH Agency and AFRH-W medical
                  leadership was ineffective.

              •	 AFRH Agency and AFRH-W had not established standards for outpatient
                  visits and documentation.

              •	 The situation, background, assessment, and recommendation (SBAR)31
                  tools were not intended to be the medical record documentation tool,
                  yet it was being used as such.

	31	
       SBAR - “Situation, Background, Assessment, and Recommendation”




                                                                                         DODIG-2014-093 │ 67
Results – Part A



                          •	 AFRH-G did not have a clinical pharmacist to assist with outpatient
                             medications.

                          •	 AFRH Agency and AFRH-W had not implemented appropriate clinical
                             practice guidelines for the management of chronic pain.

                          •	 An established SOP for the Coumadin Clinic did not exist. Flow sheets
                             (by patient) were not maintained in the medical record.

                          •	 AFRH Agency and AFRH-W had not established standards for the
                             counseling of Coumadin patients.

                 These problems and issues could contribute to inadequate and inappropriate care
                 of residents.


                 Discussion
                 Armed Forces Retirement Home – Washington, D.C.
                 The LTC/AL records were a combination of paper records and a computer‑based
                 system used to document nursing notes. Medication administration was also
                 tracked in the computer system. Twelve LTC/AL paper records were reviewed by the
                 DoD IG Inspection Team, who determined that all admission histories and physical
                 exams    were   thoroughly    and    extensively     documented.   Computer   notes   on
                 10 LTC/AL patients were also reviewed. The DoD IG Inspection Team observed
                 that nursing personnel were using the SBAR format to document daily notes.
                 This format was intended to be used in handoff communications, not daily
                 progress notes. The notes provided details on diagnoses, but significantly less
                 clinical information pertinent to that day’s care.

                 In addition, the record review in LTC/AL identified an issue with opioid therapy
                 which was discussed under the preceding section on pain management.  The issue
                 identified was with an 85-year-old man with chronic pain who was prescribed
                 and taking two Percocet tablets (5mg oxycodone/325 mg acetaminophen per tab)
                 every 4 hours. This medicine was controlling his pain (pain ratings of 0 to 2 out
                 of 10).  The concern was that he was receiving 3,900 mg of acetaminophen per
                 day. This was near the maximum dosage (for a younger healthy person) of
                 4,000 mg per day.  In an 85-year-old, the risk of adverse effects was high. The
                 DoD IG Inspection Team discussed the case with the nurse responsible for this
                 resident’s care and pointed out that there are long acting opioids that do not
                 contain acetaminophen.




68 │ DODIG-2014-093
                                                                                   Results – Part A



The DoD IG Inspection Team also reviewed six outpatient records. Notes for
routine outpatient visits to primary care were generally minimally documented
and would not meet primary care industry standards. These notes were also
difficult to use in peer reviews as they were not comprehensive, even for the
chief complaint. Three progress notes from the contract psychiatrist were also
reviewed. These were exceptionally well documented. It was easy to review and
follow the clinical decision making in the notes. The documentation included
dual mental health and substance abuse diagnoses, along with pertinent
physical findings.


Armed Forces Retirement Home – Gulfport
No significant issues were identified with LTC/AL records. No specific review of
opioid therapy was performed.

The DoD IG Inspection Team reviewed seven outpatient records. Progress notes
were generally sufficient. The initial history and physical required of all new
residents was present in all the records. Several individuals were new to the
facility and had little information beyond the initial exam in the records.
Six out of seven had medication and problem lists. Two of the individuals were
on a multitude of medications. One of these did not have documentation in
the problem list used to explain use of all medications. Records reviewed
included podiatry visits.


Coumadin Clinic
Armed Forces Retirement Home – Washington, D.C.
The anti-coagulation clinic (Coumadin Clinic) was run by a Nurse Practitioner  (NP).
The clinic followed 43 patients, all of whom were on Coumadin. The patients
were tracked in a spreadsheet accessible to the NP and nurses within the Wellness
Clinic. The spreadsheet did not clearly list the diagnoses for which the Coumadin
was prescribed. It was also difficult to determine the recommended therapeutic
range for each patient, based solely on the spreadsheet. Review of the outpatient
records on four of the patients found no documentation of patient education
with respect to drug-drug or drug-food interactions. One IL patient on Coumadin




                                                                                   DODIG-2014-093 │ 69
Results – Part A



                 left the facility to stay with family for some time. Upon his return to AFRH, his
                 INR32 was found to be super-therapeutic33 at 10. Hospitalization was required.
                 This case demonstrated the need for greater education of patients and/or families,
                 as well as documentation of that education in the medical record.

                 Armed Forces Retirement Home – Gulfport
                 An NP managed the anti-coagulation clinic (Coumadin Clinic) at AFRH-G. AFRH-G
                 had 54 patients on Coumadin and one on Pradaxa. Generally, four-to-five of the
                 Coumadin patients were in LTC or AL. Two of the IL residents chose to use other
                 clinics outside the facility for management of their anti-coagulation. The NP tracked
                 the patients, as well as the dates and results of the INR in a spreadsheet on her
                 computer. She also included the therapeutic range on the spreadsheet. In addition,
                 the NP notified the IL residents via letters or notes in their mailboxes to advise
                 them on dosage changes or if they were overdue to have labs drawn. If the
                 NP found a resident whose condition was difficult to control or whose labs
                 varied a lot, she referred them to IL Plus, which allowed a resident to remain
                 in his/her IL situation while getting additional support in managing his/her
                 medications. It usually worked well. The AFRH-G Dietitian counseled all Coumadin
                 patients on drug-diet interactions and educated Coumadin patients through the
                 “Share the Care” program: “You & Your Coumadin.”


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 11
                 Armed Forces Retirement Home Chief Operating Officer:
                                a.	Ensure that appropriate standards for outpatient records documentation
                                    and     nursing        documentation             in    Long      Term       Care/Assisted           Living
                                    are established.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation is in progress.
                 Outpatient records are being transferred to a customized electronic medical record
                 (EMR) system. Documentation required by the Joint Commission standards for
                 Nursing and Ambulatory care are being incorporated into the EMR.



                 	32	
                        “International Normalized Ratio” (INR) is used to determine the clotting tendency of blood. The normal range is between
                        2 and 3.
                 	33	
                        “Super-therapeutic” indicates a state above the desired range for a particular patient.


70 │ DODIG-2014-093
                                                                                                Results – Part A



Our Response
Management’s comments were partially responsive.  Transferring to an electronic
record will not necessarily improve the quality of the documentation without
establishment of standards. We will request an update on this issue at a later date.

         b.	Ensure that peer review is performed based on those standards and
            peer review results track quality improvement and privileging.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the existing peer review and information
and data would be packaged in a manner that demonstrates a direct link
to privileging.


Our Response
Management’s comments were partially responsive. At the time of our inspection,
our medical evaluators were unable to confirm the existence of peer review
information/ documentation. We will request an update on the course of action
described by the AFRH COO at a later date.

         c.	
           Ensure        agency-wide      adoption    of     the   Department     of    Veterans
            Affairs/Department of Defense Clinical Practice Guideline for the
            Management of Opioid Therapy for Chronic Pain Working Group.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the recommendation is in progress.
The    AFRH       is   using   The    Joint   Commission     standards    to   update    existing
pain   management         policies.   AFRH     will   also   utilize   appropriate     CPGs   for
the geriatric population.


Our Response
Management’s comments were responsive. We will request an update on this issue
at a later date.




                                                                                                DODIG-2014-093 │ 71
Results – Part A



                          d.	Consider the addition of a clinical pharmacist to the staff at Armed
                            Forces     Retirement   Home   –   Gulfport.   Alternatively,   an   available
                            physician    who   is   knowledgeable   regarding    medication      use   and
                            risks in the elderly should review outpatient medications.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was complete.
                 AFRH-G is coordinating pharmacy medication reconciliation for residents with
                 Keesler AFB, Mississippi.


                 Our Response
                 Management’s course of action met the intent of the recommendation. No further
                 action is required.




72 │ DODIG-2014-093
                                                                                    Results – Part A




Observation 12
Healthcare Services at Armed Forces Retirement
Home – Washington, D.C.

The DoD IG Inspection Team observed that:

        •	 Healthcare services were well structured to meet the needs of the
          residents in the various levels of care. However, the AFRH-W CHS was not
          well qualified and continued to perform her previous duties as the DON,
          rather than the duties required of the CHS. Furthermore, the CHS did not
          delegate appropriately as a manager.

        •	 AFRH-W CHS did not ensure compliance with all agency policies and
          facility SOPs, most notably those regarding the role of committees and
          infection control.

        •	 AFRH-W had significant nursing staff issues which were not being
          adequately addressed. They ranged from chronic tardiness to medical
          limitations to providing sub-standard care.

        •	 The behavior of some employees, as described by multiple residents,
          was not consistent with the “Person-Centered Care” concepts espoused
          by   AFRH      Agency   Notice   12-10   “Person-Centered   Care   Manual,”
          July 20, 2012, which was developed to meet CARF standards.

This occurred because:

        •	 Promotion and hiring policies at the agency and AFRH-W facility
          did not prioritize hiring the best qualified individuals. Qualification
          status was based on time at the AFRH, rather than education and
          capabilities (See Recommendation 8.a).

        •	 Agency policies and facility SOPs were outdated or did not describe
          the actual scope of services at the AFRH. In fact, some SOPs were so
          far out of the scope of the medical capabilities of the facilities they
          could not be implemented.




                                                                                    DODIG-2014-093 │ 73
Results – Part A



                          •	 Management failed to take disciplinary actions recommended by BPD.

                          •	 Management failed to implement appropriate occupational health programs.

                 This resulted in sub-standard care, confused and upset staff, and dissatisfied residents.


                 Discussion
                 Outpatient services available to residents in the Wellness Clinic included primary
                 care, psychiatry, optometry, Coumadin Clinic, nutrition, rehabilitation services,
                 podiatry, clinical pharmacy, and dentistry. Pharmacy services were provided
                 through WRNMMC. The AFRH-W providers had access only to the DoD Composite
                 Healthcare System (CHCS) and ordered medications through CHCS.                They did not
                 have access to the Armed Forces Health Longitudinal Technology Application (AHLTA).

                 AFRH-W     allowed   pharmacy       technicians   to   fill   prescriptions   at   WRNMMC
                 and to distribute those filled prescriptions at the pharmacy window in the
                 clinic. Refills were also picked up at the pharmacy window of the clinic.

                 The Wellness Clinic had two physicians, two nurse-practitioners, a contract
                 psychiatrist, an optometrist, and a part-time psychiatrist from WRNMMC. The
                 nurse practitioners and physicians also had LTC/AL ward duties. Three social
                 workers covered both ambulatory and in-patient areas. Laboratory services were
                 provided through a contract. Phlebotomists were on-site and the specimens
                 were taken to the contract lab. Radiology services, including on-site X-rays, were
                 provided through a contract which provided prompt service and reports. Dental
                 services were offered to all residents through a contracted mobile dental clinic.
                 Rehabilitation services were primarily contracted, but the Chief of Rehabilitation
                 Services was a Government employee and an occupational therapist who
                 oversaw the contract services for occupational, physical, and speech therapy.
                 Rehabilitation services had a total of 14–16 privileged staff at any time. The
                 contractor was very prompt at supplying privileged staff replacements when needed.
                 AFRH-W had a good working relationship with the VA for prostheses, swallowing
                 studies, and hearing aid support.

                 The AFRH-W had a support agreement with WRNMMC, which replaced the prior
                 agreement with Walter Reed Army Medical Center. The agreement included
                 healthcare and pharmacy services for the residents, veterinary food inspections, a
                 part-time Clinical Pharmacist (PharmD), and public health services.




74 │ DODIG-2014-093
                                                                                   Results – Part A



The AFRH-W also had multiple other MOUs with outside facilities and providers,
including home health and hospice providers who came into the facility to provide
services.     Medications for AL and LTC were provided through a contractor. The
process of administering medications was computerized and included a photo
of each resident as part of the identification process. Every dose given was tracked
in the system.

Agency documents required the following committees:

            •	 Medical Staff,

            •	 Credentials,

            •	 Infection Control Program,

            •	 Pharmacy and Therapeutics,

            •	 Ethics Consultation Service Functional Team,

            •	 Information Management Functional Team,

            •	 Management of Human Resources Functional Team,

            •	 Clinical Research,

            •	 Pain Management, and

            •	 Performance Improvement.

Of these required committees, only a few existed. The Credentials and PI committees
were established and functioning. The Infection Control committee was just
getting started at AFRH-W at the time of the inspection. A Professional and Joint
Staff Committee was established, although not required by agency documents.

The CHS had been in her position since March 2012. Before that, she served as
DON from November 2008 to March 2012. She obtained her associate’s degree in
nursing in May 2004. Without external competition, the incumbent was selected
for the GS-14 Healthcare Administrator position. However, she had not turned over
the DON duties to the incumbent DON. The CHS stated that confusion about her
role was caused by upper management practices. Not only did the CHS fall under
the AFRH-W Administrator, she also received direction and commands from the
agency level. The CHS believed that leadership was still expecting her to perform
the DON duties, based on what they had asked her to do since taking on the role of
Chief.   Moreover, the CHS believed that the COO undermined her role as CHS by



                                                                                   DODIG-2014-093 │ 75
Results – Part A



                 bypassing her and bringing in outside consultants, without discussing the issues
                 with her first. She also believed that the COO established performance objectives
                 that were not appropriate for her position.

                 The organizational charts for Healthcare Services initially provided to the
                 DoD IG Inspection Team did not include the ambulatory care providers. When
                 asked about this, the CHS noted that there had been resistance to her supervision
                 of medical staff. The CHS is not a physician and the medical staff has resisted her
                 supervision. Organizational charts provided later did include the CMO and listed
                 the providers by specialty. It was not clear which chart was being followed, thus
                 contributing to a confusion of medical staff roles and responsibilities.

                 The DON was very frustrated in her job, mainly because the CHS was still
                 performing the duties of the DON. Nursing staff members often used this
                 situation to their advantage to seek answers which benefited them. They would
                 approach the DON with a question and, if they did not like the answer, they would
                 then seek a different answer from the CHS. At times, the answers conflicted.
                 In addition, the DON had met resistance from the CHS when trying to update
                 the many outdated, irrelevant, and inaccurate nursing SOPs.

                 The DoD IG Inspection Team conducted a 2-day walk through of the nursing
                 home    facility   and   randomly   selected   nursing   personnel   (Certified   Nursing
                 Assistants (CNAs), Licensed Practical Nurses (LPNs), and Registered Nurses (RNs))
                 to speak with regarding processes and procedures. The selected staff stated that
                 they felt overworked, that they were not recognized for their efforts, and that
                 there was no opportunity for advancement. Most of the staff also thought the
                 CHS was still the DON.       The DON surveyed clinical supervisors in April 2012
                 to determine what issues they believed were impacting their ability to provide
                 nursing care. The survey results indicated that several clinical supervisors did
                 not feel supported in their roles or valued by leadership. They often named the
                 role of the CHS as an issue. The DON had tried to engage the staff in initiatives,
                 including getting CNAs involved in chart reviews (peer review), providing
                 opportunities to head projects, and acknowledging staff during staff meetings for
                 good work. However, the DON reported that most staff members were not interested
                 or willing to engage.     Staff members often felt overworked because many of them
                 were performing the work others should have been doing. In addition, a
                 significant number of staff members were unable to effectively perform duties




76 │ DODIG-2014-093
                                                                                   Results – Part A



required of them, due to health issues or physical limitations, and there was no
occupational health program to handle these issues.

The DON also identified chronic tardiness as an issue. The DON stated that HR
told her that the union contract allowed employees to be up to one hour late
to work without any consequences. Per the DoD IG Inspection Team’s review of
the union contract and discussion of the issue with BPD, this was not true. The
lack of avenues to fire non‑performing employees was very frustrating to the
DON. She differentiated between those employees who lacked knowledge and/or
training and those who lacked integrity and purposefully engaged in egregious
misconduct that was harmful or potentially harmful to patients. Employees in
the first category were provided additional support, resources, and training.
However, the DON stated that, because they had no way to effectively discipline
employees in the second category, these employees got away with egregious and
unacceptable activities.

The DoD IG Inspection Team also spoke with a number of residents while touring
and evaluating the nursing units.     Several residents were not satisfied with many
of the employees (CNAs) who provided their care, preferring to be cared for
by contract staff. They felt their requests were often ignored, especially at night.
For instance, one patient reported that although he had asked to be awakened for
dinner if he happened to be asleep at that time, the AFRH civil servant employees
routinely failed to wake him. As a result, the patient missed dinner on a few
occasions.  Another patient complained that his pain medication was routinely
given late. He specifically asked the nurse to provide it to him on time, but was
told that she “could provide it to him one hour earlier or one hour later [than
the time requested].”      As a result, he required increased subsequent dosages of
pain medications.    Staff members did not engage the residents in conversation,
but often congregated off to the sides or in corners to converse among
themselves. The DoD IG Inspection Team observed the same problem during
the inspection.

Moreover, a recent case investigated by BPD showed that nursing personnel
were documenting care as being performed when it was not.




                                                                                   DODIG-2014-093 │ 77
Results – Part A



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 12
                 Armed Forces Retirement Home Chief Operating Officer:

                                a.	 Clarify the roles of Chief of Healthcare Services and the
                                  Director   of   Nursing     at   the   Armed   Forces   Retirement
                                  Home – Washington, D.C. to ensure there is no overlap
                                  in responsibilities.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was complete.
                 The roles of the Chief of Healthcare services and the Director of Nursing are
                 separate and clearly defined in their position description.


                 Our Response
                 Management’s comments were responsive. The intent of the recommendation was
                 not that the position descriptions were not clear, but, rather, that the separation
                 of duties was not being enforced in the conduct of daily duties. However, we
                 accept management’s assertion that the issue has been resolved. No further action
                 is required.

                                b.	 Support the Chief of Healthcare Services in supervising the
                                  multiple sections for which she is responsible. Provide education
                                  and training to improve her knowledge in management of
                                  specialty areas other than nursing.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was complete. The
                 CHS at the time of the DoD OIG inspection is no longer with the AFRH. A new
                 Chief of Healthcare Services has been selected, with the participation of the SMA.


                 Our Response
                 Management’s comments were responsive. No further action is required.




78 │ DODIG-2014-093
                                                                                      Results – Part A



              c.	 Ensure that agency policies and facility standard operating
                procedures are revised to reflect the scope and services of
                the Armed Forces Retirement Home and that staff of the
                Armed Forces Retirement Home – Washington, D.C., implement
                those policies.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO non-concurred, stating that the report did not identify where the
scope and services were exceeded. Management would respond if DoD OIG
further defined the issue.


Our Response
We believe that the scope and services in agency policies and SOPs, in some
cases, exceed the capabilities of the AFRH. Specifically:

         •	 AFRH Agency Notice 12-12 “AFRH Medical Staff Bylaws, Rules, and
           Regulations,” July 30, 2012, and its enclosure “Medical Staff Bylaws, Rules
           and Regulations of the Armed Forces Retirement Home, November  2011.”
           This agency-level document on Medical Staff Bylaws was clearly
           taken from a much larger inpatient acute care medical center with an
           organized, self‑governing medical staff. There is no CARF, TJC LTC, or TJC
           Ambulatory Care requirement for an organized, self-governing medical
           staff. The document also lists services that are not offered at the AFRH;
           includes mission, vision, and value statements that are not those AFRH
           lists in other documents and which exceed the scope of the AFRH;
           lists items to track for ongoing professional practice evaluation that
           are not within the scope of the AFRH; lists multiple committees (some
           nonexistent) that report to the medical staff; and includes other structures
           that do not exist within the AFRH.

         •	 Healthcare Services SOP 4-10. Page 4 Section X appears to be excerpted
           from the policy of a medical center. It needs to be tailored to the AFRH
           medical facilities. For example, “device related infections” (A) includes
           devices not used at AFRH, but does not mention the one device very pertinent
           to AFRH: urinary catheters. Page 4 section X on performance measures
           also needs to be modified to fit the AFRH.

         •	 Healthcare Services SOP 4-16. Sentinel Event—Section 2 B includes sentinel
           events that do not apply to AFRH.




                                                                                      DODIG-2014-093 │ 79
Results – Part A



                          •	 Nursing Services SOP 4-025 at both facilities requires an emergency
                            medication box. The AFRH-G SOP does not list the contents of this
                            box. The AFRH-W SOP lists contents which include medications used in
                            Advanced Cardiac Life Support (ACLS), such as atropine and epinephrine.
                            AFRH does not have appropriate monitoring equipment available,
                            nor individuals qualified in ACLS available onsite at all times. AFRH
                            needs to define its scope of ACLS services appropriate to the capability
                            of the staff. If that scope is Basic Life Support (CPR and AED use), then
                            the ACLS medications should not be provided.

                 We ask that the AFRH provide the results of an analysis of those documents in
                 response to the final report.

                               d.	Support and assist supervisory personnel, especially the Director
                                 of Nursing, when disciplinary actions are required.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating the recommendation is complete.


                 Our Response
                 Management’s comments were partially responsive. In response to the final report,
                 we ask that management describe what actions have been taken to meet the
                 intent of the recommendation.

                               e.	 Ensure that all staff members are focusing on patient (resident)
                                 centered care and provide the staff appropriate training. If staff is
                                 unwilling to comply, support termination.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation is in progress.
                 Person Centered Care (PCC) is a strategic goal at the AFRH. AFRH is developing
                 performance measures for PCC. The P&R review and the Defense Equal
                 Opportunity Management Institute (DEOMI) survey conducted since the DoD OIG
                 inspection did not reveal PCC was insufficient at the AFRH. The recent Operational
                 Assessment by the Joint Commission Resources commended the AFRH staff for
                 the level of PCC.


                 Our Response
                 While we are uncertain how the DEOMI survey evaluated PCC, we accept
                 management’s analysis of progress made in this area. No further action is required.


80 │ DODIG-2014-093
                                                                                     Results – Part A




Observation 13
Healthcare Services at Armed Forces Retirement
Home – Gulfport

The DoD IG Inspection Team observed that:

        •	 AFRH-G only had a part-time contract CMO, which was insufficient.

        •	 AFRH-G healthcare services was not in compliance with all agency policies
           and facility SOPs, which were often not appropriate for the AFRH-G.

        •	 Nursing staff issues at AFRH-G were related to conversion from
           contract to civil service positions, as well as the inexperience of many of
           the staff members.

        •	 AFRH Agency had not approved the appropriate civil service level
           for PDs, most notably for nurse practitioners.

The re-opening of AFRH-G with all contract providers, who were inexperienced
in LTC and Federal processes and requirements, resulted in delays in getting
appropriate personnel and processes in place. Additionally, the requirement to
implement AFRH-W SOPs, without alterations specific to AFRH-G, made it difficult,
if not impossible, to implement appropriate AFRH-G policies.

As a result, the work environment at AFRH-G was difficult, but was improving with
the new leadership team in healthcare services.


Discussion
AFRH-G re-opened in October 2010 with almost all contract staff, because civil
service employees could not be hired quickly enough. In 2011, there were multiple
medical care issues and the CHS, DON, and three others were fired. These issues
included staff harassment and inadequate medication management. As a result
of the negative working environment created by those who were fired, it has
been a challenge for the new healthcare leadership to achieve constructive change.




                                                                                     DODIG-2014-093 │ 81
Results – Part A



                 Healthcare Services and Staff
                 The outpatient services included primary care, optometry, Coumadin clinic,
                 psychology, podiatry, dental care, and rehabilitation services. Many of the contract
                 positions were being converted to GS positions. The staff included two civil
                 service social workers, one civil service dietitian, two nurse practitioners (in
                 the process of conversion from contractor to civil service), one dentist, and one
                 part‑time contract internal medicine physician, who performed some of the duties
                 of a CMO.

                 AFRH-G healthcare services had a dental clinic within the facility. In addition
                 to the dentist, healthcare services staff included a dental hygienist and a dental
                 assistant.     Rehabilitation services were provided via a MOU with a civilian
                 healthcare organization. At the time of the DoD IG inspection, the supporting
                 organization was not able to supply a speech therapist or support the total
                 part-time and overtime hours that the AFRH-G needed. In addition, the supporting
                 organization refused to give patient medical records back to the AFRH-G facilities
                 healthcare services. The AFRH-G gave notice to this group and subsequently
                 reached an agreement with a new rehabilitation group contractor. With this
                 new arrangement, the AFRH-G expected to be able to provide speech therapy,
                 5 days per week and meet its other personnel needs.

                 AFRH-G       healthcare   services   administration   was   having   issues   converting
                 the NP positions to civil service because the agency only authorized a
                 GS-12 pay grade for these positions. The current contract staff members turned
                 down the positions because this would result in a significant pay reduction for
                 them. Thus, AFRH was having difficulty filling these positions because the
                 authorized civil service pay grade was too low to compete in the local healthcare
                 market. At the time of the DoD IG inspection, the Gulfport area market had a
                 shortage of healthcare providers and pay was competitive. The DoD IG Inspection
                 Team provided the CHS a standardized Army Medical Department PD for NPs
                 at a GS-13 pay grade.

                 AFRH-G had a memorandum of agreement with the 81st Medical Group at
                 Keesler Air Force Base for dental support, environmental health, pharmacy, and
                 some laboratory support for all eligible beneficiaries and secretarial designees.
                 AFRH-G supplied two pharmacy technicians to help fill prescriptions. The
                 facility’s administration was also developing relationships with other outside




82 │ DODIG-2014-093
                                                                                     Results – Part A



facilities and providers, and had at least six different MOUs with outside
service providers. They were working to include provisions for getting medical
information back from both individuals and facilities providing care to the residents.

The outpatient pharmacy services through Keesler Air Force Base were currently
available only to retired military beneficiaries. The operation was similar to that
at AFRH-W. However, AFRH-G did not have clinical pharmacist support for the
IL and ILP. Pharmacy services for the AL and LTC were contracted. A contracted
pharmacist reviewed the medications for these areas as part of the contract. The
contracted pharmacist also educated the staff and contacted the NPs about issues
with medications.

Agency directives required the following committees:

        •	 Medical Staff,

        •	 Credentials,

        •	 Infection Control Program,

        •	 Pharmacy and Therapeutics,

        •	 Ethics Consultation Service Functional Team,

        •	 Information Management Functional Team,

        •	 Management of Human Resources Functional Team,

        •	 Clinical Research,

        •	 Pain Management, and

        •	 Performance Improvement.

The committees implemented at AFRH-G were Infection Control, PI, Professional
and Joint Business Staff, and Pharmacy and Therapeutics.

The AFRH-G CHS was an RN with a master’s degree in human resources
management and development. She had prior experience at the AFRH-G, as well
as both acute and LTC experience. Prior to her service at AFRH-G, the incumbent
CHS worked in LTC at the VA for about 6 months. The DON had 22 years of active
and reserve military service. She worked in LTC before obtaining her master’s
degree in mental health, with an emphasis on dementia. In addition, the DON
worked in education and staff development. Prior to her service at the AFRH-G,




                                                                                     DODIG-2014-093 │ 83
Results – Part A



                 the incumbent DON was an informatics nurse for the VA. She held that position
                 for almost 2 months.  Both the AFRH-G CHS and DON were working hard to
                 establish trust with the rest of the staff.

                 Upon her arrival at the facility, the CHS noted multiple problem areas including:

                          •	 lack of nursing credential/license verification,

                          •	 failure to track basic life support training, and

                          •	 the unsecure storage of medications and medical records.

                 The CHS corrected these pressing issues and continued to work, along with
                 the DON, to identify and prioritize the implementation of policies and changes
                 to policies where needed. Both the CHS and DON were aware they were not in
                 compliance with all SOPs. They believed that the SOPs written for the AFRH-W
                 may not have been suitable for AFRH-G. However, they had encountered
                 resistance/delays, at the agency level, in getting changes to SOPs that were appropriate
                 to AFRH-G.

                 The AFRH-G Chaplain led a group that put together the Share the Care activity
                 for residents. Through this program, the Share the Care group scheduled and
                 provided education events twice a month for residents on topics such as Care
                 Giving and Preventing Burnout, Aging and Nutrition, Rehabilitation, Coumadin,
                 Relaxation with Music, and more. Some speakers were staff members at AFRH-G;
                 others were brought in from outside AFRH-G.

                 The facility put together a manual for its providers. Its primary purpose was
                 to meet the agency requirements on suicide prevention, but also oriented individual
                 providers to many other aspects of the AFRH-G and the care of the elderly.

                 The DoD IG Inspection Team noted that AFRH-G had an enthusiastic, but
                 inexperienced, nursing staff. The DON was covering the duties of several unfilled
                 functions, including infection control and patient safety. Prudently, AFRH-G
                 contracted a full time Nurse Educator to train staff members and planned to
                 convert the contract positions to civil service.  The Nurse Educator was able to
                 improve the orientation of new personnel and the management/documentation
                 of licensures (LPN and RN) and certification (CNAs).




84 │ DODIG-2014-093
                                                                                     Results – Part A



AFRH-G involved current nursing staff members in the interview process for new
staff members. Although supervisors had not yet received supervisory training,
nursing staff members reported significant improvement in the environment
and in staff orientation since the new leadership was in place (CHS and DON).

A CNA was assigned to accompany all LTC/AL residents to their outside medical
appointments, and was often allowed in the exam room with the physician
and patient. The supervisor believed this greatly improved communication
between the facility, the patient, and the outside physician.

In the LTC and AL areas, the DoD IG Inspection Team reviewed medication
administration and nursing documentation, and randomly selected staff to
interview about nursing procedures. The only area identified as needing
attention was the staff response to emergency events, such as a cardiac arrest or
an assault. The DoD IG Inspection Team agreed this was value-added practice.

AFRH-G did not have an occupational health program. The Clinical Supervisor
of the Health Clinic/Wellness Center was not aware of employee/occupational
health processes other than the requirement for TB skin testing and influenza
immunization. The DON acknowledged that they were not in compliance with agency
directives on employee health, but indicated appropriate action would be taken.

The DoD IG Inspection Team interviewed a number of residents in LTC and AL.
All were pleased with the facility and the nursing care. Multiple IL residents
also expressed a high level of satisfaction with the facility and staff support. The
Inspection Team noted significant differences in resident satisfaction compared to the
AFRH-W facility.


Recommendations, Management Comments, and
Our Response
Recommendation 13
Armed Forces Retirement Home Chief Operating Officer:

         a.	 Support   the    Armed      Forces    Retirement   Home     –   Gulfport
           Healthcare Services leadership in tailoring standard operating
           procedures to fit the facility. Utilize the expertise of these leaders
           to improve policies and procedures at the Armed Forces Retirement
           Home Agency and Armed Forces Retirement Home – Washington, D.C.




                                                                                     DODIG-2014-093 │ 85
Results – Part A



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, noting that the recommendation was in progress.
                 SOPs are being reviewed as a part of the preparation for The Joint Commission
                 accreditation. Where there are differences in operations due to the uniqueness of
                 each campus, the SOP will reflect it.


                 Our Response
                 Management’s comments were responsive.         We will request an update on this
                 issue at a later date.

                          b.	 Support the conversion of the contract nursing education position
                             to a General Schedule position and ensure that nursing orientation
                             and education programs are fully implemented.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO reported that the recommendation was complete. The educator
                 position was converted to a GS position with appropriate duties.


                 Our Response
                 Management’s comments were responsive. No further action is required.

                          c.	 Re-evaluate the General Schedule grading decision regarding the
                             Government employee grade level for Nurse Practitioners. Consult
                             the Senior Medical Advisor to assist with such decisions in the future.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the General Schedule grade for Nurse
                 Practitioners was evaluated and determined to be appropriate for the locale.
                 Management provided examples from postings on USA Jobs from Health and
                 Human Services and MEDCOM for comparison with AFRH GS pay scales.


                 Our Response
                 Management’s comments were responsive. No further action is required.




86 │ DODIG-2014-093
                                                                                                      Results – Part A




Observation 14
Accreditation and Prior Inspections

The DoD IG Inspection Team observed that:

                •	 Although AFRH had developed policies to correct prior CARF34 and
                   DoD IG findings35 related to critical incidents, data collection, and
                   performance improvement, AFRH failed to fully implement these policies.

                •	 The CARF findings of failing to consider and include the resident in
                   multiple issue areas continued to be an issue at AFRH-W.

                •	 AFRH was not in compliance with section 411(g), title 24 United States
                   Code (24 U.S.C. § 411(g) [2012]), which requires all aspects of the
                   organization to be accredited by a nationally recognized civilian
                   accrediting organization.

                •	 The USD (P&R) and the AFRH did not implement the prior DoD IG
                   inspection recommendation to ensure applicable DoD guidance was
                   implemented at AFRH.

This occurred because of:

                •	 failure to adequately implement AFRH policy due to a lack of sufficiently
                   capable medical and healthcare leadership at the AFRH Agency and AFRH-W;

                •	 failure to implement the PCC approach at AFRH-W;

                •	 failure to hire the best qualified medical personnel (See Observation 7);

                •	 failure of management to take appropriate disciplinary actions;

                •	 failure to ensure that all aspects of AFRH medical operations are accredited,
                   as required by law; and

                •	 inadequate oversight of AFRH by the USD (P&R).




	 34	
        Can be obtained by request from AFRH management.
	 35	
        “Inspection of the Armed Forces Retirement Home” [Report # IE-2010-002], February 25, 2010.




                                                                                                      DODIG-2014-093 │ 87
Results – Part A



                 This has led to:

                          •	 no correction of processes or individual actions that could lead to critical
                            incidents or other adverse events, resulting in recurrence of these types
                            of events;

                          •	 lowered quality of resident care at AFRH-W;

                          •	 low staff morale at AFRH-W; and

                          •	 failure to meet requirements of United States Code.


                 Discussion
                 Accreditation
                 In accordance with 24 U.S.C. § 411 (2012), the AFRH COO was required to
                 “secure and maintain accreditation by a nationally recognized civilian accrediting
                 organization for each aspect of the Retirement Home, including medical and dental
                 care, pharmacy, IL, AL, and nursing care.”      The Joint Commission has standards
                 to cover all these areas of the AFRH in their LTC and Ambulatory Accreditation
                 programs, with the exception of IL. In addition, The Joint Commission requires
                 a periodic performance review be performed midway through the accreditation
                 cycle. With assistance from DHA, this requirement would have helped the AFRH
                 meet the expectation for an annual performance review.            The AFRH is a unique
                 organization, unlike most civilian organizations that provided these services. There
                 was no single civilian accrediting organization in existence which could cover all
                 of the services, functions, and components of the AFRH.           Thus, a single civilian
                 accreditation organization has not been designed to cover all AFRH services.

                 In 2007, the AFRH switched the accreditation of their LTC services from
                 The Joint Commission to CARF. Prior to this change, The Joint Commission
                 accredited the AFRH LTC and outpatient clinics (Ambulatory Care).  A 2007
                 GAO    report—GAO-07-79OR,      “Armed    Forces   Retirement      Home:   Health   Care
                 Oversight Should Be Strengthened,” May 30, 2007—identified the IL and AL
                 areas as not covered by The Joint Commission and also noted there was no single
                 standard‑setting organization that covered all areas of the AFRH.          However, the
                 GAO report incorrectly noted that IL was a care area. IL is not a care area, but
                 an independent residential living arrangement where residents lived in close
                 proximity to healthcare services, but were not provided any additional healthcare
                 services in their suites or assistance with activities of daily living. IL residents




88 │ DODIG-2014-093
                                                                                       Results – Part A



were able to remain independent and self-sufficient. They had to seek assistance
or care, if needed or desired, as they would if they were living outside of
an institutional setting.             IL residents (as well as all residents) could seek
healthcare at the wellness clinic located on the AFRH facility or at an offsite
location. Services provided at both AFRH facilities were similar to those found in
similar clinics outside of AFRH.

It appeared the GAO report provided AFRH the impetus to switch to CARF
accreditation, even though that did not seem to be the intent. AFRH switched
from The Joint Commission to CARF which covered the IL and AL functions
of the Home and addressed concerns noted in the GAO report. However,
the more critical care areas of medical, dental, and pharmacy services were
no longer accredited by a nationally recognized accreditation institute as
required by law.36                 Therefore, in retrospect, AFRH should have made the
decision to add CARF for the areas not covered by The Joint Commission
rather than to completely drop The Joint Commission altogether.

CARF accredited multiple types of services in the following categories:

               •	 Aging Services,

               •	 Behavioral Health,

               •	 Business and Services Management Network,

               •	 Child and Youth Services,

               •	 Durable Medical Equipment,

               •	 Prosthetics,

               •	 Orthotics and Supplies,

               •	 Employment and Community Services,

               •	 Medical Rehabilitation,

               •	 One-Stop Career Center,

               •	 Opioid Treatment Program, and

               •	 Vision Rehabilitation Services.


	36	
       24 U.S.C. § 411(g) (2012)




                                                                                       DODIG-2014-093 │ 89
Results – Part A



                 AFRH has been previously accredited under the CARF Aging Services programs
                 that included:

                                 •	 Assisted Living,

                                 •	 Person-Centered Long-Term Care Community,

                                 •	 Continuing Care Retirement Community, and

                                 •	 Dementia Care Specialty Program.

                 As mentioned previously, medical and dental care and pharmacy are specific areas
                 that must be accredited by a nationally recognized civilian agency. However, CARF
                 standards were not appropriate for the AFRH’s primary care mission. The CARF
                 accreditation program did not include standards for medical, dental, rehabilitation,
                 and pharmacy services provided in both inpatient and outpatient settings, but
                 were focused on organizational structure, with minimal clinical standards.                                                CARF
                 had few specific standards related to the actual care provided at the AFRH,
                 such as those related to medication management. In addition, CARF did
                 not have standards for addressing pain management, waived testing,37 or
                 rehabilitation services.

                 Most CARF standards related to arranging for the provision of healthcare, not the
                 quality of care actually provided. The Joint Commission, which heretofore accredited
                 the LTC aspect of the AFRH, had standards for provision of care, medication
                 management, and waived testing. The Joint Commission also had an Ambulatory
                 Care Accreditation program, which covered the outpatient mission of the AFRH.

                 In September/October 2011, AFRH was accredited by CARF for the following programs:

                                 •	 Continuing Care Retirement Community,

                                 •	 Person-Centered Long-Term Care Community, and

                                 •	 Person-Centered Long-Term Care Community: Dementia Care Specialty
                                     Program (AFRH-W).

                 Neither facility was accredited under the AL program. Review of CARF standards
                 reveals that the programs, under which AFRH-W and AFRH-G were accredited,
                 were all part of the LTC standards. The AFRH-G AL residents were integrated


                 	 37	
                         Waived testing performed at AFRH consisted of finger-stick blood sugar tests performed with a glucometer by the
                         nursing staff.




90 │ DODIG-2014-093
                                                                                                                            Results – Part A



into the LTC areas. The AFRH-W AL residents were on a separate wing of the
LTC area. There was very little difference between AL and LTC in the AFRH
facilities. Therefore, accreditation under the LTC program was most appropriate.
In addition, at the time of the CARF survey, AFRH-G did not otherwise have a
Dementia Care program. Therefore AFRH-G did not receive accreditation for
this area.

Both AFRH-W and AFRH-G CARF accreditation reports included the following sections:

                •	 survey summary,

                •	 accreditation decision,

                •	 exemplary conformance,

                •	 consultation recommendations for each area,

                •	 a table of standards with “non-conformance” or “partial conformance,” and

                •	 benchmarking (including graphical comparisons to the aggregate of
                    facilities surveyed by CARF.

The DoD IG Inspection Team’s review of the AFRH 2011 CARF accreditation
reports addressed these sections, as they related to healthcare. The specific
standards referenced in the reports were from the 2011 CARF manual.

AFRH-G had no findings related to healthcare in its CARF accreditation report.
The staff members present for the CARF visit noted that the surveyors were very
impressed with AFRH-G’s buildings and structures and did not otherwise look deeply
in to its operation.

AFRH-W received a rating of non-conformance38 from CARF with regard to the a
nalysis of the following critical incidents:

                •	 medication errors,

                •	 use of seclusion/restraint,

                •	 incidents involving injury,

                •	 communicable disease,


	 38	
        The organization is expected to demonstrate conformance to applicable CARF-CCAC standards in the areas under
        accreditation review. CARF rates the organization’s level of conformance (nonconformance, partial conformance and
        conformance) in the areas under review in their accreditation report.




                                                                                                                            DODIG-2014-093 │ 91
Results – Part A



                            •	 infection control,

                            •	 abuse,

                            •	 failure to meet standards of care,

                            •	 suicide or suicide attempt,

                            •	 sexual assault,

                            •	 other sentinel events, and

                            •	 some incidents unrelated to healthcare.

                 AFRH-W also was cited for non-conformance because they failed to address the
                 necessary education and training of personnel and the prevention of recurrence
                 of the critical incident. AFRH-W also had multiple areas of partial conformance or
                 non‑conformance related to healthcare. These findings centered on failure to
                 execute two main issue areas:

                      1.	     The collection, analysis, and use of appropriate data to improve
                              resident care performance including:

                                a.	 Review of formal complaints to determine trends, areas needing
                                    performance improvement, and actions to be taken.

                                b.	 PI data. Written analysis was supposed to be performed at
                                    least annually.         The information was to be used to review
                                    the implementation of the mission and core values of the
                                    organization and to improve the quality of programs and services.

                                c.	 Sharing      of   data    from    the   data    collection     system        with
                                    residents, including resident satisfaction, experience with care, and
                                    personnel satisfaction.

                      2.	     Inclusion    of    resident    preferences    in    multiple    aspects      of    care
                              planning for the individual including:

                                a.	 Conducting written screenings/assessments in response to changes
                                    in preferences of the persons served.

                                b.	 Implementing       PCC    plans   which      address     the   goals    of    the
                                    persons served.




92 │ DODIG-2014-093
                                                                                     Results – Part A



             c.	 Assisting the persons served to set personal goals.

             d.	 Implementing    the   PCC    plan   for   the   person   served   and
                 modifying the plan as the status of the person served changes.

Additional findings concerned security of records and data collection regarding
the learning environment for personnel.

The CARF findings of non-conformance with regard to the analysis of critical
events, the partial non-conformance regarding the collection and use of data to
improve processes, the IG recommendations regarding the incorporation of all
clinical provider services into the medical staff committees, and the need for formal
follow‑up processes to address issues identified through risk management and other
means are all related. They concern shortcomings in identification of key issues,
taking appropriate action, implementing changes/education, and following up to
ensure improvement or resolution of the issues.

The DoD IG Inspection Team determined that, when unit nursing staff members
were asked about handling critical incidents, they were not aware of the related
policy, could not define a critical incident, and did not know how to report
a critical incident or what to do if they injured themselves. Therefore, the
CARF finding with regard to critical incidents remained an issue.

At the time of the inspection, AFRH had recently issued agency-level documents
on internal controls and PI. The PI program was in its infancy. If AFRH
modifies these programs, as addressed earlier, and continues to progress
they could eventually have a working process to address these areas.

AFRH Agency Notice 12-10 “AFRH Person-Centered Care Manual,” July 2012,
promoted an approach which involved the residents in their care. The DoD IG
Inspection Team noted that this manual was not published until July 2012,
despite the CARF findings in September 2011. The DoD IG Inspection Team
also determined that AFRH-W was not observing the PCC philosophy in their
practice. In contrast, DoD IG Inspectors observed that the staff members at
AFRH-G were very focused on providing PCC.




                                                                                     DODIG-2014-093 │ 93
Results – Part A



                 Prior Inspections
                 The 2010 DoD IG Inspection of AFRH-W healthcare recommendations included
                 issues related to:

                          a.	 I-1: The CHS position vacancy.

                          b.	 I-2: Accreditation for all aspects of the home’s functions and supplementing
                             CARF accreditation. The recommendation directed the Deputy Director
                             DHA to perform reviews to determine an appropriate supplement to CARF.

                          c.	 I-3: Establishment of formal dental referral coordination affiliations.

                          d.	 I-4: Incorporation of all clinical care provider services, assessments and
                             activities into the Medical Executive Committee meetings and minutes.

                          e.	 I-5: Formal follow-up processes for addressing issues identified through
                             risk management and other means.

                 The DoD IG recommendation I-1 in the 2010 DoD IG Inspection report regarding
                 the healthcare services position vacancy was resolved as the position had
                 been filled internally. HR issues regarding the emphasis on, and problems
                 related to, internal personnel fills have already been discussed.

                 The DoD IG recommendation I-2 in the 2010 DoD IG Inspection report to
                 supplement the CARF accreditation had not been accomplished. According to
                 DoD IG recommendation I-2, “The USD (P&R) should direct the SMA (Deputy
                 Director DHA) to determine, in consultation with the Armed Forces Retirement
                 Home Chief Operating Officer and Medical Director, an appropriate practice
                 for supplementing CARF accreditation through a focused, ongoing clinical review
                 and oversight element.”     The AFRH COO and DHA engaged in a clinical review,
                 but did not determine an appropriate supplement to the CARF accreditation, as
                 recommended. The act of engaging in a “focused, ongoing clinical review and
                 oversight element” does not meet the requirements of 24 U.S.C. § 411(g) (2012)
                 for “accreditation by a nationally recognized civilian accrediting organization for
                 each aspect of the each facility of the Retirement Home, including medical and
                 dental care, pharmacy, IL, and AL and nursing care.”                The review was not
                 intended to, nor did it, meet the requirement for additional accreditation. To
                 meet the intent of 24 U.S.C. § 411(g) (2012), the AFRH must seek and obtain an
                 appropriate supplement to CARF accreditation.




94 │ DODIG-2014-093
                                                                                   Results – Part A



DoD IG recommendation I-3 in the 2010 DoD IG Inspection report to set up a
dental memorandum of agreement due to inadequate dental services was
no longer necessary. At the time of the 2010 DoD IG inspection, AFRH-W
had twice as many residents as they did during the 2012 DoD IG inspection,
due to closure of the AFRH-G after Hurricane Katrina. At the time of the
2012  inspection, the DoD IG Inspection Team determined that the dental
resources available through the contract mobile dental service were sufficient to
meet the needs at AFRH-W.

In addition to the healthcare-related DoD IG recommendations, several other
recommendations from the 2010 DoD IG Inspection report were identified as still
pertinent in the 2012 DoD IG inspection.

Recommendation A-7 in the 2010 DoD IG Inspection report stated that the
USD (P&R) “should promulgate all desired DoD guidance deemed applicable
to the AFRH.”  This had not been accomplished. USD (P&R) cited language
in   paragraph   4.b.   of   DoDI   1000.28,   “Armed   Forces   Retirement   Home,”
February 1, 2010, as justification for not implementing this recommendation,
missing the intent of the recommendation. The recommendation still applies.


Other Issues
At the time of the inspection, the AFRH was using the BPD to investigate all
nursing issues. However, it was not appropriate to use BPD to document all
quality assurance actions because BPD did not have the medical expertise to
appropriately assess certain situations. For instance, investigation of privileged
providers should not be done through BPD and investigation of other issues, such
as sentinel events, may or may not be appropriate for reporting to BPD. BPD
should follow DoD and AFRH policies on privileged providers.


Recommendations, Management Comments, and
Our Response
Recommendation 14.a
Under Secretary of Defense for Personnel and Readiness, require the Chief
Operating Officer to meet the requirements of section 411(g), title 24 United
States Code to have all services of the Armed Forces Retirement Home
accredited by a nationally recognized civilian accrediting organization.




                                                                                   DODIG-2014-093 │ 95
Results – Part A



                 Under Secretary of Defense for Personnel and Readiness Comments
                 USD (P&R) concurred, stating that the process is underway to get accreditation for
                 those AFRH services not currently accredited.


                 Our Response
                 Management’s comments were responsive. We will request an update on this issue
                 at a later date.


                 Recommendation 14.b
                 Armed Forces Retirement Home Chief Operating Officer:

                       (1)	 Improve policies addressing data collection, analysis, performance
                              improvement, and staff education. Implement the improved policies
                              and evaluate the implementation.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was in progress.
                 The AFRH Agency provides oversight in PI and risk management in a
                 continuous     improvement       manner.       Staff   education    regarding   performance
                 improvement        will   continue   to   be     promoted    to    enhance   efficiency   and
                 effectiveness in services rendered, as well as to control operational costs.


                 Our Response
                 Management’s comments were responsive. We will request an update on this issue
                 at a later date.

                       (2)	 Establish metrics to determine and measure progress made on
                              implementation of person-centered care.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was in progress.
                 Metrics were being developed as part of the preparation for The Joint Commission
                 accreditation process.


                 Our Response
                 Management’s comments were responsive. We will request an update on this issue
                 at a later date.




96 │ DODIG-2014-093
                                                                             Results – Part A



      (3)	 Add accreditation from The Joint Commission for Long Term Care
            and Ambulatory Care.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the accreditation process for Ambulatory
and Nursing Care by The Joint Commission is underway. This is expected to
occur in September 2014.


Our Response
Management’s comments were responsive. We will request an update on this issue
at a later date.

      (4)	 Continue Commission on Accreditation of Rehabilitation Facilities
            Accreditation as a Continuing Care Retirement Community.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the AFRH will maintain necessary
accreditations to meet legislative accreditation requirements.


Our Response
Management’s comments were responsive. We will request an update on this issue
at a later date.




                                                                             DODIG-2014-093 │ 97
                             Results – Part B




Results – Part B
Human Resources Management




                             DODIG-2014-093 │ 99
Results – Part B




                 Human Resources Management
                 Introduction
                 The AFRH contracted out its staffing functions to the BPD in Parkersburg,
                 West  Virginia.              The DoD IG Inspection Team traveled there to review staffing
                 case files and the corresponding electronic official personnel files to ensure
                 compliance with various requirements of title 5, United States Code of Federal
                 Regulations (1999) [5 CFR (1999)].                             Instances of non-compliance are discussed
                 below.  The DoD IG Inspection Team used the OPM checklist forms, titled
                 “Delegated            Examining          Action      Review”39         and      “Merit      Promotion          Audit,”40      to
                 document the inspection.  These OPM checklists referenced 5 CFR (1999) criteria
                 related to the HR function.                     Additionally, the DoD IG Inspection Team interviewed
                 AFRH and BPD HR personnel and reviewed 5 CFR (1999) and AFRH HR directives
                 to understand AFRH HR strategies and to ensure that they were in compliance
                 with merit system principles.  The DoD IG Inspection Team also reviewed
                 OPM’s “Armed Forces Retirement Home Human Capital Management Evaluation
                 Report, Q1 FY 2010,” March 2010, regarding AFRH HR operations.




                 	 39	
                         “Delegated Examining Authority” is the hiring authority used to fill competitive service jobs with competitive and
                         noncompetitive status Federal applicants and non-Federal employees. An audit of the process, facilitated by a Delegated
                         Examining Action Review checklist, determines whether the process meets provisions of 5 U.S.C. § 2301. OPM Delegated
                         Examining Operations Handbook, dated May 2007.
                 	 40	
                         “Merit Promotion Audit” facilitated by the Merit Promotion Audit Checklist, is a review of the process for hiring
                         under the merit promotion category, opened solely to current, permanent, competitive service employees
                         of any Federal agency. Retrieved from the Department of Homeland Security website:
                         http://www.dhs.gov/common-terms-job-opportunity-announcements, April 9, 2013.




100 │ DODIG-2014-093
                                                                                                                                     Results – Part B




Observation 15
Inadequate Documentation of the Outcome of Career
Transition Assistance Plan Clearance

BPD did not adequately document the outcomes of Career Transition Assistance
Plan (CTAP)41 clearance. There was not a clear audit trail to see who was cleared.

The AFRH CTAP SOP lacked guidance on documenting the clearing of CTAP outcomes.

AFRH could not verify that CTAP was cleared during the application process or
that well-qualified CTAP candidates received priority over non-CTAP candidates
in the selection process, as directed by 5 CFR (1999).


Discussion
CTAP           provided         intra-agency          selection        priority       for     the      agency’s        displaced
employees.  Thus, CTAP required agencies to give selection priority to their
own well‑qualified, surplus employees who applied for vacancies.                                                  With a few
exceptions, the agency must have selected surplus employee applicants who
applied and were well qualified before any other candidate from within or outside
the agency.             At the time of the inspection, the BPD had a checklist where they
could mark off if CTAP was cleared.                             However, there was no other evidence that
CTAP was cleared (control number from the computer system, documentation
of qualification determinations, etc.).                            Providing additional evidence that CTAP
was conducted and cleared would have helped ensure an audit trail for a third
party to accurately assess the soundness of AFRH hiring practices and AFRH’s
compliance with Federal regulations.




	 41	
        CTAP is a career transition program that provides priority for the agency’s eligible and displaced employees when filling
        vacancies. U.S. Office of Personnel Management, The Employee’s Guide to Career Transition,” July 2003.




                                                                                                                                    DODIG-2014-093 │ 101
Results – Part B



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 15
                 Armed Forces Retirement Home Chief Operating Officer, coordinate with the
                 Bureau of Public Debt to develop a process for documenting the requisition
                 number and the dates that the Career Transition Assistance Plan was cleared.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was complete.  The
                 Administrative      Resource      Center      has      re-engineered    operations,     developing
                 multiple training tools, work logs and check sheets; SOPS were examined
                 and   updated;      a    formalized      training    program      developed   and     implemented;
                 and   a   Quality       Control   Plan    was       implemented    in   FY    2013.  Management
                 provided a copy of the Staffing Quality Control Program and Staffing Peer
                 Review Procedures.


                 Our Response
                 Management comments were responsive. We will look at this area again during our
                 next inspection.




102 │ DODIG-2014-093
                                                                                          Results – Part B




Observation 16
Lack of Transparency in Armed Forces Retirement
Home Hiring Practices

AFRH Agency’s hiring practices were not sufficiently transparent.

The   AFRH       Agency     administration   was    not   accurately   following   required
HR procedures or OPM guidelines, or effectively communicating its hiring practices
to employees. During on-site sensing sessions with AFRH Agency personnel, many
of the AFRH personnel in attendance were not fully aware of, or clear about,
AFRH staffing and HR policies.

As a result, some AFRH employees believed hiring practices at AFRH were unfair
and this lowered employee morale.


Discussion
BPD used a veterans preference checklist, which provided a useful reference for
HR Specialists to adjudicate and ensure the integrity and use of veterans
preference.     However, during the inspection, the DoD IG Inspection Team found
the following areas of concern:

        •	 The CHS position was announced and cancelled several times (the
              position was opened three times in AFRH-W and twice in AFRH-G). On
              two occasions, the position was cancelled because the PD needed to be
              re‑written.   On another occasion, the position was cancelled with no
              reason given. Industry best practices require that PDs are finalized before
              the position is announced.     If a hiring manager wanted to cancel the
              position announcement, a written justification should have been given.
              Additionally, more rigor needed to have been applied when non-selecting
              someone for a position.    For instance, requiring the hiring manager to
              document reasons for non-selecting.

        •	 The PD for the Medical Director was still in draft format at the
              time of the inspection.  PDs should have been finalized before a
              person was placed into a position.




                                                                                         DODIG-2014-093 │ 103
Results – Part B



                          •	 Additionally, there was no documentation saved in the electronic Official
                            Personnel file regarding the adjudication of the foreign education
                            or board certifications for the Medical Director and the CMO.         OPM
                            guidelines required the applicant to show that:  (1) their medical
                            education credentials had been evaluated by a private organization that
                            specialized in the interpretation of foreign education programs, and
                            (2) that such education had been deemed equivalent to education gained
                            in an accredited U.S. education program.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 16
                 Armed Forces Retirement Home Chief Operating Officer:

                          a.	 Ensure that hiring managers provide documentation with justification
                            for cancelling position announcements and document reasons
                            for non‑selection.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that selecting officials retain the documentation
                 and justification for cancelling positions and non-selection.


                 Our Response
                 We accept management’s comments as responsive, although the intent of the
                 recommendation was to ensure that the HR office collect and retain documentation and
                 justification (for cancelling position announcements) from the selecting officials. We
                 will check this area again on our next inspection.

                          b.	 Ensure that position descriptions are finalized before a job is
                            announced and employees come on duty.                 Review all position
                            descriptions when positions are vacant before they are announced.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that all position descriptions are reviewed prior
                 to beginning the recruiting process.




104 │ DODIG-2014-093
                                                                                Results – Part B



Our Response
We accept management comments were responsive. We will check this area again on
our next inspection.

        c.	 Ensure that the Human Resource Office sends e-mails out to
           employees informing them of all Armed Forces Retirement Home
           open positions. Additionally, ensure all positions are posted in the
           Armed Forces Retirement Home intranet.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred with the recommendation, stating that all job
announcements are provided to employees via email and copies are posted on
bulletin boards in employee common areas.


Our Response
Management comments are responsive.  No further action needed at this time.

        d.	Coordinate with the Bureau of Public Debt to ensure staffing case
           files and electronic Official Personnel Files contain all necessary
           information (for example resume, transcripts, veteran’s preference
           documents, and clearance of Career Transition Assistance Plan).

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the recommendation was complete.        The
Administrative Resource Center has re-engineered operations, developing multiple
training tools, work logs and check sheets; SOPS were examined and updated; a
formalized training program developed and implemented; and a Quality Control Plan
was implemented in FY 2013.


Our Response
We accept management comments as responsive. We will check this area again on
our next inspection.

        e.	 Ensure that all vacancies are posted on external locations such as
           USAJobs and that the vacancies’ area of consideration is sufficiently
           broad to ensure availability of highly qualified candidates.




                                                                               DODIG-2014-093 │ 105
Results – Part B



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred with recommendation, noting that all vacancy
                 announcements are posted on USAJobs, Monster.com, and Indeed.com, as well
                 as on trade websites.


                 Our Response
                 Management comments were responsive.   No further action needed at this time.




106 │ DODIG-2014-093
                        Results – Part C




Results – Part C
Financial Management




                       DODIG-2014-093 │ 107
Results – Part C




                 Financial Management
                 Overall Assessment
                 Since 2009, the AFRH had improved its overall financial management of deficient
                 areas noted in the 2010 DoD IG Inspection report. AFRH’s financial statements for
                 fiscal years 2009–2011 demonstrated compliance with the Chief Financial Officer’s
                 Act of 1990. Supporting this assessment, the independent auditor (Brown & Company
                 Certified Public Accountants) concluded that the AFRH’s financial statements
                 fairly presented AFRH’s financial position.    In addition, the financial statements,
                 accompanying notes, and opening narrative of the annual Performance and
                 Accountability Report (PAR) described an organization that had maintained a solvent
                 financial state during periods of economic hardship.

                 Review of AFRH’s financial statements, footnotes, and other financial information
                 found in AFRH’s PAR supported AFRH’s claims of solvency.         Comparison of the
                 2  years presented in each reporting period focused on fluctuations of certain
                 accounts.   Specifically, major fluctuations were observed in the fund balance with
                 treasury.  The account’s 2008 starting balance of $175,561,312 dropped to
                 $76,282,883 in 2009, then to $13,824,429 in 2010, and finally ended with a balance
                 of $4,814,306 in 2011.  This dramatic decline in the account’s balance during the
                 period 2008-2011 raised the DoD IG Inspection Team’s concern about the viability
                 of AFRH’s trust fund.  AFRH’s financial statement footnotes, interviews with the
                 AFRH financial staff, and additional financial-related discussions located in the PAR
                 supported the conclusion that the fund balance drawdown was strongly related
                 to the reconstruction of the AFRH-G facility and other AFRH property, plant, and
                 equipment investments.

                 Review of the 2010 DoD IG Inspection report verified that AFRH’s commitment
                 to doing auditable financial statements continued into the current 3-year scope
                 of the inspection. All three financial statements reviewed received clean opinions
                 from Brown and Company Certified Public Accountants.  Each year, AFRH also
                 received internal control reports stating that the internal control and its operation
                 contained no  significant deficiencies or material weaknesses.  Additionally, the
                 three reports noted AFRH’s compliance with laws and regulations which could have
                 a direct and material effect on the determination of financial statement amounts.




108 │ DODIG-2014-093
                                                                                     Results – Part C



Review of the budget and the process of creating the budget indicated
satisfactory results.     During the inspection, the Financial Management Officer
demonstrated AFRH’s process for developing its 2013 budget, using multiple
examples.    The execution of the current budget was also demonstrated from the
individual purchase, down through reconciliation, and finally to the actual budget
element. However, review of the Financial Management Officer’s process for developing
the 2012 budget raised concern.  Without constant assistance, monitoring, and
advice from the Financial Management Officer, the budget process would not have
succeeded.     Efforts at the agency level depended on input from the AFRH-W
and AFRH-G financial staff.      The DoD IG Inspection Team determined that more
experience was needed at the individual facility locations.     The facility financial
staff needs more experience and training to make the overall budget process more
effective and efficient.  Without the knowledge and management efforts of the
Financial Management Officer, the yearly budget proposal would not have been of
acceptable quality.

The annual PAR served as a depository for most of the elements needed to review
the financial management of AFRH.  The PARs for 2009–2011 were reviewed.
The PAR included the annual financial statements, the opinion on those financial
statements by an independent auditor, the statement of assurance, and a wide
ranging discussion of the overall operations of AFRH.      The annual statement of
assurance was management’s assertion that the organization was reasonably assured
of having functioning internal controls and that any material weaknesses had
been reported. The annual statement of assurance also asserted that AFRH was in
compliance with all applicable laws and regulations. The DoD IG Inspection Team
determined that all statements of assurance reviewed were positive.

The financial statements published in the annual PARs were also reviewed.  The
opinion of the independent auditor was part of the financial statements. All three
opinions stated that the financial statements presented the financial position of the
AFRH fairly.  Additionally, the financial statements were compared and significant
variations between years of any accounts were researched.  No unexplained
issues were identified.

Financial transaction processing was integral to the review of the PARs and the
budget process. BPD and AFRH had a reconciliation process that had served as a
control over financial transaction processing.   The 2010 DoD IG Inspection report




                                                                                    DODIG-2014-093 │ 109
Results – Part C



                 on financial transaction processing observations was reviewed and no concerns
                 were identified.   The additional controls put in place since the 2010 DoD IG
                 Inspection report were determined to be adequate and functioning properly.

                 However, the DoD IG Inspection Team’s analysis of AFRH’s management of
                 purchase card use and internal controls identified some areas where improvement
                 was needed.




110 │ DODIG-2014-093
                                                                                  Results – Part C




Observation 17
Inadequate Oversight of Convenience Checks Used by
Armed Forces Retirement Home Purchase Cardholders

Oversight of convenience checks was inadequate.

Approving officials were not effectively monitoring convenience check usage of
assigned purchase cardholders.

As a result, a purchase cardholder had utilized convenience checks for transactions
prohibited by the U.S.    Department of Treasury and in violation of AFRH Agency
Directive 3-1, “Financial Management,” July 18, 2012.


Discussion
The use of convenience checks was strongly discouraged by AFRH Agency
Directive 3-1.  AFRH Agency Directive 3-1 stated that convenience checks
were only to be used when vendors did not accept purchase cards.  At the
time of the inspection, both AFRH-G and AFRH-W facilities utilized convenience
checks in lieu of purchase cards for this reason.  Examples included paying for
services provided by small companies or individuals, such as piano tuning, or to
reimburse residents who voluntarily made purchases for AFRH.  Convenience
checks were issued to the administrative officers at each facility.  They were
the only AFRH personnel authorized to make purchases with convenience
checks.  Administrative officers were prohibited from purchasing items for
personal use, items that were not authorized by AFRH, or items on the do not
buy list.     However, after reviewing the purchase card and convenience check
transaction logs, the DoD IG Inspection Team observed that a convenience check
holder was using convenience checks inappropriately for purchases that should
have been disallowed by the convenience check holder’s approving official.

Purchases were made with convenience checks to fund:

            •	 Unbudgeted medical reimbursements that were funded from already
              obligated funds.    The accounting    strings, merchant    names, and
              merchant category classification codes for some of these transactions
              were found to be incorrect and this was still reflected in the BPD
              purchase card transaction report, but not captured in BPDs audit.


                                                                                 DODIG-2014-093 │ 111
Results – Part C



                         •	 Travel expenses of job applicants who traveled to Gulfport for
                            interviews.      Although authorized by management, this was a clear
                            violation of the AFRH Agency Directive 3-1 and BPD purchase
                            card procedures.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 17
                 Armed Forces Retirement Home Chief Operating Officer:

                         a.	 Develop policies that ensure that the Armed Forces Retirement
                            Home Agency Chief Financial Officer directs the Purchase Card
                            Program       Coordinator   to   require   all   approving   officials   and
                            cardholders that use or approve convenience checks to attend refresher
                            training on convenience checks that stresses the restrictions on
                            their use.

                 AFRH COO’s Comments
                 AFRH COO concurred with this recommendation.


                 Our Response
                 Management’s comments were responsive.        We ask that the AFRH COO provide a
                 copy of training documentation in response to the final report.

                         b.	 Develop policies that ensure the Armed Forces Retirement Home
                            Agency Chief Financial Officer direct the Purchase Card Program
                            Coordinator to require approving officials to closely monitor use
                            of all convenience checks to confirm compliance with guidance
                            by preapproving all convenience check purchases.

                 AFRH COO’s Comments
                 AFRH COO concurred, commenting that AFRH Agency Directive 3-1 will be
                 updated to require pre-approval by the Campus Administrator and/or Corporate
                 Resource Approver only.


                 Our Response
                 Management’s comments were responsive.          We will request an update on this
                 recommendation at a later date.



112 │ DODIG-2014-093
                                                                                        Results – Part C




Observation 18
A Number of Funds are Not Being Audited

Although required by AFRH-W SOPs, AFRH-W Business Center personnel were not
conducting required audits/cash counts of AFRH funds, including the Chaplain’s
Fund (Catholic and Protestant Funds), Security’s petty cash, the Golf Shack’s
cash drawers, and two safes on the premises (one in the LaGarde Building
and one in Security).

The DoD IG Inspection Team determined that AFRH-W Business Center personnel
were unaware of these requirements, as defined in SOPs.

Consequently, theft or misuse of the funds could occur without detection, although
there was no indication that this had occurred.


Discussion
AFRH-W SOPs, No. W-OA-ADM-1-06, “Fund and Gift Accountability,”            July 6, 2012,
and No.     W-OA-BUS-2-04, “Miscellaneous,” July 6, 2012, required the AFRH-W
Business Center to conduct audits of various AFRH funds and provided the
requirements for the cash count and audit of these funds.  The “Fund and
Gift Accountability” SOP required an audit of the non-appropriated petty
cash and change funds.       The “Miscellaneous” SOP required monthly audits of
Security’s petty cash, the Golf Shack’s cash drawers, and the safes located in the
LaGarde Building and in the Security Office of the Sheridan Building.  In addition,
both the “Miscellaneous” and the “Fund and Gift Accountability” SOPs required the
Business Center staff to conduct quarterly audits of the Religious Service’s Catholic
and Protestant Funds and to “.  .  .  facilitate an annual outside audit  .  .  .” of the
Chaplain’s Fund of each individual faith group, respectively.            Moreover, the
“Miscellaneous” SOP stated that the Business Center’s audits of all Religious
Service’s Catholic and Protestant Funds, including the Chaplain’s Funds, must ensure
that balances were correct, charges were appropriate, and proper documentation
was provided.     However, the DoD IG Inspection Team noted that these audits
were not being conducted because the Business Center of AFRH-W was unaware
of the requirements.




                                                                                       DODIG-2014-093 │ 113
Results – Part C



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 18
                 The Armed Forces Retirement Home Chief Operating Officer:

                          a.	 Develop policies to require the Armed Forces Retirement Home
                            Agency Chief Financial Officer to ensure that the Armed Forces
                            Retirement Home – Washington, D.C., Support Services personnel
                            initiate cash counts of all cash funds at the Armed Forces Retirement
                            Home – Washington, D.C., facility, as required by standard operating
                            procedures      W-OA-ADM-1-06,              Fund   and   Gift    Accountability,”
                            July 6, 2012, and W-OA-BUS-2-04, “Miscellaneous,” June 21, 2012.

                 AFRH COO’s Comments
                 AFRH concurred, commenting that AFRH will update AFRH Agency Directive  3-4
                 to require Campus Business Centers to provide results and certify cash audits
                 have been completed annually.


                 Our Response
                 Management’s comments were responsive. We will request a copy of the updated
                 AFRH Agency Directive 3-4 at a later date.

                          b.	 Develop policies to ensure that the Armed Forces Retirement
                            Home – Washington, D.C., Financial Management Officer facilitate
                            an annual outside audit of the Chaplain’s Funds, as required by
                            standard operating procedure, W-OA-ADM-1-06.

                 AFRH COO’s Comments
                 AFRH COO concurred, commenting that AFRH IG will perform an annual audit
                 of the Chaplain’s fund.    In addition, when AFRH Agency Directive 3-4 is updated,
                 the IG audit responsibility will be included.


                 Our Response
                 Management       comments      were        partially     responsive.  The    current   SOP,
                 W-OA‑ADM-1-06, requires an annual outside audit.  AFRH IG is an internal
                 entity and may not be the best entity to conduct this task.                 We will request
                 an update on this issue at a later date.



114 │ DODIG-2014-093
                                                                              Results – Part C



         c.	 Ensure the education and training of all Armed Forces Retirement
           Home – Washington, D.C., Business Center staff on the requirements
           of W-OA-ADM-1-06, “Fund and Gift Accountability,” July 6, 2012, and
           W-OA-BUS-2-04, “Miscellaneous,” June 21, 2012, and the procedures
           for conducting audit/cash counts.

AFRH COO’s Comments
The AFRH COO concurred with this recommendation.


Our Response
Management’s comments were responsive.         We ask that management provide
documentation confirming any training or education of noted staff, if complete,
in response to the final report.




                                                                             DODIG-2014-093 │ 115
                                Results – Part D




Results – Part D
Armed Forces Retirement Home
Inspector General Program




                               DODIG-2014-093 │ 117
Results – Part D




                 Armed Forces Retirement Home
                 Inspector General Program
                 The COO of the AFRH issued AFRH Agency Directive 1-9, AFRH Inspector General
                 Program, June 2, 2009, establishing the AFRH IG program and providing policy,
                 assigning responsibilities, and establishing procedures for the operation of the
                 AFRH IG Program.

                 As per AFRH Agency Directive 1-9, the AFRH IG:

                         a.	 serves as the COO’s principal advisor on the detection and prevention
                           of waste, fraud, abuse, and mismanagement;

                         b.	 manages the AFRH Hotline program and issues implementing guidance
                           that specifies:

                                  {{   quality standards for the AFRH Hotline Program,

                                  {{   procedures to ensure appropriate evaluation and action on all
                                       allegations of fraud, waste, abuse, and mismanagement, and

                                  {{   methods to ensure appropriate protection of the identity of
                                       sources requesting anonymity or confidentiality;

                         c.	 conducts audits and investigations and recommends policies to promote
                           economy, efficiency, and effectiveness in the administration of AFRH
                           programs and operations; and

                         d.	 serves as the AFRH POC to coordinate IG matters with external entities,
                           such as the Federal Offices of Inspectors General (e.g., DoD OIG),
                           Military Service IGs, the Office of Special Counsel, and members of
                           Congress and their staffs.




118 │ DODIG-2014-093
                                                                                      Results – Part D




Observation 19
Conflict of Interest in Dual Hatted Armed Forces
Retirement Home Inspector General Position

The AFRH IG position is a dual-hatted position with other primary responsibilities.

This happened because the COO assigned the AFRH Public Affairs Officer the
additional duties of the AFRH IG.

As a result, there is a possibility of conflict of interest between the duties of the
IG and the duties of the Public Affairs Officer when an investigation involves
issues pertaining to the Public Affairs Office.      Additionally, the duties of the IG
may get a lower priority than the duties of the Public Affairs Officer.


Recommendations, Management Comments, and
Our Response
Recommendation 19
Armed Forces Retirement Home Chief Operating Officer, convert the Armed
Forces Retirement Home Inspector General position to a full-time position,
without any additional responsibilities that could cause a conflict of interest in
the performance of Inspector General duties.


Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the AFRH Inspector General Position had
been advertised and the first round of interviews had been completed.


Our Response
Management’s comments were responsive. No further action needed at this time.




                                                                                     DODIG-2014-093 │ 119
                                                                                                                                     Results – Part D




Observation 20
Lack of Quality Standards for the Armed Forces
Retirement Home Inspector General Investigations
and Audits

The AFRH IG program does not have quality standards defined for AFRH IG audits
and investigations.

As an independent establishment within the Executive branch, the AFRH IG is not
subject to Federal or DoD IG quality standards.

                •	 The AFRH is not an independent establishment42 or designated Federal
                    entity,43 as defined in the IG Act of 1978, as amended.                                           Therefore,
                    the AFRH IG program is not subject to the Council of Inspectors
                    General for Integrity and Efficiency (CIGIE) quality standards that
                    apply to the Federal Offices of Inspectors General.

                •	 Although the AFRH COO is subject to the authority, direction, and
                    control of the Secretary of Defense, the AFRH is not part of the DoD
                    and is not subject to DoD policy and issuances, except when expressly
                    made applicable.               As a result, the AFRH IG program is not subject
                    to DoD Hotline policy, responsibilities, and procedures established
                    by the DoD IG.

Due to lack of quality standards for AFRH IG investigations and audits, the
program may lack credibility.                            They may also prove less than responsive to
DoD Hotline referrals.




	 42	
        An independent establishment is an establishment in the executive branch (other than the United States Postal Service or
        the Postal Regulatory Commission) which is not an Executive department, military department, Government corporation,
        or part thereof, or part of an independent establishment; and Government Accountability Office, 5 U.S.C. § 104.
	 43	
        Designated Federal entities are the entities listed in the Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App.),
        which requires the head of each entity to establish an Office of Inspector General (IG) and appoint an Inspector General.
        GAO report GAO-09-270, “Designated Federal Entities: Survey of Governance Practices and the Inspector General Role,”
        April 2009.




                                                                                                                                   DODIG-2014-093 │ 121
Results – Part D



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 20.a
                 Under Secretary of Defense for Personnel and Readiness update Department
                 of    Defense    Instruction     1000.28,   “Armed       Forces     Retirement    Home,”
                 February 1, 2010, to make the following Department of Defense Instruction
                 applicable to the Armed Forces Retirement Home:  Department of Defense
                 Instruction 7050.01, “Defense Hotline Program.”


                 USD (P&R) Comments
                 USD (P&R) non-concurred. As an independent agency, and in accordance with (IAW)
                 24 U.S.C   §  411(a) (2012), AFRH has legislative authority to set policy/guidance
                 to meet credible standards for audits and investigations and will also develop
                 policy in the area of Hotline activities.


                 Our Response
                 Although USD (P&R) non-concurred, we found their comments to be responsive
                 with the intent of the recommendation.           Accordingly, we find it unnecessary,
                 at the present time, to address the extent, if any, of their legislative authority.
                 We will request an update at a later date on the development of AFRH policy
                 compatible with DoD IG Hotline procedures/requirements.


                 Recommendation 20.b
                 Armed Forces Retirement Home Chief Operating Officer, revise Armed
                 Forces Retirement Home Agency Directive 1-9, “AFRH Inspector General
                 Program,” June 2, 2009, to include quality standards for Armed Forces
                 Retirement      Home     Inspector    General   audits    and     investigations.  Audits
                 should comply with the Generally Accepted Government Auditing Standards
                 published by the Government Accountability Office.                Investigative standards
                 should be modeled after the Council of Inspectors General for Integrity
                 and Efficiency Quality Standards for Investigations, November  15, 2011.




122 │ DODIG-2014-093
                                                                           Results – Part D



Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating that the AFRH would establish standards
within the AFRH Agency Directive 1-9 that meet Federal government standards.


Our Response
Management’s comments were responsive.  We will request an update on the
development of standards in this area at a later date.   Admissions/
Eligibility




                                                                          DODIG-2014-093 │ 123
                          Results – Part E




Results – Part E
Admissions/Eligibility




                         DODIG-2014-093 │ 125
Results – Part E




                 Admissions/Eligibility
                 Overall Assessment
                 The DoD IG Inspection Team examined whether AFRH’s pre-admissions process
                 sufficiently complied with resident eligibility standards defined by section 412,
                 title 24, United States Code (24 U.S.C. § 412 [2012]), AFRH directives, and
                 AFRH SOPs.                   The DoD IG Inspection Team also examined whether AFRH
                 had established and implemented a priority system for the acceptance of
                 residents once the retirement home reached maximum capacity, as required by
                 section 412(d), title 24, United States Code (24 U.S.C. § 412(d) [2012]).
                 Upon review, the DoD IG Inspection Team determined that AFRH Agency
                 directives44            and      SOPs45        were       sufficiently        written        in     accordance           with
                 24 U.S.C. § 412 (2012).                      In addition, the DoD IG Inspection Team determined
                 that         AFRH        personnel          involved        in    the      pre-admissions            process        at    the
                 agency level and at both the AFRH-W and AFRH-G facilities possessed general knowledge
                 about program requirements and executed their responsibilities in an acceptable
                 manner with a few exceptions.

                 AFRH’s pre-admissions process failed to comply with AFRH’s Agency directives
                 and facility SOPs in ensuring that:  (1) the correct personnel conducted
                 activities in the pre‑admissions process, and (2) that admissions eligibility
                 approval determinations met screening specifications directed by 24 U.S.C. § 412
                 (2012).            AFRH was not accurately following its directives to determine the
                 eligibility for applicants applying under the incapable of earning a livelihood
                 designation            and      lacked      an     adequate        process       for     assessing       and       excluding
                 applicants who may abuse drugs.  Inadequacies and contradictions in AFRH
                 Agency directives and facility SOPs contributed to AFRH’s noncompliance with
                 established procedures.

                 The DoD IG Inspection Team evaluated the execution of  AFRH’s prioritization plan
                 for the re-occupancy of AFRH-G facility, and determined that the prioritization
                 plan successfully managed the return of AFRH-G residents to the new facility
                 in Gulfport, Mississippi.


                 	 44	
                         AFRH Agency Directive 8-5C (draft), “AFRH Admissions Program,” dated July 2012.
                 	 45	
                         W-OA-ADM-1-14, “Transitions,” dated July 9, 2012, and G-OA-ADM-1-15, “Transitions,” dated July 18, 2012.




126 │ DODIG-2014-093
                                                                                        Results – Part E



The Pre-Admissions Process
The pre-admissions process was solely an agency-level function. The AFRH Public
Affairs Office managed the marketing and pre-admissions program at the agency
level and was the entry point for all applications, regardless of the facility for
which prospective residents wished to apply. The Public Affairs Office coordinated
with the prospective residents by obtaining forms and documentation required to
complete an application package. Applicants were required to obtain and provide
AFRH with evidence of their satisfactory compliance with eligibility requirements
in 24 U.S.C. § 412 (2012), as well as the eligibility requirements established by
AFRH.    Once received, the AFRH Agency Public Affairs Officer and Public Affairs
Specialist of the Public Affairs Office processed all applications and supporting
documentation for both facilities.

Applications were reviewed by the pre-admissions team, which included the Public
Affairs Officer, the Public Affairs Specialist, and the AFRH Agency Medical Director.

The  Public Affairs Specialist  and the Public Affairs Officer determined whether the
applicants met the military eligibility requirements and eligibility requirements
for applicants specifying they were “.  .  .  incapable of earning a livelihood” under
rules prescribed by the COO, as stipulated in 24 U.S.C. § 412 (2012).          Applicants
were required to provide documentation that they had satisfactorily met
at least one of the eligibility categories specified in 24 U.S.C. § 412 (2012).

The Medical Director’s assessment was conducted independently of the Public
Affairs Office.

The AFRH Medical Director:

      (1)	 provided clearance on an applicant’s ability to meet the eligibility
            requirement    of   section    412(b),   title   24,   United   States   Code
            (24 U.S.C. § 412(b) [2012]), to be without drug, alcohol, and
            psychiatric problems;

      (2)	 determined an applicant’s medical suitability for living at the retirement
            home; and

      (3)	 assessed whether or not applicants could meet Activities of Daily Living
            (ADL) to live independently.




                                                                                       DODIG-2014-093 │ 127
Results – Part E



                 In response to deficiencies reported in the 2010 DoD IG Inspection report,
                 AFRH had satisfactorily adopted measures to improve these areas of the
                 pre‑admissions process. AFRH had implemented policies and procedures to screen
                 applicants for felony convictions and excluded these applicants from admission
                 into the retirement home.  For each applicant, the AFRH Public Affairs Office
                 completed two background checks through a Web‑based contractor, L.P. Police.com,
                 to determine if the resident had a prior felony conviction which could render
                 him/her ineligible for admission into the retirement home.    The first background
                 check was conducted upon receipt of application.       A second background check
                 was conducted during the 60‑day probationary period after an applicant had
                 moved into the retirement home.

                 In addition, the AFRH COO had also taken measures to prescribe rules (guidance)
                 beyond the statutory resident eligibility categories to supplement eligibility
                 standards for the acceptance of residents into the retirement home. This included
                 AFRH Agency Directive 8-13, “Incapable of Earning a Livelihood Designation,”
                 July  3,  2012, which serves to guide eligibility decisions in determining whether
                 a person was incapable of earning a livelihood.

                 At the time of the inspection, AFRH was at full capacity and there was a
                 waiting list for acceptance.     The waiting period was up to 2 years.   AFRH was
                 following its prioritization plan in accepting new residents, as directed by
                 24 U.S.C. § 412(d) (2012) and AFRH Agency Directive 8-9A, “AFRH Resident
                 Eligibility Prioritization Plan,” October 2013.




128 │ DODIG-2014-093
                                                                                              Results – Part E




Observation 21
Noncompliance with Armed Forces Retirement Home
Directive 8-13 in Determining Applicant Eligibility

The AFRH Pre-admission Team was not using financial factors to determine whether
an applicant was eligible under the “Incapable of Earning a Livelihood” category, as
directed by AFRH Agency Directive 8-13.

This occurred because provisions of AFRH Agency Directive 8-13 materially
contradicted the AFRH Legal Team opinion.

Consequently, AFRH failed to comply with the established rules set forth in
AFRH Agency Directive 8-13 when determining whether an individual was
incapable of earning a livelihood and therefore eligible for admission into the
retirement home.


Discussion
AFRH was not following the prescribed rules, as established in AFRH Directive 8-13,
with respect to implementing criteria used to qualify applicants for admissions
under the statutory category listing resident as “.  .  .  incapable of earning a livelihood.”

According to 24 U.S.C. § 412 (2012), paragraphs (a)(2), (a)(3)(C) and (a)(4)(B),
the COO had the authority to admit applicants who he determined were:

            a.	     “.  .  .  incapable of earning livelihood because of a service connected
                    disability incurred in the line of duty in the Armed Forces,46

            b.	     “.  .  .  incapable of earning a livelihood because of injuries, disease or
                    disability,47 or

            c.	     eligible for admissions because of “.  .  .  compelling circumstances as
                    a person who served in a women’s component of the Armed Forces
                    before June 12, 1948.”48




	 46	
        24 U.S.C. § 412 paragraph (a)(2).
	 47	
        24 U.S.C. § 412 paragraph (a)(3)(C).
	 48	
        24 U.S.C. § 412 paragraph (a)(4)(B).


                                                                                             DODIG-2014-093 │ 129
Results – Part E



                 The meaning of the phrase “.  .  .  incapable of earning a livelihood” was evaluated
                 and clarified by the AFRH Legal Team review in 2009 and 2010.

                 The AFRH Legal Team concluded that AFRH should “…interpret the phrase
                 unable to earn a livelihood as [being] unable to earn means of support or
                 subsistence,” and advised AFRH to “.  .  .  [consider the fact] that courts have recognized
                 individuals as ‘unable to earn a livelihood’ even though they had an income.”49

                 During an interview, AFRH COO stated that the basis for his determination rested
                 solely on the guidance provided by the AFRH Legal Team.

                 However, AFRH Agency Directive 8-13 included several financial factors which
                 served as the basis for the AFRH Pre-admission Team in their determination of
                 whether or not an individual was incapable of earning a livelihood.                                     In addition,
                 AFRH            Agency          Directive       8-5C       (draft),       “AFRH        Admissions          Program,”
                 July  2012; AFRH Agency Directive 8-13; and AFRH-W facility SOP W-OA-ADM-1-14,
                 “Transitions,”           July    9,    2012;      and     AFRH-G        SOPG-OA-ADM-1-15,              “Transitions,”
                 July 18, 2012, required that applicants be able to pay an established monthly
                 resident fee.            The directives and SOPs’ use of means testing as a mechanism
                 for assessment not only contradicted both the legal opinion given by the
                 AFRH Legal Team and the actual eligibility assessment process used by the AFRH
                 Pre‑admissions Team, but also increased the risk of rendering the admissions
                 process unfair and inequitable. However, the AFRH Public Affairs Officer reiterated
                 several times that an applicant’s financial position was not considered in the
                 application process.              Therefore, AFRH reportedly does not deny admission based
                 on wealth or an applicant’s inability to pay resident fees.

                 In practice, the AFRH Pre-admission Team requested that the applicant provide
                 AFRH legal documentation stating they were incapable of earning a livelihood
                 and relied mostly on VA to make the determination as to whether or not an
                 individual was actually incapable of earning a livelihood.  The Pre-admission
                 Team only considered the applicant’s: (1) ability to meet requirements of
                 24 U.S.C. § 412 (2012), (2) ability to meet medical clearance requirements, and
                 (3) the applicant’s ability to live independently in their decision making process.




                 	 49	
                         Memorandum sent from 11WG/JA to AFRH COO, 3 December 2009, Subject: Legal Review of the phrase ‘unable to Earn a
                         Livelihood” paragraph 5.




130 │ DODIG-2014-093
                                                                                         Results – Part E



The contradictions between AFRH Agency Directive 8-13 and the AFRH Legal Team
opinion had rendered AFRH noncompliant with its own prescribed guidance on the
process for admitting individuals who claimed eligibility because of their ability to meet
the “incapable of earning a livelihood” requirements.


Recommendations, Management Comments, and
Our Response
Recommendation 21
Armed Forces Retirement Home Chief Operating Officer, modify Armed
Forces Retirement Home Agency Directive 8-13, “Incapable of Earning a
Livelihood Designation,” July 3,  2012, to reflect the established Armed
Forces Retirement Home practice and the Armed Forces Retirement Home
Legal Team opinion, with respect to determining eligibility of those deemed
incapable of earning a livelihood.


AFRH COO’s Comments
AFRH COO concurred, reporting that the recommendation was complete. AFRH COO
also noted that the AFRH Agency Directive 8-13 does not require modification. AFRH
Agency Directive 8-9D, dated September 26, 2013, covers the legal reviews for each
applicant applying under the incapable of earning a livelihood category.


Our Response
Management comments were partially responsive, but did not fully meet the intent
of this recommendation.     Financial criteria noted in AFRH Agency Directive  8‑13
were not being used to determine if an applicant was eligible for admission under the
“incapable of earning a livelihood” category. The issue goes beyond a legal review.  The
recommendation asked that AFRH COO revise AFRH Agency Directive  8-13 to
provide both staff and applicants an accurate picture of the methodology and criteria
used in this assessment. We will request an update on this issue at a later date.




                                                                                        DODIG-2014-093 │ 131
                                                                                                    Results – Part E




Observation 22
Inadequate Eligibility Verification Process to Exclude
Applicants Who Have Drug Abuse Problems

Current methods used to verify eligibility may fail to identify and eliminate
applicants who have a drug abuse problem.

There was no evidence that drug testing was a requirement of the admissions
process or the basis for medical evaluations used by pre-admissions personnel to
assess eligibility.

Applicants who abuse drugs may have been given admissions into the AFRH,
violating 24 U.S.C. § 412(b) (2012).


Discussion
Section 412(b), title 24, United States Code stated that a person was ineligible to
become a resident if they had been convicted of a felony or were not free from
illegal drugs, alcohol, and psychiatric problems.

Sufficient screening existed in the application process to determine whether an
applicant had a felony conviction and was free of psychiatric and alcohol problems.
However, AFRH did not have an effective means of determining whether an applicant
was free of illegal drugs.           At the time of the inspection, AFRH did not include
drug     testing      as   part   of   the   pre-admissions       process       to   determine   the
existence of current drug use by applicants.  Instead, AFRH primarily relied
on     the   “honest”      self-reporting    of   applicants     to    their    personal   physician,
who     then    reported      this     information    on   the        medical    and   psychological
evaluation forms.

Because AFRH applicants were able to self-report their history of drug use and
there was no requirement for them to be drug tested at any time during the
pre‑admissions process, there was an increased risk that some might falsify or
omit pertinent information related to illegal drug usage or prescription abuse to
attain admission to the retirement home.




                                                                                                   DODIG-2014-093 │ 133
Results – Part E



                 According to the AFRH Medical Director, he reviewed the medical history and
                 psychological evaluation of applicants whose medical form did not report a history
                 of drug/alcohol abuse for possible indicators of alcoholism or drug abuse.  If
                 the Medical Director suspected drug abuse/alcoholism from his assessment
                 of an applicant’s medical documentation, he requested that the applicant
                 obtain a psychiatric consultation with another psychiatrist, of the applicant’s
                 choosing, to assess suitability of the applicant for living at the retirement home.

                 AFRH’s only other means of verifying that an applicant was free from illegal drugs
                 was to require that all AFRH personnel observe and monitor new residents and
                 report on unusual behaviors occurring during the 60 day probationary period after
                 a resident had moved into the retirement home. If evidence of drugs, alcohol, or
                 felony convictions arose within the probationary period, residents were discharged
                 from the Home.      There was no drug testing done on-site.          According to AFRH
                 Medical Director, if evidence of drugs, alcohol, or psychological issues arose beyond
                 the probationary period, AFRH was responsible for providing treatment for the
                 resident, resulting in a cost exceeding that of the upfront drug testing.

                 In addition, the AFRH policies and procedures brochure stated that AFRH staff
                 and facility were not equipped to treat such conditions or perform continual
                 evaluation, observation, or treatment for individuals found to have had problems
                 associated with alcohol, drugs, or mental health. Therefore, AFRH had to contract
                 out mental and behavioral health services to local providers in the communities
                 at each location when residents exhibited problems with drugs, alcohol, and/or
                 mental health.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 22
                 Armed Forces Retirement Home Chief Operating Officer, establish drug testing
                 as a requirement of the admissions process and random drug testing during
                 the probationary period.


                 AFRH COO’s Comments
                 AFRH COO concurred and stated that if the prospective applicant’s medical provider
                 makes the determination the applicant has a drug problem, then additional drug
                 testing will be required by AFRH.




134 │ DODIG-2014-093
                                                                                  Results – Part E



Our Response
Management’s comments were not responsive to the intent of the recommendation.
There is no assurance that a medical provider makes a determination of
drug abuse, beyond being told by the applicant that a drug or alcohol abuse
existed. This requires the AFRH to assume that the applicant has or will divulge
complete and accurate information about drug or alcohol abuse to his/her
provider.    While the medical form requires that the applicant’s medical provider
provide indications or history of alcohol and/or drug misuse or addictions,
there is no indication that the medical provider includes drug testing as a part
of his/her assessment.     The law is clear that residents must be “...free from
drug...     problems.”  Drug testing completed within 24–72 hours (or within a
short window of time identified by the AFRH) of notice prior to admission will
add assurance that the home and applicant are compliant with the law and
eligibility standards for admission. We note that prospective Federal employees are
required to take a pre-employment drug test. We ask that the AFRH COO consider
drug testing as requisite for admittance to the AFRH to ensure the applicant
is free from drug problems and advise us in response to the final report.




                                                                                 DODIG-2014-093 │ 135
                                                                                                 Results – Part E




Observation 23
Noncompliance with Agency Directive and Standard
Operating Procedure Requirements for the
Pre-admissions Process

AFRH personnel were not accurately following agency directives or facility SOPs
in conducting the pre-admissions function.

In addition, AFRH Agency Directive 8-5C (draft), “AFRH Admissions Program,”
July 2012, contradicted AFRH-W SOP W-OA-ADM-1-14, “Transitions,” July 9, 2012,
and AFRH-G SOP G-OA-ADM-1-15, “Transitions,” July 18, 2012.

Consequently,     AFRH   personnel    did   not    have       clearly    defined    policies   and
the standards applied by AFRH personnel to pre-admissions activities were
inconsistent and contradictory.


Discussion
AFRH    Agency     Directive   8-5C     AFRH      facility      SOPs     W-OA-ADM-1-14         and
G-OA-ADM-1-15 provided guidance on the pre‑admissions process.                        The AFRH
Pre‑admissions Team was generally following many aspects of all guiding
documents.  Other AFRH personnel involved in the admissions process at
both AFRH facilities were primarily following prescribed rules of facility SOPs
W-OA‑ADM-1-14 and G-OA‑ADM-1-15.             However, at the time of the inspection,
AFRH Agency Directive 8-5C was still in draft phase, had not been finalized, and
contradicted AFRH facility SOPs on a few important points.

First, the AFRH Agency Directive 8-5C (draft) differed from the facility SOPs
W-OA-ADM-1-14  and G-OA-ADM-1-15 in the use of terminology to define the office
designated with the responsibility for pre-admissions functions.                    The directive
used the term Marketing Office, while the SOPs used the term Public Affairs Office
when referring to the entity that  was responsible for the pre-admissions function.
During an interview, the title Public Affairs Office was validated by the Public
Affairs Officer as synonymous with Marketing Office.

Secondly,   the   AFRH    Agency     Directive    8-5C       (draft)    and   the   facility   SOP
W-OA-ADM-1-14 differed with regard to who was responsible for reviewing
and approving or denying admissions applications.                      The AFRH facility SOP

                                                                                                DODIG-2014-093 │ 137
Results – Part E



                 stated that the AFRH Agency Medical Director, Facility Administrator, Chief
                 of Resident Services, Ombudsman, and CMO were supposed to review these
                 applications. However, AFRH Agency Directive 8-5C (draft) stated that the review
                 and approval of admissions applications were solely the responsibility of the
                 AFRH Agency Medical Director and AFRH Agency (authority).  AFRH Agency
                 Directive 8-5C  (draft) did not explicitly define this authority as the Public
                 Affairs Officer.     However, the directive’s description of the Admissions Team
                 stated that the AFRH Marketing Office (or Public Affairs Office, as noted by
                 the AFRH Public Affairs Officer), was assigned the responsibility over all
                 pre-admissions functions, up to and including the assignment of the resident’s
                 report date.

                 Interviews with the AFRH Agency Public Affairs Officer, the AFRH Agency
                 Medical Director, and other staff confirmed that the Public Affairs Officer and the
                 Medical Director were following AFRH Agency Directive 8-5C (draft) and not the
                 AFRH facility SOPs in this respect. However, other AFRH personnel were primarily
                 following the SOPs in conducting the majority of pre-admissions and admissions
                 functions.     The Public Affairs Specialist’s participation in the process complied
                 with AFRH Agency Directive 8-5C (draft), but contradicted the provisions
                 of the facility’s SOPs, which omits him/her from the process and included
                 several other entities who did not participate in the process at the time of the
                 DoD IG inspection.

                 Thirdly, both AFRH facility SOPs stated that each facilitys’ Admissions Board
                 was supposed to provide the Public Affairs Officer with a rationale for the
                 disapproval of an applicant’s admissions into the Home.                However, in their
                 account of the pre‑admission’s process, the Medical Director, the Public Affairs
                 Officer, and both the AFRH-G  and the AFRH-W facility Admissions Officers
                 stated that the pre-admissions activities were limited to the Public Affairs
                 Officer and the Medical Director.     During the inspection, it was determined that
                 there was not an Admissions Board established at the facility level.




138 │ DODIG-2014-093
                                                                                  Results – Part E



Recommendations, Management Comments, and
Our Response
Recommendation 23
Armed Forces Retirement Home Chief Operating Officer, in coordination with
Armed Forces Retirement Home – Gulfport and Armed Forces Retirement
Home – Washington, D.C.            facility Administrators, review and revise the
standard operating procedures and directives to resolve any contradictions.


AFRH COO’s Comments
AFRH COO concurred, commenting that the Admissions Program Directive
update is in progress.      The directive will provide the correct guidance for the
Administrators to update the Standard Operating Procedures for the Transition
Program at the facility level.


Our Response
Management’s comments were responsive. We will request a status on the update
of agency directive at a later date.




                                                                                 DODIG-2014-093 │ 139
                                     Results – Part F




Results – Part F
Facilities Engineering and Safety




                                    DODIG-2014-093 │ 141
Results – Part F




                 Facilities Engineering and Safety
                 Overall Assessment
                 The DoD IG facilities engineering assessment addressed facility operations and
                 safety operations at the agency and facility level. The AFRH used a two-tier policy
                 issuance system.         Agency-level guidance was issued as an AFRH Agency directive
                 or notice.     Each facility was responsible for implementing agency-level policy
                 and for developing and issuing facility-level SOPs at its facility.   The agency-level,
                 facility-related issues were being handled separately by the corporate facilities
                 manager.     At the facility level, the AFRH-W and AFRH-G facilities each managed
                 their own facilities and safety operations.

                 In August 2011, the Washington, D.C., metro area was hit by a 5.8 magnitude
                 earthquake, causing structural damage to the Sherman Building.         In light of the
                 historic nature of this structure, Congress awarded AFRH-W $14.6 million to
                 repair the damage.         Because the contract was just awarded and the repairs were
                 underway, the Sherman Building was excluded from the AFRH 2012 Assessment.

                 At the AFRH-W, the Acting Chief of Campus Operations was also the supervisory
                 Contracting Officer’s Technical Representative (COTR) and was responsible for the
                 operation of all buildings on the AFRH-W facility. AFRH-W Safety Officers managed
                 the safety issues for all buildings and properties on the AFRH-W facility. The majority
                 of AFRH-W facilities were maintained using contractors. Service contracts included:

                          •	 facilities maintenance,

                          •	 grounds maintenance,

                          •	 pest and wildlife control,

                          •	 transportation (on-campus/off-campus),

                          •	 golf course,

                          •	 utilities,

                          •	 heating plant,

                          •	 waste disposal, etc.




142 │ DODIG-2014-093
                                                                                        Results – Part F



These contracts were handled by respective COTRs who reported to a supervisory
COTR.     Each COTR provided monthly quality assurance surveillance plans that
were reviewed by the supervisory COTR.

As part of the overall master planning of AFRH-W, the leadership of the AFRH
determined that the Scott Building, a major residential dormitory, was at risk due
to its aging infrastructure and massive repair requirements which would cost
approximately $81 million.           The AFRH Long-Range Financial Plan recommended
demolishing the existing Scott Building and replacing it with a multi‑function
healthcare facility.     Demolition of the Scott Building began in August 2011 and
was completed by February 2013. The new Scott Building was opened for residents
to move in March 2013.

In FY 2011, just over 5 years after the devastation of Hurricane Katrina, the
AFRH reopened the newly renovated AFRH-G facility.               The AFRH-G facility was
included in this inspection. (AFRH-G was excluded from the 2009 AFRH inspection
as the facility was closed due to the hurricane damage.)                Also in FY 2011,
AFRH-G admitted their 500 resident to the Gulfport facility.
                                th




Overall, the DoD IG Inspection Team found that the AFRH personnel worked
cooperatively between both facilities.            In addition, the DoD IG Inspection Team
found that AFRH personnel generally gave adequate due diligence and care
to the facilities engineering and safety assets.

The DoD IG Inspection Team completed the AFRH-G and AFRH-W facilities
engineering assessment that resulted in the observations described below.




  Figure 2. Armed Forces Retirement Home—Gulfport Mississippi
  Source: AFGH-G


                                                                                       DODIG-2014-093 │ 143
                                                                              Results – Part F




Observation 24
Armed Forces Retirement Home Occupational Health
and Safety Manual and Emergency Operations Plan
Not Issued

The AFRH Occupational Health and Safety Manual (Directive 7-1) and the AFRH
Emergency Operations Plan (Directive 7-2) had not been issued.     Furthermore,
AFRH did not have an official agency-level notice or directive issued for the
Occupational Health and Safety program and Emergency Operations, even though
AFRH had operating procedures in place for Occupational Safety and Health
Standards at each facility.

The agency had not made production of the AFRH Occupational Health and Safety
Manual and the AFRH Emergency Operations Plan a priority.

This may result in confusion about the requirements for administering the
Occupational Health and Safety program across the agency and its facilities
and a lack of guidance on effective response planning for emergency situations.


Discussion
AFRH Agency Notices 09-10, “AFRH Occupational Health and Safety Manual,”
and 09-11, “AFRH Emergency Operation Plan,” had been under AFRH Legal
Team review.     They were issued on September 9, 2009, with a review date of
October 31, 2010.        These notices had not been reissued as AFRH Agency
Directive 7-1 and 7-2, respectively, as noted in the updated “AFRH Agency
Policy Statements, Notices and Directives Index,” July 25, 2012.   In addition,
AFRH displayed a lack of internal document control by allowing a significant
period of time to elapse between re-issuances of its directives and notices.




                                                                             DODIG-2014-093 │ 145
Results – Part F



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 24
                 Armed Forces Retirement Home Chief Operating Officer, issue the pending
                 directives related to the Armed Forces Retirement Home Occupational
                 Health    and      Safety   Manual,   and   the   Armed   Forces   Retirement   Home
                 Emergency Operations program, as required by Armed Forces Retirement
                 Home Agency policy.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred with the recommendation and is planning to review
                 the pending draft AFRH Agency Directives 7.1 & 7.2 to determine if a single
                 directive will suffice.


                 Our Response
                 Management’s comments were responsive. We will request an update on progress
                 at a later date.




146 │ DODIG-2014-093
                                                                                                Results – Part F




 Observation 25
 Defective “HomeFree Emergency Call and Wander
 Alert System” (“HomeFree” System)

In a system test conducted by the DoD IG Inspection Team, a HomeFree Emergency
Call and Wander Alert System (“HomeFree”) door alarm in the LaGarde Building
did not alert the AFRH security, upon breech.

AFRH-W was not performing adequate testing/monitoring of the “HomeFree” devices
to identify any defects or issues with the system.

Consequently, a monitored resident of the LaGarde Building, at risk of wandering,
could leave a monitored area without AFRH-W personnel knowledge.


Discussion
As per AFRH Directive 8-11, AFRH-W used the “HomeFree” system as a wireless
alert system designed specifically for the safety and security of all residents.
The “HomeFree” system allowed AFRH to extend real‑time assistance and
attentive care to its residents and it provided the means to monitor potential
wandering occurrences.

In accordance with AFRH Agency Directive
8-11,   “AFRH    HomeFree     Emergency
Call and Wander  Alert System,” June 2,
2008, residents at LaGarde Building (AL,
LTC, and Memory Support) who were
at risk for wandering, were required
to wear a “HomeFree” personal watch,
which caused mounted door alarms to
generate an alert on the “HomeFree”
computer monitor if a resident left
the building.  The “HomeFree” vendor
provided support for all performance
issues with the system.                         Figure 3. HomeFree Personal Watch Used at 		
                                                AFRH-W
                                                Source: DoD IG–SPO




                                                                                               DODIG-2014-093 │ 147
Results – Part F



                 The “HomeFree” computer monitor was kept at the information desk at the
                 LaGarde Building and monitored by security personnel.                         The DoD IG Inspection
                 Team tested the “HomeFree” personal watch in the mess hall corridors of the
                 basement floor in the LaGarde Building.                     The door alarm was installed on a
                 double‑door exit to a service/utility area in the southeast corner of the LaGarde
                 Building.         It was noted that the doorway was not a monitored exit even
                 though the “HomeFree” door alarm had been installed.  Furthermore, upon
                 inspection the DoD IG Inspection team observed that the door alarm had been
                 blocked off by metal lockers and had been either deactivated or rendered
                 inoperable.          Upon exiting through the door while wearing the “HomeFree”
                 device, the computer monitor did not create an alert.




                       Figure 4. HomeFree Door Alarm System Blocked Off and Rendered Non-functional at AFRH-W
                       Source: DoD IG–SPO




148 │ DODIG-2014-093
                                                                                   Results – Part F



Figure 5. Location of Faulty Door Alarm at AFRH-W




Source: Security Monitor printout provided to DoD IG–SPO by AFRH Administration

Recommendations, Management Comments, and
Our Response
Recommendation 25
Armed Forces Retirement Home Chief Operating Officer ensure that security
personnel:

         a.	 Calibrate the failed device in the “HomeFree” system.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, noting that the HomeFree system is being phased out
and is being replaced by the new Tektone System.


Our Response
Management’s comments were responsive. We will request an update on progress
at a later date.




                                                                                  DODIG-2014-093 │ 149
Results – Part F



                          b.	 Follow operating procedure to test the monitoring devices periodically.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, noting that a new directive had been developed for
                 testing the new Tektone system.


                 Our Response
                 Management’s comments were responsive. We request a copy of the new directive
                 in response to the final report.

                          c.	 Notify the “HomeFree” system vendor about identified defects and
                            failures, and ensure that routine tests cover all system checkups.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred with the recommendation, stating that AFRH personnel
                 would follow the Tektone manufacturer guidelines/recommendations for maintenance
                 work and inspections of the system.


                 Our Response
                 Management’s comments were responsive. No further action required at this time.




150 │ DODIG-2014-093
                                                                                  Results – Part F




Observation 26
Fallen Pole-Mounted Wireless Device Did Not Notify
the “HomeFree” System

The “HomeFree” system did not generate an alert from a wireless device mounted
on a pole that had fallen over.

AFRH and the “HomeFree” vendor were not performing adequate monitoring of the
“HomeFree” devices to identify any defects or issues with the system. There was
no specific procedure in the “HomeFree” system to check for failed field devices.

If the “HomeFree” system does not generate an alert, a non-functional unit
remains unnoticed.     Thus, if a weak spot existed in the “HomeFree” system on
the AFRH-W grounds, security personnel may not be alerted in the event of a
wandering LaGarde resident who could be susceptible to confusion or harm.


Discussion
A utility pole with a mounted “HomeFree” monitoring device still attached to it was
found on the ground in the ponds area by the DoD IG Inspection Team. At the time
of the inspection, the fallen pole had not been reported. The pole had a wireless
monitoring unit mounted to it, but the “HomeFree” system did not raise an
alert regarding the non-functional device.    If an alert is not generated, then
the security personnel will not readily identify the failure, putting monitored
residents at risk.    Without such monitoring and/or daily checks in place, the
purpose of providing a system to monitor wandering residents is impeded.




                                                                                 DODIG-2014-093 │ 151
Results – Part F




                       Figure 6. Fallen Pole in the AFRH-W Ponds
                       Source: DoD IG–SPO




                       Figure 7. Fallen Pole in the AFRH-W Ponds
                       Source: DoD IG–SPO




152 │ DODIG-2014-093
                                                                              Results – Part F



Recommendations, Management Comments, and
Our Response
Recommendation 26
Armed Forces Retirement Home Chief Operating Officer, ensure that the fallen
utility pole is fixed, and work with the “HomeFree” contractor to ensure that
notifications are generated when a wireless monitoring unit is non-functional.


Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred with the recommendation, stating that the new Tektone
system incorporated an automatic notification process when an issue arises with
monitoring device.


Our Response
Management’s comments were responsive. No further action required at this time.




                                                                             DODIG-2014-093 │ 153
Results – Part F




                 Observation 27
                 Inadequate Safety Inspections in the LaGarde Building

                 The DoD IG Inspection Team determined that safety inspections in LaGarde Building
                 were not being conducted as routinely as they were at other AFRH-W facilities.
                 In addition, AFRH-W was not ensuring that all rooms in the LaGarde Building
                 were included in routine safety inspections.

                 AFRH-W was not adequately prioritizing safety inspections in the LaGarde Building.
                 In addition, there were no records to verify the occurrence of periodic inspections.

                 Inadequate safety inspections increased the threat to the safety of residents, staff,
                 and visitors in the LaGarde Building.


                 Discussion
                 The National Fire Protection Association (NFPA) 10 standard required that each
                 fire extinguisher in the workplace be inspected monthly for damage, correct
                 pressure, condition of the hose and nozzle, broken seals, and proper documentation
                 of inspections.

                                                        However, during a tour of the LaGarde Building,
                                                        the   DoD IG      Inspection      Team     found      a   fire
                                                        extinguisher cabinet in the basement, just outside
                                                        the memory support patients’ dining hall, that
                                                        was missing a door handle.                In addition, the
                                                        DoD IG Inspection Team found a fire extinguisher
                                                        on the third floor with expired inspection tags.

                                                        The   DoD IG        Inspection    Team     also     observed
                                                        that AFRH-W was not ensuring that all Assisted
                                                        Living patient rooms in the LaGarde Building
                                                        were included in routine safety inspections, nor
                                                        were they performing routine safety inspections
                       Figure 8. Missing Cabinet Door   adequately     in     rooms      that   were       reportedly
                       Handle AFRH-G
                       Source: DoD IG–SPO               inspected    in     the   LaGarde       Building     as   per
                                                        AFRH guidelines.




154 │ DODIG-2014-093
                                                                                        Results – Part F




During an inspection of the AL rooms, the DoD IG Inspection Team observed
the following:

         •	 A resident room in the LaGarde Building was missing a contaminated
            sharps-disposal receptacle.            AFRH safety personnel had not detected
            the absence of a contaminated sharps-disposal receptacle from the
            room. If regulated waste is not disposed of in accordance with industry
            and community standards, it can create a safety hazard for the residents.

         •	 A room had two electrical outlet plates that were not securely mounted to
            the base of the wall.

The 2011 CARF recommendations highlighted the need for AFRH to conduct
comprehensive health and safety self-inspections on each shift at least semi-annually.

The DoD IG Inspection Team was provided evidence that some random safety
checks were being conducted, but determined that safety inspections were not
being conducted routinely at the LaGarde Building.




 Figure 9. Electrical Plate Not Securely Mounted at AFRH-W
 Source: DoD IG–SPO




                                                                                       DODIG-2014-093 │ 155
Results – Part F



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 27
                 Armed Forces Retirement Home Chief Operating Officer:

                         a.	 Ensure that safety inspections at the Armed Forces Retirement
                            Home – Washington, D.C., LaGarde Building are performed and
                            documented       periodically,   as   required       by    the    Armed         Forces
                            Retirement Home standard operating procedures.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred with the intent of the recommendation.  However,
                 the LaGarde Building was shuttered in March 2013 and is no longer in use.


                 Our Response
                 Management’s comments were responsive. No further action needed at this time.

                         b.	 Ensure that the Armed Forces Retirement Home – Washington,
                            D.C.,   supervisors       conduct     daily    inspections        of     conditions
                            in the Assisted Living rooms, and that the Safety Officer(s)
                            conducts/coordinates        follow-up     inspections        to        verify     that
                            corrections have been made to identified deficiencies.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred with the recommendation and provided additional
                 information   about   the   safety    inspections   for   the    AL    rooms,       which     are
                 now located in Sheridan Building.


                 Our Response
                 Management’s comments were responsive.  No further action needed at this time.




156 │ DODIG-2014-093
                                                                                       Results – Part F




Observation 28
Open Gaps in the Chain-Link Security Fence

The perimeter fencing at AFRH-G had two gaps which resulted in incomplete
enclosure of the grounds.

The gaps occurred at two points where a storm water drain entered and exited
the facility.

These two gaps created security and safety concerns because there was a
probability of unmonitored entry/exit by nonresidents, as well as the occasional
use by residents as shortcuts.       In addition, the gaps weakened AFRH-G’s security
posture, increasing the possibility of property theft and/or damage to the
facility’s buildings.


Discussion
The DoD IG Inspection Team observed two wide gaps on the northeast corner
of the property where the drainage ditch entered the property and on the
west side of the property along Anniston Avenue where the drainage ditch left
the property.      At the time of the inspection, AFRH-G personnel were aware
of the breaches in the perimeter fence but had not taken action to fix them.

AFRH-G fence layout plan, (Figure 10 on next page) depicts the location of the
two fence gaps which are located at the points of the two arrows at the top and
left side of the plot plan.       Perimeter fencing was absent at these two gaps, as
observed during the AFRH-G site visit.        A storm water drain entered and exited
the facility at the two points where fencing was absent.         The two gaps created
security concerns, because there was a probability that unmonitored entry/exit
by nonresidents might occur.          Also, there was a safety concern, because on
occasion the residents would reportedly use the two gaps as shortcuts.  The
current    perimeter    fencing    provides   incomplete   enclosure   of   the   AFRH-G
grounds; therefore, the facility was not completely secured.




                                                                                      DODIG-2014-093 │ 157
Results – Part F



                 If left unaddressed, disoriented or distraught residents might wander away
                 from the facility through those openings without the knowledge of AFRH-G
                 management.  This could result in harm to the individual and lack of timely
                 proper    medical    care   and   attention.    Also,   non-residents   could   enter   the
                 property without proper authority/clearance and with malicious intent.

                 Figure 10. AFRH-G, Mississippi—Drawing No. C 306—Fence Layout Plan




                 Source: Copy provided to DoD IG–SPO by AFRH Administration




158 │ DODIG-2014-093
                                                                                  Results – Part F



Recommendations, Management Comments, and
Our Response
Recommendation 28
Armed Forces Retirement Home Chief Operating Officer, ensure that the
two security fence gaps are securely closed at the Armed Forces Retirement
Home – Gulfport.


Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO non-concurred.          He stated that the Department of Homeland
Security conducted a threat assessment at the Gulfport facility and determined
that the cameras used to monitor the openings in the fence at the entrance/
exit of the drainage canal passing through the facility provided adequate security.


Our Response
We note management’s evaluation and acceptance of the risk associated with
their reported course of action. No further action needed at this time.




                                                                                 DODIG-2014-093 │ 159
                                                                                       Results – Part F




Observation 29
Outages in the Resident Monitoring System at Armed
Forces Retirement Home – Gulfport

The CISCOR Resident Monitoring System (RMS) at AFRH-G, used to track the
location of residents, experienced at least 39 outages from June 5, 2012, to
September 12, 2012.        Because the RMS system produced such a high number
of outages in just a 3-month period, the system has proven to be unreliable.

The    high   number      of   outages    may     have   been    caused   by   unknown
technical issue(s), possibly including a lack of appropriate operation and
maintenance procedure(s).

Consequently, AFRH has been unable to consistently monitor residents’ presence
at the facility.    This has impeded the ability of AFRH personnel to provide
real‑time assistance and attentive care to AFRH residents in the case of injury or
other medical needs.


Discussion
AFRH-G used the CISCOR DEVI 9000 RMS as a wireless emergency call and
security system, designed specifically for the safety and security of all residents.
The resident monitoring system allowed AFRH-G to extend real-time assistance
and attentive care to its residents. The system also provided the means to monitor
residents’ presence and enabled the seamless integration of other security
functions, such as door access control, intrusion alarm systems, the intercom,
and fire alarm systems.

At the time of the inspection, the AFRH-G RMS had experienced a high number
of outages within a short period of time.         During the DoD IG on-site visit to the
AFRH-G facility, the DoD IG Inspection Team observed that these failures were
continuing and varied in nature. The frequency of these outages made the system
unreliable and hindered the ability of AFRH-G personnel to provide real-time
assistance and attentive care to its residents.




                                                                                      DODIG-2014-093 │ 161
Results – Part F



                 In addition, the record of system failures from June 5, 2012, to September  12,  2012,
                 described the nature of the outages, but did not provide the duration of each
                 outage nor the cumulative total down time for the period.       To resolve the issue
                 with such a high number of outages, a root cause analysis must be performed.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 29
                 Armed Forces Retirement Home Chief Operating Officer, ensure that the
                 Armed Forces Retirement Home – Gulfport Resident Monitoring System is
                 fully functioning and maintained, and provides the sustained and reliable
                 service intended.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred with the recommendation and provided additional
                 information about the maintenance and functionality of the Gulfport RMS.          The
                 system is currently running as designed, with no outages.


                 Our Response
                 Management’s comments were responsive.         We will inspect the functionality of
                 the system in our inspection.




162 │ DODIG-2014-093
                         Results – Part G




Results – Part G
Information Assurance




                        DODIG-2014-093 │ 163
Results – Part G




                 Information Assurance
                 Overall Assessment
                 The AFRH’s general support system (GSS) was certified and accredited for
                 security assessment and received interim Authorization to Operate (ATO) in
                 July  2011. However, during the Certification and Accreditation (C&A) process, the
                 information technology (IT) assessor identified many information assurance  (IA)
                 weaknesses and documented these weaknesses in the System Security Plan  (SSP).
                 In order to receive full ATO certification, AFRH systems needed to fully meet all
                 the requirements, and correct all the weaknesses as identified and documented
                 in the SSP.

                 The Department of the Interior National Business Center (DOI NBC) and AFRH
                 generated a Plan of Actions and Milestones (POA&M) to correct weaknesses
                 or deficiencies noted during the assessment of the security controls, and to
                 reduce or eliminate known vulnerabilities in the system.  Nonetheless, in
                 reviewing the POA&M documents, the DoD IG Inspection Team discovered
                 weaknesses in all security control50 areas. The AFRH did not implement or execute
                 security controls as planned in the POA&M, nor did the AFRH consistently
                 update the status records of the security control weaknesses in the POA&M.

                 Moreover, whenever the DoD IG Inspection Team requested records to verify
                 information, AFRH personnel referred the team to the contractor, the DOI NBC,
                 which hosted and operated all AFRH systems and networks.                                                However, according
                 to the National Institute of Standards and Technology (NIST) standard, the use of
                 contract vendors did not diminish AFRH responsibility for the management and
                 security processes associated with their information assurance systems.


                 Background
                 The          “Federal         Information           Security        Management              Act      of     2002”         (FISMA)
                 (section 3541, title 44, United States Code (44 U.S.C. § 3541 [2002])) was enacted
                 as Title III of the “ E-Government Act of 2002” (Public Law 107-347).                                                       FISMA
                 recognized the importance of information security to the economic and national
                 security interests of the United States.                              Prudently, FISMA required each Federal


                 	 50	
                         Security Controls are the management, operational, and technical safeguards or countermeasures employed within
                         an organizational information system to protect the confidentiality, integrity, and availability of the system and its
                         information. NIST Special Publication 800-53, “Information Security” revision 3, August 2009.




164 │ DODIG-2014-093
                                                                                    Results – Part G



agency to develop, document, and implement an agency-wide program to provide
security for information and information systems that support the operations
and assets of the agency, including those provided or managed by other agencies,
contracts, or sources.

FISMA also required agency program officials, chief information officers, and
inspectors general to conduct annual reviews of the agency’s information
security program and to report the results to the Office of Management and
Budget  (OMB). OMB used this data to assist in its oversight responsibilities and to
prepare an annual report to Congress detailing the status of each Federal agency’s
compliance with Public Law 107-347.

Figure 11. AFRHS GSS Network Diagram




Source: AFRH GSS System Security Plan


OMB     Circular    A-130,    Appendix   III,   November   28,   2000,   and   Public
Law  107‑347, required Federal agencies to have “a minimum set of controls” for
their information technology systems and networks.

In accordance with FISMA, NIST was responsible for developing standards,
guidelines, and associated methods and techniques for providing adequate
information security for all agency operations and assets, excluding national
security systems.



                                                                                   DODIG-2014-093 │ 165
Results – Part G



                 The   DoD IG      Inspection    Team    used   NIST    Special   Publication   (SP)   800-53,
                 Revision 3, “Recommended Security Controls for Federal Information Systems,”
                 dated May 2010, as the basis for the development of criteria for the IT inspection.
                 The DoD IG Inspection Team also compared NIST-recommended IA security
                 controls with those established in the AFRH SSP, updated August 23, 2012, to
                 determine whether the AFRH policies are in compliance with the NIST standard.

                 Figure      11   describes     the   AFRH’s    GSS    network.  The     diagram    has   four
                 network sections:

                             •	 the AFRH-W network,

                             •	 the AFRH-G network,

                             •	 the DOI NBC Reston network, and

                             •	 DOI NBC Denver network.

                 The AFRH had contracted with the DOI NBC to operate and maintain its
                 information technology systems and networks. The DOI NBC was a fee-for-service
                 organization that had several facilities throughout the United States.            It provided
                 financial and payroll computing services for over 59 Federal agencies, with more
                 than 300,000 clients.

                 The AFRH  GSS network contained all the servers, workstations, and applications
                 providing automation to the AFRH Agency and facilities.  The AFRH utilized
                 desktop computers and internal office servers to support its office staff
                 members.  End-user accounts were configured and managed using Windows’
                 services.     There were approximately 175  desktop systems in use at the AFRH-W,
                 and approximately 75  desktop systems at the AFRH-G.                  Applications, network,
                 and Internet services were provided by the AFRH  GSS. The AFRH  GSS supported
                 the Resident Information System (RIS) that provided AFRH with the software
                 and tools to manage retirement home issues related to admission, resident
                 care information, etc.




166 │ DODIG-2014-093
                                                                                                 Results – Part G




Observation 30
Armed Forces Retirement Home Has Not Provided
Adequate Contractor Oversight

The AFRH’s GSS continued to possess more than 50 high and moderate security
control weaknesses that were identified in the AFRH SSP and POA&M.                             In
addition, the GSS did not comply with NIST SP 800-53, Revision 3, “Recommended
Security Controls for Federal Information Systems,” May 1, 2010.

AFRH did not provide adequate contractor oversight in the execution of
IA  services.   The AFRH also failed to consistently update records of opened
or closed information security controls and failed to compel the DOI NBC to
implement appropriate corrective actions, as required by NIST standards.

Without the appropriate corrective actions to fix these security weaknesses and
the related documentation, the AFRH information systems and network were
vulnerable to a cyber-attack.         As a result, sensitive resident information and
data were at risk of being lost or stolen.


Discussion
Per FISMA, all Federal information systems must have met certain minimum
security requirements included in the second mandatory security standard
of   the   Federal    Information      Processing      Standards       (FIPS)-200,     “Minimum
Security   Requirements       for   Federal     Information      and   Information      Systems,”
March  2006.  In      order    to   meet      this   standard,   organizations       must   select
appropriate security controls and assurance requirements, as described in
NIST SP 800-53. The standard also required organizations to document all security
controls selected or planned for selection in the agency system security plan.

The AFRH established an information manual providing guidance requirements
for security in 2006.  The DoD IG Inspection Team determined that the
information manual was not in compliance with the updated revisions of the NIST
SP  800-53 standard, causing several NIST security control weaknesses in the
following areas:




                                                                                                DODIG-2014-093 │ 167
Results – Part G



                           •	 awareness and training,

                           •	 configuration management,

                           •	 incident response,

                           •	 maintenance,

                           •	 media protection,

                           •	 physical and environmental protection,

                           •	 security planning,

                           •	 personnel security,

                           •	 risk assessment, and

                           •	 system and services acquisition.

                 In addition, the DoD IG Inspection Team assessed the AFRH SSP, updated
                 August  23,  2012, and compared it with the NIST SP 800-53 Revision 3,
                 May  2010. In reviewing the SSP and the results of certification and accreditation
                 process, the DoD IG Inspection Team discovered weaknesses in the resolution
                 of SSP issues.     Moreover, the POA&M was not updated to eliminate weaknesses
                 that were already corrected.          The following is a summary of NIST security
                 control weaknesses.


                 Access Control
                 This control was intended to protect the systems and network from unauthorized
                 access.    This control also required the information system to enforce approved
                 authorization for controlling the flow of information within the system and
                 between interconnected systems, in accordance with the applicable policy.
                 The    DoD IG  Inspection     Team     reviewed   the     DOI  NBC‑AFRH  POA&M         and
                 found two weaknesses in this security control family area that were not
                 corrected.    AFRH did not have a remote access area procedure that included
                 AT&T      remote   support.    AFRH    also   lacked    tools   to   monitor   unauthorized
                 connections and/or to interrogate the information system prior to establishing
                 a connection to the system.




168 │ DODIG-2014-093
                                                                                     Results – Part G



Audit and Accountability
This control required the AFRH to identify events which needed to be auditable
as significant and relevant to the security of the information system.            The
DoD  IG Inspection Team reviewed the DOI NBC-AFRH POA&M and found that
the security violations and auditable events were logged; however, there was
no formal process established for an audit to facilitate the review or evidence
that the review was consistently completed.


Security Assessment and Authorization
This control required AFRH to assess all security controls in the information
system to determine the extent to which the controls were implemented correctly,
operating as intended, and producing the desired outcome with respect to
meeting the security requirements for the system. A review of the AFRH  SSP and
DOI  NBC-AFRH  POA&M revealed that a process between NBC and AFRH to
track and remediate deficiencies through a POA&M process had not been
implemented.    The   DoD  IG    Inspection   Team   also   observed   other   control
weaknesses listed in the DOI NBC-AFRH POA&M that were not implemented nor
executed, most notably:

        •	 The Continuity of Operations Plan (COOP), Federal Information Processing
           Standards-199 (FIPS-199), and Incident Response Plan were not approved.

        •	 The flow of information within the system and between interconnected
           systems was not controlled according to NIST policy.

        •	 The AFRH policies and procedures referenced in the SSP were outdated.

Configuration Management
This control was intended for controlling modifications to hardware, firmware,
software, and documentation to protect the information system against improper
modifications before, during, and after system implementation.  A review of
the AFRH SSP and DOI NBC-AFRH POA&M revealed the following controls still
had not been implemented as required:

        •	 Information on how AT&T monitors internal network baselines was
           not documented.

        •	 A formal configuration management process had not been developed
           or implemented.




                                                                                    DODIG-2014-093 │ 169
Results – Part G



                       •	 The standards and hardening principles for configuration settings had
                         not been identified.

                       •	 The AFRH had not identified the information deemed necessary for
                         effective IT property accountability.

                       •	 The   AFRH    had     not   developed    or   implemented     a   configuration
                         management plan.

                       •	 The AFRH Windows systems were missing security patches.

                       •	 AFRH had not implemented permission controls that limited the
                         ability to install or run application software to authorized users.
                         With the ability to run arbitrarily, the AFRH system may be used
                         maliciously to introduce additional risks into the system network.
                         The permission controls to install or run application software must
                         be limited to authorized personnel only.

                       •	 The access to undo network shares may have presented unauthorized
                         information to unauthorized users.

                       •	 Domain Name Servers (DNS) were provided with the remote access
                         protocols. Remote access protocols were not supposed to include DNS.

                       •	 The Adobe software was not updated to mitigate vulnerability.               The
                         security patches were not updated for Adobe software, exposing
                         the system and network to undue risks.

                       •	 The Socket Security Layer certificate was expired and needed to be updated.

                       •	 The system revealed too much data during information gathering
                         activities, relaying system functions, ports, programs, etc.

                       •	 The AFRH information system was not configured in accordance with
                         baseline configuration documents.

                       •	 The AFRH changes to the information system were not tested and
                         approved prior to implementation, nor were these changes documented.

                       •	 The   standards     and     network     hardening   principles    for   baseline
                         configuration had not been established.




170 │ DODIG-2014-093
                                                                                                                                    Results – Part G



Contingency Planning
This control required the AFRH to establish an alternate storage site, including
necessary agreements to permit the storage and recovery of AFRH backup
information.             A review of the AFRH SSP and DOI NBC-AFRH POA&M revealed
the following weaknesses still remained:

                •	 The AFRH did not elect to have an alternate processing site.                                          Thus,
                    an alternate processing site service had not been established.                                       AFRH
                    reportedly had no plan to search for an alternate site, because they
                    planned to move their enterprises to the cloud.51                                    The organization
                    will not be able to recover the system in a reasonable time when
                    alternate sites have not been established.

                •	 The AFRH did not utilize NBC disaster recovery services, nor did
                    the AFRH have a process in place to recover the system after a
                    disaster.      In the event of a system/hardware failure, the AFRH system
                    could not have been recovered and reconstituted by backup tapes.

                •	 The backup processes had not been developed to periodically backup
                    the systems, and AFRH may not have been able to recover the system
                    from backup.

                •	 The AFRH contingency activities were not tested annually.

Identification and Authentication
This control required the AFRH system to have the capabilities to uniquely
identify          and     authenticate          information         before       establishing        a    connection.          It
also        required        AFRH        to     comply       with      the      Homeland          Security       Presidential
Directive 12 (HSPD-12), “Policy for a Common Identification Standard for
Federal Employees and Contractors,” August 27, 2004, which required the
AFRH           system        to     use      multifactor        authentication           for     both      network-access
and local-access to privileged and non-privileged accounts.                                            A review of the
AFRH SSP and DOI NBC-AFRH POA&M revealed the multifactor authentication
was not in use at the AFRH-W local area network (LAN).




	 51	
        Cloud computing is the use of computing resources (hardware and software) that are delivered as a service over a network
        (typically the Internet). While the business software and end user's data are stored on servers at a remote location, end
        users can access cloud-based applications through a Web browser or a light-weight desktop or mobile application. This
        eliminates the need for the alternate process site.




                                                                                                                               DODIG-2014-093 │ 171
Results – Part G



                 Maintenance
                 This control required AFRH to audit and document non-local maintenance
                 and diagnostic sessions.  The AFRH also required designated personnel to
                 review the maintenance records.  A review of the AFRH SSP and DOI NBC-AFRH
                 POA&M revealed that:

                         •	 The AFRH did not handle the maintenance of the servers, desktops,
                            and laptops as part of the AFRH system. The DOI NBC was responsible
                            for    providing   security    patch   management.     However,   external
                            maintenance was not conducted on the Windows operating environment.

                         •	 The maintenance and repairs made to the information system at AFRH
                            were not consistently documented.

                 Physical and Environmental Protection
                 This control required AFRH to have formal, documented procedures to facilitate
                 the implementation of the associated physical and environmental protection
                 controls, such as the fire protection system, the temperature and humidity
                 controls, water damage protection, emergency lighting, emergency power shutoff
                 system, etc.     A review of the AFRH SSP and NBC-AFRH POA&M revealed that:

                         •	 Neither server room at the AFRH-W and AFRH-G facilities had an
                            emergency power off switch to cut off the power to the information
                            systems in an emergency situation.

                         •	 The fire suppression system was not installed in AFRH-W.

                 Program Management
                 This control required AFRH to develop and disseminate an organization-wide
                 information security program plan.       The information security program plan could
                 have been represented in a single document or compilation of documents at the
                 discretion of the organization. The plan documented the organization-wide program
                 management controls and organization-defined common controls. A review of the
                 AFRH SSP revealed:

                         •	 The AFRH had not implemented the project management controls.

                         •	 The AFRH had not documented the risk management strategy.




172 │ DODIG-2014-093
                                                                                      Results – Part G



Risk Assessment
This control required AFRH to conduct risk assessment.             This control also
required AFRH to employ vulnerability scanning tools and techniques, to scan
for vulnerabilities in the information system, and to analyze vulnerability scan
reports and results from security control assessments.        A review of the AFRH
SSP and DOI NBC-AFRH POA&M revealed that the AFRH did not periodically scan
the systems for vulnerability.


System and Services Acquisition
This   control    required   AFRH    to   determine,   document,   and   allocate   the
resources required to protect the information system.  It also required the
AFRH to manage the information system using system development life cycle
methodology. A review of the AFRH SSP revealed that the AFRH did not have the
IT life cycle in place.


System and Communications Protection
This control required AFRH system to monitor and control communications at
the external boundary of the system and at key internal boundaries within the
system.     This control also required the AFRH system to implement required
cryptographic protections using cryptographic modules that complied with applicable
Federal policies and standards.      A review of the AFRH SSP and DOI NBC-AFRH
POA&M revealed that:

          •	 A Voice over Internet Protocol (VoIP) was not implemented in the
            AFRH’s LAN GSS.

          •	 The AFRH servers, workstations, and laptops were not encrypted.

          •	 An agreement between AFRH and AT&T to provide adequate system and
            communication control had not been established.

System and Information Integrity
This control required AFRH to develop, review, and update formal, documented
procedures to facilitate the implementation of the system and information
integrity policy and associated system information controls.        A review of the
AFRH SSP revealed that information system weaknesses were not identified,
documented, and corrected.       Failure to assess, document, and correct information




                                                                                     DODIG-2014-093 │ 173
Results – Part G



                 system weaknesses could allow a cyber-attacker to access and exploit the
                 weakness.      Vulnerabilities and deficiencies may still negatively impact the
                 system if proper identification and tracking through remediation does not occur.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 30.a
                 Under Secretary of Defense for Personnel and Readiness, ensure that the
                 Armed Forces Retirement Home takes aggressive Information Technology
                 security actions specified in Observation 30.b.


                 Under Secretary of Defense for Personnel and Readiness Comments
                 The USD (P&R) concurred, stating that the AFRH has taken, and will continue to
                 take,    aggressive   Information   Technology   security   actions   as   specified    in
                 Observation 30.b.


                 Our Response
                 Management’s comments were responsive. We will inspect the status of the system
                 during our next inspection.


                 Recommendation 30.b
                 Armed Forces Retirement Home Chief Operating Officer, improve contractor
                 oversight and take immediate steps to correct security control weaknesses
                 as described in the Plan of Actions and Milestones including:

                         (1)	 Applying    updates     to   security    control    documentation          as
                             required by National Institute of Standards and Technology standards.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating the recommendation was complete.                       The
                 corrective actions for weakness identified in the AFRH 2012 POA&M was well
                 underway during the DoD OIG Inspection           and has been completed since the
                 conclusion of the DoD IG Inspection of the AFRH in 2012. AFRH Security Control
                 documentation has been updated to reflect the remedies and corrective actions from
                 the POA&M. Additionally, the AFRH is establishing a support contract, on or before




174 │ DODIG-2014-093
                                                                                         Results – Part G



July 2014, with an IT vendor to provide continued support for its FipMA,              Web
Development     & Hosting, and to provide periodic updates to its security control
documentation and POA&M to ensure compliance with NIST standards.


Our Response
Management’s comments were responsive. We will inspect the status of the system
during our next inspection.

      (2)	 Developing a formal physical access authorization and review process.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating the recommendation was complete.                      The
AFRH has an established formal physical access authorization form and review
process.   This process was outlined in the AFRH Information Security Manual
that was available during the DoD IG Inspection.          The AFRH provided a copy of
the Physical Authorization Form and Plan of Action and Milestones.


Our Response
Management’s comments were responsive.              We will inspect the status of the
system during our next inspection.

      (3)	 Developing and implementing a process between the Department
            of the Interior National Business Center and the Armed Forces
            Retirement Home to track and remediate deficiencies through a
            plan of actions and milestones.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, stating through the 2012 C&A Process conducted
by the Interior Business Center (IBC), a POA&M was developed and closed.
This POA&M will be used on a continuous basis by the AFRH to monitor
deficiencies.   The COO disagreed with the inspector’s conclusion that a formal
configuration management process had not been developed or implemented.
He   reported   that   this   plan   does   exist   and   is   available   from   DOI-NBC.
Reportedly, the DoD IG did not ask for the plan.




                                                                                        DODIG-2014-093 │ 175
Results – Part G



                 Our Response
                 Management’s comments were responsive.                      We request a copy of the DOI-NBC
                 plan in response to the final report.                We will inspect the status of the system
                 during our next inspection.

                         (4)	 Implementing security patches for Armed Forces Retirement Home
                              Windows® systems.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, stating that the recommendation was complete.
                 Security    patching      is    done     routinely     by    the   IBC   for   AFRH-W     desktops.
                 There      was     an   issue    with    the   AFRH-G        desktops.  Manual      updates   were
                 applied.  Automated            updates    commenced          for   AFRH-G      desktops   beginning
                 February 1, 2014.


                 Our Response
                 Management’s comments were responsive.  We will inspect the status of the
                 system during our next inspection.

                         (5)	 Developing a process to recover systems after a disaster.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO Concurred, stating that AFRH will develop a disaster recovery
                 plan for its IT systems.


                 Our Response
                 Management’s comments were responsive. We will request an update on this issue
                 at a later date.

                         (6)	 Developing a process to backup systems periodically.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred.                 AFRH systems are backed up by the vendor, IBC.
                 Desktop and laptop computers are not backed                        up; however, staff have been
                 instructed to save their files to the AFRH network drives to ensure that data is
                 securely backed-up at both campuses (AFRH-G & AFRH-W).                             Backup policies
                 for the AFRH staff are outlined in the AFRH Information Security Manual.




176 │ DODIG-2014-093
                                                                                  Results – Part G



Our Response
Management’s comments were responsive.  We will inspect this area during our
next inspection.

      (7)	 developing a procedure to periodically scan the systems for
           vulnerabilities.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, noting that periodic scans have been conducted
by the IBC since 2010 for all systems used by the AFRH.           Any discrepancies
found are reported to the AFRH for a corrective plan of action.


Our Response
While management’s comments are not fully supported by the observations of
our inspectors, we will accept management’s analysis as responsive.        We will
inspect this area during our next inspection.




                                                                                 DODIG-2014-093 │ 177
                                Results – Part H




Results – Part H
Resident Recreation Services




                               DODIG-2014-093 │ 179
Results – Part H




                 Resident Recreation Services
                 Overall Assessment
                 Overall, AFRH Resident Recreation Services provided a variety of planned
                 activities, with input from the residents.                            The facilities for these activities were
                 well maintained.                The observations noted below are made from a management
                 perspective and should be addressed by the AFRH COO, Administrators, and
                 Chief of Resident Services.


                 Introduction
                 To assess the status of recreational services provided at each AFRH facility,
                 the DoD IG Inspection Team used the 2012 Resident Services Inspection
                 Checklist,50            conducting          on-site       interviews          with       the      Chief        of    Resident
                 Services, Activities Managers, and Resident volunteers, covering 26 resident
                 recreational service areas.

                 The DoD IG Inspection Team also assessed AFRH’s compliance with section 421,
                 title 24, United States Code (24 U.S.C. § 421 [2012]), section 422, title 24,
                 United States Code (24 U.S.C. § 422 [2012]), and section 5533, title 5,
                 United States Code (5 U.S.C. § 5533 [1966]) with regard to the AFRH Resident
                 Stipend Volunteer Program (RSVP), Hard to Fill RSVP, and Uncompensated
                 Volunteer Services provided to the retirement home.

                 The RSVP and Hard-to-Fill RSVP programs were found to be effective and
                 compliant with established statutes, directives, and SOPs in providing productive
                 activities for residents, with the additional benefit of producing labor cost
                 savings for work that would have otherwise occupied an AFRH employee.


                 General Overview of Armed Forces Retirement
                 Home—Washington, D.C., Services
                 The         Volunteer         and     Recreational          Activities       Managers          were      all    professional
                 and knowledgeable about their respective programs.                                              The Acting Chief of
                 Resident Services conducted surveys, used suggestion boxes, accommodated
                 in‑office discussions with residents, and hosted monthly and quarterly general

                 	 50	
                         This checklist was developed from AFRH Recreation Services SOPs 5-02 through 5-09, 5-11, 5-12, 5-14, 5-15, 5-17, 5-19
                         through 5-23, 5-25 through 5-28, and 5-30 through 5-33.




180 │ DODIG-2014-093
                                                                                               Results – Part H



recreation meetings to identify and meet the needs of the residents.                      Early
participation in recreational services was encouraged and fostered as part of the
newcomer’s orientation, where new residents were interviewed and asked to
identify their hobbies and interests.

The Acting Chief of Resident Services provided the DoD IG Inspection Team
with a synopsis of their marketing strategy for increasing resident participation.
This strategy included the use of a monthly calendar of events, flyers, and
the extension of personally delivered invitations to those who were observed
to always stay in their rooms.  Regardless of the level of participation in
an event, the Acting Chief of Resident Services stated that she was committed
to keeping all activities available to meet the needs of all residents.              Upholding
the     principles     of   PCC,   the   AFRH   Resident    Services      sought    to   deliver
meaningful recreational activities that met the needs of residents by enriching
and fostering an active lifestyle.

Overall, AFRH-W Resident Services recreational activities were being managed
well.     Although some of the recreational services were temporarily relocated
because of ongoing construction, the residents were still able to participate.
The observations noted below are from a safety perspective and should be
addressed by the Administrator and Chief of Resident Services.




  Figure 12. Recreation Services                    Figure 13. List of Volunteers
  Source: DoD IG–SPO                                Source: DoD IG–SPO




                                                                                              DODIG-2014-093 │ 181
Results – Part H




                       Figure 14. Bingo Activity
                       Source: DoD IG–SPO



                 The success of the AFRH-W Resident Services recreational activities was
                 derived from the AFRH-W volunteer program which was comprised of a total of
                 96  resident volunteers: 21  stipend51 and 75  non-stipend.52 The volunteer program
                 also used volunteer support received from individual, non-affiliated community
                 volunteers,            military        services,       and       local/national          community           organizations.


                 General Overview of Armed Forces Retirement
                 Home—Gulfport Services
                 The collective team of activity managers and volunteers appeared to be focused
                 on soliciting inputs from the residents and trying to meet their needs.                                                     The
                 result of these efforts was well documented in the various events and trips
                 captured in the monthly AFRH-G Recreational Activities calendar, as well as the
                 “Plan of the Week” bulletins.

                 	 51	
                         The designation of resident volunteer as “stipend” means that the resident receives payment for services delivered to AFRH
                         under the RSVP or Hard to Fill RSVP programs. Non-stipend resident volunteers who did not receive any compensation for
                         the services they provided at AFRH.
                 	 52	
                         Non-stipend resident volunteers did not receive any compensation for their services they provided at AFRH.



182 │ DODIG-2014-093
                                                                                  Results – Part H




Observation 31
Lack of Adherence to Standard Operating Procedures at
the Armed Forces Retirement Home – Washington, D.C.

AFRH-W personnel could not provide evidence that they were following all SOPs
in a manner sufficient to meet the criteria addressed in the 2012 Inspection
Checklist. (See footnote 53.)

This occurred because the SOPs were put together just prior to the DoD  IG
Inspection (all Washington, D.C., SOPs were dated July  2,  2012) and were probably
not reviewed thoroughly.

Consequently, AFRH-W personnel may not have been following the SOPs and thus
could have been in violation of established procedures.


Discussion
The recent date on many SOPs raised concerns that the provisions within SOPs
may not have existed for AFRH-W personnel to follow prior to the date of SOP
issuance. Additionally, the recent date on SOPs raised concerns that the SOPs and
current operations were not thoroughly reviewed and discussed with the Activity
Managers before the SOPs were issued. As a result, some Activity Managers were
not aware of or knowledgeable about the current SOP for their designated activity
and did not complete records to document their compliance with the provisions
of their respective SOP.   Additionally, some SOPs may not be providing adequate
guidance or internal controls to execute the recreational activity as intended.




                                                                                 DODIG-2014-093 │ 183
Results – Part H



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 31
                 Armed Forces Retirement Home Chief Operating Officer, develop internal
                 controls to ensure the current Armed Forces Retirement Home – Washington,
                 D.C.   Chief of Resident Services review standard operating procedures,
                 monitor implementation, and make corrective actions, where warranted.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, but did not describe actions taken or planned to
                 implement the recommendation.


                 Our Response
                 Management’s comments were partially responsive.   In response to the final
                 report, we ask that management provide a description of actions taken to
                 implement the recommendation.




184 │ DODIG-2014-093
                                                                                                                                  Results – Part H




Observation 32
Armed Forces Retirement Home – Washington,
D.C., Walk-through Inspections Lack Consistency in
Occurrence and Documentation

Although AFRH-W personnel were conducting some walk-through inspections,
they were not conducting walk-through inspections53 daily, as required by
established SOPs. Additionally, inspection documentation lacked consistency.

AFRH-W             Recreational          Supervisors         were       not     providing         adequate        oversight
over this duty and ensuring that Resident Volunteers and Managers were
meeting the intent of AFRH Agency Directive 8-7, “AFRH Recreation Services,”
September 18,   2006, by conducting and documenting walk-through inspections
adequately and consistently, as required by the 2012 Inspection Checklist.
(See footnote 53.)

The lack of consistent and adequate daily walk-through inspections decreases the
AFRH personnel’s overall awareness to safety hazards and presents safety concerns.




    Figure 15. AFRH-W Auto Body Shop                                     Figure 16. AFRH-W Auto Body Shop
    Source: DoD IG–SPO                                                   Equipment and Facility
                                                                         Source: DoD IG–SPO




	 53	
        “…To monitor usage, resident safety and maintenance, to ensure that regulations and procedures are followed.” (Based on
        Analyst analysis of Directive 8-7, “AFRH Recreation Services,” September 18, 2006, and AFRH SOPs).




                                                                                                                             DODIG-2014-093 │ 185
Results – Part H



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 32
                 Armed Forces Retirement Home Chief Operating Officer, develop procedures
                 to ensure the Armed Forces Retirement Home – Washington, D.C.                   Chief
                 of Resident Services implements a quality control plan to guarantee daily
                 walk‑through inspections are conducted, documented, and confirmed.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The   AFRH   COO   concurred,   but   did   not   describe   actions   to   implement
                 the recommendation.


                 Our Response
                 Management’s comments were partially responsive.         In response to the final
                 report, we ask that management provide a description of actions taken to
                 implement the recommendation.




186 │ DODIG-2014-093
                                                                                    Results – Part H




Observation 33
Easy Access to Potentially Dangerous Heavy Equipment
within the Armed Forces Retirement Home—
Washington, D.C., Wood Shop

Access to the Wood Shop’s heavy equipment was not sufficiently restricted.

Access to the heavy equipment in the Wood Shop was only restricted by yellow
stationary cones.

Consequently, there was an increased risk of harm to residents, visitors, or AFRH
personnel who were unaware of the potential dangers.


Recommendations, Management Comments, and
Our Response
Recommendation 33
Armed Forces Retirement Home Chief Operating Officer, develop procedures
to ensure the Armed Forces Retirement Home – Washington, D.C.                Chief of
Resident Services and Safety Officers conduct a safety assessment of the
Auto Hobby Shop, Wood Shop, and Arts and Crafts Shop and take corrective
actions to comply with Armed Forces Retirement Home Resident Services
Standard Operating Procedures. (See footnote 53.)


Armed Forces Retirement Home Chief Operating Officer Comments
Management concurred, describing corrective action taken, to include posting signs
indicating the only area where cleaning greenware and spraying is authorized.


Our Response
Management’s comments were responsive. No further action required.




                                                                                   DODIG-2014-093 │ 187
                                                                                 Results – Part H




Observation 34
No Ventilation System in the Armed Forces Retirement
Home—Washington, D.C., Arts and Crafts Shop

Besides the single entry doorway, there was no other means by which air
could flow in and out of the Arts and Crafts Shop to reduce potentially harmful
airborne particulates.

The Arts and Crafts Shop was designed as an enclosed room with a door being its
single point of entry and exit.

Consequently, anyone working in the Arts and Crafts Shop was at an increased
risk of exposure to toxic pollutants.




 Figure 17. AFRH-W Wood Shop                Figure 18. AFRH-W Arts and Crafts
 Source: DoD IG–SPO                         Source: DoD IG–SPO




                                                                                DODIG-2014-093 │ 189
Results – Part H



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 34
                 Armed Forces Retirement Home Chief Operating Officer, develop procedures
                 to ensure the Armed Forces Retirement Home – Washington, D.C.            Chief of
                 Resident Services and Safety Officers conduct a safety assessment of the Auto
                 Hobby Shop, Wood Shop, and Arts and Crafts Shop and take corrective actions
                 to comply with Armed Forces Retirement Home Resident Services Standard
                 Operating Procedures. (See footnote 53.)


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 Management concurred, describing corrective action taken, to include posting signs
                 indicating the only area where cleaning greenware and spraying is authorized.


                 Our Response
                 Management’s comments were responsive. No further action required.




190 │ DODIG-2014-093
                                                                                  Results – Part H




Observation 35
Possible Lack of Adherence to Standard Operating
Procedures at the Armed Forces Retirement
Home – Gulfport

The AFRH-G personnel could not produce evidence that they were following
all SOPs in a manner sufficient to meet the criteria addressed in the DoD IG’s
2012 Inspection Checklist. (See footnote 53.)

Some activity managers were not aware of or knowledgeable about the current
SOP for their designated activity.      In addition, SOPs were recently signed, all
with the same date, and only recently issued.

Consequently, AFRH-G personnel may not have been knowledgeable about or
accurately following SOPs and thus may be in violation of established SOPs.
Furthermore, SOPs may not have been providing adequate guidance or internal
controls to execute the recreational activity as intended.


Discussion
Most of the activities observed had corresponding SOPs.      However, upon review,
the DoD IG Inspection Team observed that the SOPs were dated within 2 to
3 months prior to the inspection, and looked very similar in content to the
SOPs designated for the AFRH-W facility.         There was a lack of documentation
supporting the activity managers’ compliance with the provisions of their
respective SOP.   The recent date on all SOPs raised concerns that the provisions
contained within the SOPs did not exist for AFRH-G personnel to follow prior to
the date observed on each SOP.       Furthermore, it appeared that SOPs and current
operations were not thoroughly reviewed before the SOPs were issued.             In
addition, some SOPs did not adequately address all characteristics or aspects of
related activities.   Specifically, SOP G-RS-REC-5-16, “Gift Shop,” July 9, 2012,
did not reflect the fact that the gift shop was, at the time the SOP was
issued, under private ownership.




                                                                                 DODIG-2014-093 │ 191
Results – Part H



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 35
                 Armed    Forces    Retirement    Home       Chief     Operating         Officer,    develop
                 internal control policies to ensure the current Armed Forces Retirement
                 Home – Gulfport Chief of Resident Services:

                         a.	 Reviews and revises standard operating procedures so that they
                           capture the appropriate characteristics of activities that take place at
                           the Armed Forces Retirement Home – Gulfport.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The   AFRH   COO   concurred,   but   did   not     describe    actions     to     implement
                 the recommendation.


                 Our Response
                 Management’s comments were partially responsive. In response to the final report,
                 we ask that management provide a description of actions taken to implement
                 the recommendation.

                         b.	 Implements   the    procedures          developed      in      response       to
                           recommendation 35.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The   AFRH   COO   concurred,   but   did   not     describe    actions     to     implement
                 the recommendation.


                 Our Response
                 Management’s comments were partially responsive. In response to the final report,
                 we ask that management provide a description of actions taken to implement
                 the recommendation.




192 │ DODIG-2014-093
                                                                                    Results – Part H




Observation 36
Armed Forces Retirement Home – Gulfport
Walk-through Inspections Lack Consistency in
Occurrence and Documentation

Although AFRH-G personnel were conducting some walk-through inspections,
they were not conducting walk-through inspections daily, as established by
the 2012  Inspection Checklist.      (See footnote 53.)      Additionally, inspection
documentation lacked consistency.

AFRH-G recreational supervisors were not providing adequate oversight over this
duty and ensuring that resident volunteers and managers were conducting and
documenting walk-through inspections adequately and consistently, as intended by
AFRH Directive 8-7, “AFRH Recreation Services,” September 18, 2006.

The lack of consistent and adequate daily walk-through inspections decreased
the AFRH personnel’s overall awareness of safety hazards and presented
safety concerns.


Discussion
The DoD IG Inspection Team determined that AFRH-G personnel were conducting
some daily walk-through inspections.    However, documentation of the inspections
was inconsistent.  Generally, inspections were documented approximately once
a week, and in instances when a violation was detected.       The DoD IG Inspection
Team gathered documentation of conducted inspections from the fitness center
and the swimming pool.  These inspections were documented separately, on
different forms.   However, inspections of the wrapping room, craft room, art
room, sewing room, wood shop, radio room, and paint room were documented
on a single form.  Resident volunteers and managers were not consistently or
adequately carrying out these their inspection and documentation duties.




                                                                                   DODIG-2014-093 │ 193
Results – Part H



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 36
                 Armed Forces Retirement Home Chief Operating Officer, develop procedures
                 to ensure the Armed Forces Retirement Home – Gulfport Chief of Resident
                 Services implements a quality control plan to guarantee daily walk-through
                 inspections are conducted and documented.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, noting that all walk through inspections are conducted
                 daily (Monday-Friday with exceptions of holidays) and documentation of walk through
                 inspections are completed daily. Daily walk through forms have been revised for all
                 areas to be consistent with the SOP. The Recreation Supervisor will sign inspections
                 log weekly to verify compliance. All associated files are maintained in one location


                 Our Response
                 Management’s comments were responsive.            We will request a copy of the most
                 recent monthly inspection logs at a later date.




194 │ DODIG-2014-093
                        Results – Part I




Results – Part I
Contract Management




                      DODIG-2014-093 │ 195
Results – Part I




                   Contract Management
                   Overall Assesment
                   Since 2004, AFRH and the Treasury Franchise Fund’s BPD Administrative
                   Resource   Center   have   been      partnered   by    an   interagency   agreement   and
                   memorandum of understanding (MOU), which details the services rendered
                   in‑kind in exchange for an obligated net total order amount of $3.03  million.
                   Procurement services were one of several key services provided by BPD to
                   AFRH.      Overall, the BPD provided AFRH adequate service, in accordance
                   with the Federal Acquisition Regulation (FAR) and Department of Treasury
                   Acquisition Regulation (DTAR).       This assessment was further supported by BPD’s
                   2011  customer satisfaction survey, in which ARFH stated that the agency was
                   satisfied with the quality of BPD’s personnel and the overall level of service
                   received from its Administrative Resource Center.

                   In spite of these reviews, the DoD IG Inspection Team noted seven deficient areas
                   where increased AFRH emphasis and action was needed, including:

                        1.	   documenting     greater     detail    for   Independent    Cost   Government
                              Estimates (IGCE),

                        2.	   increasing focus on collective market research executed in accordance
                              with FAR 10 and DTAR Subpart 1019.502,

                        3.	   developing consistent with developing recommendation for award
                              memoranda,

                        4.	   documenting the impetus behind modification transactions,

                        5.	   overseeing consistent interagency agreements,

                        6.	   managing COTR contracting workload and experience within the
                              organizational structure, and

                        7.	   focusing on developing Quality Assurance Surveillance Plan/Service
                              Delivery Summary/Performance Requirement Summary and documenting
                              oversight conducted.




196 │ DODIG-2014-093
                                                                                                  Results – Part I



Outsourced Procurement
Through Interagency Agreement No: ARC-1213-0026, BPD provided AFRH  with
procurement services, to include simplified acquisitions, formal contracts (over
$150,000), and contract administration.            BPD conducted procurement services
in accordance with the FAR and DTAR.             The FY 2012 cost for performing these
services was approximately $1.1 million, using seven dedicated contracting
personnel    (one     Lead      Contracting   Officer,    two   Contracting     Officers,   and
four Contracting Specialists).

Since the last DoD IG inspection in 2010, BPD has awarded over 439  contract
actions valued at $224.5  million over 4 fiscal years (FY 2009: 127  transactions,
$49.1  million; FY 2010: 134 transactions, $98.3  million; FY 2011: 111  transactions,
$29.5  million; and FY 2012: 67  transactions, $47.6  million).        Given this universe,
the DoD  IG Inspection Team reviewed 47 active contracts and interviewed
multiple COTRs and Functional Managers at AFRH-W and AFRH-G.                        The AFRH
Management and COTRs from both sites were in continual contact via phone,
e-mail,   in‑person   visits,    and   written   correspondence     with      the   Contracting
Specialists and Contracting Officers at BPD.             To ensure everyone was mutually
supported, the two agencies designated weekly status meetings as primary
conduits to address issues and resolve areas of concern.

The DoD IG Inspection Team concluded that BPD was satisfactorily maintaining
their respective contract files.       BPD’s contracting personnel efforts continually
ensured that contracting fundaments for funding, acquisition planning, advertising,
competition, and objective-based evaluations and negotiations were carried out
in accordance with the FAR. However, the COTR portion of the contract files was
missing documentation required to support contract transactions and to manage
contractor performance.          Although AFRH and BPD shared a collective effort
for awarding and administering procurement services, the Contracting Officer
was ultimately responsible for addressing the gaps and shortfalls on behalf of
the Government.




                                                                                             DODIG-2014-093 │ 197
                                                                                                                     Results – Part I




Observation 37
Failure to Maintain Independent Government Cost
Estimates and Other Supporting Documentation for
Contract Estimates

Thirty-two of the 47 contracts inspected did not have IGCEs on file or
supporting documentation with enough clarity to articulate how the estimate
was ascertained.

Detailed IGCE were not being documented and provided to the Contract Specialist
at the BPD.

Without       the     IGCEs,       it     was      difficult     for        the     Contracting         Officer’s
Representative  (COR) to assist the Contracting Officer with assessing a contract
cost proposal or make determinations that offered prices were fair and reasonable.


Discussion
COTRs     and       Contracting     Officers      must      ensure     that       there    is    a   consistent
methodology being used to create IGCEs, in accordance with Interagency
Agreement #1213‑0026 between AFRH and Treasury Agency Fund, “AFRH
COR     Handbook,”       July     2012;        Federal    Acquisition        Regulation         (FAR)     36.203,
“Government Estimate of Construction Costs,” February 2, 2012; and FAR 15.406,
“Documentation,” September 13, 2012.                       As per FAR 4.803(a)  (7), “Contents
of Contract Files,” December 2012, the Contract Officer’s contract file should
have contained the Government’s estimate of contract price.

However,      the     DoD IG      Inspection       Team     determined            that    COTRs      were     not
documenting or providing IGCEs (lump sum or detailed) to Contracting Officers
at the BPD on a consistent basis.                Without the IGCE, it was difficult for the COR
to assist the Contracting Officer with assessing the offeror’s cost proposals
in order to ensure that offered prices reflected an understanding of the
Government’s         requirements.        It    was      also   difficult     for    the    COR      to     assist
the   Contracting        Officer        in      making      determinations           for    price         fairness
and reasonableness.




                                                                                                                DODIG-2014-093 │ 199
Results – Part I



                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 37
                   Armed Forces Retirement Home Chief Operating Officer, ensure that the
                   Bureau of Public Debt’s Contracting Officers enforce standards within the
                   Interagency Agreement #1213‑0026, the Armed Forces Retirement Home
                   Contracting Officer Technical Representative Handbook, and the Federal
                   Acquisition   Regulation        for     developing     Independent     Government     Cost
                   Estimates and that this documentation is consistently provided by Armed
                   Forces   Retirement    Home           Contracting    Officer   Technical   Representatives
                   as part of the acquisition packages.


                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred.          He noted that, since the IG did not provide a list
                   of the contracts they reviewed, AFRH requested BPD sample a portion of our
                   current contracts to determine if IGCEs were complete and appropriate for
                   the award size and scope.         The BPD review determined IGCEs were included
                   for each contract, were appropriate for the size and scope of the contracts
                   and were within the standards set by the AFRH COR Manual and the FAR.


                   Our Response
                   Management’s comments were responsive. The contracts reviewed by the IG were:

                   Facilities/Campus Operations:
                            •	 TPD-AFRW-12-000017 (Amar Group): Construction Inspection Services

                            •	 TPD-AFRW-12-K-00006 (CMI Management): Facility Maintenance Services

                            •	 TPD-AFRW-12-00008 (LVI Environmental Services): Shoring Equipment/
                              Dehumidifiers

                            •	 TPD-AFRW-09-K-00011 (Simplexgrinnell): Fire Protection Sys Maintenance

                            •	 TPD-AFRW-09-K-00019            (CMI     Management):  Facility    Maintenance
                              Services – modification documentation P00007, P00008)




200 │ DODIG-2014-093
                                                                                      Results – Part I



         •	 TPD-AFRW-10-K-00019 (CMI Management):  Fire Hydrant Replacement/
           Repair

         •	 TPD-AFRW-11-C-0013 (Hensel Phelps Construction):  Earthquake Safety

         •	 TPD-AFRW-12-C-0008 (Baistar Mechanical Inc): Eagle Gate Construction
           Project

Resident (Recreational) Services:
         •	 TPD-AFRW-12-C-0006 (Lakeview Center): Custodial Services

         •	 TPD-AFRW-12-00004 (Chamber Funeral Home): Mortuary Services

         •	 TPD-AFRW-10-C-0013 (Lakeview Center): Food Services

         •	 TPD-AFRW-12-00005 (Fitness Workshop): Preventive Maintenance Fitness
           Equipment

Medical Services
         •	 TPD-AFRW-09-C-0016 (ASCO Health Care): Pharmacy Services

         •	 TPD-AFRW-09-C-0011 ( Millennium): Pharmacy/Ancillary Services

         •	 TPD-AFRW-09-C-0008 (Professional Services of America):     Exec Coach/
           Consulting Services

         •	 TPD-AFRW-BPA-10003 (Sensa Solutions Inc)

         •	 TPD-AFRW-10-C-0016 (Mantoni Dr. Robert Inc): Mobile Dentistry Services

         •	 TPD-AFRW-08-C-0001 (Professional Services of America): Medical Services
           Professionals

We will review this area again during our next inspection.




                                                                                  DODIG-2014-093 │ 201
                                                                                       Results – Part I




Observation 38
Inconsistencies in Market Research and Documentation

The market research was not consistently documented in a manner appropriate to
the size and complexity of the acquisition.

This occurred because COTRs were not conducting market research to standards
delineated in:

        •	 Interagency    Agreement    #1213-0026 between AFRH and         Treasury
           Agency Fund,

        •	 “AFRH COR Handbook,” July 2012,

        •	 Federal Acquisition Certification for COR,

        •	 CLC 004 – Market Research,

        •	 FAR 10, and

        •	 DTAR Subpart 1019.502.

This could inhibit the development of the most suitable acquisition strategy,
as well as the acquisition timeline for procuring the capability or service.


Discussion
The COR’s ability to collect and analyze relevant market information and identify
possible sources for the acquisition is a required part of acquisition planning.
There are a variety of methods for conducting market research.         Regardless of
the method chosen, the outcome of the market analysis is a critical ingredient to
the subsequent acquisition strategy.     During a review of the Contracting Officers
and COTR files, the DoD IG Inspection Team determined that the outcome of
the collective market research was not being concluded and signed off by the
Contracting Officer, in accordance with the standards listed above.

AFRH and BPD were not consistently meeting the standard for conducting and
documenting market research.      When the results of the market research are not
consistently documented in a manner appropriate to the size and complexity




                                                                                  DODIG-2014-093 │ 203
Results – Part I



                   of the acquisition and provided to the Contracting Officer, there could be a direct
                   bearing on the development of the most suitable acquisition strategy, as well
                   as the acquisition timeline to procuring the capability or service.

                   Rarely did the DoD  IG Inspection Team see the outcomes of the collective
                   market research summed up and finalized, in accordance with FAR 10 and DTAR
                   Subpart  1019.502, to show how the COTR derived his/her most suitable approach
                   to acquire, distribute, and support supplies and services.


                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 38
                   Armed Forces Retirement Home Chief Operating Officer, ensure that Bureau
                   of Public Debt’s Contracting Officers enforce standards within Interagency
                   Agreement 1213-0026, the “Armed Forces Retirement Home Contracting
                   Officer Technical Representative Handbook,” and the Federal Acquisition
                   Regulation and Department of Treasury Acquisition Regulation for conducting
                   market research to ascertain a suitable approach to acquire, distribute, and
                   support supplies and services.


                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred.        He noted that, since the IG did not provide a list of
                   the contracts they reviewed, AFRH requested BPD sample a portion of current
                   contracts to determine if market research was completed and appropriate for the
                   size and scope of the award.


                   Our Response
                   Management’s comments were responsive.           See the listing of contracts sampled
                   in “Our Response” in Recommendation 37. We will review this area again during
                   our next inspection.




204 │ DODIG-2014-093
                                                                                                         Results – Part I




Observation 39
Failure to Maintain Recommendation for Award
Memoranda for Contracts

At least 6 of the 47 contracts inspected did not have a recommendation for
award memorandum or a similar document describing how the Contracting
Officer determined the award outcome on file.

The BPD procedures for preparing award recommendations and the supporting
documentation for Contracting Officers were not being consistently followed by
all Contract Specialists and Contracting Officers.

As a result, the integrity and validity of the contract could have been
negatively impacted.


Discussions
At least 6 of the 47 contracts inspected did not have a recommendation for
award memorandum in the file or a similar document describing how the
Contracting    Officer     determined     the   award        outcome.     BPD     procedures       for
preparing     award      recommendations        and     the     requirement       for     supporting
documentation for Contracting Officers were included in:

         •	 Interagency     Agreement      #1213-0026 between AFRH and                      Treasury
            Agency Fund,

         •	 FAR: 9.103 subparagraphs (a-c), “Responsible Prospective Contractors –
            Policy,” May 12, 2012,

         •	 FAR 9.104-1, subparagraphs (a-g), “General Standards,” May 12, 2012,

         •	 FAR 15.404-1(a)(1), and (a)(2), “Proposal Analysis Techniques – General,”
            September 13, 2012,

         •	 FAR 15.404-1(b), “Proposal Analysis Techniques – Price Analysis for
            Commercial and Non-Commercial Items,” September 13, 2012, and

         •	 DTAP:        1019.502   (b)     and       (c),    “Setting    Aside         Acquisitions,”
            March 1, 2012.




                                                                                                    DODIG-2014-093 │ 205
Results – Part I



                   The procedures and requirements were not being consistently followed by all
                   Contract Specialists and Contracting Officers.

                   Without the recommendation for award memorandum, there was no summarized
                   documentation capturing:

                           •	 the technical evaluation outcome,

                           •	 a determination for price fairness and reasonableness, or

                           •	 a determination that the potential contractor was deemed responsible to
                               perform the work.


                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 39
                   Armed Forces Retirement Home Chief Operating Officer, ensure that the
                   Bureau of Public Debt Contracting Officers place increased emphasis on
                   making the determination and recommendation for award using procedures
                   and requirements, as prescribed by the Federal Acquisition Regulation and
                   Department of Treasury Acquisition Regulation.


                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred.         He noted that the IG did not provide a list of the
                   contracts they reviewed, AFRH requested BPD sample a portion of our current
                   contracts to determine if award memoranda for contracts was completed
                   and appropriately prepared for the award size and scope.               The BPD review
                   determined award recommendations were appropriately completed for the size
                   and scope of the contract, were signed by both the Contracting Specialist and
                   Contracting Officer, and were available in the contract file as required by FAR
                   and DTAR.


                   Our Response
                   Management’s comments were responsive.           See the listing of contracts sampled
                   in “Our Response” in Recommendation 37.             We will review this area again
                   during our next inspection.




206 │ DODIG-2014-093
                                                                                                          Results – Part I




Observation 40
Failure to Consistently Support Modifications
Transactions

AFRH CORs consistently lacked documentation to support contract modification
transactions.

AFRH CORs were not consistently documenting requirements that were being
conveyed     to   BPD’s     Contract        Specialists/Contracting    Officers   in     support     of
modifications and post‑award administration.

Lack of documentation for post-award requirements (administrative/constructive
changes) had the potential to adversely impact the desired outcome.


Discussion
During     the    inspection,      the      DoD IG   Inspection     Team    found       that     AFRH
consistently lacked documentation to support contract modification transactions.
The DoD  IG Inspection Team noted multiple instances where AFRH CORs
authorized modifications to add or deobligate funding without explanation, or
where AFRH CORs received verbal direction to conduct modifications, but failed
to document actions in a memorandum.                       AFRH CORs were not consistently
documenting the requirements that were being conveyed to BPD’s Contract
Specialists/Contracting         Officers    in   support    of   modifications    and    post-award
administration.        Often,    this      information     was   missing   from        the     Contract
Specialist’s files.     The DoD IG Inspection Team determined that CORS were not
consistently adhering to the following guidelines:

         •	 Interagency         Agreement        #1213-0026 between AFRH and                 Treasury
            Agency Fund,

         •	 AFRH Notice 12-04, “Records Management Program” March 7, 2012,

         •	 “AFRH COR Handbook,” revised July 2012, and

         •	 FAR 4.803, “Contents of Contract Files”.




                                                                                                     DODIG-2014-093 │ 207
Results – Part I



                   The approval of a purchase request was insufficient by itself; it must have been
                   documented with rationale for what was being procured.  A continual lack
                   of   documentation      for   post-award     requirements      (administrative/constructive
                   changes) has the potential to create problems during future audits and
                   can create the perception of a lack of contract oversight.


                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 40
                   Armed        Forces   Retirement     Home    Chief    Operating     Officer,   ensure    that
                   Contracting Officers focus on obtaining all appropriate documentation from
                   Contracting Officer Technical Representatives, as prescribed by Armed
                   Forces Retirement Home and Bureau of Public Debt policies, to support
                   contract transactions and the contract file.


                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred.            He noted that the IG did not provide a list of the
                   contracts they reviewed, AFRH requested BPD sample a portion of our current
                   contracts to determine if contract modifications were sufficiently documented for the
                   complexity of the individual contract action.         BPD determined the files contained
                   sufficient    documentation   for    the   complexity    of   the   contract   action   being
                   undertaken as prescribed by AFRH and Bureau of Public Debt policies.                     The
                   specific observation “approval of a purchase request was insufficient by itself
                   and has the potential to create problems during future audits and can create
                   the perception of a lack of contract oversight” does not recognize the various
                   types of administrative modifications.


                   Our Response
                   Management’s comments were responsive.               See the listing of contracts sampled
                   in “Our Response” in Recommendation 37.                 We will review this area again
                   during our next inspection.




208 │ DODIG-2014-093
                                                                                       Results – Part I




Observation 41
Inadequate Oversight and Management of
Interagency Agreements

Neither AFRH facility was consistently managing or providing oversight of
interagency agreements between AFRH and other Federal agencies.

The interagency agreements did not clearly define whether BPD or AFRH was
required to provide surveillance over the interagency agreements.

Lack of oversight over interagency agreements may produce adverse outcomes
and poor service.


Discussion
Oversight and management of interagency agreements were carried out at the
AFRH Agency level and not at BPD. The functionality of BPD’s role, beyond setting
up the original interagency agreements framework, was unclear.      The surveillance
of interagency agreements was not consistently managed at either AFRH-W or
AFRH-G.    Although AFRH Agency provided limited surveillance, the surveillance
was inconsistent.   Monitoring surveillance oversight and performance was difficult
when there was not clear guidance for the respective roles and responsibilities
between BPD, AFRH, and the other intra-government agencies.


Recommendations, Management Comments, and
Our Response
Recommendation 41
Armed Forces Retirement Home Chief Operating Officer, work with Bureau
of Public Debt’s Administrative Resource Center to clarify their respective
roles and responsibilities, as well as to define consistent methodology
for surveillance and monitoring of interagency agreements performance.




                                                                                  DODIG-2014-093 │ 209
Results – Part I



                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred, noting that the AFRH Agency was responsible to provide
                   oversight of the interagency agreements.         He stated that AFRH would review
                   AFRH Agency Directive 3-1 and provide additional clarity on their roles.


                   Our Response
                   Management’s comments were responsive. We will request an update on the review
                   of AFRH Agency Directive 3-1 at a later date.




210 │ DODIG-2014-093
                                                                                                                                         Results – Part I




Observation 42
Inequitable Distribution of Contracts Among
Contracting Officer Technical Representatives

AFRH COTR background/experience was not adequate to support all the contracts
they were managing and COTR responsibility was not evenly distributed.

The workload distribution of contract oversight to COTRs was unbalanced and
some COTRs were more experienced than others.

Inadequate oversight by COTRs of heavily labor-driven contracts could lead to
excessive labor-related expenditures, causing periods of performance to shorten.


Discussion
The unbalanced workload distribution of contracts to COTRs and the great
differences in the levels of experience among COTRs made it difficult to meet the
requirements stipulated in:

                •	 the Interagency Agreement #1213-0026 between AFRH and Treasury
                    Agency Fund,

                •	 the “AFRH COR Handbook,” July 2012,

                •	 the Federal Acquisition Certification for COR,

                •	 CLC 004, “Market Research” August 8, 2012 and

                •	 DTAR policies.

Additionally, there was inadequate oversight by COTRs to monitor contractor
performance that was labor-intensive, as prescribed by AFRH and DTAR polices.
This deficiency could result in excessive labor-driven expenditures and shortened
periods of performance due to fixed price over burning the contract value.54




	 54	
        ”Over burning the contract value” – spending at a faster rate than planned by the contract due to an increased need for
        resources. AFRH may for instance require additional staff to carry out a service on a contract with a fixed price over a fixed
        amount of time. The additional staff will use up a greater percentage of the obligated funds at a faster rate than if they
        were not hired, therefore speeding up the time when total cost of contract is expended or becomes due.




                                                                                                                                    DODIG-2014-093 │ 211
Results – Part I



                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 42
                   Armed Forces Retirement Home Chief Operating Officer, ensure that the Armed
                   Forces Retirement Home Contracting Office analyzes Contracting Officer
                   Technical Representative’s workload and seeks to align Contracting Officer
                   Technical Representative experience with contracts to improve surveillance
                   and monitoring of contractor performance.


                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred.  Per AFRH COR Handbook (July 2012), each AFRH
                   COR has met the mandatory training requirements, been nominated by their
                   management team based on their technical experience, and been designated in
                   writing. In addition, BPD completes annual AFRH contract file reviews to identify
                   file and responsibility improvements needed to assist AFRH CORs in performing
                   their responsibilities.  Although CORs may temporarily be requested to assume
                   additional duties due to separations/retirements, COR responsibilities are reviewed
                   and adjusted appropriately.


                   Our Response
                   Management’s comments were responsive.      We will review this area again during
                   our next inspection.




212 │ DODIG-2014-093
                                                                                         Results – Part I




Observation 43
Failure to Document and Maintain the Quality
Assurance Surveillance Plan, Service Delivery Summary,
or Performance Requirement Summary

The contract files reviewed lacked documented Quality Assurance Surveillance
Plans (QASPs), as directed by corresponding contracts.      In several cases, contract
files lacked documentation of evidence that COTRs were providing oversight
over the contractor performance.

Some COTRs were not aware of the importance of documenting QASPs and the
methods for conducting surveillance over the contractor performance, as well as
the requirement to maintain these documents as part of the contract file.

The lack of a QASP and measureable inspection/acceptance criteria made it
difficult for the Government to reliably measure contractor performance and
ensure the contractor was carrying out his or her quality control obligations.


Discussions
After reviewing several contract files, the DoD IG Inspection Team observed that
there were no documented QASPs as directed by the corresponding contract.           In
several cases, the DoD IG Inspection Team observed a lack of documentation
to support the fact that oversight was being conducted in accordance with:

        •	 “AFRH COR Handbook,” July 2012,

        •	 AFRH Agency Directive 3-1, “AFRH Financial Management Program,”
           July 18, 2012,

        •	 COR SOP #W-CO-COR-3-02, Contract Monitoring, and

        •	 FAR policies.

Some AFRH COTRs were not aware of the requirement to document their
respective method for conducting surveillance of the contractor performance and
keeping the documentation as part of the contract file.      The lack of a QASP and
measureable inspection/acceptance criteria made it difficult for the AFRH to measure
contractor performance and the effectiveness of quality control obligations.



                                                                                    DODIG-2014-093 │ 213
Results – Part I



                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 43
                   Armed Forces Retirement Home Chief Operating Officer ensure that:

                           a.	 Contracting     Officer   Technical   Representatives       develop   Quality
                              Assurance Surveillance Plans for surveillance in accordance with the
                              prescribed Armed Forces Retirement Home and Federal Acquisition
                              Regulation policies.

                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred. He noted that the IG did not provide a list of contracts
                   they reviewed, AFRH requested BPD sample a portion of our current contracts to
                   determine if QASP or Performance Requirement Summary (PRS) were adequate
                   to evaluate contract performance based on contract type.  BPD determined
                   QASP and PRS were included for all awards and were prepared appropriately.


                   Our Response
                   Management’s comments were responsive.            See the listing of contracts sampled
                   in “Our Response” in Recommendation 37. We will review this area again during
                   our next inspection.

                           b.	 Bureau     of   Public    Debt    Contracting    Officers    document    and
                              implement        surveillance     methodologies    to   effectively    manage
                              contractor performance.

                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred.           He noted that the IG did not provide a list of
                   contracts they reviewed, AFRH requested BPD sample a portion of our current
                   contracts to determine if surveillance technologies were adequate to assess
                   contractor performance. BPD determined QASP or PRS were adequate to measure
                   contractor performance.


                   Our Response
                   Management’s comments were responsive. See the listing of contracts sampled in
                   “Our Response” in 37. We will review this area again during our next inspection.




214 │ DODIG-2014-093
                     Results – Part J




Results – Part J
Security




                   DODIG-2014-093 │ 215
Results – Part J




                   Security
                   Overall Assessment
                   The DoD IG Inspection Team’s AFRH security assessment addressed security
                   management, physical security safeguards, training programs, electronic security
                   systems, and security SOPs.           The DoD IG Inspection Team observed major
                   improvements in the AFRH-W’s security operations from the DoD  IG’s AFRH
                   2009  assessment.     AFRH       Security   Management    incorporated   the   DoD  IG’s
                   recommendations from the 2009 assessment.

                   Perimeter security was a significant concern at the AFRH-W and the AFRH-G
                   facilities.  Both facilities were vulnerable to unauthorized access as a result of
                   inadequate security measures.  Physical security measures did not adequately
                   meet the requirements established by AFRH policies.

                   Significant   concerns   about     AFRH’s    security   training   programs    and   SOPs
                   emerged during the inspection, primarily due to a lack of standardized security
                   processes observed at each facility.        AFRH security guards did not possess the
                   requisite training or authorization to conduct traditional Federal security guard
                   operations or to respond in the event of an emergency.




216 │ DODIG-2014-093
                                                                                                         Results – Part J




Observation 44
Poor Security at the Scale Gate Entrance

Security of the AFRH-W Scale Gate facility entrance, controlled by VA police, did
not meet the security standards established in SOP No. W-OA-SEC-5-27, “Perimeter
Security,” July 6, 2012.

An enforceable written agreement did not exist between the AFRH-W and the
VA police that required the VA police to apply appropriate access control measures
to the Scale Gate facility entrance.

As a result, the AFRH-W facility grounds were vulnerable to unauthorized access.


Discussion
AFRH-W’s “Perimeter Security” SOP outlined procedures to prevent unauthorized
access to the AFRH-W grounds.             Security officers assigned to gate duty were
required to be alert for individuals who did not have a legitimate purpose for
entry.  Perimeter gate security procedures stated that security officers were
required stop every motor vehicle at the entrance that did not visibly display
a valid AFRH decal or a temporary vehicle pass.  Visitors were supposed to
be asked to present a valid AFRH pass or queried as to their business on the
AFRH-W grounds. These procedures were also applicable to every pedestrian and
bicyclist who was not a resident or employee of the AFRH.  AFRH-W security
officers applied these procedures to ensure that facility entrances were secure,
with the exception of the Scale Gate entrance, which was monitored by the
VA police.  Based on anecdotal accounts and a direct observation of the
unsatisfactory performance of the VA police, the Scale Gate entrance to the
AFRH-W was determined to require additional access control measures.

VA     personnel    utilized    parking   spaces       on   the    AFRH-W        property     through
an agreement between the AFRH-W and VA, under the condition that VA
assign police officers to monitor the Scale Gate facility entrance.  During
an   interview,     the     AFRH-W    Security     Chief    stated       that   VA   police   officers
were     failing   to     properly   monitor     the   Scale      Gate    facility   entrance.    The
AFRH-W Security Chief also stated that VA police officers were absent from
security gate duty at times.  During a site visit, the DoD IG Inspectors



                                                                                                    DODIG-2014-093 │ 217
Results – Part J



                   observed that VA police officers were not adequately checking the identification
                   of individuals entering the facility through the Scale Gate.  This resulted
                   in an insufficiently secured Scale Gate, and thus a               facility vulnerable to
                   unauthorized access.

                   The AFRH-W Security Chief had addressed the concerns with the VA police
                   officers on duty and referenced the AFRH-W’s “Perimeter Security” SOP. However,
                   the issue continued to exist because there was no enforceable written agreement
                   outlining proper security procedures between the AFRH-W and VA that required
                   the VA police officers to apply access control measures that met the standards
                   in AFRH-W’s “Perimeter Security” SOP.


                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 44
                   Armed Forces Retirement Home Chief Operating Officer:

                            a.	 Complete a written agreement with the Department of Veterans
                                 Affairs to ensure that Veterans Affairs Police Officers on Scale
                                 Gate facility entrance security duty are in full compliance with
                                 Armed Forces Retirement Home security policies and standards
                                 for access control.

                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred, stating that the recommendation was in progress.


                   Our Response
                   Management’s comments were responsive. We will request an update on progress at a
                   later date.

                            b.	 Assign Armed Forces Retirement Home – Washington, D.C. security
                                 guards   to   attend   to   the   Scale   Gate   facility   entrance   until
                                 Department of Veterans Affairs Police Officers begin providing
                                 security in full compliance with required policies.




218 │ DODIG-2014-093
                                                                                   Results – Part J



Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, commenting that the VA Police Force assumed
responsibility for the Scale Gate on or about November 2013. Barricades prohibit
Scale Gate traffic from entering the AFRH Main Grounds.


Our Response
Management’s comments were responsive. No further action required at this time.




                                                                              DODIG-2014-093 │ 219
                                                                                           Results – Part J




Observation 45
Inadequate Security Guard Minimum Qualifications,
Training, and Authority

Although a baseline security training program with SOPs and a master training
task list existed, the AFRH-W and AFRH-G guards were not adequately trained
nor empowered to provide traditional Federal security services according to
recognized Federal standards.

The security guards lacked Federal professional standards, training, and authority.

Consequently, security guards were unprepared to properly address security
threats, especially in an emergency.


Discussion
After   reviewing    Federal,   DoD,   and   General   Services   Administration   (GSA)
security standards and AFRH-W and AFRH-G SOPs, the DoD IG Inspection Team
determined that the security guards at both facilities lacked adequate security
response training.     Additionally, upon further review of the SOP’s “Orientation
and Training” and ‘Perimeter Security,” and discussions with security personnel,
the team determined that AFRH guards at both facilities were not trained or
necessarily authorized to respond to emergencies involving threats to personnel
and property.

Security guards were unarmed and lacked the requisite safety training needed
to protect themselves and the AFRH residents and staff members.  Adoption of a
security guard program, such as those described in DoD Instruction 5525.15, “Law
Enforcement (LE) Standards and Training in the DoD,” April  27,  2012, would
prove beneficial to improving the state of AFRH security.




                                                                                      DODIG-2014-093 │ 221
Results – Part J



                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 45
                   Armed     Forces    Retirement   Home     Chief   Operating   Officer,   establish   a
                   security guard program that meets the minimum qualification and training
                   requirements of Department of Defense or Department of Homeland Security
                   Federal Protective Service guards, including a plan to respond to an active
                   shooter incident.


                   Armed Forces Retirement Home Chief Operating Officer Comments
                   The AFRH COO concurred, stating that the AFRH would explore various Federal
                   training programs for security officers and secure a training program that
                   meets minimum training requirements of the Department of Homeland Security
                   Protective Service guards.    AFRH security has implemented an active shooter
                   program and provided training to staff and residents.


                   Our Response
                   Management’s comments were responsive. We will request an update on progress
                   at a later date.




222 │ DODIG-2014-093
                                             Results – Part K




Results – Part K
Estate Matters and Disposition of Effects




                                            DODIG-2014-093 │ 223
Results – Part K




                 Estate Matters and Disposition of Effects
                 Overall Assessment
                 This inspection examined the AFRH’s compliance with section 420, title 24,
                 United States Code (24 U.S.C. § 420 [2012]) regarding activities related to
                 the disposition of AFRH’s deceased residents’ (decedent) effects and estates.
                 Specifically, the DoD IG Inspection Team:

                                  •	 reviewed AFRH’s directives and SOPs,

                                  •	 checked AFRH personnel’s knowledge of their roles and responsibilities,

                                  •	 assessed the process for the disposition of decedents’ last will and
                                      testament (will),              and the inventory process for the administration of
                                      decedents’ effects and estates, and

                                  •	 evaluated the conduct of AFRH personnel during probate proceedings
                                      in which AFRH may have legal interest as a nominated fiduciary,55
                                      testamentary legatee,56 escheat legatee,57 or other capacity.

                 While many personnel accounts and records reviewed indicated compliance with
                 AFRH SOPs, the DoD IG Inspection Team discovered deviations from directives
                 and SOPs and determined that key AFRH personnel were not accurately and
                 consistently following AFRH directives and policies regarding the disposition of
                 effects58 and estates.59 AFRH staff actions and procedures related to the disposition
                 of effects lacked:                  (1) internal controls in key risk areas, (2) accountability of
                 AFRH personnel for conduct related to the disposition of effects and estates,
                 and (3) adequate oversight by AFRH Administration, particularly during the
                 inventory process.




                 	 55	
                         An individual who is given the power to act on behalf of an individual in the administration of the individual’s estate in
                         accordance with the directions in the will.
                 	 56	
                         A person who receives personal property as directed by a will after the owner/author of the will has died. Retrieved 28
                         October 2013, from http://legal-dictionary.thefreedictionary.com/Legatee & http://thelawdictionary.org/testamentary/.
                 	 57	
                         The transfer of the property of a deceased person to the AFRH when no will has been written or no legal heirs exist or can
                         be found.
                 	 58	
                         Disposition of Effects - All activities related to the distribution and disposal of a decedent’s personal belongings as specified
                         in a will or as directed by a fiduciary or court. Usually includes small personal items.
                 	 59	
                         Disposition of an Estate - All activities related to settling of the decedent’s estate including, but not limited, to the settling
                         of all finances/debt and the dissolution and/or transfer of large properties (that is, home, businesses, land etc.) and/or
                         proceeds to individuals specified in a will or directed by a fiduciary or court.




224 │ DODIG-2014-093
                                                                                        Results – Part K



The   DoD IG     Inspection    Team    observed   that    many   AFRH   personnel   were
generally knowledgeable about their roles, as they were specified in AFRH
Agency Directive  8-8, “Estate Matters,” September 2, 2008, and facility SOPs.
However, some AFRH personnel were not.  SOPs for the AFRH were only
updated or written within the 3 months preceding the 2012 inspection.               Staff
accounts of conduct conflicted with SOPs in some areas and records failed to
support statements of staff about activities related to the disposition of effects.
Additionally, AFRH Agency Directive 8-8 was outdated, and did not include
changes to titles, noted in Public Law 112-81.  AFRH Agency Directive 8-8
and   SOPs     conflicted,    inadequately   addressing   many   aspects   of   processes
related to the disposition of effects and estates, and contributed to the lack of
compliance of AFRH staff with established policies.




                                                                                       DODIG-2014-093 │ 225
                                                                                                  Results – Part K




Observation 46
Inadequate Disposition of Wills

AFRH could not assure the delivery of decedent’s wills to the appropriate court
of record, as specified by 24 U.S.C. § 420(a)(1) (2012).

AFRH did not have an explicit policy which prohibited the maintenance of
residents’ wills on file at either facility or policies which dictated AFRH personnel
actions related to the disposition of wills that came into the possession of an
AFRH staff member.

AFRH may have violated 24 U.S.C. § 420(a)(1) (2012), if, upon death, a resident’s
will, in the possession of an AFRH staff member, was not delivered to the
appropriate court of record.


Discussion
Section 420 (a)(1), title 24, United States Code.             required “.  .  .  the Administrator
of.  .  .  [each] facility.  .  .    [to] ensure that a will or other instrument of a
testamentary nature involving property rights executed by a resident.  .  .  [was]
promptly delivered, upon the death of the resident, to the proper court of
record.”      At both facilities, residents were encouraged to create a will.  If a
resident did not possess a will at the AFRH-W facility, they were referred
to the AFRH Legal Team to obtain assistance with the creation of a will.                       If a
resident did not possess a will at the AFRH-G facility, this fact was notated in
their file.     Each facility noted whether each resident possessed a will and
recorded      the   executor’s      name,   as   noted   in   the   decedent’s    will,   on   the
face sheet in each resident’s file.          However, when the DoD IG Inspection Team
reviewed files, many face sheets had not been updated to indicate current
status and contact information for emergency contacts, executor, or personal
representative.      In addition, AFRH-W files did not accurately reflect the current
possession of wills by residents.

The DoD IG Inspection Team spoke with many AFRH staff members involved
in the disposition of decedent’s effects and estates at both the AFRH-W and
AFRH-G facilities, and was informed several times that “the AFRH did not
keep residents’ wills on file.”         However, at both locations wills were found in



                                                                                                 DODIG-2014-093 │ 227
Results – Part K



                 files.     At AFRH-W, a will was found in a Memory Support resident’s file.            At
                 AFRH-G wills were found in decedents files.            At AFRH-G, a list of the files
                 containing wills was provided to the AFRH-G Administrator at the conclusion
                 of the on‑site inspection out-brief.      AFRH had no guiding policy on what AFRH
                 should do about wills that are given to or found by an AFRH staff member, with
                 the exception of AFRH-G SOP, G-OA-ADM-1-15, “Transitions,” July 18, 2012,
                 which allows AFRH staff to receive a copy of the executor’s page of the will from
                 the executor as verification of his or her designation as the executor over the
                 decedent’s effects.

                 In the Air Force Inspection Agency (AFIA) Office of the Inspector General’s
                 2005       Triennial   Inspection   Report,   AFRH-W   was   cited   for   violation   of
                 24 U.S.C. § 420 (2012) because AFRH-W’s Chief of Resident Affairs was
                 “.  .  .  relinquishing residents’ wills to the executor or legal representative at the
                 time of the resident’s death and not delivering them to the appropriate court as
                 required by law.”      At AFRH-G, when a resident’s will was found in the resident’s
                 room, their practice was to provide the document to the resident’s family
                 or executor listed on the will, which was the same practice noted by AFIA’s
                 assessment in their report.

                 The AFIA 2005 report concluded that “.  .  .  by providing the executor or legal
                 representative with the decedent’s will, AFRH-W believed that they absolved
                 themselves of any further legal involvement with the probate proceedings, thus
                 avoiding any expense or manpower expenditures.”


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 46
                 Armed Forces Retirement Home Chief Operating Officer:

                          a.	   Update Armed Forces Retirement Home Directive 8-8, “Estate
                                Matters,” September 2, 2008, to include amendments from the
                                Public Law 112-81 and to reflect current practices of the Armed
                                Forces Retirement Home.




228 │ DODIG-2014-093
                                                                                         Results – Part K



AFRH COO’s Comments
AFRH COO concurred, reporting that AFRH Agency Directive 8-8 is currently
under revision.    AFRH COO noted that AFRH is not in the practice of keeping
original wills. Original wills found among Residents’ personal effects are disposed
of IAW 24 U.S.C. § 420.


Our Response
Management’s comments were responsive. We will request a status on the update of
the revised agency directive at a later date.

      b.	   Establish a written policy covering the handling, tracking, and
            recording of all actions related to the disposition of last will
            and testaments that are given to or found by Armed Forces
            Retirement Home staff, before or after the death of a resident,
            with special emphasis on whether the will was provided to the
            court or given to the next of kin, executor, or other entity.

AFRH COO’s Comments
AFRH COO concurred, commenting that requirements related to the handling
of wills are also covered in 24 U.S.C. § 420.  AFRH is not in the practice of
keeping original wills.  Original wills found among Residents’ personal effects
are disposed of IAW 24 U.S.C. § 420.


Our Response
Management’s comments did not address the intent of the recommendation.                 We
think the AFRH COO should promulgate the requirements of the law in policy,
so that his staff is aware of the process for proper handling/disposal if they
come across a resident’s original will while on duty at the Home.  They are
unlikely to know that they should follow, or even look at, 24 U.S.C. § 420.  We
ask that the AFRH COO again consider establishing written policy on this issue
and advise us, in response to the final report.

      c.	   Ensure    that     Armed    Forces     Retirement   Home       Administrators
            adequately       account   for   all   wills   executed   by    residents   in
            their possession.




                                                                                        DODIG-2014-093 │ 229
Results – Part K



                 AFRH COO’s Comments
                 AFRH COO concurred, reporting that the recommendation was complete. AFRH is
                 nonetheless not in the practice of keeping original wills. Copies of wills serve only
                 as references for AFRH Administrators in identifying next of kin or nominated
                 fiduciaries.  Original wills found among residents’ personal effects after they
                 have died are accounted for, the AFRH/General Counsel is notified, and the wills
                 are disposed of IAW 24 U.S.C. § 420.        Residents are also under no requirement
                 to make a will and may revoke or alter a will at any time, without providing notice
                 to any interested party. The task of creating, updating, and securing a will is the
                 resident’s responsibility.


                 Our Response
                 Management’s comments were responsive.            We accept management’s analysis
                 that AFRH employees know procedures for handling resident’s wills.          We will
                 look at this area again on our next inspection.




230 │ DODIG-2014-093
                                                                                                         Results – Part K




Observation 47
Noncompliance with Established Policies
and Procedures

AFRH employees involved in the disposition of effects and estates were not
accurately    following         AFRH     Agency     Directive     8-8,   “Estate    Matters,”        dated
September 2, 2008, or AFRH facility SOPs.

This was attributable to the fact that:

         •	 AFRH activities involving the disposition of decedent’s effects and
             estates lacked adequate oversight or review to check for employee
             adherence with policies.

         •	 AFRH Agency Directive 8-8 and AFRH facility SOPs were outdated,
             contradictory, and did not adequately cover all important aspects of
             processes related to the disposition of decedent’s effects and estates.

         •	 New employees assigned estate matters were not formally trained on
             their roles.

As a result, there was potential for lawsuits against AFRH for failing to properly
handle the decedents’ belongings and for failure to show compliance with
written procedures.


Discussion
At both facilities, the duties of the Administrator, as specified in AFRH Agency
Directive 8-8 (2008), were delegated to the Administrative Officers and the
Admissions Officers.            The Administrative Officer was only tasked with cases
where residents died intestate (without a will) or cases where an heir, next of
kin, executor, or emergency contact could not be readily identified by the
Admissions         Officer.      The   Admissions       Officer    had       primary    responsibility
for   activities      related     to   the   disposition     of    effects    of   residents     whose
deaths    occurred        in     IL    rooms.      Social   workers      were      involved     in     the
disposition of effects for decedents who died in all levels of care.  Healthcare
Services personnel were involved in activities related to the disposition of
effects of AFRH decedents that died in Healthcare Services, AL, and LTC.




                                                                                                        DODIG-2014-093 │ 231
Results – Part K



                 Armed Forces Retirement Home – Washington, D.C.
                 The DoD IG Inspection Team found that AFRH-W’s staff was not adhering to
                 established AFRH directives and SOPs.


                 The Administrator and Administrative Officer
                 While undertaking the duties assigned to the Administrator by AFRH Agency
                 Directive 8-8, the Administrative Officer was not only failing to complete
                 all   required    tasks,   but   also   other    requirements     of    his   position    as    the
                 AFRH-W Administrative Officer, as stipulated in AFRH directives and SOPs.
                 Specifically, out of the activities delegated to the Administrator by page 10
                 of AFRH Agency Directive 8-8, (8), neither the Administrative Officer nor the
                 Administrator were:

                          •	 verifying      and   documenting      the   identity/credentials     of   the      legal
                             representative handling the resident’s affairs, and

                          •	 ensuring that property received by the AFRH (items that were lost,
                             abandoned or otherwise unclaimed) was delivered to the owner,
                             the heirs, the executor/executrix, the legal representative, or next of
                             kin of the owner.

                 In addition, the Administrative Officer:

                          •	 did not receive valuables collected during the inventory process
                             for safekeeping or authorize the delivery of funds and effects to
                             the designee of the deceased resident when they were identified,
                             as directed by AFRH Agency Directive 8-8 (7) (a)(6), page 8,

                          •	 was     not    upholding    his     responsibility   over    decedent’s      property,
                             inventories, and all tracking forms released by the Decedent Affairs
                             Coordinator, as directed by AFRH Agency Directive 8-8 (8), page 10. (The
                             Administrative Officer only maintained documents received from the
                             AFRH-W designated lawyer), and

                          •	 was not publishing forms (AFRH Forms 48 and 222) specifically
                             required for documenting a decedent’s property in Healthcare Services.




232 │ DODIG-2014-093
                                                                                      Results – Part K



Security
Upon review of records, the DoD IG Inspection Team found that AFRH-W
security failed to enter in the security blotter the reported death of a resident
that occurred outside the facility, as required by W-OA-ADM-1-14, “Transitions,”
July 9, 2012.


Healthcare Services
During an interview, a staff member stated that there was a “[culture of] no
concern or accountability” when it came to the disposition of resident effects.
For instance, when an individual died and there was no claim to the decedent’s
effects, a staff member stated that other staff members would just give the
items away without obtaining written consent of the family or documenting who
obtained the items.       The interviewed staff member also stated that individuals
involved in the process were not following SOPs.  There were variations
in processes to accommodate each family’s need.  However, these actions,
according to the staff member, were not documented.


Armed Forces Retirement Home – Gulfport
At AFRH-G, some of the individuals tasked with duties related to the disposition
of a decedent’s effects had only recently been given this responsibility and
they were not thoroughly familiar with their duties, particularly regarding
the   probate   processes,    testamentary   donations,   record   keeping,   and   the
provision of oversight.

The Administrative Officer was engaged in activities assigned by AFRH Agency 8-8
(2008) to the Administrator, and was also fulfilling some of the tasks assigned to
her position under the directive.    The Administrative Officer only started keeping
records pertaining to estate matters a couple of weeks prior to the 2012 DoD  IG
inspection, after being told to do so by one of the AFRH-G social workers.          The
Administrative Officer stated that she was not given any previous training or
provided any guidance in this matter. Prior to the Administrative Officer’s hiring,
there was no evidence indicating what occurred in cases where decedents’
lacked wills or their families could not be reached.

AFRH personnel tasked with duties related to the disposition of personal
effects and the administration of estates did not provide sufficient evidence that
they were actually conducting activities in the manner stipulated in SOPs and
directives, primarily because of the newness of SOPs.      According to the AFRH-W



                                                                                     DODIG-2014-093 │ 233
Results – Part K



                 Administrator, AFRH-G did not have any SOPs when it reopened in 2010.
                 SOPs were apparently only recently adopted from AFRH-W to prepare for the
                 2012 DoD IG inspection.           The recent date on many SOPs raised concerns
                 that the requirements within SOPs may not have existed for AFRH personnel
                 to follow prior to the date observed on each SOP.  Additionally, the overt
                 newness of SOPs raised concerns that SOPs and current operations were not
                 thoroughly reviewed before the SOPs were issued. Moreover, the DoD IG Inspection
                 Team determined that some AFRH personnel were not accurately following
                 SOPs and SOPs may not have been providing adequate guidance or internal
                 controls to execute the activity as intended.

                 Staff accounts of conduct related to the disposition of effects and estates
                 contradicted materially in a few respects.          For instance, when asked about the
                 AFRH-G     Administrative      Officer’s    relationship        with     the   Administrator,    the
                 Administrative Officer stated that the Administrator held meetings to ensure that
                 everyone involved in the process was aware of their role in the disposition of
                 effects and estates when a death occurs.           However, when the DoD IG Inspection
                 Team spoke with both AFRH-G social workers, they stated that they had never
                 had any meetings with the past or current Administrator regarding estate
                 matters or the disposition of decedent’s effects.                 In fact, both social workers
                 stated that they had to improvise on several occasions on estate matters
                 because there was not a standard policy for AFRH-G to follow.                               However,
                 AFRH-G social workers were able to communicate some events, actions, and
                 other   information     of    importance    concerning      the        disposition   of   decedent’s
                 effects and were able to provide the Inspection Team evidence explaining
                 some discrepancies in decedent’s files.


                 Armed Forces Retirement Home – Gulfport and
                 Washington, D.C., facilities
                 Ombudsmen at both facilities were not fulfilling their duties as stipulated in
                 AFRH Agency Directive 8-8 (8), page 10 (2008), which stated that they were
                 to supervise and review all actions conducted by personnel involved in the
                 disposition of a decedent’s personal effects and the administration of their estate.

                 Moreover, neither facility’s Chief of Security was creating log records that
                 accounted for who went in and out of locked rooms containing decedents’
                 personal   effects    after   they   were    secured,      as    specified     by    AFRH    Agency
                 Directive 8-8 (7) “Inventory and Safekeeping. . . ” (b)(2), page 9.




234 │ DODIG-2014-093
                                                                                         Results – Part K



Neither       facility   was    adequately    using     forms    required       by   SOPs
W-HC-SOC-4-04 (Washington), and G-HC-SOC-4-04 (Gulfport), both titled “Residents’
Personal Effects and Valuables.”  AFRH-G was inconsistently using Form 48, “Personal
Effects Inventory,” to account for all items, but was not using the Form 222,
“Safekeeping Property Inventory,” to account for decedents’ valuables at all.
AFRH-W was not using any of the required forms.


Disposition of Vehicles
AFRH Security Chiefs at both facilities  were not  consistent in documenting the
search for and the disposition of residents’ vehicles, as stipulated by AFRH SOPs.


Poor Record Keeping and Scattered Documentation
AFRH personnel involved in the disposition of AFRH decedents’ effects and
estates were not adequately documenting and maintaining documentation of all
important activities related to the disposition of decedent personal effects and the
administration of estates.

Records were poorly maintained and scattered across various divisions within
the AFRH.       Additionally, records were unreliable in verifying actions taken when
problematic issues arose.

Although inventory sheets were found in files, AFRH personnel were not certain
about what documents to retain and where these documents were to be kept.
AFRH policies and procedures did not require the retention of documentation
which would verify what occurred during the disposition of effects, including
correspondence with additional beneficiaries not noted in the decedent’s face
sheet, appointee authorization by the executor, acceptable deviations from
normal    procedures,     and   other   documents     which   might   provide   additional
protection.     In addition, AFRH did not designate a central location for storing
documents related to the disposition of deceased AFRH residents’ effects and
estates at either location.     Moreover, AFRH policies did not require employees
to keep record of all actions and results.

At AFRH-G, decedent records were found in Healthcare Services, Resident Services,
and in the Administrative Officer’s office.     At AFRH-W, documentation related to
one case was found in records of multiple departments as well.            An AFRH staff
member was penalized in a civil suit for improper conduct related to the
disposition of a particular AFRH decedent’s estate in the past. At the time of the




                                                                                        DODIG-2014-093 │ 235
Results – Part K



                 inspection, the combination of AFRH personnel actions and poor record keeping
                 placed AFRH at high‑risk for future litigation. Maintaining accurate and complete
                 records is necessary in the future to verify compliance with statutes and to
                 maintain AFRH’s integrity.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 47
                 Armed Forces Retirement Home Chief Operating Officer:

                       a.	   Develop policies that ensure that each facility Administrator
                             implements a standardized centralized record keeping process
                             and policy specific to estate matters.

                 AFRH COO’s Comments
                 AFRH COO concurred with this recommendation.


                 Our Response
                 Management’s comments were partially responsive.             We ask that management
                 describe steps which have been, or will be, taken to satisfy this recommendation. We
                 request an update in response to the final report.

                       b.	   Update directives and standard operating procedures regarding
                             the disposition of decedent’s effects and estates to ensure:

                              (1)	They are complete and do not contradict each other, and

                 AFRH COO’s Comments
                 AFRH COO concurred with this recommendation.


                 Our Response
                 Management’s comments were responsive.  We will request an update on the
                 revision of the noted directives and SOPs at a later date.




236 │ DODIG-2014-093
                                                                                                    Results – Part K



                   (2)	They expand on the documentation requirements needed to
                      verify conduct of all employees in these matters.

AFRH COO’s Comments
AFRH COO concurred, reporting that AFRH Agency Directive 8-8 is currently under
revision and will incorporate, by reference, the Estate Fiduciary Codes of each
facilities jurisdiction.


Our Response
Management’s comments were responsive.  We will request an update on the
revised AFRH Agency Directive 8-8 at a later date.

       c.	     Develop     policies     that    require       each   facility   Administrator     to
               arrange for training and implement other measures to ensure that
               Armed Forces Retirement Home staff involved in the disposition
               of    decedents’    effects     and     the    administration     of    estates   are
               knowledgeable about their roles.

AFRH COO’s Comments
AFRH         COO    concurred,    reporting     that    the    recommendation       was    complete.
AFRH COO stated that the AFRH General Counsel has been tasked with
the responsibility to provide training in estate matters to relevant AFRH
employees. This requirement has been occurring since 2011.


Our Response
Management’s comments were responsive.  We ask that management provide
documentation confirming any training or education of noted staff, in response
to the final report.

       d.	     Develop     policies     to     ensure    that    each    facility     Administrator
               enforces     policies,     develops       specific     performance         indicators,
               and develops a system for tracking compliance with directives
               and standard operating procedures, to include documentation
               of all required actions related to the disposition of decedents’
               effects and estates.




                                                                                                   DODIG-2014-093 │ 237
Results – Part K



                 AFRH COO’s Comments
                 AFRH COO concurred, reporting that AFRH Agency Directive 8-8 addresses this
                 recommendation and is currently under revision.           Policies developed relating
                 to decedents’ effects and estates will be drafted to ensure compliance with
                 24 U.S.C. § 420 (2012) and the Fiduciary codes of the respective jurisdictions of
                 each facility.


                 Our Response
                 Management’s comments were responsive.           We will request an update on the
                 revised AFRH Agency Directive 8-8 at a later date.

                       e.	    Ensure     that   each   facility   Ombudsman      conduct   continuous
                              review of all actions taken and confirms that all records are
                              on file.

                 AFRH COO’s Comments
                 AFRH COO concurred, commenting that current policy requires the Ombudsman
                 maintain an overview of all actions and conduct a quarterly review of
                 actions taken.


                 Our Response
                 Management’s comments were partially responsive.          We believe that the intent
                 of this recommendation was missed. At the time of the inspection, AFRH Agency
                 Directive 8-8 (8), page 10 (2008) required the Ombudsman at each facility to
                 complete this task.      However, DoD IG determined that the Ombudsmen at both
                 locations were not in compliance with this directive and were not maintaining
                 overview of all actions or conducting reviews of actions at the time of the
                 winspection. We will look at this area again in our next inspection.




238 │ DODIG-2014-093
                                                                                             Results – Part K




Observation 48
Lack of Readiness in Probate Matters

Although AFRH-W was performing satisfactorily in probate matters, AFRH-G
employees were unprepared in cases where the retirement home may have a
legal interest as nominated fiduciary, testamentary legatee, escheat legatee, or in
any other legal capacity, as stated in section 420, title 24. United States
Code (24 U.S.C. § 420(b)(1)(C)[2012].

AFRH-G did not have formal training or guidelines on the probate process.
There were no policies that directed AFRH staff in matters related to probate.

As a result, AFRH could be adversely affected in cases where AFRH has a
legal interest.


Discussion
AFRH-W had a satisfactory process in place for administering:

           •	 estates of residents who die intestate,

           •	 estates of decedents whose next of kin cannot be immediately ascertained,

           •	 estates of decedents with wills that indicate the possibility of
             escheating (transferring) all proceeds to AFRH after a 3-year period, and

           •	 estate proceedings where AFRH may be named a beneficiary of
             testamentary gifts or any other legal capacity.

These processes met the provisions of AFRH Agency Directive 8-8 (2008),
section 20, D.C.        Code, and 24 U.S.C. § 420 (2012).          Assurances are provided
by the statutory requirements of District of Columbia code of law, and
enforced     in   the    procedural   requirements      of   the   Superior   Court   of   the
District of Columbia, to ensure transparency and eliminate any nefarious activities.

However, AFRH-G had not yet selected an attorney to act as AFRH-G’s agent
in probate proceedings in which the retirement home may have legal interest.
The AFRH-G Administrative Officer was not knowledgeable about the legal
and procedural requirement of the court in matters where the retirement



                                                                                            DODIG-2014-093 │ 239
Results – Part K



                 home was designated a nominated fiduciary, testamentary legatee, escheat
                 legatee, or had other legal interest in the estate of a decedent.  In addition,
                 neither AFRH-Agency nor AFRH-G had developed guiding policies to assist the
                 AFRH-G Administrative Officer in this regard.

                 Furthermore, Mississippi law differed in many respects from Washington,  D.C.,
                 law.     Although Mississippi code offered several protections for the proper
                 administration of estates, it did not provide a comprehensive description of
                 what was required regarding the disposition of estates of decedents who died
                 intestate, the disposition of wills, and the probate process. Mississippi code of law
                 even conflicted with the statutory requirements of 24 U.S.C. § 420 (2012)
                 regarding which entity the proceeds of an estate may escheat, as specified by
                 Miss. Code Ann. § 89-11-1. Therefore,  AFRH-G must be prepared to meet these
                 legal challenges, if and when they arise.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 48
                 Armed Forces Retirement Home Chief Operating Officer:

                        a.	   Create policies that direct employee conduct in probate matters to
                              ensure the highest level of transparency and protection.

                 AFRH COO’s Comments
                 AFRH COO concurred, commenting that employee conduct in probate matters
                 is addressed in 24 U.S.C. § 420 (2012) and AFRH Agency Directive 8-8, which is
                 currently under revision.


                 Our Response
                 Management’s comments were responsive.          We will request an update on the
                 revised AFRH Agency Directive 8-8 at a later date.




240 │ DODIG-2014-093
                                                                                 Results – Part K



      b.	   Develop policies that ensure that the Armed Forces Retirement
            Home – Gulfport Administrator arranges for training of the
            Armed Forces Retirement Home – Gulfport employees in areas
            related to estate matters in probate cases.

AFRH COO’s Comments
AFRH COO concurred and reported that the recommendation was complete.
The AFRH General Counsel is tasked with the responsibility to provide
training in estate matters to relevant AFRH-G and AFRH-W employees by the
AFRH/COO.       The AFRH/General Counsel delivered training to senior management
and two (2) social workers in February 2011 at a specific meeting regarding
estates and wills.   Training was recently conducted at AFRH-G in February 2014.


Our Response
Management’s comments were responsive.        We ask that the AFRH COO provide a
copy of training documentation in response to the final report.

      c.	   Ensure that the Armed Forces Retirement Home – Gulfport
            Administrator    adopt   the    Armed    Forces   Retirement   Home –
            Washington, D.C. designated attorney as its own or select an
            attorney who meets the specifications dictated in section 420,
            title 24, United States Code.

AFRH COO’s Comments
AFRH COO concurred and reported that AFRH/General Counsel has recently
settled on adesignated attorney to assist with wills and estates for AFRH-G. Prior
to this selection, the AFRH-W designated attorney for wills and estates was
ready to assist with and/or advise on estate matters. Furthermore, a short-list of
attorneys was provided to AFRH-G prior to this selection.


Our Response
Management’s comments were responsive.              We ask that the AFRH COO
provide documentation appointing each designated attorney in response to the
final report.




                                                                                DODIG-2014-093 │ 241
                                                 Results – Part L




Results – Part L
Armed Forces Retirement Home Hotline Activity




                                                DODIG-2014-093 │ 243
Results – Part L




                 Armed Forces Retirement Home
                 Hotline Activity
                 Overall Assessment
                 The DoD IG Inspection Team’s review focused on the quality of completed
                 AFRH IG Hotline inquiries.                       However, the DoD IG Inspection Team did not find
                 any AFRH IG, Federal, or DoD IG quality standards that applied to the AFRH.

                 Therefore, to conduct the quality assurance review (QAR) of completed AFRH  IG
                 inquiries, the DoD IG Inspection Team followed the QAR guidelines in DoD
                 Instruction, 7050.01, “Defense Hotline Program,” December 17, 2007.

                 The DoD IG Inspection Team reviewed all of the internally generated AFRH
                 IG Hotline inquiries completed since the last DoD IG inspection of the AFRH
                 (May 15, 2010 to February 21, 2012, inclusive).                                    The QAR analyzed the quality
                 of the inquiry based on the documentation contained in the completed hotline
                 case file and evaluated the timeliness, independence, objectivity, and overall
                 adequacy of the hotline inquiry.                              The analysis focused on identification of
                 systemic strengths and weaknesses in the manner in which the AFRH IG
                 conducted its inquiries.60


                 Timeliness
                 The time needed for the AFRH IG to complete 11 of the 15 inquiries ranged from
                 1 day to 130 days.                  No standards for timeliness were available in AFRH Agency
                 Directive 1-9, “AFRH Inspector General Program,” June 2, 2009, and none of the
                 case files contained documentation indicating the AFRH IG failed to complete the
                 inquiry in a timely manner.

                 The DoD IG Inspection Team was not able to assess the timeliness of four inquiries
                 (26 percent of the inquiries reviewed) because the AFRH IG complaint intake
                 function failed to document the receipt of the complaints, as required by AFRH
                 Agency Directive 1-9.




                 	60	
                        As used here, the term “inquiry” refers to and is interchangeable with the terms “audit,” “investigation,” “inspection,”
                        “examination,” or any other type of review used to ascertain the facts in response the a DoD Hotline or AFRH IG hotline
                        referral.




244 │ DODIG-2014-093
                                                                                            Results – Part L



Independence and Objectivity
The   DoD IG    Inspection   Team    did   not     find   any   evidence   of   a   lack   of
independence or objectivity on the part of the AFRH IG in the conduct of the
15 inquires reviewed.


Overall Adequacy of the Hotline Inquiries
The DoD IG Inspection Team did not identify any systemic strengths or weakness
in the manner in which the AFRH IG conducted the 15 inquiries reviewed.
Based on the documentation contained in the completed hotline case file and
the timeliness, independence, and objectivity factors, the DoD IG Inspection
Team found the inquiries adequately resolved the matters at issue.  It should
be noted that none of the inquiries addressed complex issues or required
specialized investigative techniques to resolve.




                                                                                           DODIG-2014-093 │ 245
                                                                                    Results – Part L




Observation 49
Lack of AFRH Inspector General Hotline
Implementing Guidance

AFRH Agency Directive 1-9 requires the AFRH IG to issue implementing guidance
for the AFRH Hotline program. At the time of on-site inspection, the implementing
guidance was not in place.

This happened because the AFRH IG did not issue the implementing guidance for
the AFRH Hotline program.

As a result of the lack of the implementing guidance, the AFRH Hotline investigations
could not be evaluated against any AFRH-identified/developed standards.


Recommendations, Management Comments, and
Our Response
Recommendation 49
Armed Forces Retirement Home Chief Operating Officer, ensure the Armed
Forces Retirement Home Inspector General issues implementing guidance
that specifies:

      a.	   Quality   standards   for   the   Armed     Forces   Retirement   Home
            Hotline Program.

Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, but provided no additional comments.


Our Response
Although the COO did not provide comments, we note USD (P&R) comments
to Recommendation 20.a related to the AFRH Hotline stating that, as an
independent agency, and IAW 24 U.S.C., section 411(a), AFRH has legislative
authority to set policy/guidance to meet credible standards for audits and
investigations and will develop policy in this area.  We find those comments
to be responsive.  Accordingly, we find it unnecessary, at the present time, to
address the extent, if any, of their legislative authority.      We will request an
update from the AFRH COO on progress at a later date.


                                                                                   DODIG-2014-093 │ 247
Results – Part L



                       b.	   Procedures to ensure appropriate evaluation and action on all
                             allegations of fraud, waste, abuse, and mismanagement.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, but provided no additional comments.


                 Our Response
                 See “Our Response” to Recommendation 49.a.

                       c.	   Methods to ensure appropriate protection of the identity of sources
                             requesting anonymity or confidentiality.

                 Management Comments
                 The AFRH COO concurred, but provided no additional comments


                 Our Response
                 See “Our Response” to Recommendation 49.a.




248 │ DODIG-2014-093
                             Results – Part M




Results – Part M
Employee Sensing Sessions




                            DODIG-2014-093 │ 249
Results – Part M




                 Employee Sensing Sessions
                 Overall Assessment
                 An employee sensing session is a meeting with a cross section of the employees
                 in group settings, to learn about their opinions and concerns and their
                 recommendations to improve the organization.           Although the DoD IG Inspection
                 Team did not announce any confidentiality protection, no names were provided
                 in the report or to any AFRH official.

                 At    the   AFRH-W   facility,   the   DoD IG   Inspection   Team   intended   for   staff
                 members to voluntarily attend and participate in the sensing sessions.         However,
                 AFRH-W management instructed the staff members to attend the sensing
                 sessions, dividing the sensing session assignments into healthcare, non-healthcare,
                 and middle manager groups.  All eight staff members selected and assigned
                 to the sensing sessions held August 28-31, 2012, attended.          This assignment did
                 not prohibit anyone from attending the AFRH-W sensing session they wanted
                 to attend, despite the prior assignments.  At AFRH-G, the DoD IG Inspection
                 Team emphasized the need for management to encourage staff members to
                 voluntarily participate in the sensing sessions, rather than to assign specific staff
                 members to attend specific sessions.  Four staff members attended the sensing
                 session held on September 11, 2012, and nine staff members attended the
                 sensing session held on September 12, 2012.

                 The DoD IG Inspection Team presents employee complaints/concerns in this
                 section primarily for the knowledge of AFRH management. The DoD IG Inspection
                 Team has made several recommendations in the Medical section (Part A),
                 Human Resources section (Part B), AFRH IG section (Part D), and Senior
                 Management section (Part O) to address the root causes of the employee concerns.


                 Armed Forces Retirement Home – Washington, D.C.,
                 Sensing Session Summary
                 The staff members unanimously expressed the satisfaction they received from
                 working for and with the residents.  They all felt that serving and spending
                 time with the residents was the most rewarding part of their jobs.                   They
                 praised their fellow co-workers for their expertise and dedication to the agency




250 │ DODIG-2014-093
                                                                                            Results – Part M



and the mission.  The staff members were committed to the residents and
reportedly made personal sacrifices that benefited residents and made a difference
in the residents’ lives.  They noted that AFRH-W offered opportunities for
outreach and had established partnerships with the community.

Some members of the group expressed the following concerns:

        •	 AFRH-W was a layered agency with multiple micromanagers and limited
          accessibility to management, and suffered from lack of confidentiality
          and overt personnel favoritism. (See Part O, Senior Management
          Section, Observation        54 – “Organizational Climate – Fear of Reprisal.”)

        •	 Communication between management and employees was poor—
          staff members were often not aware of impending changes or of
          any plans for implementation of these changes. (See Part O, Senior
          Management Section, Observation 54 – “Organizational Climate – Fear
          of Reprisal.”)

        •	 They did not know how to improve their performance due to lack
          of sufficient training and guidance from management. (See Part O,
          Senior Management Section, Observation 56 – “Lack of Support for
          Employee-Oriented Programs.”)

        •	 The   AFRH-W       was     under-staffed,    resulting   in   over-worked    staff
          members,         with   frequent     unplanned     assignment     of   additional
          duties to the employees. (See Part O, Senior Management Section,
          Observation 51 – “Hiring of Insufficiently Competent Personnel.”)

        •	 Staff members felt they were stuck at low-paying jobs.            They also felt
          that they did not receive the benefits other Government employees
          receive, such as flex hours, professional development training, and
          opportunities for professional growth and promotion. (See Part O,
          Senior Management Section, Observation 56 – “Lack of Support for
          Employee‑Oriented          Programs.”  Both    AFRH       management   and     the
          DoD IG Team medical inspectors stated that CNAs cannot be promoted
          to a higher grade unless they obtain the next level of nursing certificate.)

        •	 Staff members complained about unscheduled mandatory overtime
          work on the night shift.           They also complained about not receiving
          any    meals      during    such   unscheduled     mandatory     overtime    work.
          (See Part O, Senior Management Section, Observation 56 – “Lack of




                                                                                          DODIG-2014-093 │ 251
Results – Part M



                                Support for Employee-Oriented Programs.” We discussed this with
                                the AFRH-W Administrator and he stated that such mandatory
                                overtime to fill in for last minute no-show is a normal practice in the
                                nursing profession. Our medical inspectors also had a similar opinion.)

                           •	 Staff members felt they were treated poorly by management and
                                they were afraid to take their complaints to management because of
                                perceived probability of management reprisal.  Also, they believed
                                that there were one or more employees among them who were
                                informants for the management. (See Part O, Senior Management
                                Section, Observation 54 - “Organizational Climate – Fear of Reprisal.”)

                 Many AFRH-W staff members who met with the DoD IG Inspection Team
                 stated that all the above factors contributed to their diminished incentive
                 to    remain      employed    at   the   AFRH-W.      (See    Part     O,    Senior   Management
                 Section, Observation 54 – “Organizational Climate – Fear of Reprisal.”)

                 In    addition,    some    staff   members   stated    that     they    did     not   believe   that
                 implementing a one-model management concept for both the AFRH-W and
                 AFRH-G facilities was reasonable.  They stated that the locations, cultures,
                 residents, and part of internal organizational structure of the two facilities
                 were different.  However, the DoD IG Inspection Team believes that there
                 was enough flexibility in the one-model management concept to address
                 those differences.


                 Armed Forces Retirement Home – Gulfport Sensing
                 Session Summary
                 There was unanimous agreement among staff members that the residents
                 were the reason why they enjoyed working at the AFRH-G.                                  The staff
                 members also enjoyed working with their co-workers, whom they praised
                 for    their    devotion     and   expertise.  Some     staff    members        noted    that   the
                 PCC concept was a reason why they would approve of their parents living at the
                 Armed Forces Retirement Home, if they had the option.                       The overall consensus
                 was that the staff members believed it was an honor to serve and work
                 with the veterans.




252 │ DODIG-2014-093
                                                                                       Results – Part M



Some staff members expressed the following concerns:

        •	 They believed that the one-model management concept did not work
          for both facilities.  The residents, culture, location, and facilities
          were different, making it difficult to make the two facilities function
          under one system. (As previously noted, the DoD IG Inspection Team
          believes that there is enough flexibility in the one-model management
          concept to address those differences.)

        •	 They expressed dissatisfaction with the response time and quality
          of assistance from the AFRH agency-level personnel.            The functional
          chiefs at the agency level did not respond to their inquiries in a timely
          manner and, sometimes, did not respond at all.             They felt that the
          agency-level functional chiefs gave less importance to AFRH-G, as
          it is out of sight.  The agency-level administration needed a Chief
          of Campus Operations with whom the AFRH-G Chief of Campus
          Operations could coordinate facility issues. (DoD IG Inspection Team
          discussed these issues with the AFRH management during out-brief.
          AFRH management had already created and filled the position of
          Agency Chief of Campus Operations.         However, there is a strong need
          for   fast-responding   IT   technical   assistance   to   increase   employee
          productivity and avoid employee frustration.)

        •	 AFRH-G staff members believed that AFRH-G contract employees were
          not present on-site like the regular Government employees.               Some
          staff members felt that this was not fair to the Government employees
          or to the residents who needed continuity. (See Part A, Medical
          Section, Observation 13 – “HealthCare Services at AFRH-G.”            The new
          AFRH-G started operations with most employees working as contract
          employees.   AFRH-G is in the process of converting most of them into
          Government civil service employees. Once the conversion is completed
          this issue should be eliminated.)




                                                                                      DODIG-2014-093 │ 253
                                            Results – Part N




Results – Part N
Confidential Feedback from the Residents
and Employees




                                           DODIG-2014-093 │ 255
Results – Part N




                 Confidential Feedback from the Residents
                 and Employees
                 Overall Assessment
                 The DoD IG Inspection Team conducted individual confidential complaint sessions
                 in    pre‑designated   areas   and   during   unplanned   encounters   with   residents,
                 staff, and other persons throughout the inspections.  Confidential concerns,
                 complaints, and observations  were also received by the DoD IG Inspection Team
                 via telephone,  anonymously hand delivered documents, and postal mail.              The
                 process continued even after the on-site inspection, as some employees had more
                 complaints to submit.      This feedback collection process was different from the
                 employee sensing sessions in that the DoD IG Inspection Team announced the
                 non-attributable character for these complaints.

                 Confidential feedback sessions were held in a pre-designated area at the
                 Sheridan Building  of the AFRH-W facility during the week of August  27–31,  2012,
                 and in a pre‑designated room of the AFRH-G facility during the week of
                 September 11–13, 2012.         The DoD IG Inspection Team recorded the concerns,
                 complaints, and observations of AFRH residents, staff, and other interested
                 persons.    This information was documented on “IG Intake Forms” and forwarded
                 to the DoD IG Inspection Team focus area leads if necessary.  In addition,
                 DoD IG Inspection Team members were provided IG intake forms and asked
                 to record the concerns, complaints, and observations of residents, staff, and
                 other persons who approached them outside of the officially designated room
                 during the course of their inspection.

                 In addition to the residents themselves, the DoD IG Inspection Team also
                 received complaints from the relatives of residents who brought their concerns
                 directly on-site to the DoD IG Confidential Feedback office.

                 The DoD IG Inspection Team is presenting the information in this section
                 primarily for the knowledge of AFRH management.  The Inspection Team
                 has made several recommendations in the Medical section, Part A, and the
                 Senior Management section, Part O, to address the root causes of these
                 resident complaints.




256 │ DODIG-2014-093
                                                                                                      Results – Part N



The    DoD IG     Inspection    Team       received   60   IG   intake      forms      with     various
concerns, complaints, requests, proposals, and observations during the course
of the inspection.      Contents of all intake forms were reviewed and considered
in development of the observations in this report.

DoD IG personnel manning the DoD IG on-site Confidential Feedback office at
the AFRH facilities noted the complaints, concerns, and suggestions from the
AFRH residents and staff.  Many of these complaints were mostly opinions
of individuals and often from a single person.  In most cases the DoD  IG
Inspection Team asked a series of follow-up questions to obtain additional
information and to determine if a complaint had sufficient information to take
further action.    Some of the complaints required thorough investigation and were
forwarded to the DoD IG’s Administrative Investigations office.

Even though residents came to the Confidential Feedback office with a number
of complaints, most of the same residents also indicated that they loved
the retirement home and would not want to live at any other place.

In    addition    to   the   complaints       forwarded    to   the      DoD IG        Administrative
Investigations office, the following complaints are noteworthy.

         •	 An attending nurse did not check soil bags in a timely manner or
            regularly empty bedpans.  On one occasion, a resident’s soil bag
            broke all over the resident. (This issue is attributable to the hiring
            of insufficiently competent staff and the shortage of staff as noted
            in Part O, Senior Management Section, Observation 51 – “Hiring of
            Insufficiently Competent Personnel.”)

         •	 The heavy accents of staff created communication barriers.

         •	 An     attending     nurse’s      harsh   treatment       led    to     the       rupturing
            and    bleeding     of   the     complaining    resident’s      scrotum       skin.   (The
            failure of AFRH management to take disciplinary actions against
            staff is addressed by Part A, Medical Section Observation 12 –
            “Healthcare Services at AFRH-W” and the hiring of insufficiently
            competent staff and the shortage of staff as noted in Part O, Senior
            Management         Section,    Observation     51   –   “Hiring       of    Insufficiently
            Competent Personnel” contributed to this issue.)




                                                                                                     DODIG-2014-093 │ 257
Results – Part N



                       •	 A resident and relative of a resident alleged that residents were
                         sometimes neglected.           The resident stated that he was sometimes left
                         on the toilet.        In addition, the relative of the resident stated that a
                         charge    nurse       was    uncommunicative        and      inflexible        in     addressing
                         medical issues of their resident family member and threatened the
                         resident if he reported the offending staff member. (The shortage
                         of staff and the failure of AFRH management to take disciplinary
                         actions     against    staff   as    addressed     by       Part    A,   Medical          Section,
                         Observation 12 – “Healthcare Services at AFRH-W” and the hiring of
                         insufficiently competent staff and the shortage of staff as noted in
                         Part O, Senior Management Section, Observation 51 – “Hiring of
                         Insufficiently Competent Personnel” contributed to this issue.)

                       •	 On   two     occasions,       two     residents     were          provided         the    wrong
                         medication and medication dosages by attending nurse(s) and the
                         attending nurse either failed to recognize errors or allegedly lied
                         about giving the wrong medication.                 In another instance, a resident
                         complained      that     an     attending    nurse      did        not   administer          pain
                         medication in a timely manner, resulting in diminished effectiveness
                         of pain management. (This issue is covered in Part A, Medical section,
                         Observation 1 – “AFRH Agency and Facility Policies on Pain Medication,”
                         Part A,      Medical section, Observation 12 – “Healthcare Services at
                         AFRH-W” and Part A,             Medical section, Observation 13 – “Healthcare
                         Services at AFRH-G.”)

                       •	 The relative of a resident also noted her observation of overburdened
                         and frustrated staff. (This issue is raised in the in Part O, Senior
                         Management        Section,     Observation     58       –    “Hiring      of        Insufficiently
                         Competent Personnel.”)              The DoD IG Inspection Team also received
                         some positive feedback from the same relative of the resident about
                         a number of dedicated healthcare staff members.




258 │ DODIG-2014-093
                     Results – Part O




Results – Part O
Senior Management




                    DODIG-2014-093 │ 259
Results – Part O




                 Senior Management
                 Overall Assessment
                 As part of the DoD IG inspection of the AFRH, the DoD IG Inspection Team
                 addressed AFRH Senior Management program elements established by the
                 “Armed Forces Retirement Home Act of 1991,” November 15, 1990, as amended
                 by Public Law 112-81, “National Defense Authorization Act for FY 2012,”
                 December 31, 2011.          The assessment of AFRH Senior Management program
                 included a review of the qualifications, duties, and responsibilities of the following
                 AFRH officials:

                         •	 AFRH Chief Operating Officer,

                         •	 AFRH Inspector General,

                         •	 AFRH-W Administrator,

                         •	 AFRH-G Administrator,

                         •	 AFRH-W Ombudsman, and

                         •	 AFRH-G Ombudsman.

                 The DoD IG Inspection Team also reviewed the roles, functions, and effectiveness
                 of the AFRH Advisory Council and the Deputy Director of the DHA, in the role as
                 the AFRH SMA.


                 Armed Forces Retirement Home Chief Operating Officer
                 According to section 415(a), title 24, United States Code (24 U.S.C. § 415(a) [2012])
                 the Secretary of Defense must appoint an appropriately qualified and experienced
                 COO for the AFRH possessing the following:

                       (1)	 qualifications appropriate for a continuing care retirement community
                            professional,

                       (2)	 appropriate leadership and management skills, and

                       (3)	 experience      and   expertise   in    the   operation   and   management      of
                            retirement      homes and     the      provision   of   long-term   medical   care
                            for older persons.




260 │ DODIG-2014-093
                                                                                                            Results – Part O



The COO was accountable to, and must report to, the Secretary of Defense
on matters pertaining to the overall direction, operation, and management of
the AFRH and the administration of its two facilities – AFRH-W and AFRH-G.
The AFRH COO’s responsibilities, as stipulated in section 415(c)(2), title 24,
United States Code (24 U.S.C. § 415(c)(2) [2012]), include:

        (1)	 supervising the operation and management of the AFRH-W and
                AFRH-G facilities,

        (2)	 issuing and ensuring compliance with appropriate rules and regulations
                for the operation of the retirement home,

        (3)	 visiting      and     inspecting    the     operation   of      the        facilities   of   the
                retirement home,

        (4)	 performing          periodic    audits    of   the   accounts         of     the    retirement
                home, and

        (5)	 establishing any advisory bodies considered to be necessary.

To assist in the performance of these duties and in the overall administration
of      the     retirement       home,      section    415(e)(1),    title     24,         United     States
Code (24 U.S.C. § 415(e)(1) [2012]) gave the AFRH COO the authority to
appoint a staff subject to the approval of the Secretary of Defense.

In addition to setting the COO’s prescribed pay, statutory guidance required
the Secretary of Defense to evaluate the COO’s performance at least once every
year.     By statute, the Secretary of Defense has the authority to prescribe and
award the COO an annual performance-based bonus. However, the basic pay and
performance-based bonuses of the COO must not have exceeded the basic pay
for Level I of the Executive Schedule under section 5312 of title 5.

The COO was allowed, by provision of section 415(f), title 24, United States
Code (24 U.S.C. § 415(f) [2012]), to accept gifts of money, property, and
facilities on behalf of the AFRH, which he was required to deposit in the AFRH
Trust Fund.

The incumbent AFRH COO was officially appointed to the COO position on
September 25, 2011.              A review of the incumbent’s resume indicated he was
qualified for the position, as required in section 415, title 24, United States
Code      (24     U.S.C.     §   415     [2012]).       Further   review      of        the     incumbent’s
personnel action records also showed that his compensation was within



                                                                                                           DODIG-2014-093 │ 261
Results – Part O



                 established limits, as required in section 415(d)(3), title 24, United States
                 Code (24 U.S.C. § 415(d)(3) [2012]).           In addition, the Office of the Secretary
                 of Defense issued a Performance Evaluation report for the AFRH COO for the
                 performance period of September 2010 through September 2011 along with a
                 letter of a performance award. Both documents were issued on December 27, 2011,
                 in compliance with 24 U.S.C. § 415 (2012).


                 Armed Forces Retirement Home Inspector General
                 The   AFRH     IG      was   appointed   to   her   position   by   the   AFRH   COO   on
                 May 14, 2012, while simultaneously holding the position of AFRH Public
                 Affairs Officer.  At the time of the Inspection, the AFRH IG position was being
                 converted to a full-time position and realigned as a special staff position under
                 the COO.  The AFRH IG was not a member of CIGIE and had neither statutory
                 authority nor independence.  The DoD IG Inspection Team interviewed the
                 incumbent AFRH IG, former AFRH IG, and COO to assess AFRH IG operations
                 against the criteria for Federal Offices of Inspectors General.  Observations and
                 recommendations pertaining to the AFRH IG are located in section Part D, titled, “Armed
                 Forces Retirement Home Inspector General.”


                 Armed Forces Retirement Home Administrators
                 Section 417(a), title 24, United States Code (24 U.S.C. § 417(a) [2012]) states,
                 in part, that the Secretary of Defense shall appoint an Administrator and an
                 Ombudsman for each facility of the AFRH.

                 The regulation stated that the Administrator must be either:  (1) a civilian
                 with experience in continuing care retirement community, or (2) an active-duty
                 member of the Armed Forces, serving in a grade below brigadier general or
                 rear admiral (lower half).       Additionally, the Administrator of each facility must
                 either be certified as a retirement facilities director at the time of appointment
                 or be pursuing a course of study to receive certification as a retirement
                 facilities director.    The Administrator of each facility was responsible for the
                 daily operations of the facilities as required by law.         Subject to the approval of
                 the COO, section 417(f), title 24, United States Code (24 U.S.C. § 417(f)  [2012])
                 gave each Administrator the authority to appoint and prescribe the pay
                 of such principal staff deemed appropriate to assist in the operation of
                 each AFRH facility.  As such, section 417(g), title 24, United States Code
                 (24 U.S.C. § 417a [2012]) required the AFRH COO to conduct an annual
                 evaluation of each AFRH facility Administrator and to submit any corresponding
                 recommendations to the Secretary of Defense.


262 │ DODIG-2014-093
                                                                                                       Results – Part O



The Administrator of AFRH-W was appointed on March 17, 2008, for a period
of three years.     A review of the incumbent’s resume indicated he was qualified
for the position, in accordance with statutory requirements set forth in
section 417, title 24, United States Code (24 U.S.C. § 417 [2012]).  Effective as
of March 17, 2011, the AFRH-W Administrator received an extension of
appointment, not to exceed March 16, 2013.                    As part of his duties, the AFRH-W
Administrator held formal, weekly meetings with all functional Chiefs.                               The
AFRH-W Administrator met with each Chief individually, every other day and
whenever an issue arose.           The Administrator spent the majority of his time at
the LaGarde Building to ensure the smooth operation of its medical units in
Healthcare Services. In addition, the incumbent has maintained AFRH-W operations
through major events including the 2011 earthquake.                      On February 13, 2012,
the AFRH COO signed off on the performance evaluation of the Administrator
for AFRH-W for calendar year 2011.

The current Administrator of AFRH-G was appointed to the position on
July 1, 2012, to serve a 3-year term.               However, due to administrative issues,
the AFRH-G Administrator’s appointment letter was issued at a later date
by the OUSD  (P&R).         A review of the incumbent’s resume indicated he met
the   statutory    qualification    requirements         of     the   section    417(b),     title   24,
United   States    Code    (24     U.S.C.   §   417(b)        [2012]).    Although     the     AFRH-G
Administrator was not certified as a retirement facilities director, he was
pursuing a course of study to become certified as such, satisfying the
qualification requirements provided by section 417(b)(3), title 24, United States
Code (24 U.S.C. § 417(b)(3) [2012]).The deadline for completing the course
is February 28, 2015. At the time of the inspection, the AFRH-G Administrator
had not received a performance evaluation because he had only occupied
his position for 2 months.


Armed Forces Retirement Home Ombudsmen
Statutory guidelines stipulated in section 417(d)(1)(A), title 24, United States
Code (24 U.S.C. § 417(d)(1)(A) [2012]) required the Ombudsman of each
AFRH facility to be a member or former member of the Armed Forces,
serving on active duty or retired, in the grade of Sergeant Major, Master Chief
Petty Officer, or Chief Master Sergeant.  The Ombudsman must also have
had   leadership     and   management           skills   appropriate       for   the   Ombudsman
position.  According to statutory guidelines, the appointed individual must
serve in the capacity of an Ombudsman for the AFRH residents, while




                                                                                                      DODIG-2014-093 │ 263
Results – Part O



                 performing any other assigned duty required by the Administrator.        In addition,
                 section 417(e), title 24, United States Code (24 U.S.C. § 417(e) [2012])
                 allowed the Ombudsman to provide information to the Administrator, the
                 COO, the SMA, the DoD IG, and the USD (P&R) to fulfill the requirements
                 of the Ombudsman position.

                 The current Ombudsman of AFRH-W was appointed on September 22, 2004.               A
                 review of the incumbent’s resume indicated that he was qualified for the
                 position, in accordance with 24 U.S.C. § 417(d)(1)(A)(2012).      In addition to his
                 responsibilities as the AFRH-W Ombudsman, the incumbent had been serving as an
                 acting AFRH Agency Ombudsman for the AFRH since June 2012.  Although
                 not legislatively mandated, the COO created the new AFRH Agency Ombudsman
                 position  (GS-14) so that issues that remained unresolved at the facility level could
                 be addressed at the agency level. According to the current AFRH COO, there were
                 no set procedures for the Ombudsman to relay information to the DoD IG, the
                 SMA, or the USD (P&R).     In the past, issues unresolved at the facility level were
                 brought directly to the AFRH COO for resolution.      Since there are no residents
                 at the agency level, the DoD IG Inspection Team questions the utility and cost
                 effectiveness of having an agency-level Ombudsman. At the time of the inspection,
                 the AFRH Acting Agency Ombudsman stated that he planned to apply for the
                 Agency Ombudsman position.       However, the position had not been announced.

                 The Ombudsman of AFRH-G was appointed on September 22, 2011.  The
                 incumbent was an active duty Master Chief.  The incumbent was qualified
                 for the position of Ombudsman, in accordance with 24 U.S.C. § 417 (d)(1)(A)
                 (2012) requirements. The AFRH-G Ombudsman had orders from the Navy for
                 assignment to AFRH-G as the Ombudsman, but not an appointment letter from
                 the Secretary of Defense. According to a representative from the OUSD (P&R),
                 the orders from the Navy eliminated the need for an appointment letter from
                 the Secretary of Defense.




264 │ DODIG-2014-093
                                                                                      Results – Part O



Armed Forces Retirement Home Advisory Council
Section 416, title 24, United States Code (24 U.S.C. § 416 [2012]) established
the AFRH Advisory Council (the Advisory Council) to serve the interest of both
facilities of the retirement home.         As specified by this statute, the Advisory
Council shall:

        (1)	 provide guidance and recommendations on the administration of AFRH
              and the quality of care provided to residents;

        (2)	 submit a summarized report to the Secretary of Defense, at least once
              annually, containing both its activities conducted over the preceding
              year and any observations and/or recommendations pertaining to the
              retirement home; and

        (3)	 make recommendations to the Inspector General of the Department of
              Defense regarding issues that the Inspector General should investigate.

According to section 416(c)(3), title 24, United States Code (24 U.S.C. § 416(c)(3)
[2012]), the Advisory Council was required to have at least 15 members.
Each member must be a full or part-time Federal employee or a member of the
Armed Forces.       Members are also required to be either:      (1) designated by the
Secretary of Defense, or (2) in consultation with the Secretary of Defense,
designated by the head of the Federal department or agency that employed the
individual.    The Advisory Council must allow participation by representatives of
the RAC from each AFRH facility.          From among the members of the Advisory
Council, the Secretary of Defense was required to select a Chairperson to lead
meetings for the AFRH Advisory Council.          In addition, the Administrator of each
facility was required to act as a nonvoting member of the Advisory Council.

With a few exceptions, Advisory Council members are required to serve a
maximum of 2 years, unless the Secretary of Defense terminates the member
before the expiration of their term or designates a member to serve an additional
term.     A member could serve on the Advisory Council for as long as they
remained in a position that required them to provide service as a member of the
Advisory Council.      In addition, unless terminated by the Secretary of Defense, a
member can remain in their position on the Advisory Council past his or her
expiration date until a successor is designated.




                                                                                     DODIG-2014-093 │ 265
Results – Part O



                 A member of the Advisory Council must be provided a stipend consistent with
                 the daily Government consultant fee and travel expenses, unless he or she is a
                 member of the Armed Forces on active duty or a full-time officer/employee of
                 the United States.

                 At the time of the DoD IG inspection, the AFRH Advisory Council consisted
                 of     21    members,       (including       the    Administrators     and   RAC      Chairpersons
                 from    both     facilities),   satisfying    the    provisions   of   24    U.S.C.   §   416(c)(3)
                 (2012).       Of the 21 current members, the Secretary of Defense appointed
                 14 Advisory Council members, who all satisfied the qualification requirements
                 of 24 U.S.C. § 416(c)(3)(2012).  In addition, three representatives from DHA
                 held membership on the AFRH Advisory Council:

                             •	 the Deputy Director of DHA,

                             •	 the DHA Executive Officer, and

                             •	 the DHA Chief of Clinical Quality.

                 However, AFRH had not satisfied the requirements of 24 U.S.C. § 416(c)(3)
                 (2012) in filling all mandatory positions.                 The senior representative of the
                 Chief Personnel Officer of the Armed Forces member position remained vacant
                 and had been since at least May 2011.                    The Advisory Council, according to
                 the AFRH COO, had not filled the Chief Personnel Officer position because
                 [the Council] had not found anyone to fill the function of the position, which
                 required a specific skill set.

                 According to the AFRH COO, because all of the Advisory Council members were
                 military service members, they did not receive salaries, but were compensated
                 with travel reimbursements. These actions complied with the provisions set forth
                 in section 416(f)(1), title 24, United States Code (24 U.S.C. § 416(f)(1) [2012]).

                 The Advisory Council, according to the AFRH COO, advised him on issues
                 concerning the retirement home, with the exception of issues pertaining
                 to investments.


                 Armed Forces Retirement Home Senior Medical Advisor
                 In accordance with section 413a(a)(1), title 24, United States Code (24 U.S.C.
                 § 413a(a)  (1) [2012]), the Secretary of Defense appointed the Deputy Director
                 of DHA to serve as AFRH SMA.                   The current SMA took over the position of
                 Deputy Director of DHA and assumed the role of SMA during October 2011.



266 │ DODIG-2014-093
                                                                                        Results – Part O



The SMA’s primary responsibility was to provide advice to the Secretary of
Defense, USD (P&R), the AFRH COO, and the AFRH Advisory Council on issues
concerning the direction and oversight of:

      (1)	 medical administrative matters at each facility of the retirement
           home, and

      (2)	 the provision of medical care, preventive mental health, and dental
           care services at each facility of the retirement home.

Specifically, section 413a(c), title 24, United States Code (24 U.S.C. § 413a(c)
[2012]) required the SMA to:

      (1)	 ensure the timely availability of acute medical, mental health, and dental
           care to residents not offered by the facilities of the retirement home;

      (2)	 ensure AFRH compliance with current accreditation standards or
           any   applicable    healthcare    standards    and   requirements,   including
           requirements identified in the DoD IG inspection reports;

      (3)	 periodically visit each AFRH facility to review:

             a.	 medical facilities, operations, records, and reports,

             b.	 quality of care provided to residents,

             c.	 inspections and audits to ensure that appropriate corrective
                 actions have occurred; and

      (4)	 report on findings and recommendations developed as a result of
           each review conducted under paragraph (3) to the COO, the Advisory
           Council and the USD(P&R.)

In preparation for this inspection, the DoD IG Inspection Team conducted a
background    and    inspection    intent    briefing    with   the   current   SMA   on
June 13, 2012.      During the meeting, the DoD IG Inspection Team advised the
SMA on issues/areas to be inspected and addressed items to be clarified and/or
included in the inspection.

On October 11, 2012, the DoD IG Inspection Team conducted an interview with
the SMA to assess compliance with requirements of 24 U.S.C. § 413a (2012),
specifically related to delegated responsibilities and duties. The DoD IG Inspection
Team also interviewed the AFRH COO to assess the SMA’s interaction with
the AFRH COO.



                                                                                       DODIG-2014-093 │ 267
Results – Part O



                 Observations
                 The DoD IG Inspection Team’s observations about AFRH Senior Management were
                 based on interviewing key personnel and the following additional factors:

                            (a)	    assessment of AFRH medical operations by the DoD IG Inspection
                                    Team medical inspectors (Part A of this report),

                            (b)	    follow-up inquiries by the DoD IG Inspection Team HR inspector
                                    (Part B of this report),

                            (c)	    feedback from employee sensing sessions and on-site DoD IG
                                    confidential feedback sessions (Part M and Part N of this report),

                            (d)	    communication with the BPD, and

                            (e)	    follow-up inquiries by the DoD IG Inspection Team financial inspectors.

                 Please refer to the Part A, Part B, Part M, and Part N of this report for detailed
                 discussions on various issues that relate to the performance of the Senior Management
                 of AFRH.

                 The DoD IG Inspection Team identified multiple deficiencies in the management
                 of AFRH, particularly in the area of medical operations (Part A).  These
                 deficiencies include, but are not limited to:

                          •	 lack of clear guidance, directives, SOPs at all levels of AFRH,

                          •	 lack of competent personnel,

                          •	 lack of disciplinary actions,

                          •	 lack of employee-oriented programs,

                          •	 lack of compliant SOPs and directives, and

                          •	 lack of detailed guidance from the OUSD (P&R) to the AFRH SMA and
                               the AFRH COO.

                 All   these       deficiencies   were   interrelated    and   impacted   each    other,    most
                 notably with respect to the quality of medical care and medical operations.
                 Major   observations        and    corresponding       recommendations   are    listed    below.




268 │ DODIG-2014-093
                                                                                                  Results – Part O




Observation 50
DoD Instruction 1000.28 is Out of Date

DoD      Instruction     1000.28,          “Armed          Forces        Retirement        Home,”
February  1,  2010, did not address the amendments to the AFRH Act of 1991
introduced by Public Law 112-81.

This occurred because USD (P&R) did not incorporate the latest changes in the law
into the DoD Instruction 1000.28.

This resulted in confusion and non-compliance with Public Law 112-81, both for
DoD and the AFRH.


Discussion
DoD    Instruction   1000.28   was       issued    prior    to    the     amendments       to   the
AFRH Act of 1991, by Public Law 112-81.                There were specific items in the
DoD    Instruction   1000.28   which      differed    from       the    latest   version   of   the
law.   There were also specific new requirements in the law, which were not
included in the DoD Instruction 1000.28.              In addition, items in the existing
DoD Instruction 1000.28 that referred directly to Chapter 10, title 24, United States
Code (24 U.S.C. [2012]) or specific section(s) of 24 U.S.C. Chapter 10 (Sub‑Chapter  I),
without reference to amendments by Public Law 112‑81, could lead to confusion
or to conflicting guidance because 24 U.S.C. Chapter 10 (Sub-Chapter I) had
not been officially updated to codify the amendments by Public Law 112-81.

In addition, the following new article, 24 U.S.C. § 411 (d)(3) (2012), created
by the Public Law 112-81 amendments to the AFRH Act of 1991, states that:

           The   administration     of    the     Retirement      Home,     including
           administration for the provision of healthcare and medical care
           for residents, shall remain under the control and administration
           of the Secretary of Defense.




                                                                                                 DODIG-2014-093 │ 269
Results – Part O



                 DoD Instruction 1000.28 did not reflect this important change that emphasized
                 control of AFRH’s healthcare and medical operations by the Secretary of Defense.  At
                 the time of the inspection, the DoD IG Inspection Team did not see evidence
                 of any actions by the OUSD (P&R) to increase the degree of control by the
                 Secretary of Defense, particularly in the area of medical operations. OUSD (P&R)
                 should have identified DoD policies, regulations, and guidance that are applicable
                 to AFRH operations and should have required AFRH to follow those policies,
                 regulations, and guidance as recommended in the 2010 DoD IG Inspection report
                 (Recommendation #A-6, on page 16).

                 In a related area, the USD (P&R) and the Deputy Director of DHA (SMA to
                 AFRH) did not comply with 24 U.S.C. § (c)(2) (2012), which stated that,
                 in carrying out the responsibilities set forth in subsection (b), the Senior
                 Medical Advisor shall:

                              Ensure compliance by the facilities of the Retirement Home
                              with accreditation standards, applicable healthcare standards of
                              the Department of Veterans Affairs (VA), or any other applicable
                              healthcare standards and requirements (including requirements
                              identified in applicable reports of the Inspector General of the
                              Department of Defense).

                 The OUSD (P&R) should have required AFRH to follow the VA/DoD CPGs and
                 healthcare standards of the VA, as they would have significantly improved the medical
                 care at the AFRH facilities.

                 In several instances, the existing DoD Instruction 1000.28 referred to Local
                 Boards of Trustees (one for each of the AFRH facilities) and, in section 5 of
                 enclosure 2, provided detailed information about the features of the Local
                 Boards of Trustees, although Public Law 112-81 amendments replaced the two
                 Local Boards of Trustees with a single AFRH Advisory Council.

                 Duties of the SMA and requirements for the DoD IG inspection also were changed
                 by Public Law 112-81 amendments to AFRH Act of 1991.  Specifics provided in
                 the DoD Instruction 1000.28 contradicted certain requirements in the amended
                 AFRH    Act.  In     addition     to   eliminating   the   Deputy    Director   positions    at
                 the   AFRH     facilities   and   changing    the    Associate   Director   position   to   the
                 Ombudsman position, Public Law 112-81 amendments also added the following
                 new paragraph (2) of 24 U.S.C. 417, re-designated subsection (e):




270 │ DODIG-2014-093
                                                                               Results – Part O



           The Ombudsman may provide information to the Administrator,
           the Chief Operating Officer, the Senior Medical Advisor, the
           Inspector General of the Department of Defense, and the
           Under Secretary of Defense for Personnel and Readiness.

In addition to these important changes, there were other amendments to the AFRH
Act of 1991 introduced by Public Law 112-81 which needed to be incorporated
into an updated version of DoD Instruction 1000.28.


Recommendations, Management Comments, and
Our Response
Recommendation 50
Under Secretary of Defense for Personnel and Readiness, update the
Department of Defense Instruction 1000.28 to incorporate the Public
Law 112-81 amendments to the Armed Forces Retirement Home Act.


USD (P&R) Comments
USD (P&R concurred, commenting that DoD Instruction 1000.28 has been
revised, coordinated within USD (P&R), and is in the issuance process for final
edits and formal coordination.


Our Response
Management’s comments were responsive.         We ask that USD (P&R) provide a
copy of the draft DoD Instruction 1000.28 to us in response to the final report.




                                                                              DODIG-2014-093 │ 271
                                                                                            Results – Part O




Observation 51
Hiring of Insufficiently Competent Personnel

As explained in the Medical section observations, a number of senior personnel at
the AFRH Agency and AFRH-W, mostly in the medical operations and performance
improvement areas, were insufficiently competent to run the medical operations
and to develop and implement meaningful PI programs.               In addition, during the
August 2012 inspection, the DoD IG Inspection Team was notified by the
CHS at the Washington facility that two supervisory nursing positions at the
AFRH-W facility were vacant.

A contributing factor was that AFRH management did not open the vacancy
announcements to external candidates.  There were indications that, in two
cases, no vacancy was announced before an internal candidate was promoted
into the vacant position.  In some instances of internal announcement, there
was reportedly only one candidate for the position.  Additionally, the salary
reportedly offered by AFRH management was not sufficient to attract the candidates
with the required qualifications and competency.

This   contributed   to   reduced   quality   of   medical   services,    particularly    for
the residents of the AL unit and the LTC unit (includes the Dementia unit)
in the AFRH-W facility.


Discussion
Based on the observations of the DoD IG Inspection Team’s medical inspectors,
a number of senior medical personnel were determined to be insufficiently
competent for their positions. (See Observation 7 in the Medical section.)

Marginally   competent     senior   medical   leadership     and     nursing   staff     were
contributing to low quality of overall medical care. The situation worsened at the
AFRH-W facility after the DoD IG Inspection Team’s August 2012 field work
as a result of disciplinary action recommended by BPD for a number of
nursing staff and a medical officer for “patient neglect (failure to meet standards of
care).” The BPD recommendations included:




                                                                                           DODIG-2014-093 │ 273
Results – Part O



                           •	 termination of 3 LPNs,

                           •	 14 to 30 days suspension of 21 LPNs and CNAs, and

                           •	 a 14-day suspension of one medical officer. (At AFRH-W there
                                 was     one    other      Medical    Officer   beside     the     CMO,       two      Nurse
                                 Practitioners, one Podiatrist, and one Optometrist (P/T).)

                 If    these     disciplinary     actions    are     implemented,     AFRH-W       facility     will    have
                 even fewer nursing staff to provide the necessary care to the residents.  In
                 addition,       the   DON      at   AFRH-W,       who   was    quite    competent        and     qualified
                 (as    per      the     DoD IG      Inspection      Team    medical     inspectors),       resigned      in
                 January 2013 due to frustration over the situation at the facility.                                     As
                 a     result,     the     CHS       was     having      difficulty     managing      the       healthcare
                 services effectively.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 51
                 Armed Forces Retirement Home Chief Operating Officer:

                           a.	 Offer market salary to attract highly qualified healthcare personnel,
                                 from both internal and external sources, to create competent
                                 senior medical leadership at the AFRH Agency and Armed Forces
                                 Retirement Home-Washington, D.C., and to fill vacant nursing
                                 supervisory positions.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, commenting that AFRH is governed by Title 5 and
                 OPM.     As such, all salaries are set by the GS Pay Tables published annually by
                 OPM.      The AFRH will continue to hire competent senior medical leadership
                 within Title 5 OPM guidelines and dictated salaries.                     As supervisory positions
                 become vacant, AFRH will place priority on hiring these positions within
                 Title 5 OPM guidelines and salaries.




274 │ DODIG-2014-093
                                                                                 Results – Part O



Our Response
Although AFRH Management concurred with the recommendation, the actions
described may not meet intent of the recommendation.  The intent of the
recommendation was that management should discontinue the practice of offering
the lowest allowable (by OPM) step within a GS grade for key health service
positions when making a job offer to a chosen applicant.     Although this may be
in compliance with OPM guidelines, the ultimate outcome is detrimental to the
AFRH residents because it is difficult to get highly qualified health care service
personnel at the lowest allowable step-level for these positions.    The AFRH COO
has the authority to offer a higher step to attract highly qualified healthcare
personnel. Management should also consider the options offered by:

       Title 38 Physician and Dentist Pay (PDP)
       This provides a hybrid pay authority intended to recruit and retain highly
       qualified physicians and dentists by providing a mechanism to compensate
       them at levels comparable to private sector physicians and dentists within
       the same locality.

       Title 38 Nurses and Allied Health Professionals
       This provides higher base pay scales authorized for nurses and allied
       health professionals when necessary to address documented recruitment/
       retention problems and to provide rates that are competitive with the
       relevant labor market.

Management should continue to advertise these positions to external candidates
through various means, such as USAJobs and professional magazines/newspapers.
The positions should be open to all U.S. citizens.     We will look at this area
again in our next inspection.

        b.	 Implement effective professional development programs for the
           current senior medical personnel to rapidly improve their medical
           knowledge and administrative competency. Replace those who fail to
           meet the required knowledge and competency after the completion of
           these programs.




                                                                                DODIG-2014-093 │ 275
Results – Part O



                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, reporting that the recommendation was complete.                         He
                 stated that the DoD IG Inspection Team’s inference that some senior medical
                 personnel at the AFRH were insufficiently or marginally competent was demeaning
                 to the professional qualifications and integrity of these professionals.  He
                 also stated that the AFRH will continue to conduct professional development
                 programs and promote growth for employees.                      The dedicated senior medical
                 professionals of AFRH are considered competent and qualified to perform the duties of
                 their position.


                 Our Response
                 Although AFRH Management concurred with the recommendation, we are not
                 certain they understood the intent of the recommendation. Our medical inspectors
                 interviewed the AFRH senior medical personnel, in addition to reviewing all
                 their credentials (see Observation 7).              We note that credentials and certificates
                 do not guarantee that a healthcare professional will be able to run a
                 complex program effectively and efficiently unless the professional also has a
                 sound footing in administrative/leadership skills.              Senior healthcare professionals
                 must continuously seek to expand their professional and leadership capabilities
                 to keep abreast of the rapidly expanding sphere of knowledge and technology
                 in the area of healthcare.            Based on interviews with senior AFRH healthcare
                 professionals      and     document       review,   DoD IG     medical   inspectors    determined
                 that this was not occurring with regard to senior healthcare professionals
                 at the agency and AFRH-W.             We note that DoD IG medical inspectors developed
                 a     positive    conclusion      about      the    Gulfport    healthcare    leadership.  While
                 we still believe our observations in this area are valid and supportable, we
                 accept management’s analysis of the risk associated with their analysis of the
                 capabilities      of     their   senior     medical     personnel.  No       further   action   is
                 required at this time.




276 │ DODIG-2014-093
                                                                                                   Results – Part O




Observation 52
Senior Medical Advisor Lacked Clear Authority
and Responsibility to Effectively Address Medical
Operations Issues at the Armed Forces
Retirement Home

The SMA was not aware of a number of significant medical operational
issues at AFRH and lacked the authority to decisively intervene in AFRH
management decisions related to medical operations.

This occurred because DoD Instruction 1000.28 did not give the SMA the authority
to go beyond an advisory role, and the SMA did not perform an in-depth inspection
of the AFRH medical operations.

This has contributed to less than optimal medical care at the AFRH.


Discussion
While the SMA was doing an excellent job arranging off-campus medical
services      for   the    residents   by   partnering   with    external     organizations,     he
was     not    aware      of   many    important    medical   issues     at   the      AFRH.  Also,
the USD (P&R), through DoD Instruction 1000.28, did not give the SMA
clear    authority        to   prevent/correct     problems     of    which      the     SMA    was
aware.     Examples of issues requiring the USD (P&R) and SMA attention were:

           •	 the    hiring    of   medical   leadership-level       personnel      on   the   basis
              of length of tenure at, and loyalty to, the AFRH, instead of
              opening the position to external candidates;

           •	 vacant key supervisory nursing positions and marginally competent
              nursing staff at the certified nursing assistant level;

           •	 lack of necessary training for supervisory-level medical personnel
              to keep them current on medical administrative standards;

           •	 frustrated nursing management and nursing staff at the AFRH-W
              facility; and

           •	 cases of serious negligent care of residents.


                                                                                                  DODIG-2014-093 │ 277
Results – Part O



                 The recent SMA was unaware of Recommendation I-2 in the 2010 DoD IG
                 Inspection report that required the SMA’s direct involvement in selecting an
                 accrediting     organization   to   supplement   CARF   accreditation.   Although   the
                 USD (P&R) in its February  18, 2010, management comments stated that “the
                 SMA [was] ...      reviewing this recommendation,” the former SMA did not respond,
                 in writing, to the DoD IG addressing the intent of the recommendation.              Due
                 to the nature of the advisory role to the AFRH (an additional duty for the
                 Deputy Director of DHA), medical operations at AFRH were not getting
                 the necessary oversight by the SMA’s office.

                 Section 411(d)(1), United States Code, states that the COO of the AFRH is
                 the head of the retirement home, and subject to the authority, direction, and
                 control of the Secretary of Defense.             Also, 24 U.S.C. § 411(d)(3) (2012)
                 states that AFRH Administration, including providing healthcare and medical
                 care for residents, shall remain under the control and administration of
                 the Secretary of Defense.

                 However, the USD (P&R), in DoD Instruction 1000.28, did not give the SMA
                 sufficient authority and responsibility for oversight of medical operations at the
                 AFRH facilities.

                 Current medical leadership at AFRH was inadequate, contributing to poor
                 healthcare services, frustrated nursing management, as well as insufficiently
                 competent lower-level nursing staff.       There was a high-risk of “failure to meet
                 standards of care” for the residents, as evidenced by the oral care negligence
                 case, and from other complaints from the residents about alleged negligence by
                 CNAs (see On-Site DoD IG On-site Confidential Feedback Sessions section).

                 DoD Instruction 1000.28 needs to be revised to assign the SMA continuous
                 oversight responsibilities for the medical operations of the AFRH facilities.  
                 The revision should include the following responsibilities:

                          •	 The SMA shall provide sufficient oversight of the medical operations
                               of the AFRH to quickly identify problems with the staff and their
                               services to the residents.

                          •	 The SMA shall play an active role to ensure that the medical
                               leadership at the AFRH (Agency Medical Director, facility CMOs,
                               PI Directors, facility CHS, and facility DONs) is selected in a timely
                               manner, on the basis of qualification and demonstrated competency,
                               rather than length of past affiliation with AFRH (see Observation 7).


278 │ DODIG-2014-093
                                                                                 Results – Part O



        •	 The SMA shall ensure that the facilities have an adequate number of
           qualified and competent (including physical fitness) nursing staff who
           are capable of performing their assigned duties.

        •	 The SMA shall notify the USD (P&R) when the SMA has a disagreement
           with the AFRH COO over management issues affecting medical
           care at the AFRH facilities.


Recommendations, Management Comments, and
Our Response
Recommendation 52
Under Secretary of Defense for Personnel and Readiness, under the
authority given to the Secretary of Defense in section 411(d)(3), title 24,
United States Code, issue a directive-type memorandum for immediate
action, followed by a revision of Department of Defense Instruction 1000.28,
“Armed Forces Retirement Home,” dated February 1, 2010, to provide the
Senior Medical Advisor appropriate authority and responsibility for the
continuous oversight of medical operations of the Armed Forces Retirement
Home to ensure appropriate medical care is provided to the residents.


Management Comments
USD (P&R) non-concurred, noting that statutory language establishes the SMA
requirements, stating that the SMA shall provide advice to the Secretary of
Defense, the USD (P&R), the AFRH COO, and the Advisory Council regarding
the direction and oversight of medical administrative matters, and provision of
medical, and dental care services.        The SMA has no authority over the AFRH.
Moreover, there is no need for additional guidance as 24 U.S.C. § 413a(c)(2)
states that the SMA shall “...ensure compliance by the facilities of the AFRH with
accreditation standards, applicable health care standards of the Department
of Veterans Affairs, or any other health care standards and requirements
(including requirements identified in applicable reports of the Inspector General
of the Department of Defense.”




                                                                                DODIG-2014-093 │ 279
Results – Part O



                 Our Response
                 After evaluating management’s response and noting that USD (P&R) had
                 approved an AFRH oversight plan developed by the SMA, as reported in
                 the   response   to   Recommendation      6.a(2),   we   determined   management’s
                 proposed alternative course of action to be responsive, notwithstanding their
                 non-concurrence. No further action is required.




280 │ DODIG-2014-093
                                                                                           Results – Part O




Observation 53
Lack of Detailed Guidance from Under Secretary
of Defense for Personnel and Readiness Regarding
Applicable Department of Defense Policies
and Standards

The DoD IG Inspection Team observed that the AFRH was following policies and
standards drawn from multiple Government and private sector sources, even
when DoD policies and standards (including applicable VA healthcare standards)
are more appropriate for AFRH.

This happened because the USD (P&R) did not identify the specific DoD policies,
procedures,   and    guidelines    (including    applicable   VA   healthcare     standards)
that were appropriate for AFRH, and did not direct AFRH to follow them.

In some areas, including the medical section, this resulted in standards drawn
from multiple sources that did not contain sufficient rigor in the quality of
care provided and often would not meet corresponding applicable DoD and
VA healthcare standards.


Discussion
Section 411, title 24, United States Code (24 U.S.C. § 411 [2012]) states that:

           The    administration    of    the   Retirement    Home,   including
           administration for the provision of healthcare and medical care
           for residents, shall remain under the control and administration
           of the Secretary of Defense.

Also, 24 U.S.C. § 413a(c)(2) (2012), states that, in carrying out the responsibilities
set forth in subsection (b), the SMA shall:

           Ensure compliance by the facilities of the Retirement
           Home with accreditation standards, applicable healthcare
           standards of the Department of Veterans Affairs, or any
           other applicable healthcare standards and requirements
           (including requirements identified in applicable reports of the
           Inspector General of the Department of Defense).


                                                                                          DODIG-2014-093 │ 281
Results – Part O



                 However, the USD (P&R) did not direct the AFRH to follow applicable DoD
                 instructions and regulations or to implement existing evidence-based clinical
                 practice guidelines, such as the VA/DoD CPG.61

                 Additionally, the 2010 DoD IG Inspection report (Recommendation No. A-7)
                 recommended that the USD (P&R) promulgate all DoD guidance deemed
                 applicable to AFRH.  This did not occur as the USD (P&R) declined to
                 identify         DoD      instructions         and      regulations        applicable        to     the    AFRH,   citing
                 DoD Instruction 1000.28, titled “Armed Forces Retirement Home (AFRH),”
                 February 1, 2010, paragraph 4.b, which states, “The AFRH is not part of the
                 Department of Defense and is not subject to DoD policy and issuances except when
                 expressly made applicable to the AFRH.”                               This USD (P&R) position missed the
                 intent of the recommendation in that the USD (P&R) was supposed to identify the
                 applicable DoD policy and issuances and expressly direct AFRH to follow them.
                 Failure to implement the recommendation in the 2010 DoD IG Inspection
                 report was a significant contributing factor in the currently identified issues.

                 Also, 24 U.S.C. § 413 (c)(2) (2012), as amended by Public Law 112-81, specifies
                 use of applicable VA healthcare standards.                             It should be noted that, as per the
                 DoD IG Inspection Team medical inspectors, VA healthcare standards are more
                 stringent than the national health standards and are more applicable to AFRH.
                 DoD IG Inspection Team medical inspectors concluded that, in order to improve the
                 quality of healthcare at AFRH, applicable VA healthcare standards should be strictly
                 followed.           Not applying applicable VA healthcare standards will be detrimental
                 to the quality of medical care at AFRH.


                 Recommendations, Management Comments, and
                 Our Response
                 Revised Recommendation 53.a
                 Under Secretary of Defense for Personnel and Readiness:

                                a.	 Under        the     authority         given      to     the     Secretary         of   Defense    in
                                    section 411(d)(3), title 24, United States Code, determine what
                                    standards the Armed Forces Retirement Home is following in
                                    areas other than medical and determine whether those standards
                                    are      appropriate           for      the      Armed         Forces           Retirement      Home.


                 	61	
                        VA/DoD Clinical Practice Guidelines available on the Web http://www.healthquality.va.gov/



282 │ DODIG-2014-093
                                                                                              Results – Part O



USD (P&R) Comments
USD (P&R) non-concurred with the original recommendation in the draft report,
which    stated   “…issue   a    directive-type    memorandum       for    immediate    action,
(followed by a revision of Department of Defense Instruction 1000.28, “Armed
Forces   Retirement     Home,”     February   1,    2010)     to   identify    Department    of
Defense instructions, directives, and regulations that could be applicable to
the AFRH, in all areas of operation, and direct AFRH COO to implement them.”
USD (P&R) stated that requiring AFRH to follow DoD/VA instructions/directives/
standards for which they have no input to the content would create risk for
noncompliance with nationally recognized medical standards focused on the population
and organization of the AFRH.


Our Response
Based on these and previous USD (P&R) management comments stating that
AFRH would follow national medical standards/guidelines, and Paragraph d (3)
of the amended 24 U.S.C. § 411 (2012), stating that “The administration of the
Retirement Home, including administration for the provision of health care and
medical care for residents, shall remain under the control and administration
of the Secretary of Defense,” we revised the recommendation to read as
written above.       We ask that the USD (P&R) respond/comment on this revised
recommendation in response to the final report.


Revised Recommendation 53.b
         b.	 Under    the   authority    given     to   the   Secretary       of   Defense   in
           section 411(d)(3), title 24, United States Code, issue a directive‑type
           memorandum           for   immediate     action     (followed      by   a   revision
           of Department of Defense Instruction 1000.28, “Armed Forces
           Retirement Home,” February 1, 2010) to codify the results from
           recommendation 53.a.

USD (P&R) Comments
USD (P&R) non-concurred with the original recommendation in the draft report,
which    stated   “…issue   a    directive-type    memorandum       for    immediate    action,
(followed by a revision of Department of Defense Instruction 1000.28, “Armed
Forces Retirement Home,” February 1, 2010) to identify other Guidance (such
as applicable Department of Veterans Affairs or Military Service guidelines and
standards) where Department of Defense policy is not specific enough or




                                                                                             DODIG-2014-093 │ 283
Results – Part O



                 appropriate for the Armed Forces Retirement Home.  Require the Armed forces
                 Retirement   Home    to     follow/implement   such   guidance.”  USD   (P&R)   stated
                 that requiring AFRH to follow DoD/VA instructions/directives/standards for
                 which they have no input to the content would create risk for noncompliance
                 with national recognized medical standards focused on the population and
                 organization of the AFRH.


                 Our Response
                 Based on management comments, we revised the recommendation to read as
                 written above.   We ask that the USD (P&R) respond/comment on this revised
                 recommendation in response to the final report.




284 │ DODIG-2014-093
                                                                                                   Results – Part O




Observation 54
Organizational Climate – Fear of Reprisal

A number of AFRH employees, including some senior officials, expressed
concerns about the quality of the work environment and fear of management
reprisal.  They     also    complained       about      supposedly    inappropriate   intervention
by the AFRH COO in hiring decisions, for example, not allowing the AFRH-W
Administrator and the AFRH-W CHS to make the hiring decisions to fill
vacant positions.

This occurred because some employees had experienced management actions
that they perceived as reprisal and inappropriate intervention.  Also, some
employees perceived the management environment at AFRH to be unsupportive
of some senior officials, such as the Facility Administrator and CHS.

As a result, AFRH had developed an unacceptable organizational management
climate    and    personnel       relations         problem,    particularly   at   AFRH    Agency
and AFRH-W.


Discussion
The DoD IG Inspection Team received significant negative feedback through
employee    sensing        sessions,      on-site    DoD IG     confidential   feedback    sessions,
on-site interviews, and follow-up communications with senior AFRH officials.

A number of employees (mostly AFRH-W facility nursing staff) expressed their
frustrations about the working environment and management’s treatment of
lower‑level staff.     Employees stated that they had seen cases of past reprisal
against employees who tried to voice opinions critical of management. According
to them, bringing the grievances to the attention of upper management did not
resolve the problems. Employees were allegedly afraid to express their feelings and
opinions about the decisions of upper management, especially regarding the
quality of medical care.        As a result, employee morale was quite low, particularly
among     the     AFRH-W       facility     nursing     staff   and    their   supervisors.  Some
AFRH officials also reported concern about what they perceived as upper
management’s excessive and inappropriate intervention in the hiring process and other
decision making processes.



                                                                                                  DODIG-2014-093 │ 285
Results – Part O



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 54
                 Armed Forces Retirement Home Chief Operating Officer:

                          a.	 Establish an open door policy and host town hall meetings to
                             learn about the concerns of employees.          Acknowledge, record,
                             and respond to grievances and suggestions from the employees.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, but provided no further comments.


                 Our Response
                 Management’s comments were responsive. We will request an update on progress
                 at a later date.

                          b.	 Keep the employees informed of all the corrective actions taken
                             as a result of investigations into past cases of reprisal, unless
                             privacy laws prohibit such communications.

                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, but provided no further comments.


                 Our Response
                 Management’s comments were responsive. We will request an update on progress
                 at a later date.

                          c.	 Share with all the employees, particularly the lower-level staff,
                             the FedView survey results and subsequent actions taken to
                             improve   the   working   conditions   and   organizational   climate.




286 │ DODIG-2014-093
                                                                           Results – Part O



Armed Forces Retirement Home Chief Operating Officer Comments
The AFRH COO concurred, but provided no further comments.


Our Response
Management’s comments were responsive. We will request an update on progress
at a later date.




                                                                          DODIG-2014-093 │ 287
                                                                             Results – Part O




Observation 55
Current Chief Operating Officer Also Effectively Holding
the Combined Position of Deputy Chief Operating
Officer/Chief Financial Officer

The combined Deputy COO/CFO position had been vacant for more than a
year, with the current COO performing those duties.

This has occurred because the current COO had held the combined Deputy
COO/CFO position previously and, after becoming the AFRH COO, he did not
believe that filling the combined Deputy COO/CFO position was a priority.

Consequently, some AFRH employees perceived this concentrated too much
authority in a single individual.


Discussion
The current COO was the AFRH CFO for more than 5 years – from October  2002
to March 2008.  For approximately 6 months, he left to work for another
independent organization and then returned to AFRH in September 2008, in the
newly created combined position of Deputy COO/CFO.    Appointed as the COO in
September  2011, the current COO had been also effectively holding the
combined position of Deputy COO/CFO for more than a year.       In addition to
being a weak management control practice, this fueled a perception of too much
authority in a single individual.

Some functional chiefs have complained that their professional opinions often
do not get due consideration because of too much authority vested in the top
executive.  They also complained that external consultants are brought in to
support the position of the COO.  In one case, the external consultant was
perceived as not qualified to perform the assigned assessment tasks related to
nursing shift duration.

This appeared to be an unacceptable management control practice for a
Government organization because of the lack of checks and balances.      It is
necessary to have a CFO who can have opinions independent of the COO about
important financial issues and procedures.



                                                                            DODIG-2014-093 │ 289
Results – Part O



                 Furthermore, since there was no Deputy COO at AFRH, it was unclear which
                 position or person was identified, trained, and prepared to immediately take
                 over the administration of the agency in the event of sudden absence and/or
                 sudden departure of the COO.             Hiring of a new Deputy COO/CFO (combined
                 position) will reduce the concentration of authority in a single person, create
                 a line of succession in case of emergencies, and could create a more favorable
                 work environment.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 55
                 Armed        Forces    Retirement    Home      Chief   Operating      Officer,    expeditiously
                 fill   the    vacant     position   of   the   Deputy    Chief      Operating      Officer/Chief
                 Financial      Officer    (combined      position)     with     a    highly      qualified    and
                 competent candidate.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The     AFRH      COO      concurred,    commenting      that       the   U.S.     Army      Force
                 Management Support Agency (USAFMSA) Manpower and Organizational analysis
                 recommended elimination of the Deputy COO/CFO position, but supported
                 a CFO position.           A highly qualified and competent CFO has been hired.


                 Our Response
                 Management comments were responsive. No further action required.




290 │ DODIG-2014-093
                                                                                    Results – Part O




Observation 56
Lack of Support for Employee-Oriented Programs

The lower-level staff, particularly the nursing assistants at the AFRH-W facility,
expressed their frustrations about the lack of support from management for
professional recognition, development, and career advancement among other
concerns identified.     Work schedule inflexibility was also cited as an issue.

This happened because AFRH management had not developed or implemented an
effective professional development program and employee recognition program.

This contributed to frustration and low morale among the staff, particularly the
lower‑level nursing assistant staff at the AFRH-W.


Discussion
During employee sensing sessions and subsequent on-site DoD IG confidential
feedback sessions, the nursing staff at the AFRH-W stated that they lacked adequate
support from the administration for their professional development.  According
to staff members, there were little to no employee-oriented programs to assist
them in advancing their careers.  Lack of flexible work schedule was another
highlighted issue.

Details from the AFRH management off-site meeting minutes of August 2012,
indicated that the following employee-oriented programs were in the early stage
of planning at the time of DoD IG inspection:

         •	 tuition assistance plan;

         •	 basic computer skills training;

         •	 assessment of individual training needs;

         •	 training budget;

         •	 flexible schedule opportunity;

         •	 staff wellness program;

         •	 awards and recognition program; and

         •	 availability of meals for staff working extra hours on short notice.

                                                                                   DODIG-2014-093 │ 291
Results – Part O



                 Recommendations
                 Recommendation 56
                 Armed Forces Retirement Home Chief Operating Officer, expedite the
                 development and implementation of an effective professional development/
                 employee      recognition    program      and   an     employee   morale     and   welfare
                 program      (including     the   items   identified    above),   with   a   priority   on
                 lower-level employees.


                 Armed Forces Retirement Home Chief Operating Officer Comments
                 The AFRH COO concurred, commenting that AFRH has established a team to
                 review education and tuition assistance programs for all employees.            Subsidized
                 Toastmasters classes has been offered to employees who wish to attend on the
                 campus.      The Toastmasters Program was a joint program with employees and
                 residents.   The current Incentive Awards program has been implemented at both
                 campuses. Employee of the Quarter and Employee of the Year awards have been
                 established and implemented. Planning for guest speakers on topics of interest to
                 staff is in development.


                 Our Response
                 Management’s comments were responsive. We will request an update on progress
                 at a later date.




292 │ DODIG-2014-093
                                                                                    Results – Part O




Observation 57
Creation of the Agency-Level Ombudsman Position

The AFRH COO created an agency-level Ombudsman position, even though it is not
legislatively mandated.

The agency-level position was created because the AFRH COO believed that
there was a need at the agency level to coordinate resident complaints that were
not resolved at the facility level by the facility Ombudsmen.

This newly proposed GS-14 level position will be consuming funds that are badly
needed to hire competent medical and nursing personnel.


Discussion
During the DoD IG Inspection Team’s interview of the AFRH-W Ombudsman, the
DoD IG Inspection Team was informed that he was also performing the duties
of Acting AFRH Agency Ombudsman.           At the time of the inspection, a PD was
prepared for the AFRH Agency Ombudsman, but the position was not advertised.

The DoD IG Inspection Team has concerns about the creation of the agency‑level
Ombudsman position at a time when the AFRH was not willing to offer the
market salary to external qualified medical and nursing candidates.        The DoD IG
Inspection Team found the AFRH medical and nursing leadership at the AFRH
Agency and AFRH-W to be inadequate (See Observation I.7), many of the
nursing staff were marginally competent, and a number of nursing supervisory
positions were vacant for a significant length of time.  Any available funds
should be first utilized to hire competent medical and nursing personnel by
offering the market salary, instead of hiring an agency-level Ombudsman.

In addition, there are no residents at the agency level and hence no serious
need for an Ombudsman at the agency level.         During the on-site inspections and
subsequent review of resident complaint logs, the DoD IG Inspection Team found
that the two Ombudsmen at the two AFRH facilities were addressing the concerns
of the residents in a timely manner.




                                                                                   DODIG-2014-093 │ 293
Results – Part O



                 The DoD IG Inspection Team has no objection if the current Ombudsman for
                 AFRH-W is also assigned as the lead Ombudsman for handling common issues
                 with the AFRH COO.            However, the DoD IG Inspection Team feels that there
                 are very few common issues involving residents at the two facilities that need
                 to be handled by someone beyond the facility Ombudsman.              Additionally, the
                 AFRH has an IG at the agency level.


                 Recommendations
                 Recommendation 57
                 Armed Forces Retirement Home Chief Operating Officer, cancel and do
                 not fill the proposed agency-level Ombudsman position and utilize the
                 funds towards improving the quality of the medical and nursing care by
                 offering market salary to competent external candidates.


                 AFRH Comments
                 The AFRH COO non-concurred.             He stated that the Ombudsman position was
                 validated by the USAFMSA Manpower and Organizational Review.


                 Our Response
                 We note that the USD (P&R) report on the “Armed Forces Retirement Home
                 Review Board, April 2013, states in the first bullet in the Results section of
                 the Human Resources Section (page 10): “A new Corporate-level Ombudsman
                 is vacant and is being recruited.           The Ombudsman’s duties are focused on
                 resident interaction.        This position was not recommended by the USAFMSA
                 manpower study. With the existence of a campus-level Ombudsman, there appears
                 to    be   limited   value    for   a   corporate-level   Ombudsman.”  We   note   the
                 difference between what AFRH management has said (approved) and what
                 USD (P&R) reported (not recommended) about the Ombudsman position.                  In
                 response to the final report, we ask that the AFRH COO, in coordination with
                 USD (P&R), clarify what USAFMSA recommended about the corporate-level
                 Ombudsman position.




294 │ DODIG-2014-093
                                                                                                        Appendixes




Appendix A
Scope and Methodology
We conducted this assessment from May 15, 2012 to December 16, 2013
in   accordance   with    Quality      Standards       for     Inspection     and   Evaluation.  We
planned and performed the assessment to obtain sufficient and appropriate
evidence to provide a reasonable basis for our observations, conclusions, and
recommendations based on our objectives.  Site visits to the AFRH facilities in
Washington, D.C. and Gulfport, Mississippi were conducted from August 27, 2012
to August 31, 2012 and September 10, 2012 to September 14, 2012, respectively.

We reviewed documents such as Federal laws and regulations, including:

        •	 Subtitle F, Title 5, Public Law 112-81, “National Defense Authorization
           Act for FY 2012,” December 11, 2012,

        •	 Section 411-424, Chapter 10, title 24, United States Code; as amended,

        •	 Department of Defense Instruction 1000.28 “Armed Forces Retirement
           Home,” February 1, 2010,

        •	 all applicable AFRH Agency directives and associated regulations,
           Standard Operating Procedures (SOPs) of the agency and the facilities,
           and other locally developed implementing guidelines,

        •	 Section 3512, title 31, United States Code; “Executive agency accounting
           and other financial management reports and plans,”

        •	 Title 5, United States Code,

        •	 Title III, Public Law 107-347, E Government Act 2002 (aka title 48,
           United States Code of Federal Regulations)

                  {{   National     Institute     of     Standards     and     Technology,   Special
                       Publications 800-53, Revision 3,

        •	 Section     3541,   title   44,      United       States   Code,   Federal   Information
           Security Management Act of 2002 as amended,

        •	 Department of Defense Instruction 1332.18,

        •	 DoD Instruction, 8500.1, 8500.2,




                                                                                                  DODIG-2014-093 │ 295
Appendixes



                              •	 Office of Management and Budget Circular A-123, December 21, 2004,

                              •	 Army regulations, and

                              •	 VA/DOD CPGs.

                 The purpose of this project was to conduct a comprehensive inspection
                 of    all     aspects    of    each      facility   of   the    AFRH   to    determine   compliance
                 with        applicable      laws   and     regulations     as   per    the   requirements   of   the
                 Section 1518 of the Armed Forces Retirement Home Act of 1991, as amended by
                 Section 566, Public Law 112-81, “National Defense Authorization Act for FY 2012.”

                 The following areas were within the scope of this project:

                              •	 elements of Long Term care including: medical, nursing, dental, pharmacy,
                                 independent living operations,

                              •	 Senior Management including the overall administration and management
                                 of the AFRH,

                              •	 Human Resources Management,

                              •	 Financial Management,

                              •	 AFRH IG,

                              •	 Admissions and Eligibility,

                              •	 Facilities Engineering and Safety,

                              •	 IA,

                              •	 Resident Recreation Services,

                              •	 Contracts Management,

                              •	 Security,

                              •	 Estate Matters and Disposition of Effects,

                              •	 responses derived from employee sensing sessions and confidential feedback
                                 sessions, and

                              •	 responses/actions taken on previous inspection recommendations.




296 │ DODIG-2014-093
                                                                                                     Appendixes



The following areas were outside the scope of this project:

        •	 The Voting Program, included in the 2009 DoD IG AFRH inspection.

We visited or contacted:

        •	 Tricare Management Activity, Arlington, Virginia,

        •	 Armed Forces Retirement Home, Washington, D.C.,

        •	 Armed Forces Retirement Home, Gulfport, Mississippi,

        •	 Department of Treasury, Bureau of Public Debt, Parkersburg, West
           Virginia, and

        •	 National Business Center, Herndon-Reston, Virginia.

The DoD IG Inspection team chronology was:

        May – August 2012.....................................Research

        August – September 2012.......................Fieldwork

        October – December 15, 2014...............Analysis and report writing

        December 16, 2013.....................................Draft assessment report issued

        April 25 – June 20, 2014	������������������������ Management comments received and 	
                                                             evaluated

        July 23, 2014..................................................Final Report Issued


Limitations
We had no limitations in our review of the operations of the AFRH and its
governing statutes and organizations.  


Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.




                                                                                               DODIG-2014-093 │ 297
Appendixes



                 Use of Technical Assistance
                 We     received    assistance    from    the      Technical   Assessment       Division
                 (TAD).  Personnel from the TAD provided us with technical expertise that
                 allowed us to conduct the inspection of AFRH’s IT and security system(s),
                 and the safety of each AFRH facility and assess AFRH’s compliance with
                 Federal and industry standards and regulations.


                 Prior Coverage
                 GAO
                 Report No. GAO-07-790R, “Armed Forces Retirement Home,”
                 May 30, 2007.  Unrestricted GAO reports can be accessed over the Internet at
                 http://www.gao.gov.  

                 DoD IG
                 Report N. IE-2010-002, “Inspection of the Armed Forces Retirement Home,”
                 February 25, 2010.  Unrestricted DoD IG reports can be accessed at
                 http://www.dodig.mil/pubs/index.cfm.




298 │ DODIG-2014-093
                                       Appendixes




Appendix B
Inspection Announcement Letter




                                 DODIG-2014-093 │ 299
Appendixes



                 Inspection Announcement Letter (cont’d)




300 │ DODIG-2014-093
                                                     Appendixes




Appendix C
Department of Defense Inspector General/Army
Medical Command Memorandum of Understanding




                                               DODIG-2014-093 │ 301
Appendixes



                 Department of Defense Inspector General/
                 Army Medical Command Memorandum of
                 Understanding (cont’d)




302 │ DODIG-2014-093
                                                 Appendixes



Department of Defense Inspector General/
Army Medical Command Memorandum of
Understanding (cont’d)




                                           DODIG-2014-093 │ 303
Appendixes




                 Appendix D
                 Inspection Input from the AFRH Advisory Council Chair,
                 AFRH-W RAC Chair and AFRH-G RAC Chair




304 │ DODIG-2014-093
                                                           Appendixes



Inspection Input from the AFRH Advisory Council Chair,
AFRH-W RAC Chair and AFRH-G RAC Chair(cont’d)




                                                     DODIG-2014-093 │ 305
Appendixes



                 Inspection Input from the AFRH Advisory Council Chair,
                 AFRH-W RAC Chair and AFRH-G RAC Chair




306 │ DODIG-2014-093
                                                           Appendixes




Appendix E
Armed Forces Retirement Home Organizational Charts
Figure E.1 Armed Forces Retirement Home External
Stakeholders (Selected)
                    Organizational Chart
                  Current as of June 10, 2013




                                                     DODIG-2014-093 │ 307
Appendixes



                 Armed Forces Retirement Home Organizational
                 Charts (cont’d)
                 Figure E.2 Armed Forces Retirement Home – Agency
                                     Organizational Chart
                                  Current as of March 21, 2013




308 │ DODIG-2014-093
                                                                               Appendixes



Armed Forces Retirement Home Organizational
Charts (cont’d)
Figure E.3 Facility Administration Personnel
   Facility Administration Personnel and Their Functional Counterparts
                        at the Agency Headquarters
                       Current as of January 3, 2013




                                                                         DODIG-2014-093 │ 309
Appendixes



                 Armed Forces Retirement Home Organizational
                 Charts (cont’d)
                 Figure E.4 Healthcare Administration Personnel
                   Organizational Chart Depicting Personnel in Healthcare Administration at
                                     the Armed Forces Retirement Home
                                        Current as of January 4, 2012




310 │ DODIG-2014-093
                                                                                                       Appendixes




Appendix F
DoD OIG Inspection Team Medical Evaluators
The Colonel (O-6) physician assigned by the Army Medical Command to the
DoD IG     Inspection     team       as    the   medical   Subject      Matter   Expert      (SME)
had    extensive      expertise   in      geriatric   medicine    and    familiarity    with    the
AFRH.  At the time of inspection, she had 24 years of experience in military
medicine and was the Army Internal Medicine Physician Representative to
the Department of Defense Pharmacy and Therapeutics Committee.  She was
certified in the area of Geriatric Medicine by the American Board of Internal
Medicine in 1992, and in 1995 she became a Fellow of the American College
of Physicians. In 1994, she also became a member of the American College of
Physician Executives.  In 1992, she received the Robert H. Moser Award for
Excellence in Internal Medicine from the United States Army Office of the
Surgeon General.  She was the Co-Chair of the VA/DoD Evidence-Based Practice
Working Group for 5 years (from July 2007 through May 2012).

The other military medical evaluator was a Lieutenant Colonel (O–5) nurse in
the Army Medical Command. At the time of inspection, she was the Assistant
Chief Nurse at the 28th Combat Support Hospital, Fort Bragg, NC.  She had
20 years of experience in the military in various capacities. She has been certified
as a Nurse Practitioner by the American Nurses Credentialing Center Board
since 2004.  She is also a member of the following professional organizations  –
American Academy of Nurse Practitioners, American Academy of Ambulatory
Care Nursing, National Association of Clinical Nurse Specialists, and Sigma Theta
Tau International Honor Society of Nursing.  She has a Master of Science degree
in Nursing (2003) and a Master of Health Administration degree (1998).                       She is
licensed as an RN in Texas and Colorado.

The professional judgment of the two medical SMEs assigned to the DoD IG
Inspection Team was a key factor in evaluating the medical operations at the
AFRH.  The O–6          physician is the lead author of this report’s medical section.
In    addition   to    identifying     non-compliance      with   existing   laws      and     AFRH
internal requirements (directives, notices, policies, and SOPs), she also used her
experience, knowledge, and professional judgment to identify shortcomings in
comparison to the industry best practices.




                                                                                                 DODIG-2014-093 │ 311
Appendixes




                 Appendix G
                 Draft and Final Report Observations and
                 Recommendations Referencing
                 Table D.1 Draft Report Observations Numbering Matched with the Final Report
                 Observations Numbering

                       Old Observations   New Observations      Old Observations    New Observations
                          Numbering         Numbering              Numbering          Numbering
                             A.1                 1                    H.1                  31
                             A.2                 2                    H.2                  32
                             A.3                 3                   H.3.a                 33
                             A.4                 4                   H.3.b                 34
                             A.5                 5                    H.4                  35
                             A.6                 6                    H.5                  36
                             A.7                 7                    I.1                  37
                             A.8                 8                    I.2                  38
                             A.9                 9                    I.3                  39
                            A.10                10                    I.4                  40
                            A.11                11                    I.5                  41
                            A.12                12                    I.6                  42
                            A.13                13                    I.7                  43
                            A.14                14                    J.1                  44
                             B.1                15                    J.2                  45
                             B.2                16                    K.2                  46
                             C.1                17                    K.2                  47
                             C.2                18                    K.3                  48
                             D.1                19                    L.1                  49
                             D.2                20                    O.1                  50
                             E.1                21                    O.2                  51
                             E.2                22                    O.3                  52
                             E.3                23                    O.4                  53
                             F.1                24                    O.5                  54
                             F.2                25                    O.6                  55
                             F.3                26                    O.7                  56
                             F.4                27                    O.8                  57
                             F.5                28
                             F.6                29
                             G.1                30




312 │ DODIG-2014-093
                                                                                        Appendixes



Table D.2 Draft Report Recommendations Numbering Matched with Final Report
Recommendations Numbering

       Old                 New                    Old                New
  Recommendations     Recommendations        Recommendations    Recommendations
     Numbering           Numbering              Numbering          Numbering

       A.1.a              1.a                    A.11.a              11.a
       A.1.b              1.b(1)                 A.11.b              11.b
       A.1.c              1.b(2)                 A.11.c              11.c
       A.2.a              2.a                    A.11.d              11.d
       A.2.b              2.b(1)                 A.12.a              12.a
       A.2.c              2.b(2)                 A.12.b              12.b
       A.3.a              3.a                    A.12.c              12.c
       A.3.b              3.b                    A.12.d              12.d
       A.3.c              3.c                    A.12.e              12.e
       A.4.a              4.a(1)                 A.12.f              12.f
       A.4.b              4.a(2)                 A.13.a(1)           13.a(1)
       A.4.c              4.b                    A.13.a(2)           13.a(2)
       A.5.a              5.a                    A.13.a(3)           13.a(3)
       A.5.b              5.b                    A.13.a(4)           13.a(4)
       A.5.c              5.c                    A.13.b              13.b
       A.5.d              5.d                    A.13.c              13.c
       A.5.e              5.e                    A.13.d              13.d
       A.6.a              6.a(1)                 A.14.a              14.a
       A.6.b              6.a(2)                 A.14.b              14.b(1)
       A.6.c              6.a(3)                 A.14.c              14.b(2)
       A.6.d              6.b                    A.14.d              14.b(3)
       A.7.a              7.a                    A.14.e              14.b(4)
       A.7.b              7.b(1)                 A.14.f              14.b(5)
       A.7.c              7.b(2)                 B.1                 15
       A.8.a              8.a(1)                 B.2.a               16.a
       A.8.b              8.a(2)                 B.2.b               16.b
       A.8.c              8.b                    B.2.c               16.c
       A.9.a              9.a                    B.2.d               16.d
       A.9.b              9.b                    B.2.e               16.e
       A.9.c              9.c                    C.1.a               17.a
       A.10.a             10.a                   C.1.b               17.b
       A.10.b             10.b                   C.2.a               18.a
       A.10.c             10.c                   C.2.b               18.b
       A.10.d             10.d                   C.2.c               18.c




                                                                                  DODIG-2014-093 │ 313
Appendixes



                 Table D.2 Draft Report Recommendations Numbering Matched with Final Report
                 Recommendations Numbering (cont’d)


                            Old               New                  Old                New
                       Recommendations   Recommendations      Recommendations    Recommendations
                          Numbering         Numbering            Numbering          Numbering

                           D.1               19                   I.5                 41
                           D.2.a             20.a                 I.6                 42
                           D.2.b             20.b                 I.7.a               43.a
                           E.1               21                   I.7.b               43.b
                           E.2               22                   J.1.a               44.a
                           E.3               23                   J.1.b               44.b
                           F.1               24                   J.2                 45
                           F.2.a             25.a                 K.1.a               46.a
                           F.2.b             25.b                 K.1.b               46.b
                           F.2.c             25.c                 K.1.c               46.c
                           F.3               26                   K.2.a               47.a
                           F.4.a             27.a                 K.2.b(1)            47.b(1)
                           F.4.b             27.b                 K.2.b(2)            47.b(2)
                           F.5               28                   K.2.c               47.c
                           F.6               29                   K.2.d               47.d
                           G.1.a             30.a                 K.2.e               47.e
                           G.1.b(1)          30.b(1)              K.3.a               48.a
                           G.1.b(2)          30.b(2)              K.3.b               48.b
                           G.1.b(3)          30.b(3)              K.3.c               48.c
                           G.1.b(4)          30.b(4)              L.1.a               49.a
                           G.1.b(5)          30.b(5)              L.1.b               49.b
                           G.1.b(6)          30.b(6)              L.1.c               49.c
                           G.1.b(7)          30.b(7)              O.1                 50
                           H.1               31                   O.2.a               51.a
                           H.2               32                   O.2.b               51.b
                           H.3.a             33                   O.3                 52
                           H.3.b             34                   O.4.a               53.a
                           H.4.a             35.a                 O.4.b               53.b
                           H.4.b             35.b                 O.5.a               54.a
                           H.5               36                   O.5.b               54.b
                           I.1               37                   O.5.c               54.c
                           I.2               38                   O.6                 55
                           I.3               39                   O.7                 56
                           I.4               40                   O.8                 57




314 │ DODIG-2014-093
                                 Management Comments




Management Comments
Assistant Secretary of Defense




                                      DODIG-2014-093 │ 315
Management Comments



                 Assistant Secretary of Defense (cont’d)




316 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 317
Management Comments



                 Assistant Secretary of Defense (cont’d)




318 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 319
Management Comments



                 Assistant Secretary of Defense (cont’d)




320 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 321
Management Comments



                 Assistant Secretary of Defense (cont’d)




322 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 323
Management Comments



                 Assistant Secretary of Defense (cont’d)




324 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 325
Management Comments



                 Assistant Secretary of Defense (cont’d)




326 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 327
Management Comments



                 Assistant Secretary of Defense (cont’d)




328 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 329
Management Comments



                 Assistant Secretary of Defense (cont’d)




330 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 331
Management Comments



                 Assistant Secretary of Defense (cont’d)




332 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 333
Management Comments



                 Assistant Secretary of Defense (cont’d)




334 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 335
Management Comments



                 Assistant Secretary of Defense (cont’d)




336 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 337
Management Comments



                 Assistant Secretary of Defense (cont’d)




338 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 339
Management Comments



                 Assistant Secretary of Defense (cont’d)




340 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 341
Management Comments



                 Assistant Secretary of Defense (cont’d)




342 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 343
Management Comments



                 Assistant Secretary of Defense (cont’d)




344 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 345
Management Comments



                 Assistant Secretary of Defense (cont’d)




346 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 347
Management Comments



                 Assistant Secretary of Defense (cont’d)




348 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 349
Management Comments



                 Assistant Secretary of Defense (cont’d)




350 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 351
Management Comments



                 Assistant Secretary of Defense (cont’d)




352 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 353
Management Comments



                 Assistant Secretary of Defense (cont’d)




354 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 355
Management Comments



                 Assistant Secretary of Defense (cont’d)




356 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 357
Management Comments



                 Assistant Secretary of Defense (cont’d)




358 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 359
Management Comments



                 Assistant Secretary of Defense (cont’d)




360 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 361
Management Comments



                 Assistant Secretary of Defense (cont’d)




362 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 363
Management Comments



                 Assistant Secretary of Defense (cont’d)




364 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 365
Management Comments



                 Assistant Secretary of Defense (cont’d)




366 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 367
Management Comments



                 Assistant Secretary of Defense (cont’d)




368 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 369
Management Comments



                 Assistant Secretary of Defense (cont’d)




370 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 371
Management Comments



                 Assistant Secretary of Defense (cont’d)




372 │ DODIG-2014-093
                                          Management Comments



Assistant Secretary of Defense (cont’d)




                                               DODIG-2014-093 │ 373
                                                                                  Acronyms and Abbreviations




Acronyms and Abbreviations
         ACLS    Advanced Cardiac Life Support
           AFB   Air Force Base
          AFIA   Air Force Inspection Agency
         AFRH    Armed Forces Retirement Home
       AFRH-G    Armed Forces Retirement Home – Gulfport, MS
      AFRH-W     Armed Forces Retirement Home – Washington, D.C.
        AHLTA    Armed Forces Longitudinal Technology Application
        AHRQ     Agency for Healthcare Research and Quality
            AL   Assisted Living
            AR   Army Regulation
      ASD(HA)    Assistant Secretary of Defense (Health Affairs)
          BDP    Bureau of Public Debt
          C&A    Certification and Accreditation
                 Commission on Accreditation of Rehabilitation Facilities/Continuing Care
   CARF/CCAC     Accreditation Commission
          CFO    Chief Financial Officer
           CFR   Code of Federal Regulations
        CHCS     Center for Healthcare Services
          CHS    Chief of Healthcare Services
        CIGIE    Council of Inspectors General on Integrity and Efficiency
         CMO     Chief Medical Officer
          CNA    Certified Nursing Assistant
         COO     Chief Operating Officer
        COOP     Continuity of Operations Plan
          COR    Contracting Officer’s Representative
        COTR     Contracting Officer’s Technical Representative
          CPG    Clinical Practice Guidelines
          CQA    Clinical Quality Assurance
         CTAP    Career Transition Assistance Plan
            DA   Department of the Army
       DEOMI     Defense Equal Opportunity Management Institute
          DFE    Designated Federal Entity
         DHA     Defense Health Agency
         DME     Durable Medical Equipment
          DNS    Domain Name Servers
          DOI    Department of Interior
         DON     Director of Nursing
        DTAR     Department of the Treasury Acquisition Regulation
 DUSD(MC&FP)     Deputy Under Secretary for Military Community and Family Policy
          ECIE   Executive Council on Integrity and Efficiency
          FAR    Federal Acquisition Regulation
          FIPS   Federal Information Processing Standards




                                                                                            DODIG-2014-093 │ 375
Acronyms and Abbreviations




                 Acronyms and Abbreviations (cont’d)
                            FISMA         Federal Information Security Management Act
                              FLRB        Franchise Labor and Relations Branch
                               GAO        Government Accountability Office
                                GSA       General Services Administration
                                 GSS      General Support System
                                  HR      Human Resources
                              HSPD        Homeland Security Presidential Directive
                                    IA    Information Assurance
                                IAW       In Accordance With
                                 IBC      Interior Business Center
                                 IDT      Interdisciplinary Team
                               IGCE       Independent Government Cost Estimate
                                   IG     Inspector General
                                     IL   Independent Living
                                  ILP     Independent Living Plus
                                 INR      International Normalized Ratio
                                    IT    Information Technology
                                LAN       Local Area Network
                                   LE     Law Enforcement
                                LPN       Licensed Practical Nurse
                                  LTC     Long Term Care
                            LTC/AL        Long Term Care/Assisted Living
                          MEDCOM          Army Medical Command
                              MHS         Military Healthcare System
                              MOU         Memorandum of Understanding
                                NAT       Needs Assessment Team
                                NBC       National Business Center
                              NFPA        National Fire Protection Association
                               NIST       National Institute of Standards and Technology
                                  NP      Nurse Practitioner
                             NPDB         National Practitioner Data Bank
                                 OIG      Office of Inspector General
                              OMB         Office of Management and Budget
                              OPM         Office of Personnel Management
                        OUSD (P&R)        Office of Under Secretary of Defense for Personnel and Readiness
                                PAR       Performance and Accountability Report
                                 PCC      Person-Centered Care
                               PCIE       President’s Council on Integrity and Efficiency
                                   PD     Position Description
                       PDUSD (P&R)        Principal Deputy Under Secretary of Defense, Personnel and Readiness
                                    PI    Performance Improvement
                           POA&M          Plan of Actions and Milestones




376 │ DODIG-2014-093
                                                                        Acronyms and Abbreviations




Acronyms and Abbreviations (cont’d)
        POC    Point of Contact
         PRS   Performance Requirement Summary
        PWS    Performance Work Statement
        QAR    Quality Assurance Review
      QASP     Quality Assurance Surveillance Plans
         QM    Quality Management
         RAC   Resident Advisory Committee
        RMS    Resident Monitoring System
          RN   Registered Nurse
       RSVP    Resident Stipend Volunteer Program
       SBAR    Situation, Background, Assessment, Recommendation
        SMA    Senior Medical Advisor
        SME    Subject Matter Expert
         SOP   Standard Operating Procedure
         SPO   Special Plans and Operations
         SSP   System Security Plan
         TAD   Technical Assessment Division
          TB   Tuberculosis
  USAFMSA      United States Army Force Management Support Agency
      U.S.C.   United States Code
  USD (P&R)    Under Secretary of Defense for Personnel and Readiness
          VA   Department of Veterans Affairs
        VoIP   Voice over Internet Protocol
  WRNMMC       Walter Reed National Military Medical Center




                                                                                  DODIG-2014-093 │ 377
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
